<html>
<title> - HEARINGS ON THE INTERIOR COLUMBIA BASIN ECOSYSTEM MANAGEMENT PROJECT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  HEARINGS ON THE INTERIOR COLUMBIA BASIN ECOSYSTEM MANAGEMENT PROJECT

=======================================================================

                                HEARINGS

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               ----------                              

  TUESDAY, MARCH 10, WASHINGTON, DC, AND APRIL 14, NAMPA, IDAHO, 1998

                               ----------                              

                           Serial No. 105-88

                               ----------                              

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 47-765 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Jeff Petrich, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held in Washington, DC, March 10, 1998                        1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     2
    Hill, Hon. Rick, a Representative in Congress from the State 
      of Montana.................................................     2
Statements of witnesses:
    Decker, Charles, Libby, Montana..............................    36
        Prepared statement of....................................    63
    Dombeck, Mike, Chief, Forest Service, Department of 
      Agriculture................................................     4
        Prepared statement of....................................    65
    Hahn, Martha, Idaho State Director, Bureau of Land 
      Management, and Chair, Executive Steering Committee, 
      Interior Columbia Basin Ecosystem Management Project, and 
      Susan Giannettino, Project Director........................     6
        Prepared statement of Ms. Hahn...........................    59
    Haislip, Tom, Senior Project Manager, CH2M Hill, Boise, Idaho    43
        Prepared statement of....................................   113
        Additional material submitted by.........................   165
        Additional material submitted by.........................   529
    Harp, Aaron, Cooperative Extension Rural Sociologist, 
      University of Idaho, Agriculture, Economics and Rural 
      Sociology, Moscow, Idaho...................................    46
        Prepared statement of....................................   132
    Poulson, Mike, Chairman, Environment and Natural Resource 
      Committee, Washington Farm Bureau, Connell, Washington.....    34
        Prepared statement of....................................   105
    Reynolds, Hon. Dennis, Grant County Court, Canyon City, 
      Oregon.....................................................    32
        Prepared statement of....................................    60
    Rimbey, Neil, Extension Range Economist, University of Idaho, 
      Caldwell Research and Extension, Caldwell, Idaho...........    47
        Prepared statement of....................................   132

Additional material supplied:
    Hill, Lawrence W., Director, Forest Policy, Society of 
      American Foresters, prepared statement of..................   156

Hearing held in Nampa, Idaho, April 14, 1998                        165

    Bachman, Cindy, Chairman, Owyhee County FSA..................   221
        Prepared statement of....................................   244
    Bass, Richard, Chairman, Board of County Commissioners, 
      Owyhee County, Idaho.......................................   169
        Prepared statement of....................................   250
        Response to questions by Mrs. Chenoweth..................   504
    Beck, Sharon, President, Oregon Cattle Association...........   213
    Bennett, Donna...............................................   233
    Blaylock, Molly..............................................   226
        Prepared statement of....................................   246
    Bliss, Steve, Chairman, Northwest Timber Workers.............   189
        Prepared statement of....................................   343
        Response to questions by Mrs. Chenoweth..................   494
    Brandau, Connie..............................................   230
    Church, Phil, Co-Chairman, Resource Organization on Timber 
      Supply.....................................................   175
        Prepared statement of....................................   315
        Response to questions by Mrs. Chenoweth..................   502
    Cook, Adena, Public Lands Director, Blue Ribbon Coalition....   174
        Prepared statement of....................................   236
        Response to questions by Mrs. Chenoweth..................   500
    Cuddy, Charles, Representative, Idaho House of 
      Representatives............................................   181
        Prepared statement of....................................   238
        Response to questions by Mrs. Chenoweth..................   506
    Dayley, Thomas, Executive Vice President, Idaho Farm Bureau 
      Federation.................................................   191
        Prepared statement of....................................   355
        Response to questions by Mrs. Chenoweth..................   492
    Dwyer, Tom, Deputy Regional Director, U.S. Fish and Wildlife 
      Service....................................................   201
        Prepared statement of....................................   241
        Response to questions by Mrs. Chenoweth..................   489
    Eiguren, Margene.............................................   219
    Findley, Charles, Deputy Regional Administrator, 
      Environmental Protection Agency............................   205
        Prepared statement of....................................   243
        Response to questions from Mrs. Chenoweth................   486
    Gaar, Elizabeth, Assistant Regional Manager for Habitat 
      Conservation, National Marine Fisheries Service............   203
        Prepared statement of....................................   247
        Response to questions from Mrs. Chenoweth................   483
    Gibson, Chad.................................................   225
        Prepared statement of....................................   468
    Grant, Fred, Nampa, Idaho....................................   180
        Prepared statement of....................................   334
        Response to questions from Mrs. Chenometh................   498
    Hays, John, Oregon Cattle Association........................   222
    Hoagland, Jerry..............................................   232
    Holmberg, Pat, President, The Independent Miners, prepared 
      statement of...............................................   247
    Kelly, Kay...................................................   223
    Larson, Pat..................................................   218
    Liddiard, Ed, President, Treasure Valley Chapter of People 
      for the USA................................................   214
        Prepared statement of....................................   443
        Additional material submitted by.........................   527
        Additional material submitted by.........................   526
    Muse, Robert, Nampa, Idaho, prepared statement of............   475
    Nielsen, Pete, Chairman, Elmore County Republicans...........   216
    Priestley, Frank, President, Idaho Farm Bureau...............   217
    Reimers, Diane...............................................   218
    Skaer, Laura, Executive Director, Northwest Mining 
      Association................................................   176
        Prepared statement of....................................   323
        Additional material submitted by.........................   523
        Response to questions from Mrs. Chenometh................   496
    Shane, John..................................................   228
    Skinner, Robert..............................................   229
        Prepared statement of....................................   246
    Streeter, Jack...............................................   215

Additional material supplied:
    Idaho Farm Bureau Federation, Pocatello, Idaho, prepared 
      statement of...............................................   508
    Bureau of Land Management, Baker Area Office, ``Lower Grande 
      Ronde Subbasin Review''....................................   511



  HEARING ON THE INTERIOR COLUMBIA BASIN ECOSYSTEM MANAGEMENT PROJECT

                              ----------                              


                        TUESDAY, MARCH 10, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1324, Rayburn House Office Building, Hon. Helen Chenoweth 
[chairwoman of the Subcommittee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. [presiding] The Subcommittee on Forests and 
Forest Health will come to order.
    The Subcommittee is meeting today to hear testimony on the 
Interior Columbia Basin Ecosystem Management Project. We have 
heard many concerns about this project in hearings over the 
past 2 years. Now that the public has had the opportunity to 
review the Project's two draft environmental statements, it is 
time to reexamine the objectives, the costs and other concerns 
that have been raised.
    My colleague from Montana, Representative Rick Hill, has 
worked very hard on this. I want to thank you, Congressman 
Hill, for working so diligently on this and with me to plan 
this hearing. In addition to two Administration witnesses, we 
will hear from scientists, local elected officials and citizens 
who have participated in this project since its inception in 
1993 or who have reviewed the project information in great 
detail.
    We have now invested 5 years and some $40 million in a 
project that is not authorized by law and is simply too big to 
work. In April 1997 the GAO reported that the Forest Service 
has not given adequate attention to reducing the costs and time 
of its decisionmaking and improving its ability to deliver what 
is expected or what it has promised.
    Even a 1995 Interagency Task Force chaired by CEQ ``cited 
potential drawbacks of broader-scoped analyses'' like the 
Interior Columbia Basin Ecosystem Management Project. That task 
force expressed concern with the inefficiencies and the 
ineffectiveness in the uses of resources because of the added 
level of NEPA documentation, and it found limited usefulness 
and vulnerability to legal challenges. So why does this 
Administration continue to work on a decision that is not 
authorized by law, leads to greater inefficiencies and has 
limited usefulness?
    I am told that forest managers working in the basin believe 
the plan cannot be implemented due to the top-down constraints 
it would impose, and that the alternatives will not achieve the 
project objectives. For example, the Preferred Alternative 
described in the Draft EIS imposes hundreds of new, vague and 
conflicting management standards on land managers, creating an 
atmosphere of uncertainty and confusion for managers and the 
public alike, leading to excessive and costly delays in 
decisionmaking.
    Even the Project admits that due to the very broad scale of 
the ICBEMP, the impacts of changes imposed on local plans 
cannot be accurately assessed. To use another example, the 
Preferred Alternative proposes to close thousands of miles of 
roads in the Columbia River basin, decreasing access and 
recreational opportunities across the region. Yet there is no 
consideration in the Draft EISs of the economic, cultural or 
recreational damage to surrounding communities by closing 
roads, and there is no factual justification for the closures.
    The National Forest Management Act and the National 
Environmental Policy Act together required the Forest Service 
to prepare land and resource management plans for each unit of 
the National Forest System and to analyze and disclose the 
impacts of any proposed decisions. By all accounts, the ICBEMP 
does not meet these requirements.
    The CEQ Task Force suggested that this type of broad scale 
analysis should be used only as ``guides'' during the agencies' 
decisionmaking processes--it should not result in a one-size-
fits-all decision. We should heed this advice and halt this 
incredible waste of taxpayer's dollars. The Draft EISs note 
that by following traditional land management practices, ``many 
ecological conditions and trends have improved over the past 
two decades.''
    If that is the case, as I believe it is, then the current 
management plans must be working, and there appears to be no 
clear ecological reason to require a single, basin-wide 
decision. Instead of funding completion of the Columbia Basin 
project, Congress should direct the agencies to forward the 
vast scientific information that has been collected to local 
National Forest and BLM District Managers so that they may use 
it where it can best be applied--at the local forest and 
district level.
    The chairman now recognizes Mr. Faleomavaega, if you would 
like to contribute an opening statement.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Madam Chairman, thank you. I do not have 
an opening statement, but I would like to request unanimous 
consent at the point of time that our Ranking Member will 
submit a statement for the record.
    Mrs. Chenoweth. Without objection. So ordered.
    Mr. Hill?

STATEMENT OF HON. RICK HILL, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF MONTANA

    Mr. Hill. Thank you, Madam Chairman, and I'd ask unanimous 
consent that I revise or extend my opening statement.
    Mrs. Chenoweth. Without objection.
    Mr. Hill. Madam Chairman, first let me compliment you for 
holding a hearing on this very important issue. This is an 
extremely important matter for the people of western Montana. 
As I travel the State I hear frequently from my constituents 
about their concerns with regard to the Interior Columbia Basin 
Management Plan.
    It is clear to me that the plan, the Draft EIS, and more 
specifically the most recent Report on Economic and Social 
Conditions of Communities still fails to recognize what the 
social and economic impacts will be to the communities of 
western Montana and northern Idaho.
    It is clear that no effort was made in the development of 
this additional analyses to modify or even provide any 
meaningful analyses of the various alternatives in the Draft 
EIS, which tells me that the Forest Service continues to ignore 
the concerns--the economic concerns--of the people who live in 
western Montana and northern Idaho.
    Now particularly with regard to the role of recreation, 
which is given high priority in the Draft EIS but only casually 
analyzed in the most recent report, Madam Chairman, I would 
agree with you. I think there is some valuable science that has 
been developed in this process, but it would be a tragedy for 
the communities and the people who live and work in western 
Montana if this Draft EIS goes to a Record of Decision and 
opposes onerous standards that don't even meet the science and 
would actually inhibit the ability of the Forest Service to 
meet the goals and objectives that are described in the EIS.
    Madam Chairman, again, thank you for holding this hearing 
and hopefully we can flesh out some of these issues today.
    Mrs. Chenoweth. Thank you, Mr. Hill, and the Chair now 
recognizes the first panel. We'd like to call Mike Dombeck, 
Chief of the Forest Service, Department of Agriculture, 
Washington, DC; and Martha Hahn, Idaho State Director, Bureau 
of Land Management, Department of the Interior. Welcome, 
Martha, and I think you will be accompanied by Susan 
Giannettino, Project Director, and if Miss Giannettino is going 
to be giving any kind of testimony, we'd like for all of you to 
take the oath.
    I do want to explain for the record that I intend to place 
all the witnesses under oath. This is a formality of the 
Committee that is meant to assure open and honest discussion 
and should not affect the testimony given by the witnesses. I 
believe all the witnesses were informed of this before 
appearing here today, and they have each been provided a copy 
of the Committee rules, and so if you will rise and raise your 
right hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you, and under the Committee rules, 
witnesses must limit their oral statements to 5 minutes, but 
your entire statement of course, as you know, will appear in 
the record. We will also allow the entire panel to testify 
before questioning the witnesses. The chairman now recognizes 
Chief of the Forest Service, Michael Dombeck.

STATEMENT OF MIKE DOMBECK, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Dombeck. Thank you, Madam Chairman and members of the 
Committee. Thank you for the opportunity to discuss the 
Interior Columbia Basin Ecosystem Management Project. I am very 
pleased to be sharing this panel with Martha Hahn from Boise 
who is Chair of the Executive Steering Committee and with Susan 
Giannettino, also from Boise, who heads the implementation of 
the Project there.
    I believe the Project is the best management tool to create 
a common vision for the long-term management of the Interior 
Columbia Basin. I believe the Project is a wise investment in 
the future of the Basin, and that we will complete this effort, 
and let me explain why.
    As directed by the President, the Forest Service, and BLM 
are developing a scientifically sound and ecosystem-based 
strategy for the management of the ``East Side forests.'' We 
are responding to several broad scale issues, including forest 
and rangeland ecosystem health listings and potential listings 
under the Endangered Species Act, economies of rural 
communities and treaty and trust responsibilities to Native 
American Tribes in the Project.
    The Project Area encompasses 24 percent of the National 
Forest Service System and 10 percent of BLM-administered lands 
in the Nation. Approximately 72 million acres of lands managed 
by the Forest Service and BLM are addressed by the management 
decisions that will result from the plan. A scientific 
assessment including all lands within the Interior Columbia 
Basin was published last year.
    Two key factors shaped this Project:

    First, issues such as ecosystem health and anadromous fish 
populations could not be efficiently and effectively addressed 
in independent Land and Resource Management Plans. Judge Dwyer 
stated in a rule that, and I quote, ``Given the current 
condition of the forest, there is no way the agencies could 
comply with the environmental laws without planning on an 
ecosystem basis,'' closed quote.
    Second key factor that shaped the project, land managers 
must work together to assure that management of public land 
base provides the maximum benefits to public lands. And as we 
move forward the Executive Steering was developed to manage the 
project and is composed of BLM State Directors, Regional 
Directors of the National Marine Fisheries Service, the U.S. 
Fish and Wildlife Service, the Environmental Protection Agency, 
Forest Service Research Station Directors and Regional 
Foresters.
    And I do not envy them of their task and believe that they 
deserve our greatest appreciation and respect. They're working 
hard to balance the needs of seven states, 100 counties, 22 
tribes, partners, interest groups, and individuals with a 
statutory responsibilities of five Federal agencies regarding 
management of the 72 million acres of public lands.
    Despite its complexities, I believe that this planning 
effort is the best opportunity to develop a consistent 
framework for public land management and to respond to critical 
issues facing the interior Columbia Basin.
    Completion of the Project decisions, including Plan 
amendments, will significantly improve our situation and 
appeals and lawsuits in response to the need to restore and 
maintain long-term ecosystem health and support to economic and 
social needs of the people in the Project area. The decisions 
will lay out a broad scale condition needed to assure 
sustainable populations of species, to provide a framework for 
future management, and to create consistency regarding broad 
scale issues, creating a better expectation for goods and 
services.
    I believe that one of the most important things the Project 
will do is share with leaders of all agencies involved in a 
planning effort. We are committed to facilitating this planning 
effort in a manner consistent with the Administration's 
objectives within the President's budget priorities.
    My colleagues, the directors of other agencies, and I stand 
together in our support for this effort, and national-regional 
resources have been committed to the completion of this 
project, with interagency teams here in Washington, DC 
assisting the Project by providing policy coordination, by 
providing budget coordination and congressional coordination.
    You asked us to provide some specific information about the 
project's budget. The President's 1999 budget includes specific 
funding to implement the final EIS and records of decision. 
Funding projections were developed based upon the Draft EIS 
Preferred Alternative and the actual 1999 projects that will be 
developed, consistent with the documented decisions.
    The President's Clean Water Initiative provides $10 million 
in new funds in addition to the $113 million that represents 
the regular Forest Service program for units within the Project 
area.
    In closing, Madam Chairman, I'd like to reinforce my 
commitment to the Interior Columbia Basin Management Project. I 
think that this effort provides the best opportunity to 
maintain long-term ecosystem health in order to support the 
needs of people into the future and protect many of the species 
at risk and the long-term health of the land.
    The Executive Steering Committee members and I remain 
faithful to our promise to work with local communities. I 
believe that the Steering Committee has the knowledge, 
relationship, and resources to complete this planning effort 
successfully. I ask that my full statement be entered into the 
record, Madam Chairman, and that concludes my opening 
statement. Thank you.
    [The prepared statement of Mr. Dombeck may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Dombeck. I'd be interested 
if you could provide for the Committee the cite that you used 
of Judge Dwyer's comments, the case, and the number at a later 
date----
    Mr. Dombeck. Yes, we'll be happy to provide that for the 
record.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very much. It's my pleasure to 
welcome our Director of the Bureau of Land Management from 
Idaho, Martha Hahn.

STATEMENT OF MARTHA HAHN, IDAHO STATE DIRECTOR, BUREAU OF LAND 
 MANAGEMENT, AND CHAIR, EXECUTIVE STEERING COMMITTEE, INTERIOR 
    COLUMBIA BASIN ECOSYSTEM MANAGEMENT PROJECT, AND SUSAN 
                 GIANNETTINO, PROJECT DIRECTOR

    Ms. Hahn. Thank you, Madam Chairman, and members of the 
Subcommittee. I appreciate this opportunity to update the 
Subcommittee on the status of the Interior Columbia Basin 
Ecosystem Management Project. I am Martha Hahn, Idaho State 
Director for the Bureau of Land Management.
    Today I appear before you in my capacity as Chair of the 
Interagency Executive Steering Committee which oversees the 
Project. My comments today stress the importance of the on-the-
ground activities that would be conducted under the Project, 
such as more aggressive weed treatment and stand density 
management. I will begin by addressing cost and funding issues.
    The Interior Columbia Basin Project is a scientifically 
sound and ecosystem-based management strategy for Federally 
managed lands within the east side of the Columbia Basin. By 
the end of fiscal year 1998, the Project will have spent a 
total of approximately $40 million to research and produce the 
Scientific Assessments released in September 1996 and May 1997, 
and the Draft Environmental Impact Statements for the East Side 
of Oregon and Washington and for the Upper Columbia River Basin 
in Idaho and portions of Montana, Wyoming, Utah, and Nevada, 
which were released in May 1997.
    In fiscal year 1998, the BLM and the Forest Service expect 
to spend about $5.7 million on the Project planning activities 
related to the Draft Environmental Impact Statements. These 
activities include holding public meetings, briefing State and 
local governments and Tribal officials, and analyzing public 
comments on the Draft EISs.
    Following the public comment period on the Draft EISs, 
which at its close will have spanned nearly one year, the 
Project team will complete its analysis of all public comments 
and prepare the final EIS and Record of Decision. Public 
comments may result in changes to the EIS, including changes in 
the Preferred Alternative. Previous funding estimates likewise 
may change.
    As the final EIS and Record of Decision are developed, the 
agencies will reassess implementation funding needs and will 
forward these to Congress. Whatever the final decision on the 
ROD, we will implement it to restore long-term ecological 
integrity to the federally managed lands in the Project area.
    We expect implementation costs may first be incurred in 
fiscal year 1999, with full implementation expected in fiscal 
year 2000. In the fiscal year 1999 Budget request, the BLM is 
seeking an increase of $6.8 million for project implementation, 
the Fish and Wildlife Service an additional $1.5 million, and 
the Forest Service an increase of $10 million. This additional 
funding would be used to restore lands in the Basin to healthy 
conditions by combating invasive weeds, improving fish and 
wildlife habitat, and restoring riparian areas.
    The Project's aim is to minimize potential risks that were 
projected by the Scientific Assessment. These would include the 
continued decline of salmon and many other species toward 
endangerment; an increasing threat of wildfires, endangering 
human life and dwellings; insect pest population growth; 
declining rangeland productivity; and non-native weed 
invasions, threatening both native plants and grazing livestock 
health.
    Project funding will be used to reduce the risk of fire, 
insect infestation and disease, and improve aquatic and 
wildlife ecosystem health by thinning dense forest stands, 
completing prescribed burns, initiating integrated weed 
management and restoring riparian areas.
    Some of the funding will be used to complete prerequisite 
work that must precede on the ground restoration, including 
sub-basin reviews and ecosystem analyses at the watershed scale 
that will help to identify priorities and provide the context 
for making decisions at the local level.
    Additionally, we will address backlog work that has been 
known for some time, such as treating weed infestations, 
reducing high fuel building, and improving poor riparian 
conditions.
    Let me turn now to discuss public involvement, which has 
been a cornerstone of the Project. Throughout the planning 
process, the Project team has emphasized collaboration with 
stakeholders in order to facilitate the evaluation of new 
information about socioeconomic and environmental conditions. 
It's taking more time than we had originally estimated, but we 
believe the additional time required to include all interested 
parties in our process is a worthwhile investment.
    Since the beginning of the public comment period in May 
1997, the Executive Steering Committee members and Project 
staff have participated in over 30 public meetings across the 
Basin. More meetings are scheduled to occur before the close of 
the comment period. Last July we produced a satellite 
teleconference which was broadcast to 56 sites in the region. 
Over 700 citizens participated.
    In addition, we have met with the representatives from 
State and local governments, Tribal officials, over 26 
businesses, conservation and civic groups, Federally sanctioned 
advisory groups, and local citizens. The Project team has a 
mailing list of over 8,000 individuals and organizations. It 
sends out a newsletter and maintains an Internet home page 
where the public can find Project documents.
    In part to address issues raised as a result of this 
extensive public involvement, the Project team released last 
week a report, ``Economic and Social Conditions of 
Communities.'' As you may recall, when the Draft EIS's were 
released last May, the Eastside Ecosystem Coalition of Counties 
expressed concerns about the potential social and economic 
effects on small rural communities due to changes in Federal 
land management resulting from the Project.
    On April 21, 1997, Judge Dale White, Chairman of the EECC, 
and I jointly released a letter which stated in part, ``the 
Regional Executives and the EECC have agreed to work together 
between the Draft and Final EISs, particularly on the sections 
related to social and economic effects.''
    Several months later, in Section 323 of the Department of 
Interior and Related Agencies Appropriations Act of 1998 the 
Congress directed the Project to ``analyze economic and social 
conditions, and culture and customs, of the communities at the 
sub-basin level within the Project area and the impacts and the 
alternatives in the Draft EISs would have on those 
communities.''
    Our goal was to produce a report that would meet 
Congressional direction and allow the public to have ``a 
reasonable period of time'' prior to the close of the comment 
period in which to review and comment on this Report in the 
Draft EIS's. The comment period has been extended until May 6, 
1998, to give the public such time.
    The socioeconomic report expands upon information in the 
two Draft EIS's and provides additional data and economic and 
social conditions of communities in the Project area. It 
discusses potential impacts of management alternatives 
presented in the Draft EIS's on communities specializing in 
industries, such as agriculture, wood products manufacturing, 
and mining, for which standardized industry category data were 
available.
    Economic impacts associated with industries that do not 
collect standardized economic data, such as recreation, and 
non-resource-related industries that locate in the region 
because of resource-related amenities, such as high-tech firms, 
are not fully addressed in this report.
    In conclusion, we must manage public lands to provide for 
sustainable populations of plant and animal species on behalf 
of present and future of Americans and we must create a 
sustainable flow of goods and services that can support our 
local communities over the long-term. The members of the 
Executive Steering Committee are committed to achieving these 
goals through the Project. We ask for you support.
    This concludes my statement. I will be glad to answer any 
questions.
    [The prepared statement of Ms. Hahn may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Miss Hahn. And I want to thank 
both the members on the panel for your testimony. I want to 
remind the members that the Committee Rule 3(c) imposes a 5-
minute limit on questions, and, after my questioning, the 
chairman will begin to recognize members for any questions they 
may wish to ask of the witnesses.
    Before I begin my questioning, I do want to submit to the 
record a series of resolutions which came in from western 
counties, from the States of Washington, Idaho, Montana and 
Oregon.
    From the State of Washington: Adams County, Benton County, 
Columbia County, Perry County, Lincoln County, Okanogan County, 
and Pend Oreille County. From Idaho: Bonner County, Elmore 
County, Kootenai County. From Montana: Powell County. From 
Oregon: Wheeler County.
    Generally, what these resolutions have said is they have 
adopted the resolution put forth by the Western Legislative 
Forestry Task Force of the Association of Counties, and 
generally what that task force has stated in this resolution is 
that the Project should be terminated with no Record of 
Decision being approved.
    It says the ecosystem management data developed by the 
Project should be communicated to the BLM District Managers and 
National Forest Supervisors for consideration of public input 
and statutorily scheduled environmental land and resource 
management plan revisions, and the Western Legislative Forestry 
Task Force also strongly supports natural resource planning and 
environmental management featuring site-specific management 
decisions made by local decisionmakers, local citizenry and 
parties directly and personally affected by environmental land 
and resource management decisions.
    So without objection, I'd like to enter this into the 
record.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. I do want to direct my first questions to 
Chief Dombeck. I'd like to ask you, Chief, was the scientific 
assessment in the document and the Preferred Alternative peer 
reviewed?
    Mr. Dombeck. Let me ask Martha Hahn who was closest to the 
Project the details of how it was peer reviewed?
    Ms. Hahn. It actually took place in what's called a double 
blind review, which means that there is a first reviewer who 
reviews it and then a second reviewer, and the blind part has 
to do with--the names are withheld in terms of who the authors 
are and who actually developed the research.
    So it went through--so the second reviewer doesn't know who 
the first reviewer was in terms of the assessment that was done 
on a particular science piece.
    Mrs. Chenoweth. Who were the individuals who did the peer 
review?
    Ms. Hahn. There were quite a handful of reviewers, and I do 
not know all of the names. We can get you a list of all of 
those reviewers.
    Mrs. Chenoweth. All right. How were they chosen?
    Ms. Hahn. I think that they were chosen through the 
universities and processes of whatever issue was at hand, 
whatever the science was behind, and then through the 
universities and other type of science entities those reviewers 
were recommended or identified as specialists in the field.
    Mrs. Chenoweth. All right, so you will provide the 
Committee with the names of the participants in the peer review 
studies.
    Ms. Hahn. Yes, we can provide that.
----------
    ``The science has been double blind peer reviewed. This 
means that the author of a particular paper is anonymous to the 
reviewer, and the reviewer is anonymous to the author. This 
process is managed by a Science Review Board co-chaired by 
Richard Everett and Evelyn Bull. Individuals selected to 
participate on the Science Review Board were individuals 
knowledgeable in resource management and have expertise in 
specific areas. A list of the individuals on the Science Review 
Board is attached.
    ``The Science Review Board established a process of double 
blind peer review, where the autonomy of both the authors and 
the reviewers is maintained. Even after the process is 
complete, the autonomy and anonymity of the peer reviewers is 
maintained. The Interior Columbia Basin Project, and the 
Science Advisory Group (SAG) does not have information on the 
individual scientists who reviewed documents. This process of 
peer review is a standard protocol for the review of scientific 
information prior to publication in scientific journals.''

    Mrs. Chenoweth. Were the Draft EISs peer reviewed?
    Ms. Hahn. The Draft EIS's are being reviewed right now in 
the public arena. So all review is taking place right now in 
this 1-year time period.
    Mrs. Chenoweth. We've gotten word that they aren't being 
peer reviewed. You are certain that they are being reviewed 
right now?
    Ms. Hahn. They're out for comment right now and can be 
reviewed, yes. They are available for that.
    Mrs. Chenoweth. OK. They're out for public comment or peer 
review?
    Ms. Hahn. The EIS's are out for public comment and can be 
reviewed, yes.
    Mrs. Chenoweth. OK. Have you directed peer review studies 
on the Draft EISs?
    Ms. Hahn. I am not certain what you mean by peer review for 
EIS's. Do you mean it in terms of the scientists reviewing 
EIS's?
    Mrs. Chenoweth. In terms of the scientific credibility.
    Ms. Hahn. Those, on the EIS's, as far as--they're out for 
review for anyone who has a desire to review and comment on 
those.
----------

    Science Review Board Members--Interior Columbia Basin Ecosystem 
                           Management Project


                  Name                          Journal/Specialty


Dr. R. Burdge                            Society and Natural Resources/
Dr. F. Ebel                              Journal of Forestry/
                                          Silviculturist
Dr. A Ewert                              Society and Natural Resources/
                                          Sociologist
Dr. S. Fishe                             Ecological Society of America/
                                          Stream Ecology
Dr. A. Gonzales-Caban                    Northwest Science/Economics
Dr. B. Halverson                         Society and Natural Resources/
                                          Landscape Management
Dr. A. Hansen                            Canadian Journal of Forest
                                          Research/Landscape Ecology
Dr. B. Hyde                              Forest Science/Economics
Dr. R. Jarvis                            Journal of Wildlife/Wildlife
Dr. P. Johnson                           Journal of Range Management/
                                          Range
Dr. N. Johnson                           Journal of Forestry/
                                          Silviculturist
Dr. B. Krueger                           Journal of Range Management/
                                          Range
Dr. B. Lee                               Forestry Related Social Issues/
                                          Journal of Forestry
Dr. J. MacMahon                          Ecological Applications/
                                          Community Ecologist
Dr. E. Meslow                            Journal of Wildlife/Wildlife
Dr. D. Scott                             Soil Science Society/Soils
                                          Scientist
Dr. T. Sharik                            Journal of Forestry/
                                          Silviculturist
Dr. F. Utter                             American Fisheries Society/
                                          Fisheries
Dr. P. Zedler                            Ecological Society of America/
                                          Forest Ecologist


    Mrs. Chenoweth. Mr. Dombeck, could you tell me what role 
have the Forest Supervisors played in this, compared to the 
Project leaders?
    Mr. Dombeck. Again the Forest Supervisors have been and 
will continue to be a close part of this process, and from the 
standpoint of providing information from the standpoint of 
keeping abreast with what the various aspects of the project--
for example, when I was in Orafino last July I sat in with Jim 
Caswell on one of the broadcasts that was broadcast throughout 
the Basin--as one of the efforts to continually keep the public 
informed and involved in the project but also as a way to keep 
Forest Service employees and Forest Supervisors involved in 
continually knowing the various steps we were at and obtaining 
their input.
    Mrs. Chenoweth. My concern is not specifically about Mr. 
Caswell but all of our Forest Supervisors that--were they in on 
the development of standards and alternatives and selections of 
the Preferred Alternatives, not just advice after the fact? 
Have they been active participants?
    Mr. Dombeck. Yes, I believe they have.
    Ms. Hahn. Yes, actually we had several different settings 
with not only Forest Supervisors but other local decisionmakers 
such as area managers and the Bureau of Land Management 
District Managers in which alternatives, standards and 
objectives were discussed and then went through in terms of 
their opinions on which would be a Preferred Alternative that 
would be selected, that they would like to see selected, as 
going out in the Draft.
    Mrs. Chenoweth. My question to both of you on this, and 
thank you both for answering it, is prompted because I have 
heard a lot of concerns by both of your land managers who 
believe the Project can't be implemented. And these are very 
wide and numerous concerns.
    How are these concerns being addressed? Would you both mind 
answering?
    Mr. Dombeck. Well let me say that the challenges that we're 
faced with in the Columbia Basin are significant, and what we 
have is we have a process here through the Project to gather 
the most up-to-date information to get the broadest public 
comment and to include employees in probably one of the more--
one of the more if not the most comprehensive manner that we've 
done in addressing an issue like this because the challenges, 
the risks for injunction and the fact is when we're dealing 
with landscape issues like we are dealing with in the Columbia 
Basin, where we are talking about endangered species and 
anadromous fish, cumulative effects and water quality--and the 
more and better information we can get, as we move forward, the 
more effective we will be.
    However, I want to point out that there's always dialog and 
debate as we move forward in any issue because many of these 
challenges are not clear-cut--we wish they were--but we feel 
the most effective way of getting input is by--and every 
employee, every Forest Supervisor has the opportunity to be 
involved and as Martha has described, has been involved in the 
many, many aspects of the Project.
    Mrs. Chenoweth. Miss Hahn.
    Ms. Hahn. Yes I'll speak specifically for Idaho BLM because 
that's what I am most familiar with in terms of my process. The 
managers have been brought together several times previous to 
the release of the Draft, as well as during the release of the 
Draft, in which we've sat down and talked about areas of the 
Preferred Alternative that we feel could have some change to it 
or would have better wording and so forth. And we've gone 
through that type of dialogue together.
    In fact, when I return to Idaho next week we will be 
working on further discussions and how we can make that work 
well for Idaho BLM and those land managers.
    Mrs. Chenoweth. I see my time is up, and I may want to 
return for more questioning. Miss Giannettino, did you have 
anything that you would like to add?
    Ms. Giannettino. Not at this time, Madam Chairman.
    Mrs. Chenoweth. Thank you. Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. Mr. Dombeck, have you 
read the--I guess I would call it an indictment of the Interior 
Columbia Basin Ecosystem Management Project by Mr. Thomas 
Haislip? Have you read his testimony for this hearing and his 
comments with regard to ICBEMP?
    Mr. Dombeck. I am not sure I am familiar with the specific 
document. I have read lots of testimonials, both for and 
against.
    Mr. Hill. I'd just like to ask you a few questions that he 
raises in his testimony. I wish--perhaps if the testimony had 
come in a different order, it might be a little easier to go 
through this process, but basically his recommendation is--and 
incidentally this is the recommendation that I'm hearing from 
people who are on the ground in Montana, people who 
incidentally who work for you, who will speak privately about 
this but are concerned about speaking publicly.
    He states that if you go forward of the Record of Decision 
based upon anything similar to the Preferred Alternative that 
you recommend, that we are going to have greater conflict, not 
less conflict, and that we are going to make it more difficult 
to reach the goals and purposes of what we set out to do in the 
beginning.
    And he suggests this: He says there are two options before 
us. One is to completely rewrite the Draft EIS and publish 
supplements, and that would be necessary in order for this 
document to be legally sufficient, to be able to pass muster.
    The second option would be to simply not go to a Record of 
Decision. Abandon the idea of implementing top-down standards, 
and just move forward using the science that we have to develop 
individual forest management plans.
    Would you comment on those recommendations and whether or 
not you are considering either of those two alternatives, and 
if so, who is going to make the decision in terms of 
considering those two alternative ideas?
    Mr. Dombeck. Let me state to your last question that our 
position has been and will continue to be that the decisions 
need to be made within the region by the Regional Executives, 
of which Martha is the current Chair of that group.
    Mr. Hill. Could you identify for me who those people are?
    Mr. Dombeck. There are 11 members of the Executive 
Committee, and Martha is the Chair. Why don't I ask Martha to. 
I might leave somebody out.
    Ms. Hahn. This is a quiz on names for me. We have the State 
Directors in BLM, which would be myself, Elaine Zielinski from 
Oregon-Washington, Larry Hamilton from Montana. We represent 
the concerns and interests of the other State Directors for 
Wyoming, Utah and Nevada.
    There are the three Regional Foresters. There's Dale 
Bosworth, and I don't remember the region numbers, so you'll 
have to help me on that part; Bob Williams, Pacific Northwest, 
and Jack Blackwell in the Ogden area.
    Then there are two Station Directors for the Forest 
Service, and that's Denver Burns and Tom Mills. And then there 
is the Regional Director for Fish and Wildlife Service. Right 
now it's an Acting--Tom Dwyer--and for Environmental Protection 
Agency they also have an Acting--is Chuck Finley, and National 
Marine Fisheries is Will Stelle.
    Mr. Hill. And this group will make the decision on whether 
to move forward with the Record of Decision, whether to move 
forward or not?
    Mr. Dombeck. That's correct.
    Mr. Hill. And then also if we need to go back and start 
over the Draft EIS, this group would make that decision?
    Mr. Dombeck. They're responsible for the decisionmaking of 
where the Project goes, the analyses of the comments and moving 
into final, yes sir.
    Mr. Hill. And this group would be empowered to make the 
decision to not move to a Record of Decision, if that was how 
they felt?
    Mr. Dombeck. I believe so. Yes.
    Mr. Hill. OK. So let me go forward then. I guess it would 
be better if they were here than you perhaps then if they are 
the ones that are going to be making the decision with regard 
to that.
    Let me just go through some of the comments that Mr. 
Haislip makes, and I would ask you if you could respond to them 
specifically.
    First, he talks about the identification of forests require 
and priority treatments, and he says, ``the key feature of a 
forest ecosystem assessment should be to identify the types and 
locations of forests needing various types of treatments or 
prescriptions.
    For example, the standard structures that offer the 
greatest opportunities for forest ecosystem health risks 
reduction appear to be dense intermediate aged forests with 
multiple canopy layers in the high and medium risk categories. 
These are forest structures that could provide the basic 
components for producing the older forest structures that are 
stated to be in relatively short supply.''
    ``However the DEIS fails to provide sufficient analyses of 
these basic issues and available methods for assessing risks to 
forest health and displaying the risk radiants were not used.'' 
Could you address that? Is that accurate or inaccurate in your 
view?
    Mr. Dombeck. Since I'm not the technical expert on the 
issue, I would defer to technical experts for specifics like 
that, but what I would comment on in general is that the 
important thing is that we have an overarching framework, so 
decisions are not made in isolation with one another, which is 
one of the risks we run by individual units making decisions, 
because we have in part--as I mentioned in my opening statement 
Judge Dwyer's comment--but to achieve the greatest efficiencies 
in prioritizing projects, in spending money, in prioritizing 
the sequence of projects, this is best done, I believe, under 
an overarching framework that we have here produced by the 
Project.
    Mr. Hill. In essence, that's what you're saying? You're 
saying we'll ignore what the situation is in any individual 
forest and in any individual area of the forest, but we'll 
adopt some general standards, and that's going to produce a 
healthier forest. Is that what you are saying?
    Mr. Dombeck. No. I don't believe it is. I think what I am 
saying is that the individual projects and individual forest 
health situations--watershed health--are nested, you know, as 
part of a larger framework in the condition of the landscape.
    Mr. Hill. Do you believe in the gathering of data for this 
Draft Environmental Impact Statement, that that was 
accomplished through what you've just described, which is 
nesting local data and then developing a larger picture because 
I will say to you that that is exactly the opposite of what the 
people in the local forests in Montana are telling me?
    They're telling me that this data may be fairly accurate in 
the general terms, but it is off by a matter of several factors 
on a local forest-by-forest basis.
    Ms. Hahn. Sir, the EIS does provide a broad framework for 
the desired, what they call ``potential vegetative groups,'' 
that we would like to see over time throughout the Interior 
Columbia Basin. Each alternative approaches that somewhat 
differently, but each alternative has a description for broad 
forest types and the seral stages of vegetation that would be 
desired.
    That provides an integration and a broad picture of the 
vegetative condition and the forest composition that would be 
desired over time by alternative. Then each forest or each BLM 
District would work within that framework at their local 
planning level through their forest plan and then through 
project planning to actually do the site-specific 
implementation that makes the vegetation move in the direction 
that this broad direction states.
    It's no problem using broad scale information to provide 
broad scale framing of direction. The forests will use local 
data to develop the specific projects that translate that broad 
direction into actual happenings on the ground.
    Mr. Hill. So in other words, this is going from general to 
specific rather than going from specific to general? Is that 
correct?
    Ms. Hahn. Within the context of the EIS the data is broad 
scale. It is general as is appropriate for something that 
covers 72 million acres.
    Mr. Hill. Thank you, Madam Chairman. I will have another 
group of questions.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman. I would like 
to offer again my personal welcome to Director Dombeck here 
this morning and his associates. So that I may somewhat be 
descriptive of what we are trying to explore here this morning, 
and I don't know for want of a better way of pronouncing this 
acronym. Is it ICBEMP? How do you pronounce it? Is that the 
best way I can pronounce it? ICBEMP?
    Mr. Dombeck. I think that will do.
    Mr. Faleomavaega. Columbia Basin. OK.
    Mr. Dombeck. We get so familiar with acronyms. Maybe we're 
talking about it too much.
    Mr. Faleomavaega. I guess the concern that my friends here 
and the majority have is that since President Clinton announced 
this project in 1993--this is 1998--we've expended $40 million 
in the project; but it seems that you're running ahead, and the 
Congress is still waiting for this report or whatever it is, 
through the Environmental Impact Statement, which is in a draft 
form, and yet we're--you see the concern that seems to be 
ringing here.
    And I just wanted to ask some questions along these lines 
because there is some legitimate concern in terms of--we're 
talking about 144 million acres involving some 4 or 5 states. I 
mean a tremendous undertaking. Involvement of some five Federal 
agencies. I mean this is a significant undertaking.
    For those of us who sit here on the Committee, it becomes 
very difficult. Of course, you know, every year we pass an 
annual budget of about $1.6 trillion. Fiscal year 1999 alone, 
the Forest Service budget is about $2.5 billion, but here we're 
talking about a $40 million expenditure over a 6-year period, 
and yet we still haven't heard a sense of finality of where 
this project is, nor received the bottom line so that we can 
then make a decision on this side of the downtown scale, if you 
will.
    So, I don't know if this is where things just seem to be 
running, but I do have just a couple of questions. I suspect 
that more than anyone, Miss Hahn, you probably have absolutely 
the experience since when this project first started in 1993, 
and you've held--what? 900 hearings or meetings, town meetings, 
and not just with the State of Idaho--you've done it in 
Washington, you've done in Oregon, you've done it in Wyoming. I 
suspect also in Utah as well. Is Utah involved?
    So here you're doing a hearing process that we're doing 
here too, and I guess for a sense of not wanting to duplicate 
efforts in the sense that maybe the Federal agency--just give 
us the bottom line. Where are we? You've included the 
scientists. You've included development issues. You've included 
the ecosystem environmental issues. You've included 
conservation measures. So, you know, put them all in a pot. 
It's a mess.
    And so what we're trying to define exactly is where are we 
going. And I think--I am just trying to give you this sense of 
perspective, Mr. Dombeck and Miss Hahn, and maybe you could 
help me with this.
    You have in your report here, for example, Economic and 
Social Conditions of Communities, issued this year, in fact 
last month. Is this part of the Draft EIS report that is being 
discussed now this morning?
    Ms. Hahn. Yes, it is.
    Mr. Faleomavaega. OK, and you have here on page 5, for 
example, you were looking at the factor like what is the jobs 
involvement, and you have here this circle that says if you're 
to look at the whole basin, this 144-million acre project that 
you've undertaken now for 5 or 6 years, you're looking at the 
timber and ranching industry--you're talking only about 4 
percent jobs involvement in this, and the rest of other in 
terms of the impact is 96 percent. Can you explain that, Miss 
Hahn?
    Ms. Hahn. Yes, I will attempt to.
    Mr. Faleomavaega. I mean, it's an interesting 
configuration.
    Ms. Hahn. When we started out, we were looking at the broad 
scale. Before doing this, we needed more step down analysis, 
that's the type of indication we got. Once we stepped down and 
started looking at counties and then communities, we recognized 
that the 4 percent becomes a very critical factor when it 
becomes almost 100 percent for a small community.
    And so that's the type of information that was brought out 
in this report that you are referring to here. It starts to 
recognize that in a broad scale that can be masked, but in a 
real specific scale it can become very important for a small 
community.
    Mr. Faleomavaega. My time is limited I know, but if I 
represent a rural area that 4 percent means a lot to me. So I 
think there may be some further explanation needed of this 
statistic because it could be misleading. That 4 percent of 
employees would mean a lot to me if I were to represent a rural 
district because it could be that 4 percent of the employment 
provides hundreds of jobs or thousands of jobs when you talk 
about the trickling effect, the impact that the timber, the 
mining industry could have in other job-related industries.
    So I want to get a better clarification of that, Miss Hahn.
    Ms. Hahn. And that's exactly what this report begins to get 
into--originally in looking at that broad scale, 4 percent is 
what came up, but then once you look through the report you'll 
see how significant that 4 percent is. Like I said, for example 
in one community it may be 100 percent, and that's brought out 
in this report.
    Mr. Faleomavaega. OK, and here's my problem. If I come from 
a rural district, and I do. My district is so rural you 
wouldn't even find it on the map. It's a small little speck out 
there somewhere in the Pacific Ocean, but I have 300 million 
lobsters; 100,000 sharks, you know all kinds of stuff like 
that.
    Now I notice for the President's fiscal year 1999 Budget 
you're adding $10 million, $73 million for green timber, $18 
million for a station, $8 million for fuel treatment and fire 
expenditures. Now these $10 million, this is part of the fiscal 
year 1999 Budget I notice in Mr. Dombeck's statement.
    Now were these proposals in the President's Budget based on 
the recommendations of the EIS statement panel group?
    Mr. Dombeck. Let me say that the $113 million is the 
natural resources part of the base program or the Columbia 
Basin, and the--in fact this represents 24 percent of the land 
base managed by the National Forest System. The $10 million is 
part of the President's Clean Water Initiative and those----
    Mr. Faleomavaega. I don't question what you've got on your 
statement, Mr. Dombeck, but the point I am making is that this 
is after a result of conducting a series of a thousand meetings 
among the four states for the last 6 years. Am I correct that 
this is the result of this?
    Mr. Dombeck. Yes, but the important thing is that the 
decision has not been made. The Record of Decision has not been 
signed. We're basing some of the projections that we're making 
on the Preferred Alternative, but as Martha indicated, the 
public comment period is still open. So this is at this point a 
project in progress.
    Mr. Faleomavaega. See my preference would be is that the 
President makes an announcement, ``I am going to do this 
project study, 1 year or 2 years,'' then you bring back the 
final results of that project study, let us look at it so we 
can hold hearings in Idaho, in Washington and whatever it is, 
but it seems that we're reversing the process.
    You're holding the town meetings, you're going out there at 
the concerns of some of the members who represent those 
districts and those constituencies, and they're getting 
conflicting messages. And the message you're giving us here is 
quite different from what they're hearing from their 
constituents.
    So I think this is a concern that we're having here. So the 
bottom line question I have: When are we getting a final report 
on this, after expending $40 million in a 5- or 6-year period 
that this project has been ongoing, as it was announced by the 
President since 1993?
    Mr. Dombeck. The largest proportion and let me ask Martha 
of the expenditure to date has been for the science. Is that 
correct?
    Ms. Hahn. Yes, 55 percent.
    Mr. Dombeck. Fifty-five percent has been for the science. 
The remainder has been for the public involvement process, the 
NEPA process that we would normally go through, and again the 
key point is: The decision will be made at the time the Record 
of Decision is signed.
    Mr. Faleomavaega. I feel bad about it because the Forest 
Service isn't the only agency involved. You've got the BLM, 
you've got the EPA, but the fact is that the President has made 
this decision administratively without any Congressional 
mandate, no enactment, no law whatsoever, but we've expended 
$40 million of the taxpayer's money on this project, and I just 
think that there's got to be some sense of finality at one 
point in time.
    So that give us what you found out, and then we'll do our 
job and see if it takes another $73 million to do this and that 
or whatever. I don't know. Maybe I'm wrong, but I sense the 
concern that my colleagues seem to have on this issue.
    My time is over, Madam Chairman. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Faleomavaega, and we will 
return for another round of questioning if you would like.
    I would like to ask both Mr. Dombeck and Miss Hahn, what 
law authorizes this new level of decisionmaking?
    Mr. Dombeck. The National Environmental Policy Act and the 
National Forest Management Act are the framework under which we 
move forward with our planning processes.
    Mrs. Chenoweth. Could you consult with your attorneys here 
and ask them the specific cite of the NEPA?
    Mr. Dombeck. I am not sure any attorneys here, but we'd 
be--we'll get back to you very quickly with a specific citation 
and a response and an interpretation of that, yes.
    Mrs. Chenoweth. Because as I read both of those laws, I 
don't see it at all, but I would be interested knowing what 
their and your thoughts are. Miss Hahn.
    Ms. Hahn. It would be FLPMA.
    Mrs. Chenoweth. It would be FLPMA. Under what section?
    Ms. Hahn. I'd have to get you that citation.
----------
    Section 202 of the 1976 Federal Land Policy Management Act 
(FLPMA) sets out the requirements for the development and 
revision of land use plans for the public lands. Since current 
land management plans were completed, new information on 
natural resource issues such as forest health, rangeland 
health, and listed and candidate species has surfaced. Section 
201(a) of FLPMA requires Federal land managers to deal with 
significant new information and incorporate it into natural 
resource management. Also, Federal agencies are required to 
identify and disclose the environmental effects of any proposed 
activity on Federal land. Specifically, NEPA requires Federal 
agencies to identify and consider the direct, indirect, and 
cumulative effects of activities on Federal land. The impacts 
of these activities must be examined both singly and in 
conjunction with the activities of other agencies and 
landowners.

    Mrs. Chenoweth. Could you do that please? Do you have 
anything new to add? Anything additional? OK. Now, we're moving 
on ICBEMP to a single Record of Decision and the EIS. Is the 
decision appealable?
    Ms. Hahn. Yes it is.
    Mrs. Chenoweth. Do you believe it is?
    Mr. Dombeck. I believe so, yes.
    Mrs. Chenoweth. Under what process is this one decision 
appealable? Forest Service or BLM's processes?
    Ms. Hahn. Both processes will be considered, so they will 
be melded together in terms of the opportunities that exist 
under both processes.
    Mrs. Chenoweth. They'll be melded together. Do you have 
anything to add, Chief?
    Mr. Dombeck. No I don't.
    Mrs. Chenoweth. All right, do you believe then that this 
can be litigated?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Under the melding together of the processes 
of appeal?
    Ms. Hahn. In the melding together of those processes, both 
processes will be considered or used so they can either be 
litigated under the Forest Service process or the Bureau of 
Land Management process.
    Mrs. Chenoweth. And it's your opinion that there's a clear, 
bright line to enable people to appeal these decisions?
    Mr. Dombeck. Yes, in fact the process of appealing and the 
process of litigation are essentially separate processes. 
Typically the appeal process would follow first, whereby the 
appeal would be made to the next level of decisionmaking 
authority in the agency, which in the case if this is made by 
the Regional Executives then the Chief's Office would be the 
next of decisionmaking that would occur.
    And if the appellant is not satisfied with the resolution 
then of course it can go to litigation.
    Mrs. Chenoweth. Chief, you understand my concern, I am 
sure, that this is one single Record of Decision. We are having 
the processes that normally people could appeal a BLM decision 
through the BLM processes or Forest Service through the Forest 
Service processes. They're multiple agencies and their 
processes are being melded together, and it's not addressed in 
the Administrative Procedures Act.
    And so even if a Forest Service decision is made that is 
appealable, we'd still have to refer it to other agencies. Our 
concern is that it would take forever to get through the 
appeals process. Don't you think we have a legitimate concern 
about that?
    Mr. Dombeck. Well, what I would do is I would be happy to 
provide a legal opinion to the Committee on those concerns.
    Mrs. Chenoweth. All right, I'd appreciate that. Will the 
plan be implemented during an appeal if an appeal is filed?
    Mr. Dombeck. There is typically an appeal period. In this 
case would it be 90 days? There would be a 90-day appeal.
    Mrs. Chenoweth. Would that hold up the implementation of 
the plan?
    Mr. Dombeck. I believe the Record of Decision, the appeal 
period starts when the Record of Decision is signed, and at 
that point--let me ask one of the staff the specific point as 
to where the implementation begins--at the Record of Decision 
or the--it starts with the Record of Decision. I have my 
planning expert here.
    Mrs. Chenoweth. My concern is what the impact will be if we 
find ourselves in litigation, and everything is halted by the 
courts, everything, in a multi-state area. So will your people 
please address that, and also I'd like it if they would 
address: How does the agency or the ecosystem benefit by this 
result of having absolutely everything stopped in all of the 
agencies?
    So with that I will recognize Mr. Hill for the next round 
of questioning.
    Mr. Hill. Thank you, Madam Chairman. I want to go back to 
this issue that I was discussing earlier, and that is that in 
my reading of the Draft EIS and my more recent reading of the 
material I was delivered I think last Friday on the update on 
the Economic and Social Conditions of Communities.
    Again this all seems to be generalized data. This was an 
effort I think to get a little more community-specific, but 
it's still very generalized data. I think you would agree with 
that, wouldn't you, Chief Dombeck?
    Mr. Dombeck. Yes.
    Mr. Hill. And so the whole idea of this study is to be 
general in the development of the Draft EIS with the idea, as I 
understand it, that would be more specifically applied within 
each forest management plan that would be updated. That's the 
scheme here is that is contemplated. Would you agree with that?
    Mr. Dombeck. Yes, it provides an overarching framework; 
however I do believe--and I read the socioeconomic analyses 
just recently myself--and where we have information with 
regards to job sectors and so on, it does get into some 
specifics there that I believe will greatly a decisionmaker in 
looking at what specific sectors are important to a community.
    Mr. Hill. Which decisionmaker are you referring to when you 
say ``decisionmaker''?
    Mr. Dombeck. I am referring to our local field managers.
    Mr. Hill. The individual forest managers?
    Mr. Dombeck. Yes.
    Mr. Hill. Is it your view that the social and economic 
issues should be an integrated part of the Draft EIS and 
integrated part of the various alternatives?
    Mr. Dombeck. I would--I guess I am not sure what you mean 
what integrated. I think it's very important information to be 
considered in the----
    Mr. Hill. Well in the development of alternatives under the 
Draft EIS there are a number of factors that you have to take 
into consideration. Is it your view that the social and 
economic factors ought to be integrated into the alternatives? 
Or do you believe that you simply have to assess the impacts, 
the social and economic impacts, on the various alternatives in 
the Draft EIS and in the final Record of Decision?
    Mr. Dombeck. Well again, from a matter of semantics I think 
that we need to use the most and best information we can get in 
arriving at the conclusions.
    Mr. Hill. This isn't semantics. This is substantial, and 
it's very significant on whether or not the social and economic 
considerations are built into the EIS and into the 
alternatives, or you simply draft alternatives and then do an 
assessment of what those impacts will be on the economy and the 
culture of those communities.
    That is substantially different. Do you see the difference 
that I'm trying to----
    Mr. Dombeck. Yes, I believe so.
    Mr. Hill. And so which of those do you believe is your 
responsibility under the Federal Land Management Act and under 
NEPA? Do you believe that those considerations need to be an 
integrated part or do you believe that it's just your 
responsibility to assess the impacts?
    Ms. Hahn. In this project we have integrated it into the 
Purpose and Needs statement as well as the development of the 
alternatives, and you'll see in Alternative Four, which is the 
Preferred Alternative, I think is a good example of how the 
economic portion of it is actually what's driving a lot of the 
balance between having the sustainable type of output over the 
long-term in relation to the issues at hand.
    Mr. Hill. More specifically, do you believe that the social 
and economic considerations are an integrated part of the 
proposed alternatives under the Draft EIS or not?
    Ms. Hahn. I think that they have been integrated into the 
alternatives, yes.
    Mr. Hill. So then why did you do the Supplemental Economic 
and Social Study?
    Ms. Hahn. The integration was at the broad scale level in 
which we're talking about.
    Mr. Hill. So we were general rather than specific with 
regard to economic and social impacts again, correct?
    Ms. Hahn. To look at the broad scale area and then we did 
what I termed a step down process, going from that broad scale 
to the county level, then to the community level in this newly 
released publication.
    Mr. Hill. And did you then revise any of the alternatives 
in the Draft EIS based upon this more specific data?
    Ms. Hahn. We analyzed how that would affect it and found 
that the alternatives, the assessment--or the analyses of the 
alternatives do not change specifically, that those changes are 
going to occur more at the project level.
    Mr. Hill. So, what--I want to be real clear here because 
this is a real important issue as far as I am concerned. Is 
that what you found then would you say that in analyzing this 
data on a more specific basis, that you did not have to change 
any of the alternatives in the Draft EIS as a consequence of 
what those impacts might be on those individual communities?
    Ms. Hahn. The Draft Alternatives, those alternatives in 
their draft situation then will--that analyses--will be placed 
against those as we move into a final decision. As far as 
impact analyses, that did not change.
    Mr. Hill. My judgment, having read all of these documents, 
on more than one occasion, you did some kind of generalized 
impact analysis on individual communities, but in terms of the 
impacts of the various alternatives of EIS I mean casual 
statements like ``Alternative One would cause a slight increase 
of impacts on wood products,'' or et cetera. And I am not 
quoting exact from the document.
    There is no analyses. There is no data here in terms of 
what that will do to those individual communities with regards 
to jobs, with regard to recreational opportunities. I saw none 
in this report, and I mean it--I will say to you that it looks 
to me as though this was an effort to address the criticism 
that has arisen from those communities in as general a way as 
you could.
    And the reason for that is, is that if you take this 
proposed Record of Decision, this proposed alternative, and you 
start translating it into the impacts it's going to have on 
individual communities and individual forests, it would 
frighten the people in those communities if you told them the 
truth.
    And so what this is an effort to do is to generalize that 
impact, generalize that analyses, rather than to tell the 
people what is really going to happen to their communities, and 
I hope that you don't consider this a delivering on the 
instructions that Congress gave you with regard to analyses of 
impacts because this doesn't even come close to what Congress 
was asking you to do.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman. I just wanted 
to clear up a couple of questions that I had asked earlier. 
Let's say that President Clinton never made an announcement in 
1993 to set up this project. What would have happened if we had 
maintained the status quo?
    Mr. Dombeck. We would likely have been shut down on 
projects and actions in many areas. There would be a high level 
of instability. We would not have a good ability to predict a 
variety of projects, the goods and services that might come out 
of the whole area, the Columbia Basin.
    Mr. Faleomavaega. As an example even this year, what would 
have happened to the funds that are being requested for this 
fiscal year Budget? Would that have an impact?
    Mr. Dombeck. Are you saying would the----
    Mr. Faleomavaega. Yes, I mean the recommendations, the 
President's recommendations for this fiscal year alone would 
not have come about if it had not been for the recommendations 
by the Project.
    Mr. Dombeck. Well certainly the findings, the science and 
so on, helped us determine what the greatest needs were.
    Mr. Faleomavaega. I guess one of the questions I have too 
is the time factor involvement here of the projects. Since the 
President's announcement in 1993 to set up this interagency 
group working on these specific issues, when did this thing 
really take off? When did these Federal agencies actually 
become actively involved in doing whatever the mandate is that 
the President wanted since 1993. Miss Hahn, can you help me 
with that?
    Ms. Hahn. Specifically it began in January 1994, and so 
after the President made his announcement, which was based on 
the Everett Report and other information coming about in terms 
of the Northwest issues, then we began in 1994.
    Mr. Faleomavaega. So since 1994 it has been a collective 
recommendation from these 4 or 5 agencies involved, that has 
been part of the President's basic policy decisionmaking as it 
is translated into the budget that this is how we've done the 
budgetary process for the last maybe 3 or 4 fiscal years.
    In other words, if you had been doing this since 1994, 
after a 6-month's study you make recommendations. That 
recommendation then becomes a basic Administration policy 
decision. That policy decision then is translated into--or 
integrated into--the budget process as part of the President's 
proposed budget.
    Am I correct in saying that this has been going on now for 
3 or 4 years since this interagency group was founded?
    Mr. Dombeck. Let me say on your first point, about 
gathering data for a 6-month period and on certain types of 
projects, I think that kind of example, it could possibly be, 
but the thing that's important with the Columbia Basin that as 
we analyze this project, which I think is very, very important 
that we do; and I too have been very concerned about the cost, 
but if we--we also need to step back and think about where we 
found ourselves in the early 1990's when we started dealing 
with this issue.
    And let me just mention a few points of where we found 
ourselves----
    Mr. Faleomavaega. Please.
    Mr. Dombeck. [continuing] the agencies and the people that 
lived in the Columbia Basin----
    Mr. Faleomavaega. That's what I wanted to ask you 
initially: Where were we then and where would we be now without 
this project starting in 1993?
    Mr. Dombeck. Well where we found ourselves is a situation 
where wildfires--we were beginning to have wildfires or were 
having wildfires of unprecedented intensity and size. We were 
dealing with damaging noxious weeds issues across the 
rangelands. We were concerned about wildlife habitats. Rural 
communities could no longer depend upon a predictable flow of 
wood, of other goods and services from the public lands.
    We found ourselves in a situation where these natural 
resources, the issues were being debated. We found ourselves in 
a situation where expectations had changed. We found ourselves 
in a situation where we were facing serious endangered species 
problems and in a situation where we were near injunction and 
gridlock on many, many projects.
    And the important thing to realize is this is an effort to 
move out of that situation, to move into a situation of greater 
predictability and stability based upon the best science and 
knowledge that we can have.
    Mr. Faleomavaega. Well maybe you can help me this way, Mr. 
Dombeck. Give me, and I would like to ask for the record, a 
mini economic impact statement. Our investment of $40 million 
to this project for the last 5 years has also saved the 
taxpayer's money. How much would have been prevented? For all 
the good things that you're explaining, at least substantively, 
what would have been the savings to the taxpayer.
    The fact that we've invested $40 million--sure the report 
is not final yet--but how much really has this been a plus for 
the American taxpayer? I think I would appreciate some kind of 
an analysis on that, if a question is helpful.
    Mr. Dombeck. Let me say under a normal planning process for 
the Forest Service, and Martha can speak for BLM if she wishes, 
we would typically invest $3 to $4 million per plan or 
revision, and it would normally take about a 4-year timeframe 
to do that, and we have 31 forest plans.
    So if you multiply the 31 times $3 to $4 million you have a 
significant amount of money involved in what we believe is that 
by having this framework--and I might add the best science that 
would be applied to any of the planning that we have done in 
the Forest Service to date I believe is coming out of the 
Columbia Basin, that we will get a substantially better product 
as a result of that and a greater probability of dealing with 
the endangered species issues, being able to strengthen our 
position in court as we move forward in implementing the 
results of the Project and all projects.
    Mr. Faleomavaega. If you don't get the $124 million the 
President is requesting for fiscal year 1999 Budget, what 
happens?
    Mr. Dombeck. Well, first of all let me say that of the $113 
million that's--a portion of that, that's part of the base 
program. It's part of the Natural Resources Programs of those 
National Forests. For example, about $70 million of that is for 
our forest management, timber harvest, salvage, other programs 
like that.
    It's part of the--that support the grazing on the public 
lands, the recreation opportunities, other kinds of 
opportunities and services that we provide. So it's part of the 
core program.
    Mr. Faleomavaega. Thank you, Madam Chairman.
    Mr. Hill. I thank the gentleman, and I will go out of 
order, and I'll ask a round of questions again. Again I want to 
go back to this issue with regard to general and specific.
    There are some analyses, Chief, that most of the 
alternatives propose that between 20 and 40 percent of the 
forests would be allowed to naturally burn each year as part of 
the prescribed burning effort in this plan. Would you agree 
with that or would you disagree with that?
    Mr. Dombeck. Well, I'd say I'm not prepared to talk about 
specifics; however, let me ask Martha or Susan to correct me if 
I'm wrong. I'm assuming that prescribed fire is and that fire 
is part of the natural system, and that where we would do 
prescribed burning, that would be integrated with other kinds 
of treatments. That could be thinning; it could be timber 
harvest; it could be other kinds of mechanical treatments. In a 
typical inner-mountain situation, we would go ahead and 
implement the appropriate tool, whether it's a timber sale, a 
thinning, to get the fuel levels down to the point that we 
could do accrual burn. And, typically, the timeframe for 
something like that is you would go in and do your sale, your 
mechanical treatment, and then anywhere, say from maybe about 3 
to 6 years after that, you would go ahead and do the prescribed 
burn to finally achieve the situation in getting the forest 
health trends in the way you want them.
    Mr. Hill. Many of the areas of the West, and many of the 
communities in western Montana, are having serious difficulty 
complying with the particulate matter standards associated with 
the Clean Air Act today. Could you identify for me what 
analysis was incorporated into the development of these 
alternatives to take into consideration the impacts prescribed 
burning will have on air quality issues in those communities?
    Mr. Dombeck. Let me ask either Martha or Susan to address 
that.
    Ms. Giannettino. Sir, I don't have the specific numbers 
with me, but we did, in the development of the Draft 
Environmental Impact Statement, model, using two or three 
particulate air quality kinds of models, all the alternatives, 
including the Preferred Alternative, which does significantly 
increase the amount of prescribed burning that would occur 
throughout the Project area, and found that in all the 
alternatives we modeled, we were well below the threshold, or 
constraint. Now, I have to say that since the comment period 
opened on these draft EIS's, there has been a change in EPA 
particulate size rule, and we're doing some additional modeling 
during this comment period to make sure that those alternatives 
are still within the threshold of what is acceptable. With the 
prescribed fire we do have the opportunity to time that burning 
better than if it was just a wildfire situation. So that gives 
us a little bit better opportunity to stay within constraints.
    Mr. Hill. Would you characterize those again as general 
rather than specific?
    Ms. Giannettino. Yes, by the nature of the decisions that 
are being made, those, we didn't specify specifically on which 
acres the burns would occur.
    Mr. Hill. Or what communities might be impacted?
    Ms. Giannettino. Only to the extent that certain habitat 
types would be more appropriate for prescribed fire than 
others.
    Mr. Hill. OK. With regard to the recreational impact, and 
recreational considerations, it seems to me that the draft DEIS 
contemplates that there is going to be an increase in demand 
for more primitive types of recreation on the forest. Would you 
agree with that statement, or would you disagree with that 
statement?
    Ms. Giannettino. The increase in demand, I don't believe, 
was specific to certain types of recreation. We simply said 
that demand would increase as a result of population growth in 
the West.
    Mr. Hill. But almost all of the alternatives, in terms of 
what the objections of those alternatives, are, would be to 
increase the amount of forest that would be available for more 
primitive types of recreation, as opposed to motorized 
recreation. Would you agree with that?
    Ms. Giannettino. Some of the alternatives--yes, that's 
true. Some of the alternatives, I don't know that you could say 
that specifically.
    Mr. Hill. Did you do any analysis, any kind of surveying, 
with regard to what kind of demand that is out there in the 
current population, and what they think the recreational needs 
of the forest are going to be? For example, there was just a 
poll published in Montana that indicated over 50 percent of the 
people of Montana think there should be as much, if not more, 
recreational, motorized recreational access. This plan 
certainly doesn't contemplate increased motorized recreational 
access, in my view. Does it in yours?
    Ms. Giannettino. We left the decisions on access management 
to the local managers.
    Mr. Hill. General to specific. The interesting point about 
all that is--and the reason I've asked a lot of questions this, 
it may be my last round of questions, is that I agree with 
you--there should be a general plan. And if it was that, I 
think I could probably be more supportive. The problem is, is 
that in adoption of the standards that are proposed to be 
adopted, it's not so general. As a matter of fact, it's quite 
specific. For example, let's take the riparian area standards. 
Have you done any, have you made any maps available on the 
individual forests, other than the Kootenai Forests, with 
regard to how the adoption of those riparian area standards 
would impact future management of the forests, and if so, could 
I get copies of those maps for the other forests in Montana?
    Mr. Dombeck. Yes, if they are available.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Have they been done, Chief Dombeck?
    Mr. Dombeck. I'm not sure.
    Ms. Giannettino. No, they have not, and the Kootenai ones 
simply took a very broad-brush approach, assuming more general 
application then would actually happen on the ground where the 
local manager would tailor the standard to the local situation.
    Mr. Hill. Who prepared the Kootenai maps? Were those maps 
prepared by the local forest?
    Ms. Giannettino. Yes, they were, with the Project's 
involvement.
    Mr. Hill. Chief, would you have any objection to the other 
forests preparing similar maps, for citizens to review?
    Mr. Dombeck. I can see no reason--I'm not--why don't I 
respond for the record and let me check, and unless Susan has 
an opinion. We can provide you with the information that's 
available.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Well, it goes beyond that, Chief, and that is, 
that I think that one of the things that we have a 
responsibility to do here is to provide communities with as 
much data as we can, and as much information about the impacts 
as we can. And those maps were very, very useful. 
Unfortunately, and it appears to the citizens of Montana as 
though, that the other forests have declined to produce those 
maps because they were so startling in terms of the impacts, 
that it might create negative reaction to the whole management 
plan. I'm hopeful that that's not the strategy of the Forest 
Service, to deny citizens access to quality information.
    I would like you today to say that you're going to direct 
the individual forest supervisors in each of those forests to 
prepare similar maps, to provide that kind of information to 
the communities that are going to be impacted, so that all 
people who use the forest, and are dependent on the forest, can 
have that information. Could you give me that assurance today?
    Mr. Dombeck. We will certainly have that information when 
the--you know, the point I want to make is that the EIS is in 
draft at this point.
    Mr. Hill. All we want to know is what the preferred 
alternative, or even all the alternatives--that would be even 
better yet--if you could prepare maps that would show the 
impacts of the adoption of these standards. Chief, that's the 
problem here. The problem here is that you make the argument 
that this is a generalized approach to providing a road map, if 
you will, a general road map to the development of individual 
forest plans. But then in the adoption of standards, you take 
all the flexibility away from those individual forest 
supervisors.
    If you think that this is going to reduce gridlock in 
forest management, I think you're wrong, because any individual 
forest management plan, or any timber sale or road management 
plan, that was outside the proposed standards in this Record of 
Decision, would be appealed that fast. And that's the problem, 
and so I think that the people of Montana deserve the right to 
know, and if that information is available to the Kootenai 
forests then it ought to be available to the other forests, and 
I think that it ought to be put into a format that the people 
of Montana can understand, which is maps, and I would certainly 
urge you to direct the regional forester in those individual 
forests to make that information available to the people of 
Montana.
    Mr. Dombeck. I will get back with my staff on that and make 
a determination as to--and we'll deliver the best, the most 
detailed information we can.
    Mr. Hill. Thank you.
    Mrs. Chenoweth. Thank you, and the Chair recognizes Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman. I only have 
two-and-a-half more questions, if I could.
    Just to help me out, Mr. Dombeck, the scientific study task 
force that is part of the project has made an assessment with 
reference to roadless areas, I think basically to the effect 
that the conditions are OK ecologically; it has met scientific 
standards. I'm not a scientist. Can you help us with that? What 
does this mean, that it's OK?
    I notice that Governor Kitzhaber of Oregon seems to offer 
some common-sense advice about let's not talk about the 
controversial aspects of what you're looking into, but look 
into more practical solutions, related situations. In fact, 
even suggested here, in terms of the short run, avoid operating 
in roadless areas near fish habitat and old growth areas. Can 
you reconcile this report, Ms. Hahn, if there's any 
contradiction in this about the----
    Mr. Dombeck. Well, let me start out by saying I believe 
where we're headed, and where we need to be headed 
philosophically, is to integrate timber harvest, integrate all 
of the tools that we need to achieve the condition that we 
want.
    Mr. Faleomavaega. And I want to say for the record, Mr. 
Dombeck, it's really unfortunate that it's only your agency 
that is represented here in the hearing, because we don't have 
the benefit of hearing from BLM and their problems, because 
you're looking at this as, you know, as a total--I'm sorry, 
Martha. You're with the BLM. It sounds like you're forestry to 
me.
    Ms. Hahn. I'm representing the----
    Mr. Faleomavaega. OK, I'm sorry. I thought you wore two 
hats. OK, go ahead. I'm sorry, I didn't mean to----
    Mr. Dombeck. So, with that as a context, we need to 
integrate all of the tools available to arrive at a desired 
future condition. In fact, and I believe a lot of the 
controversy that we have been in, and the topic of many 
hearings, and we will continue to work through this as to make 
sure that we understand that we need to be arriving at a 
condition and integrate fuel treatment, a fire management, the 
urban wild land interface to get the fiber where we can in a 
more integrated manner. But, then, that's one part of the 
philosophy.
    The second part of it you mention as the importance of 
roadless area, or low road density areas, and let me say that 
some of the most thorough science that we have associated with 
roadless areas has come out of this project--that about 60 
percent of the best aquatic habitats are within, found in 
roadless or low road density areas.
    Another interesting statistic that we have from this is 
that about 87 percent of the acres with high potential for 
fire, particularly crown fires, insect disease problems, other 
mortality, are within already roaded areas, and we have a 
tremendous amount of work that we need to get on with in these 
areas.
    And I think this project helps us move forward with the, 
knowing that we've got to make investments in land, and none of 
us are happy with the conditions that are out there that I 
indicated in the earlier round of questioning and some of the 
challenges that we face. But I do believe we have the 
technologies to be able to move forward, and in an integrated 
way, to active management.
    Mr. Faleomavaega. I want to share with you a statement 
issued by this gentlemen, which I think it's very interesting, 
and I certainly would like your comment of this, and I'd like 
to quote the statement. ``The Federal agencies' preferred 
alternative for managing Federal lands in the Columbia Basin 
does not present a sound, science-based management strategy. 
Most important, it does not adequately protect the region's 
remaining old-growth forests, roadless areas, and stream 
habits. It does not ensure wildlife liability as required by 
law. It calls for excessive amounts of logging and grazing. It 
presents a skewed economic analysis that ignores the changing 
role of public lands in the region's economy, and moreover, the 
draft environmental impact statement fails to present any 
alternative that fairly represents the views of the 
environmental community. Instead, it presents the public with a 
false choice of active versus passive management.''
    This is a statement by Mr. Michael Anderson, Senior 
Resource Analysis of the Wilderness Society. Can you comment on 
that?
    Mr. Dombeck. Well, what I would say is the project focuses 
on habitat, on water quality, on moving forward through active 
management and achieving the objectives set forth, and, I would 
rather not speculate on individual projects, but there are 
situations where you would have various projects implemented. 
There are other situations where you might not. But the focus 
that we need to look at is the outcome that we want to achieve.
    Mr. Faleomavaega. So it's your feeling that the 
administration is carrying out a balanced view between 
development and ecosystem, the environment. Everything is being 
held on an equal basis. Does that seem to be your best opinion 
and response to this statement?
    Mr. Dombeck. Yes.
    Mr. Faleomavaega. This gentleman is saying, ``you're not 
doing your job. Environmentally it's way off the bat.'' But 
you're saying, ``No, this is not true.'' You're doing a better 
job than what this gentlemen is observing, his observation.
    Mr. Dombeck. Well, I think we've got a good balanced, 
science-based approach.
    Mr. Faleomavaega. Thank you, Madam Chairman. Thank you, Mr. 
Dombeck.
    Mrs. Chenoweth. Thank you, and the chairman will take her 
third round of questioning, and then we'll move on to the 
second panel.
    Congressman Hill was asking some very interesting questions 
about maps, and the impact by definition of the riparian zone. 
If, indeed, in the Record of Decision or in the final EIS, by 
definition a riparian zone takes into consideration certain 
setbacks of several hundred feet, from even intermittent 
streams, as well as flowing streams, that could mean every 
little potential rivulet, intermittent streams and so forth.
    So, by definition, one of the reasons we're most concerned 
about having the map show the impact is that virtually from 
ridgetop to ridgetop, where there is an intermittent stream, it 
could be locked up in riparian zones. So that's why it's 
important to us to receive the maps that will clearly delineate 
the definition of riparian, and I really think that public 
comment should not even be considered, really, until we have 
the maps in hand, so people will know what they're commenting 
on in terms of the definition of riparian.
    So, I join Congressman Hill, as Committee chairman, in 
urging that the maps be turned into the Committee, and also 
made available to the public as soon as possible.
    Any further comment?
    Mr. Dombeck. No.
    Mrs. Chenoweth. All right. And my final round of 
questioning involves how this was financed. Of course, we have 
allocated $40 million from the Congress, but more funds than 
that have been expended because in testimony that this 
Committee has received, funds have been taken from other agency 
funding allocations and transferred into the project. Are you 
prepared to give to the Committee a dollar amount of the funds 
that have been transferred out of other allocated projects, 
such as grazing, or timber harvesting, or whatever it might be, 
into the project? I think our staff indicated to you I would be 
asking this question.
    Mr. Dombeck. In checking with the regional budget staffs on 
that question, that the primary dollars came from the planning 
dollars, fire management and roads, the planning portions of 
the areas that are most influenced by the activities and the 
outcome of the plan. And let me just ask my budget expert. Is 
that--that's correct. We are not aware of moneys being moved 
without following appropriate guidelines.
    Mrs. Chenoweth. I realize that it may be read that there 
were appropriate guidelines, even within what may be considered 
appropriate guidelines, as set forth by the Congress. It was 
very vague, but I can see where they could read that. And these 
were set forth in 1994, I believe. I'd like to know, for 
instance, how much money that had been allocated to say 
grazing, was allocated to the project, and all other 
categories. So I'm not inferring that something improper was 
done legally. I think that the language was unclear and it 
occurred, Mr. Dombeck.
    Mr. Dombeck. The information that I have indicates that a 
grazing, timber, a watershed program dollars, have not been 
used to fund the project. However, I believe all program areas, 
or most program areas, are also part of the planning process 
that are administered through our planning line items, and, 
what I am told, is that the dollars used for the Columbia Basin 
Project, came from those planning dollars.
    Mrs. Chenoweth. OK. However, they were labeled, we have had 
testimony from agency personnel in the Committee that moneys 
were reallocated after the Congress had allocated them to a 
certain project, and that is what the Committee wishes to see. 
Whether it's planning or what, I mean, there's nothing but 
planning now. So we'd like to see what moneys were moved from 
other projects, and what is the total amount of money that has 
been expended for the planning to date.
    We'd also like to include in that the interagency teams in 
Washington, DC that, Chief, you described in your testimony. 
I'd like to know how many people are working on the ICBEMP here 
in DC, and how much of their time is spent on the ICBEMP.
    Ms. Hahn described the requested funding increases for 
fiscal year 1999 budget. I'd like to know what is the total 
cost of the fiscal year 1999 for the ICBEMP, and how does the 
breakdown by agency and subject area occur?
    I would also like to ask you why in the other projects, the 
Appalachian project, which I think cost maybe $2 million, and 
some of the other projects, have not--I mean, why is this one 
costing so much? Now, the Southern Appalachian Project and, 
where--oh, here we are--yes, the Southern Appalachian project, 
I think, is about $1.9 million, and there are other projects 
involving the Dakotas and the Midwest. Why has so much money 
been expended on this compared to the other projects?
    So, I see my time is up, but if you could prepare an answer 
for the Committee, I would appreciate it very much, and the 
Chair is going to recognize Mr. Hill for further questioning.
    Mr. Hill. Thank you, Madam Chairman.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. And that will be the end of our 
questioning.
    Mr. Hill. Thank you, Madam Chairman.
    I would like to talk a little bit about the riparian 
standard. Is it your view, Chief Dombeck, that the riparian 
area standards should be universally applied throughout the 
region?
    Mr. Dombeck. I'm not personally familiar on a technical 
standpoint from each and every standard, however, let me make a 
statement and then ask Martha to correct me, as I understand, 
or Susan, as I understand, that what the objective of the 
standard is to achieve a particular condition, whether it's 
water quality, reduced--prevent sedimentation--those kinds of 
things. And the activities within those areas, then would be 
governed basically by our ability to do whatever it is that one 
might want to do in that area, or not do, based upon that 
desired, that product we want, is that correct?
    Mr. Hill. I'm talking about the buffer areas that are, the 
buffer area standards, specifically. Do you believe that those 
should be universally applied to the individual forests 
throughout the Interior Columbia Basin, to all the area that is 
included in the study?
    Mr. Dombeck. I believe those buffers would vary, depending 
upon the watersheds and the geology of those kinds of things.
    Mr. Hill. But those standards are set; that's the point, is 
that the proposed standards are already set. And so if you were 
going to manage outside those standards, are you suggesting 
that we could manage outside those standards, or are you saying 
that we would not manage outside those standards?
    Mr. Dombeck. The standard does not preclude management.
    Mr. Hill. OK. There are some folks who, well, the EIS 
suggests that, I think about 24 percent of the forest would be 
restricted through the applications of the riparian standards. 
There are some independent analyses that would indicate that it 
could be as much as 40 to 80 percent in some areas. The 
question that I have is, again going back to the maps that we 
made reference to, I would appreciate it if you would prepare 
those maps using the standards that are suggested in the 
proposed EIS.
    But I guess the next question I have is that, if, in fact, 
those standards would impact a greater area of the forest than 
the 24 percent that is recommended, is it your judgment that we 
should go back then and do an additional analysis on the 
economic and social impacts, and as well as an effort to 
incorporate those particular effects into the various 
alternatives proposed in the draft EIS?
    Mr. Dombeck. I would say that typically if there is a 
significant change, for whatever reason, then that would be 
addressed at some point, and let me ask the planning experts 
where that would occur.
    Ms. Giannettino. If we found through our internal review, 
or through the public review that people are doing right now, 
we would certainly make significant changes between draft and 
final. But if we had inadequately predicted the application of 
those standards, that would certainly be something that would 
have to be corrected. But, I also would caution that the 
standards are specifically written to take into account a lot 
of local variability, so that local managers have flexibility 
to deal with local circumstances.
    Mr. Hill. Substantially, these standards are--part of the 
objective here with this whole management plan is to try to 
gain more predictability, would you say, with regard to 
particularly the consult of process with the Fish and Wildlife 
Service with regard to impacts on endangered species? Is that a 
fair characterization of one of the objectives of doing an 
ecologically, ecology wide management plan? Is that one of the 
outcomes that you anticipate?
    Mr. Dombeck. Yes, I believe so, and let me say that the 
more we can do upfront from the standpoint of consultation and 
our interaction with regulatory agencies, essentially the 
easier our job becomes, and I think we've learned a lot with 
our experiences with the Northwest Forest Plan and our having 
reduced a significant backlog of consultations in that are by 
working up front in more of a parallel process, rather than a 
serial process, and by this I mean where the agency would 
propose a project, go through a significant amount of analysis, 
and then consult with a regulatory agency.
    And we might have three or four outcomes as a result of 
that consultation. One might be that, a typical one, well, 
maybe we have to go back and get some more data, or maybe we 
have to modify the project to mitigate some of the concerns, or 
maybe the project is OK. And by having the regulatory agencies 
up front, as we have in this case, that significantly 
streamlines that process.
    Mr. Hill. Would it be fair to say that substantially the 
standards that are being recommended here are being driven by 
the regulatory agencies, rather than the land managers?
    Ms. Hahn. No, the standards were developed jointly; we've 
all sat in a room for many days and used the information that 
came from the scientists as well as----
    Mr. Hill. The people I talked to in the field tell me that 
these rigid standards are substantially being driven by the 
Fish and Wildlife Service. Is that an accurate or inaccurate 
conclusion?
    Ms. Hahn. They were developed jointly.
    Mr. Hill. Well, I understand they were developed jointly, 
but the drive to adopt standards--is it your view that the land 
managers that are out there on the land want to have these 
standards adopted, or is it your view that it's more being 
driven by the regulatory agencies?
    Ms. Hahn. They were developed together and we, basically, 
put that as a part of----
    Mr. Hill. That's not a responsive answer----
    Ms. Hahn. [continuing] projection.
    Mr. Hill. [continuing] to the question that I asked. I 
guess, perhaps, I'm not going to get a responsive answer to it. 
I can tell you that the people that I talk to out there in the 
field don't believe what you've just stated. At least they 
haven't expressed it to me. I think it's extraordinarily 
unfortunate, Madam Chairman, is that those people that are 
going to have to implement this management plan aren't here, 
and don't have the freedom to be able to express publicly what 
they all express privately with regard to the hazards 
associated with moving forward with the proposed Record of 
Decision and the proposed alternative. It is not going to 
achieve the results that we are setting out to achieve, which 
is less gridlock and better management, and a better 
environment, and a better ecology. As a matter of fact, it will 
do the opposite, in my view, and the view of the people that 
are going to have to implement it.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. And this really is a 
conclusion that I would like to ask Mr. Dombeck and Ms. Hahn, 
if you could submit for the record, where, or even answer, 
where you are with this Sierra Nevada Ecosystem Project, the 
Southern Appalachian Assessment, the Great Lakes, the Ozarks, 
and Ouachita Highlands Ecosystem Plan, and the Northern Great 
Plains. We'd like to know moneys expended on those projects, 
what the timelines are, who's going to be the next ICBEMP, 
where will the focus of the administration be on developing a 
major plan, and any additional ecosystem plan, if you could 
submit that to the record.
    Mr. Dombeck. We'd be happy to.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very much, and I want to thank 
this panel very much for your time, and you are dismissed, but 
I would appreciate your staying to listen to the rest of the 
testimony, if you possibly can.
    And with that, I would like to introduce the second panel. 
The Committee welcomes Judge Dennis Reynolds from Grant County, 
from the Grant County Court in Canyon City, Oregon; Mike 
Poulson, chairman of the Environment and Natural Resources 
Committee of the Washington Farm Bureau, from Connell, 
Washington; and Charlie Decker, from Libby, Montana.
    I wonder, gentlemen, if you would rise and raise your right 
hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you.
    The Chair notes that, in spite of my request, the agency 
personnel did not remain. We will now change the method in 
which we will call agency personnel. We will now call agency 
personnel last.
    We will proceed with the testimony. The Chair recognizes 
Judge Dennis Reynolds.

 STATEMENT OF HON. DENNIS REYNOLDS, GRANT COUNTY COURT, CANYON 
                          CITY, OREGON

    Judge Reynolds. Madam Chairman, it's with great pleasure 
that I appear before you today on this Subcommittee on Forest 
and Forest Health. I guess I'll deviate slightly from the 
previous style.
    I want to admit that I am humbled by the environment that I 
am seated in today. I'm only so pleased to be able to represent 
the citizens of Grant County. My name is Dennis Reynolds, and I 
am the Grant County judge, and I represent approximately 7,950 
people in an area 2,897,920 acres in size. Of that area, 64 
percent of it is federally managed and, unfortunately, that 
7,950 people is 150 people less than it was in the last census.
    In our area, the entire acreage falls within the ICBEMP 
planning area. Our principal industries are forestry, 
livestock, agricultural, and recreation. I first need to 
explain from where I'm coming. I describe myself as a forester 
by education, a sawmill manager by experience, a contract 
logger by choice, and a county judge by means of temporary 
insanity.
    Unemployment in Grant County is another noteworthy element. 
Currently, at 1997, Grant County finished with a whopping 12.5 
percent unemployment, while the State of Oregon was at 5.3. Six 
times in the year 1997 Grant County topped the highest rate of 
unemployment in the State of Oregon. We currently have 3,300 
jobs. Our entire work force includes 3,300 jobs; 2,890 of those 
are jobs associated with non-farm employment, while 410 are 
farm jobs. Forty-one percent, or 1,200 of those jobs, are 
government jobs. Grant County's average annual pay in 1996 was 
$21,831. That's 25 percent less than the national average of 
$28,945. Oregon's, Grant County's is 19 percent less than 
Oregon's average. Grant County, Oregon has been identified by 
the Oregon Economic Development Division as the second most 
likely county to encounter economic collapse in the years to 
come.
    Let it be understood that Grant County shares common goals 
with the Eastside Ecosystem Coalition of Counties. Those goals 
include our desire for vital communities, clean water, clean 
air, healthy forest lands, and a functional Federal County 
relationship. However, we respectfully disagree on how to 
obtain these objectives.
    The ICBEMP, I should remind you, is dealing with 
representation of county associations, not representation from 
counties themselves. Grant County, be assured, has not 
delegated its representative authority to the EECC.
    I should also like to have it recognized that counties are 
not alike. Like ecosystems, they have different needs and 
different desires. A plan that comes down with a multitude of 
objectives and 166 specific standards does not appropriately, 
and can't begin to appropriately, address the needs of 
communities. Nothing in this plan is being done to address the 
high degree of non-resiliency.
    The new social economic study talked about here today is 
not yet in the hands of the counties; it was promised that we 
would receive it this week. But it is my understanding after 
visitation with Judge White in December 1997, that again, Grant 
County's nine incorporated cities have risen to the top of the 
list. That only goes to show that not all counties are the 
same.
    The environments in which we exist are not all the same. 
The question comes to mind, why is the planning process so 
involved with the Endangered Species Act and the National 
Forest Management Act of 1996, while it ignores the Sustained 
Yield Forest Management Act of 1944, that was established to 
provide even flow sustained yield policy for timber harvest 
with focus on community stability? Federal county collaborative 
efforts--Grant County feels that those collaborative efforts 
are in vain. Presidential roadless area moratorium is one 
example; the Governor's enactment of 26 timber sales--he 
endorsed 26; Governor Kitzhaber endorsed 26 timber sales, 
saying they were environmentally sound and should proceed to 
sale. One of the first of those offered is one that's now in 
litigation.
    Also, the Governor of Oregon has proposed the Oregon Plan, 
the plan designed to prevent the listing of the coastal coho 
salmon. Two weeks ago, the National Marine Fisheries Service 
stepped in and demanded additional constraints that jeopardized 
private Forest industry.
    It's been difficult to obtain information. First of all, 
the draft documents were denied to counties specifically. We 
were told maybe the RACs would leak us a copy of information.
    Forest reviews--I was able to obtain two forest reviews, 
the internal documents where the Forest Service looks at the 
ICBEMP EIS document. One of the concluding comments of one of 
them on the nice side of things, it said, ``they have nice 
sideboards, good fonts and colorful maps.''--much to say, they 
were not very complimentary.
    The maps that we've discussed here today, I also have 
brought to your attention in my written documentation. I 
understand they've been sequestered. At the time I obtained my 
copies, I was told not to share a copy with you for fear that 
the person responsible for their formation would be drug in or 
expelled from the Forest Service organization.
    I question, also, the right, and under which law, that 
executive sessions are held by counties, of the EECC in denying 
other counties' participation in these executive sessions.
    I'd also like to point out that they can't answer the 
simple questions; the simple question: What does this plan do 
to Grant County? What effect will this plan have on Grant 
County?
    There are a mirage of overlapping Federal laws. The Summit 
Timber Sale is a classic example. On August 13 of 1996, over 
571 days ago, 38,000 acres burned. In a 2-hour discussion held 
recently with U.S. Forest Service, we discovered that the 
reason it's still being discussed is that an area equal to this 
blue square that I hold up, compared to the surface area of an 
8.5-by-11-inch piece of paper, represents the riparian area, 
while we're arguing whether we leave 4 snags per acre or 6 
snags per acre and the entire paper, 8.5-by-11 surface area, is 
nothing but snags. In this particular summit sale, it is 
estimated that approximately $28,600,000 will be lost to the 
American taxpayers, and an additional $8 million will be lost 
in economic income to the citizens of Grant County.
    So, in summary I would conclude, Grant County asks you to 
ask the U.S. Forest Service in this planning process to codify 
the science, peer review, and peer approve the science--and 
it's important to approve it because just peer-reviewing it 
isn't the answer. Place it in the hands of the forest 
supervisors and the BLM managers, charge these individuals with 
compliance, provide a degree of litigation insulation, and 
proceed with revising forest and district plans. Don't let the 
ICBEMP go to the Record of Decision.
    I leave you with just one example of a movie: where Indiana 
Jones was confronted with an individual who put on a fantastic 
swordsmanship display, and he simply stared him in the eye, 
pulled a pistol, and shot the person dead. This fantastic 
display, after $40 million worth of work and effort, is simply 
going to come to the end of the line where it will be litigated 
to the disadvantage of communities like Grant County. Grant 
County's people, and the fragile nature of their existence, 
deserve better than the impending ICBEMP will provide. Thank 
you.
    [The prepared statement of Judge Reynolds may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you very much, Judge.
    And the Chair now recognizes Mike Poulson. Mr. Poulson is 
chairman of the Environment and Natural Resources Committee of 
the Washington Farm Bureau. Mr. Poulson?

 STATEMENT OF MIKE POULSON, CHAIRMAN, ENVIRONMENT AND NATURAL 
RESOURCE COMMITTEE, WASHINGTON FARM BUREAU, CONNELL, WASHINGTON

    Mr. Poulson. Madam Chairman and Committee, I thank you for 
this opportunity, and, like Dennis, I am humbled to be able to 
represent the Washington State Farm Bureau in front of this 
body. I am the chairman of the Environmental Committee of the 
Washington Farm Bureau, a committee that came into being 
largely because of the interior Columbia Basin Ecosystem 
Management project.
    Essentially it was the Eastside Ecosystem, I believe, when 
we started. It was going to be an assessment. We took an 
interest in it and thought that the goals that were there 
originally were worthwhile goals. Our understanding that the 
original goals involved developing a science-based plan that 
would reduce litigation and empower local communities and 
create some certainty in the ability to use resources. In 
addition to that, the plan, through a science-based plan, was 
going to reduce the number of ESA listings, or insulate against 
ESA listings.
    As we look at what we have today, in contrast to the 
original goals, our assessment says that this plan is not 
science-based, will increase litigation, does nothing to 
empower local communities, and along that line will increase 
the tribal authority across the entire project area without 
requiring any responsibility of tribal members to help in 
creating environmental protection.
    In addition to that, we don't believe that, in fact, the 
plan states itself that it would have a small value in species 
liability, to a small number of species. I think that you've 
probably heard these things, and I think you're going to hear 
them over again. I think that you're going to hear some of them 
from other panelists.
    I want to spend just a little bit of time on what we 
consider to be fundamental flaws in this project. There is an 
assumption that we can transfer former resource industry 
communities into recreational economies. And that may be true. 
We can, maybe, transfer. We no doubt have some recreational 
economies that are expanding in these areas. But what isn't 
considered is the fact that as human beings, we are not 
becoming less dependent on resources, but more so, and when we 
make decisions to eliminate resource use in one area, that 
automatically makes a decision that you're going to increase in 
another. It does not make a decision that we are no longer 
going to use that resource or the products that come from that 
resource. This isn't the first time, but this is a time in a 
large number of areas and it's most obvious that we are 
assuming that we can reduce resource use in this area, and 
there's been virtually no effort to look at the environmental 
consequences in other areas because of transfer of that 
resource production. That kind of a decision is environmentally 
and economically irresponsible.
    Another area that we feel is a major, major issue, and a 
fundamental flaw of the discussion within this project, is in 
the regulatory system itself. We have, obviously, numerous laws 
over the last 30 or 40 years that have been created to protect 
the environment, as well as agencies that have been the essence 
of business growth, if you call that business growth. It's the 
American system. The problem is, when we out in the country 
look at management of our environmental resources, there's 
conflicts within these laws and with these agencies, and when 
you look at why we're not addressing bug kill, why we're not 
addressing nauseous weed, and the various issues that this 
project and the Chief of the Forest mentioned earlier, it's not 
because those in the local community don't support doing that; 
it's not because the local agencies don't support doing that; 
it's because the conflicts of the laws and regulations and 
regulatory agencies that we have don't allow us to do that, and 
agencies spend all of their time responding to 32 Senate 
appeals and doing environmental assessments.
    We feel that this project is not repairable; that it's not 
a question of going through this EIS and deciding how you fix 
it. We do feel that the original goals were worthy. We feel 
that the coalition of counties is a worthy coalition, assuming 
that all counties are represented in that coalition. We feel 
that the management needs to be brought back to the local area, 
for the same reason that we finally brought welfare reform, to 
take that responsibility back to those who could best accept 
that responsibility.
    We ask that this project be terminated, that Congress 
demand that this project be terminated, but we also ask that 
Congress take on this issue of examining the regulatory system 
we have built, the set of regulations we have built in the name 
of environmental protection, that now may be the biggest 
obstacle to being able to manage and protect our resources in a 
sustainable way. Thank you very much.
    [The prepared statement of Mr. Poulson may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Poulson, and I 
appreciate your testimony.
    The Chair recognizes Charlie Decker. Mr. Decker is from 
Libby, Montana, and I'd like to call on Mr. Hill to introduce 
Mr. Decker.
    Mr. Hill. Mr. Decker, thank you for being here today.
    I would like to introduce Mr. Decker to our panel. He is a 
small business owner, a private citizen, more importantly, or 
as important, he's a founder of the Rocky Mountain Elk 
Foundation, a conservation organization which has broad support 
within Montana. He has served as a commissioner on the Montana 
Fish, Wildlife and Parks. He brings a balanced view. I welcome 
Mr. Decker.

          STATEMENT OF CHARLES DECKER, LIBBY, MONTANA

    Mr. Decker. Thank you. Thank you, Madam Chair, members of 
the Committee. Good day.
    My name is Charlie Decker. I live and work in Lincoln 
County, Montana. I am here as a small business owner and 
resident. I am not representing the Rocky Mountain Elk 
Foundation, although I am a founder and board member. Neither 
am I representing Montana Fish, Wildlife and Parks, although I 
have been a commissioner for 6 years, the past 6 years. I hope 
I represent common sense. The people who have been writing the 
draft EIS on the Upper Columbia Basin have more degrees than a 
thermometer. You would figure with all that education and the 
time and money spent, the draft EIS might make sense. It 
doesn't. The way I understand it, it makes northwest Montana 
into an outdoor theme park. It takes management decisions out 
of the hands of the people closest to the land. It guarantees 
employment for environmental lawyers and unemployment for local 
citizens. Worst of all, it hurts the land.
    I realize that what I am saying does not agree with the 
experts. During my 6 years on the Fish, Wildlife and Parks 
Commission, I have, on occasion, tangled with professional 
biologists and other experts. Too many times, I have seen a 
study to support an agenda. The experts don't seem to realize 
that I work, hunt, fish on the lands of Lincoln County. I talk 
to loggers, hunters, fishermen, and other folks on a daily 
basis. If we are losing the moose population in the Yaak, I 
hear about it. If big rainbows are biting in the Kootenai, it 
takes a few days longer, but for some reason, I still hear 
about it.
    I know we aren't harvesting enough timber in Lincoln 
County. We are growing 500 million board feet a year in the 
Kootenai National Forest, and we are harvesting about 80 
million feet. Somewhere around 300 million board feet just 
plain dies. I see it every day. We are creating a huge 
tinderbox. A couple of lightning strikes after a dry winter 
like we've had, and we will have thousands of square miles of 
stumps and ashes. Now, I may be wrong, but a burn does not 
provide much recreation or economic value. Eventually, the burn 
grows back. This is how the Upper Columbia Basin has managed 
itself for the, since the last ice age--complete with erosion 
and damage caused by major forest fires.
    Using common sense, we can manage the forest, harvest the 
timber, avoid catastrophic waste. Sensible logging opens the 
forest canopy, increases food supply for wildlife, and reduces 
the loss due to fire and disease.
    I am not here because harvesting a few more trees will make 
me rich. You can ask my wife. After 40 years of hard work, we 
are just about breaking even. I am here because most folks 
don't have the time or money to fight the bureaucracy behind 
the draft EIS. We run the country on a Constitution you can 
fold and put in your pocket. Instead of a thousand pages of a 
draft EIS, we need broad principles that balance environmental 
concerns with local economies. Then, local managers need the 
power to make decisions. Most important of all, we need to move 
beyond studying the situation.
    If the U.S. Forest Service had existed in Jefferson's day, 
we would still be studying the Louisiana Purchase. If there are 
problems in the Upper Columbia Basin, let's put them in plain 
English; let the local people have their first round at solving 
them, rather than have answers dictated by the bureaucracy and 
biased experts. And let's start managing our resources before 
they burn to the ground. Thank you.
    [The prepared statement of Mr. Decker may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Decker.
    The Chair recognizes Mr. Hill for the first round of 
questioning.
    Mr. Hill. Charlie, as I mentioned, you're a founder and 
board member of Rocky Mountain Elk Foundation and have served 
on the State Fish and Wildlife Agency. If the Interior Columbia 
Basin Plan was implemented with the standards as proposed in 
alternative 4, would that increase elk habitat in Montana?
    Mr. Decker. No.
    Mr. Hill. How about habitat for other wildlife?
    Mr. Decker. No, I could cite an example, I believe, in my 
lifetime that I have witnessed that's neat. Mid-1950's, we had 
no moose in our country. We had spruce dying off, and we went 
in and cut some major, clear cut some major areas, and starting 
in the mid-1950's, we started to see moose. And as those clear-
cuts, the regrowth occurred, why, our moose did very well. In 
the last 5 years, our moose are dropping like a rocket. They're 
not doing well at all, and it's because, in my mind, and I 
think the biologists agree, that it's a lack of management out 
there. If you don't log it, you're going to burn it. Logging is 
a good habitat tool for all wildlife.
    Mr. Hill. We've got, as you may know, we've got huge fire-
load building up. I mean, it's, this is at a catastrophic 
level, isn't it?
    Mr. Decker. That's correct.
    Mr. Hill. And, if those forests burn, is that going to have 
a favorable impact on habitat?
    Mr. Decker. Well, long-term, depending on how hot the fire 
burns. If the fire burns hot enough, it will sterilize the 
soil. Burn is a good--burning is a good tool, done in a 
controlled manner. But the fuel-load that we have in our 
forests out there now--I've happened to fought forest fires, 
and you don't fight them; you get out of the way, until you 
kind of catch them somewhere. It's a tough deal, and our fuel-
load is such that we probably won't stop it until it hits some 
natural, big barrier that's open. The fuel-load is that great.
    Mr. Hill. And if this preferred alternative is selected, in 
your view, will that increase or decrease public access to the 
forest?
    Mr. Decker. Probably decrease.
    Mr. Hill. Go ahead. It proposes to further restrict roads, 
further barricade roads, remove roads.
    Mr. Decker. Yes, I'm trying to think of another road they 
could close. With a grizzly bear, you can't hardly get anywhere 
now, but I guess they could close a few more that run up to 
bottoms. But we do have a significant number of closures 
already to meet standards that were put down because of the 
grizzly bear recovery in our area.
    Mr. Hill. You've made note that it's as though this plan 
contemplates northwestern Montana becoming a theme park. I 
guess I would suggest, that perhaps, that would be a theme park 
that nobody could get to, because there would be no roads, no 
access to the theme park. Would you agree with that?
    Mr. Decker. I would agree. It's our economy that 90 percent 
resource-based. I don't know what the rest of them are, but I 
know what ours is.
    Mr. Hill. And the recreational base that's there--I mean, 
the recreational use of the forests up there is people who live 
there, go hunting and fishing, and berry picking and camping 
and hiking, and that's it, isn't it?
    Mr. Decker. Yes, I would say that's correct.
    Mr. Hill. And, because of the grizzly bear, impacts of the 
grizzly bear, a lot of that access has been already restricted, 
hasn't it?
    Mr. Decker. Yes. It, I don't know. It's reduced by, I'm 
guessing, I don't know all those numbers, but I would say 70 
percent would be a fair assumption.
    Mr. Hill. And, so can you, can you tell me how in the world 
we're going to replace those resource jobs with recreational 
jobs if people can't use the forest to recreate?
    Mr. Decker. We're not.
    Mr. Hill. Have you figured that out?
    Mr. Decker. We're not. The one thing we are is survivors. 
We'll make her.
    Mr. Hill. I would agree with that.
    Going back to habitat, because I think that, you know, one 
of the things driving this management plan is the sense that if 
we manage on a regional basis, we can improve habitat. And, 
certainly, I think that there's some sense to that. Do you see 
how the adoption of these one-size-fits-all standards is going 
to allow for management that's going to improve wildlife 
habitat in the Kootenai Forest up there?
    Mr. Decker. It can happen. There's a domino effect no 
matter what you do out there. You do something to help 
something, you maybe hurt something else. In our area, it's 
unique. The Columbia Basin is a large area, but you've got all 
kinds of habitat types through that whole region. You've got 
practically desert in Washington, to our high mountain timber 
type, and one size can't fit all. You've got to manage it in a 
smaller scenario, and you've got to think about what the 
consequences, when you do one thing, what the consequences are 
to another thing. You can't do it in one, big fell swoop.
    Mr. Hill. Thank you very much, Charlie. Thank you very 
much, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    I wanted to begin my questioning with the Judge. What kind 
of restoration activities are needed in Grant County to really 
bring it back to where the county is able to generate from the 
tax base, the necessary taxes to support the necessary 
services?
    Judge Reynolds. Madam Chairman, it's a question oftentimes 
asked by citizens within Grant County. The common suggestion 
that everything is wrong, and the only answer is to restore, I 
think is a common assumption by the ICBEMP process that's not 
commonly shared by all those present. We too, like the 
gentlemen from Montana, have growing deposits of heavy, woody 
material. You, yourself, witnessed the summit fire and the 
destruction that it caused on those 38,000 acres. We fully 
anticipate the continuance of that until there aren't any of 
those heavy, woody deposits.
    The ICBEMP process does not offer us any resource 
management or resource product production. When you invite them 
to tell us what we can look forward to a sustainable yield, 
consistent with the 1944 Act, they tell us that if restoration 
activities should occur in your area, adjacent to your 
community, yes, you might benefit. But, in fact, if they don't 
occur next to your benefit, next to your area, you may not 
benefit from them.
    From a forester's standpoint, I've learned since 
graduating, that, in my mind, forest management is nothing more 
than man's attempt to mimic mother nature to mankind's benefit, 
and when you apply that, you find that the only thing that's 
necessarily deteriorating our forests around Grant County, is 
the lack of action, the lack of doing anything, the lack of an 
ability to do anything on the ground.
    The timber sales that are being offered are being appealed 
and litigated. Our timber companies that do still exist have 
less than 6 months' total of volume under contract. We have 
virtually 125 direct employment, family wage jobs of our 3,300 
jobs in jeopardy right now.
    Mrs. Chenoweth. Well, that's startling. Can you tell me why 
Grant County was excluded from the information provided to the 
Eastside Ecosystem Coalition of Counties?
    Judge Reynolds. That's the question I was looking for an 
answer to. Recognizing that the document was going to be 
awesome, and I think we underestimated that as it has 
progressed, our interests were to become involved because we 
have so little time as county managers. We don't have large 
staffs. If you want something done in Grant County, you have to 
do it yourself. And, so we attempted to get our hands on 
documents as early as possible, so that we could try to stay 
attuned to it.
    And, I believe it was in July 1996, the first draft 
document was released to the RACs, and also the EECC. I 
contacted the Association of Oregon Counties and invited a copy 
of that for our review, and was told, no, they had signed an 
agreement with the Federal Government and they could not 
release that document.
    Upon further pushing, the individual then advised me that I 
might appropriately approach the RAC; they might ``leak'' a 
copy to the counties. This troubled me, because I understood 
that counties individually were FACA-free and had the right to 
work with their Federal Government on issues of resource 
management, and I couldn't understand how delegates of an 
association, to whom which we may or may not have belonged, 
could represent us at the table.
    Mrs. Chenoweth. I wonder about that, too, and, I thank you 
very much for your statement for the record.
    I wanted to ask Mike Poulson, you mention problems with the 
laws and the regulations, and that they will, in practice, 
prevent environmental protection. Can you elaborate on this?
    Mr. Poulson. I believe that if you go back with 30-year or 
35- or 40-year history that we have of today's modern 
environmental movement, and look at the laws that we have 
created, and examine how that they, how they work together, I 
think that you are going to find that that is the case.
    And I will take the endangered species as an example. 
Endangered species is obviously a law that's supposed to 
protect specific species. In addressing that law, you don't 
look at the best interests of human beings, or any other 
species. Now, how can that fit into what is called ecosystem 
management?
    And I'll give you a very simple explanation that I was 
given of ecosystem management from a wildlife biologist in 
Canada. He said, ``if you want to understand what ecosystem 
management would be, imagine a lake, where it is raining, on an 
otherwise calm lake. Each of those drops is a species, and the 
ripples that those drops make are how the species interact with 
each other.''
    Obviously, this is a very complex mathematical equation to 
achieve what we're now trying to call achievable in ecosystem 
management. But, if, in fact, in the process, you have to give 
special recognition to ignoring other species, obviously you 
can't come to that kind of an equilibrium. I don't believe that 
in this document that they do. But, if you look at the Clean 
Water Act and the Clean Air Act, those are also laws that 
operate independently with almost whole agencies to carry them 
independently at, while ignoring, you know, other interests.
    I think that we have to go back and look at the overall 
mechanism of laws that we have made, as well as the agencies 
that, in my opinion, tend to operate not only independently, 
but antagonistically to each other. This document didn't 
address that. I think that's a large portion of where our 
problem is. Until Congress is willing to go back and accept 
that challenge, I don't think that any plan is going to be 
functional or workable.
    Mrs. Chenoweth. Mr. Poulson, can you tell me what impact 
ICBEMP will have in farming in the Columbia Basin?
    Mr. Poulson. How it will affect farming in the Columbia 
Basin. I'll give you an example of--and there are several areas 
where this plan is being implemented as we speak, has been, 
being implemented for the last, nearly a year. When questioned 
were asked about that, there was some defensiveness after the 
first round of questions, and some originally admitting that 
they were implementing this plan. Then they went back and said, 
``No, we can't implement this plan because it's in the draft 
stage. We are implementing the science documents from this 
plan.''
    But, as far as how it will affect private property in the 
Columbia Basin, one of the areas where this plan is being used 
for watershed management is in Okanogan County, Washington, on 
what is called, ``salmon creek recovery,'' where there have not 
been salmon for 80 years, and they would like to have salmon 
back, 84 percent, I believe, and that's close, of the watershed 
is on Federal land, but the water that comes out of that 
watershed does two things. It forms a lake, which is the 
foundation of a little town called Concanelli, which is a 
reservoir lake that feeds an irrigation district, that is clear 
outside of the watershed, or at least at the bottom of the 
watershed, but, I believe, clear outside of the watershed. 
That's where the economic impact is going to come in anything 
that influences that water in that reservoir, or that lake, and 
how that water is used on private property. And that's a very, 
very simple connection. The Columbia Basin, potentially, has 
the same connection. What I have told people when they ask me 
about this, as long as you don't use water and are not located 
in a watershed, this plan will not affect you.
    Mrs. Chenoweth. Mr. Poulson, Mr. Decker, and Judge, I 
wonder if examples could be provided by any one of the three of 
you, or all of you, with regards to the implementation of the 
plan, ahead of the filing of the Record of Decision. If you 
could provide the Committee with examples, I would appreciate 
it very much.
    Judge Reynolds. Will do.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Mr. Hill, do you have further questions?
    Mr. Hill. Thank you, Madam Chairman.
    Judge Reynolds, I took great interest in reading your 
testimony of your experience with regard to the maps, with 
regard to how the application, I think, of riparian areas would 
impact management of the forests. We were able to obtain a 
similar map on one of our forests, but when we asked for maps 
on the other forests, once they gauged the impact of it on the 
public, on the release of the first set of maps, they didn't 
want to make them available anymore.
    I guess that you're a judge, and I'd just ask you that in 
your courtroom, if people suppress evidence, how do lawyers get 
treated when they suppress evidence?
    Judge Reynolds. Well, first of all, I have to clarify the 
fact that ``judge'' in Grant County is synonymous with a 
chairman of the board of county commissioners.
    Mr. Hill. Oh, I see, I'm sorry.
    Judge Reynolds. So, recognizing that I'm only a judge for 
probate issues, that's not necessarily pertinent in my case.
    Mr. Hill. OK. Well, thank you.
    With regard to the maps, in essence, the maps that we saw, 
as they evolved, basically meant that the area that would be 
managed, diminished, and diminished, until there was hardly any 
area that was going to be aggressively managed 15 and 20 years 
out. Is that the experience that you had with the maps?
    Judge Reynolds. That's correct.
    Mr. Hill. I guess I would ask you, has there been any 
assessment of how, if that management plan is implemented, how 
that would impact over that period of time the economy of your 
county?
    Judge Reynolds. The plan has failed, pitifully, to provide 
an answer to that question, and that's the common question that 
Grant County citizens are asking: How will it materially impact 
us?
    Mr. Hill. And, having not read the plan with my eye on your 
particular region, is it similar to our area, and that is, is 
that the plan contemplates this massive expansion of 
recreational use of the land? Is that--I mean, the plan in 
general suggests that we're going to make up this loss of 
revenue and loss of income to our communities by increasing 
recreational use of the land?
    Judge Reynolds. Yes, I think that's a valid assumption.
    Mr. Hill. And has anybody identified what kind of 
recreational use that would be for your county?
    Judge Reynolds. Only the vague terms that you heard 
testified earlier this morning in diverse, remote recreational 
opportunities. I think that we're going to find quickly that 
those efforts run a straddle of the 401, and also the 303(d) 
listings. I think we're going to have to have a permitting 
process in place that I don't think they're fully anticipating 
at this time.
    Mr. Hill. Thank you very much, Judge. Thank you very much, 
Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill.
    Gentlemen, I want to thank you for your testimony, and for 
coming so far. Your time is valuable, but your testimony has 
been very valuable for the record, and I want to personally 
thank you very much.
    Judge?
    Judge Reynolds. Yes, ma'am. I, again, would like to thank 
you, and the Committee for your invitation, but there was a 
couple of things I'd hoped had come out in the questioning that 
didn't, and I would just like to state that Grant County 
doesn't see that the plan is going to reduce litigation; it 
doesn't see that there is any resource offering, there's no way 
to tell whether or not there's going to be a resource offering 
in Grant County; and that it also lends itself to circular 
logic, in that we were told in the beginning the reason we do 
this process is to prevent the lawsuits that we've found 
ourselves historically in. So, we set standards, we make it 
rigid, we make a more rigid plan, we implement that, and then 
as communities, we ask why, where's the flexibility? And they 
say, oh, it's built into the model. I argue this: If we had 
flexibility after the plan, are we going to be therefore 
accused that we are making decisions inconsistent with the 
overall directive, the same as we were before the planning 
process went in place?
    Mrs. Chenoweth. Thank you very much. Judge, I do want to 
let you know that we will be submitting questions to you for 
the record.
    Judge Reynolds. OK.
    Mrs. Chenoweth. And that the record will remain open for 
you to supplement your testimony, and we probably will be 
sending you copies of the hearing transcript, also.
    So, I want to thank you very, very much for being here, and 
if you wish to supplement your testimony, like I say, the 
record will remain open for 10 days. Thank you.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. You are dismissed.
    The Chair now recognizes the third panel, one that I am 
very happy to introduce personally. Tom Haislip, senior project 
manager of CH2M HILL in Boise, Idaho; Aaron Harp, Cooperative 
Extension rural sociologist, University of Idaho, Agriculture, 
Economics, and World Sociology, in Moscow, Idaho; and Neil 
Rimbey, extension range economist, University of Idaho, 
Caldwell Research and Extension in Caldwell, Idaho.
    Gentlemen, I'm so tickled that you're here. So with that, 
Mr. Haislip, I'd like to recognize you for your testimony.

 STATEMENT OF TOM HAISLIP, SENIOR PROJECT MANAGER, CH2M HILL, 
                          BOISE, IDAHO

    Mr. Haislip. Thank you, Madam Chairman. Again, I'm Tom 
Haislip, and I'm a senior project manager for CH2M HILL, which 
is an international environmental consulting and engineering 
company.
    I lead a team of scientists and planners who have been 
studying the Interior Columbia Basin project since it's 
inception. As you can see on the boards that I've presented to 
you, we have been involved in this project for over 4 years 
now. We've been monitoring the scientific assessment that was 
developed, as well as the DEIS's, or draft environmental impact 
statements. And, we have reviewed the two DEIS's that have come 
out last summer, and we have submitted our comments to the 
project. Let me tell you just a few things about what we have 
found as a result of our review.
    First area of great concern for us, is the riparian 
conservation areas that were mentioned earlier, and one of the 
biggest concerns we have is the size of the area that they 
cover.
    Let me draw your attention to the board over here on the 
other side. This is a picture of a hillside that I took last 
summer. It's from a place in central Idaho, up near a town of 
Grandgene. This is somewhat of a typical hillside, nothing 
special about it. We took that hillside, though, and tried to 
show what the riparian conservation areas would look like 
around that hill, and in this particular case, the hillsides 
are fairly steep slopes, intermittent streams, in a dry forest.
    If you go to the DEIS and you take a look at what that 
means, it means that these riparian conservation areas will be 
400 feet on each side of that stream. If you take a look at 
what that actually does, then you've got this fairly wide area 
there, fairly wide area there, and this one over here, and the 
area then, of this hillside, that's not covered, are these 
little strips along the ridge tops. In this particular case, 80 
percent of that hillside is covered by a riparian conservation 
area.
    You know, my concern here is that, while I think we do need 
to protect our riparian areas, we need to not protect them to 
death. And a big concern is that the management of those areas 
is severely limited, in terms of the kinds of things that you 
can do there. These areas are just as subject to forest fires 
as any other area is. And our concern is that, ultimately, 
these may burn.
    Also, I note in some of my other testimony, that we project 
that probably 40 to 60 percent of the area is going to be 
covered by riparian conservation areas, depending on where you 
go, and it could get higher in some places. I won't talk much 
about the impacts to communities, because I know these 
gentlemen will be doing so, as well, but, basically, I think 
you've heard the story that communities really are not 
addressed in the DEIS, and, quite frankly, communities were not 
considered, in my opinion, part of the alternatives. They were 
part of the impacts.
    The other item I'd like to talk to you about is ecological 
integrity, and the ecological integrity--this is a measure of 
forest health that the project tried to address--tended to 
focus on rare species, or species that are on the edges of 
their ranges, or species that are in some sort of trouble. And, 
so, by looking at that narrow a band of species, you don't get 
a very good perspective on what the whole ecosystem looks like. 
You get somewhat of a biased view. We think that's a real 
problem.
    We also found that they used surrogates to try to project 
what health of the environment was, and, so, they used things 
like road density to equate to aquatic conservation--excuse 
me--aquatic health. And, there's some real problems in trying 
to translate from road density to the health of an aquatic 
ecosystem. There are a couple of cases where you can see some 
impacts, but, quite frankly, you can't generalize across this 
broad a scale to say one equals the other. They also don't 
recognize the fact that roads are not roads, are not roads, 
because the best management practices that are being developed 
by State programs are significantly improving the way we build 
roads. And, so what happened in the past is not necessarily a 
reflection of what's going to go on in the future.
    In terms of the plan itself, we find that the plan is, as 
you've heard, is very, very heavy on standards, somewhere 
between 150 and 200 of them in each one of these DEIS's. When 
we first started watching this project, the pledge was that we 
were going to be light on standards and heavy on guidelines. 
Well, what's happened is exactly the opposite. Now we're very, 
very heavy on standards and very light on guidelines. We think 
that's an inappropriate thing to do for a lot of reasons, but 
at a basinwide level we think it's particularly inappropriate, 
and it constrains what goes on at the local level in terms of 
implementation.
    I'd also, then, like to comment a little bit about the 
rates of restoration, which is another area that we've got a 
concern about. The DEISs talk about levels of activity, but 
they do not talk about the rates of restoration and how this is 
going to get accomplished. I've got a figure here that shows 
what our projections of what the rates of restoration might be 
over time, and what you find here is that, even in the most 
aggressive alternatives, such as alternative 4, it's going to 
be 70 years before we get to a fully restored condition. We 
just find that unacceptable. That's way too long a period of 
time out there. We think that a much more aggressive program 
needs to be done. Consequently, none of the alternatives are 
going to meet one of the important purposes and needs, and that 
is to restore the health of our forests.
    We also note that there are lots of studies that are going 
to be required before any kind of action has occurred, such as 
the subbasin reviews and the watershed studies that are going 
to be required, and then NEPA for any kind of a project. So 
we've got lots and lots of studies yet to do. They tell us 
those are going to only take weeks to months to do; we think 
months to years is probably a better assessment.
    We also have the issue of multiple agencies, the regulatory 
agencies who are part of this process. We think that's going to 
bog this thing down, because they're going to need consensus. 
We just don't have a lot of hope that that's what's going to 
happen.
    Finally, I guess I'd comment about the recommendations that 
we have. We sat back and said, gee, where's this project go 
from here, given a lot of its flaws? And I guess we have three 
options. One of those would be to take away the standard and 
redo this as a supplemental DEIS, make it more like a regional 
guide, which is documents that already exist. Then they could 
go on to a final.
    Another option is to not to do that, go into much more 
detail, fix this EIS, which it desperately needs, get down to a 
lot more detail than it's got in it right now, and make another 
supplemental DEIS and go to an FEIS. Then, finally, to stop 
where they're at right now, use the material that's been 
provided--and there's some pretty good stuff out there, 
particularly in the scientific assessment--use that to go do 
the forest plans, which are now upon us. Four years ago, when 
this project started, we had some timeframe. Now we don't have 
any timeframe left. The forest plans are going to need amending 
immediately.
    My personal feeling is the one option that shouldn't be 
followed, and that is to try to fix this DEIS and go to an 
FEIS. I think we need to take a look some place else.
    That concludes my testimony. Thank you very much.
    [The prepared statement of Mr. Haislip may be found at end 
of hearing.]
    Mrs. Chenoweth. Mr. Haislip, that was very well done, and I 
just wonder, the handout that you gave the Committee, we don't 
have a copy of the picture of the ridgetops and the riparian 
zones.
    Mr. Haislip. You're right, but I'd be very happy to provide 
that to you.
    Mrs. Chenoweth. Would you?
    Mr. Haislip. Yes.
    Mrs. Chenoweth. I'd appreciate that.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Dr. Harp?

     STATEMENT OF AARON HARP, COOPERATIVE EXTENSION RURAL 
 SOCIOLOGIST, UNIVERSITY OF IDAHO, AGRICULTURE, ECONOMICS AND 
                 RURAL SOCIOLOGY, MOSCOW, IDAHO

    Dr. Harp. I'd like to thank the Committee for the 
opportunity to speak today. I have a bit of a cold, so for both 
your sake and mine, I'm going to try to keep this short.
    I would like to begin by commenting that this draft EIS 
represents an unprecedented social impact assessment attempt on 
the part of the agencies. I would say that it far exceeds their 
normal effort in that area. And for that, they should be 
commended.
    I would also provide a caveat that, having said that, no 
one benefits from doing a bad job at that particular effort. So 
my main questions today will deal specifically with the social 
impact assessment and our core conclusions about its validity. 
I'll try to not get into too much of the economics and leave 
that to my colleague.
    My primary concern, as a professional sociologist, is the 
fact that EIS completely ignores the community issues of 
stratification. When they talk about the future of the 
communities in the Basin, they seem to have an unquestioned 
reliance on recreation as the chosen or the most valuable 
future for these communities. In my professional opinion, that 
ignores the impact of recreation economies on things like 
living wages, the ability to have futures for your children 
that are economically viable, and the ability of communities to 
live in a way that is not stratified, where you have the very 
rich, the very poor, and an extremely high property tax base.
    So to be more specific about that, I'm going to talk a 
little bit about the issue of community resiliency, which kind 
of forms the core of the social impact assessment that was 
done. This particular choice of concepts actually has virtually 
no sociological content that I can find. A perfect example 
would be one of the four dimensions used to define resiliency 
is the presence of amenities in the community or near the 
community. I can't find any professional literature that would 
obviously link that to any known social process. Instead, I 
think that represents a value judgment on the part of the 
investigators that that was something that any community who 
had amenities would, therefore, be more socially resilient, 
because they could then capitalize on those for their economic 
gain.
    To make matters worse, the individuals who carried out the 
social assessment took a random sample of approximately half 
the communities in the Basin with populations under 10,000. 
Then they went to those particular communities and they 
interviewed anywhere from three to nine individuals--I believe 
the average was seven--in each community. They then took that 
small basis, treated it as if it was a statistically valid 
sample, pooled all of those communities, and then did the 
statistics that resulted in the resiliency analysis.
    That begs two questions. The first is: Why are any given 
chosen group of three to nine people representative of a 
community, (a)? And, (b), what validity do you ascribe to 
putting all of those people together, as if they all came from 
the same pool of individuals? That, to me, is the stake in the 
heart of the social assessment in the Interior Columbia Basin. 
It essentially provides an empirically and conceptually invalid 
basis for looking at the alleged resiliency of a given 
community.
    And, finally, I'd like to point out that there is an 
unfortunately normative tone to the social impact assessment, 
particularly the scientific documents that back up the work in 
the Draft EIS. That tone essentially takes a few forms. The 
first is that everybody in these communities is sufficiently 
resilient to take everything that's thrown at them. I would 
necessarily disagree, as we heard on the previous panel, 
``We're tough and we can probably take anything.'' The social 
impact assessment did say as much, that the very existence of 
some communities in extremely difficult economic and social 
circumstances speaks to their resiliency. However, that does 
not extent to taking the agencies off the hook for figuring out 
what the social impacts might be, resilient or unresilient.
    Further, the assumption that recreation takes over 
economies in these rural communities, to me, strikes me as poor 
public policy. I think that it is incumbent on him to look at 
all of the possible economic alternatives from all the possible 
resources at our disposal. We owe it to our rural communities 
to realize that jobs are important, no matter what they are, 
but they also come in a variety of qualities and a variety of 
impacts on individuals, and they will have different impacts on 
the social structure or social organization of any given 
community.
    So, in conclusion, my professional assessment is that, 
particularly the resiliency work, but the social stuff in 
general that is in the EIS should probably be stricken. I don't 
believe that it's empirically valid or conceptually acceptable. 
That would be my suggestion.
    Mrs. Chenoweth. Dr. Harp, thank you very much for that 
excellent testimony.
    The Chair now recognizes Dr. Rimbey.

STATEMENT OF NEIL RIMBEY, EXTENSION RANGE ECONOMIST, UNIVERSITY 
   OF IDAHO, CALDWELL RESEARCH AND EXTENSION, CALDWELL, IDAHO

    Dr. Rimbey. Thank you, Congressman. Again, it's a pleasure 
to be here. Like the previous panels, I would imagine it's a 
humbling experience for this economist from rural Idaho.
    Estimating the benefits and costs of alternative management 
strategies for an area this expansive and extensive is a 
monumental undertaking and presents some major problems, but--
--
    Mrs. Chenoweth. Dr. Rimbey, I wonder if you might halt the 
testimony. I don't want the time clock to go.
    I want to recognize Mr. Nethercutt, George Nethercutt, from 
Washington, who will be joining us here at the panel, and will 
also be joining us in questioning.
    We're on our final panel, Mr. Nethercutt, and we have two 
economists from the University of Idaho and Tom Haislip, who 
just gave testimony. He works for CH2M HILL.
    Sorry to interrupt you. Please resume your testimony.
    Dr. Rimbey. No problem.
    In our review--and I guess I should explain our review. We 
were requested by the Governor of the State of Idaho to work 
with a panel of individuals to help formulate Idaho's response 
to this project. The scope of the alternatives, the length of 
the planning horizon of 50 years, and the geographic area to be 
covered potentially expose the Draft EIS to many criticisms. We 
believe that there are four major critical issues relating to 
the economic assessment that need to be raised and addressed in 
this review.
    First, the evaluation of long-term benefits and costs is 
somewhat biased due to the heavy reliance on nonmarket measures 
of economic benefit.
    Second, there's no provision for including estimates of 
costs, either market or nonmarket, agency or private, direct or 
indirect, in the analysis.
    Third, the tabulation of benefits includes no estimate of 
when they will accrue to society during the 50-year planning 
horizon, nor are they discounted to present-value terms.
    And the fourth major term, the Draft EIS makes significant, 
and we believe erroneous, assumptions about how community 
economies function.
    Let me attempt to address each of those, time permitting. 
The nonmarket benefits is an interesting one. The values that 
are used in the Draft EIS are based upon contingent valuation 
methods. Contingent valuation is a well-established procedure 
in the economics field. The problems come from a couple of 
different perspectives. First and foremost, the values that 
were used to come up with these market-value market-basket 
values for the acreages were derived from published reports 
from Utah, and then a national study conducted out of Colorado, 
I believe. I'm not going to quibble with the dollar values, but 
I think it's important to give you some perspective of how much 
those contribute to those market-baskets.
    For example, roadless existence values account for 47 
percent of the total 1995 value of the market-basket for BLM- 
and Forest Service-administered lands in the Basin. By 
comparison, timber accounts for 11.5 percent of the total.
    Those values are based on some pretty critical assumptions. 
They were implied, as I said, from that national study and the 
study in Utah. It's uncertain whether these values are within 
the realm of possibility for the Basin. We have not done--nor 
am I aware of demand studies that have been done in Idaho, 
Oregon, and the rest of the Basin to validate those values.
    Second, there may be some very substantial differences 
between stated and actual willingness to pay figures. A recent 
study by Loomis and some other folks stated that hypothetical 
and actual willingness to pay, there may be some substantial 
differences there.
    Another study that was done in Colorado found that the 
process will not work for valuing or attempting to value public 
land forage.
    I mentioned briefly the budgetary cost aspects. One of the 
references in the supporting material of the EIS stated that it 
is impossible to estimate its budgetary cost. Lack of 
discounting and presentation of benefit flows over time--what 
they have done is essentially summed the benefits over time 
without any aspect of when they may accrue to society. This is 
a pretty difficult statement to make and to overcome in the 
analysis. Just a strict summation is going to give you a very 
faulty view.
    Community economics--the major points there are that jobs 
are not jobs. Jobs probably should be converted to some full-
time-equivalent basis, adjusted for wage rates, some of those 
types of things, to show that, for example, increases in 
recreation have this kind of impact.
    And with that, I would close and stand for questioning.
    [The prepared statement of Dr. Harp and Dr. Rimbey may be 
found at end of hearing.]
    Mrs. Chenoweth. Thank you, Dr. Rimbey, very much for your 
excellent testimony.
    The Chair recognizes Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman.
    Mr. Haislip, first, let me compliment you on the quality of 
the material that you've provided the Committee. It's 
extraordinarily helpful to me and helped me understand even 
better some of the issues here.
    One of the things that you point out--and I don't know if 
you were here when I questioned the Forest Chief about this, 
but is it your view that the social and economic considerations 
have to be integrated into the alternatives, or can we just, as 
they have, try to address the impacts of those alternatives 
on--the social and economic impacts on the community?
    Mr. Haislip. We believed, from day one on this project, 
that people should have been part of the alternatives, and were 
led to believe that that's what was going to happen, and we 
watched as those alternatives evolved. Our first reaction was, 
what about the people? And so my sense here continues to be 
that people are not part of the action that are described in 
the alternatives; they are an impacted entity, rather than made 
part of it.
    Mr. Hill. And if you look at the supplemental work that was 
released, I guess, last week, in February, with regard to 
social and economic impacts, does that change your view any?
    Mr. Haislip. I'm sorry, we haven't had a chance to look at 
that material.
    Mr. Hill. Well, my view is that it doesn't, but I'll be 
curious of what your view will be when you're done with that.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. In your judgment, does the science and the data 
that has been collected with regard to the environmental aspect 
of this, does it require the adoption of these standards in 
this process? I mean, is that a logical conclusion, in your 
judgment?
    Mr. Haislip. I think that science is a basis on which you 
make judgments. In this case, creating standards is somebody's 
decision about how he's going to manage. So I don't think that 
there is any overpowering reason why you have to have standards 
out of this. The issue of standards is, to me, more of a policy 
issue, whether you're going to use them here or you're going to 
use them in the forest plan level. We think it's appropriate at 
the forest plan level to have standards, but standards that are 
adopted to the local conditions. To do it on a Basin-wide 
basis, I don't think there's anything in the data that would 
say you have to use standards.
    Mr. Hill. In the material you suggested that you, in fact, 
challenged the legality of the whole process on the basis of 
whether or not the DEIS addresses the consequences of adoption 
of those standards, because it clearly doesn't; at least it 
doesn't from my perspective. Would you comment on that?
    Mr. Haislip. Well, I guess I agree that it doesn't seem to 
have much of an impact analysis on what the standards are 
really going to be, and I think part of it has to do with their 
ability to truly expand or to truly access impact on a Basin-
wide level what a standard would be. Part of it has to do with 
problems that I see in here, where they are misassessing the 
areas that are impacted, the size of the area that's being 
impacted, but I don't think they made much of an effort, quite 
frankly, to truly do much of that impact analysis.
    I guess I'm not an attorney. So I don't know how far I want 
to go in terms of the legality of that. We did have some 
attorneys that helped us take a look at some of that material, 
and there may be some issues in law that I'm unfamiliar with 
that would say you can't really do that legally. I believe that 
to probably be true.
    Mr. Hill. You make note that the plan at this point 
concentrates on a few endangered, primarily endangered species, 
almost to the exclusion of everything else or all other 
species. And I don't know whether this is a fair question to 
ask you, but one of the things that I've asked, and I've asked 
individual forest supervisors this question, is: What's the 
impact going to be on wildlife such as elk, deer, moose, as a 
consequence of this? Is this management plan compatible with 
increasing, improving habitat for those kinds of game animals 
or not? Or, to your knowledge, does this even make any kind of 
effort to evaluate the science?
    Mr. Haislip. Unfortunately, we can't tell from the DEIS 
what the impacts are going to be to the more common species, 
because they're not really addressed.
    Mr. Hill. Yet, this whole plan suggests that recreation is 
going to be the future economy of this area, and today I would 
suggest that hunting and fishing are two of the primary 
activities that occur on these public lands, both from the 
standpoint of outfitters bringing people in, but also the 
recreation of the people who reside in those areas. Am I wrong? 
Did the fact that they were deficient in evaluating the impact 
on the thing that generates the greatest in these lands now, 
that there's some inconsistency there?
    Mr. Haislip. I think you're right.
    Mr. Hill. Well, thank you very much. I really, again, 
appreciate the work that you've done here, and I certainly want 
to agree with you; I think that Congress has got to act on this 
because I really believe that this is a step in the wrong 
direction. If this goes to a Record of Decision and these 
standards are adopted, I think it will cause more conflict. I 
think it will provide less environmental protection, less 
habitat. It will damage our economies. It will upset the 
communities that we have, change the character of the whole 
region. So I appreciate your comments. Thank you very much.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Madam Chairman. I'm very 
grateful to you for allowing me to join this panel. I'm not a 
member of the Committee, but I'm delighted to have a chance to 
listen and appreciate your leadership on this whole issue of 
ecosystem management.
    Gentlemen, welcome also. I'm sorry not to have been able to 
hear all of your testimony. I haven't had a chance to read it 
yet, but I want to recite to you and the Committee that, just 
about an hour ago or so, I was in a hearing with Secretary 
Babbitt on the Interior Appropriations Subcommittee, and the 
Secretary was there seeking funding assistance for his agencies 
for the next fiscal year. And my questions to him related to 
the Interior Columbia Basin and the ecosystem management 
project. He made a statement early on, before I got there, but 
it was related to me, that he was concerned that the Draft EISs 
had been met with such unacceptance, such concern by a lot of 
sectors in the Northwest, but yet he also felt that this would 
be a way to solve the litigation problems that have existed 
relative to timber sales, and so forth.
    And he also made a statement that said, words to this 
effect: that we can never have a full understanding of 
ecosystems. And I couldn't agree more with his comments about 
not having an understanding of ecosystems. I think that the 
word itself has now become artful language that allows 
government policy to take any form that it may want in the name 
of ecosystem management.
    So I'm especially grateful for your comments and your 
testimony, and the fact that you've raised some concerns in 
general about, and in specific about, this project.
    My question to you, each of you--and if you've answered it 
already, forgive me for asking it--but I'm on the 
Appropriations Committee, as I said to you. We look at the 
funding under the Interior Appropriations for this project and 
others. I've in the past been dismayed by the amount of money 
that's been spent and the amount of money that I expect will be 
spent if there is any implementation as the agency seemed to 
want this project to be implemented. So my question to you is: 
What advice do you have for me, as a member of the 
Appropriations Committee, relative to this project? What do you 
think we should do with it on the funding side and in any other 
fashion? What would be your recommendation?
    Dr. Harp. Speaking solely to the social and economic 
assessment, to try to stay at least marginally within my area 
of expertise, I had mentioned earlier that, particularly as a 
sociologist, I think the project should be ceased.
    I would agree with Mr. Haislip that perhaps turning the 
information gathered, which is an enormous quantity of 
information, over to the local area managers and allowing them 
to use it in making local decisions seems like a reasonable 
cutting of the losses. To go forward to a Record of Decision 
and perhaps implementation, with the way the social and 
economic work was done, strikes me as irresponsible.
    Mr. Nethercutt. Anybody else care to comment?
    Mr. Haislip. Yes, I'll comment on that. I guess you may not 
want to hear what I say here, but while I have problems with 
the project, I do believe in the goals of the project, and I 
think it started out in the right direction, and we were strong 
supporters of this project for the last three-and-a-half years. 
It was toward the end that we got disillusioned with it, quite 
frankly. But I think they're kind of on target.
    One of the things that I think this figure over here shows 
you is that we're not even going to get where we want to go 
with the kind of budgets that we're talking about. So I think 
there's a couple of things that need to be done. One, we need 
to get a realistic estimate of what it's really going to take 
to restore our forests in a reasonable amount of time, and 70 
years is not a reasonable amount of time. Maybe our grandkids, 
our great-grandkids are going to be able to see that, but I'm 
not satisfied with that. So I think we're going to have to 
spend a lot of money on restoration. That's item No. 1.
    Item No. 2, I think we'd better find some ways, which the 
documents don't show, how we can do that in an economical 
fashion. One of the things that I'm concerned about is the 
document doesn't talk about use of private sector timber 
interests, for example, or others that could actually make a 
living out of doing this restoration. It doesn't seem to be 
part of the plan, and I think it needs to be part of the plan.
    So we need to find out what the real price tag is going to 
be, and then we'd better be ready to pay for it, because if we 
don't, we're going to spend it all on fighting forest fires 
instead of on restoring lands.
    Mr. Nethercutt. Comments, sir?
    Dr. Rimbey. Do you want me to respond or are we out of 
time? My crystal ball in terms of the basic assumption that we 
will minimize litigation is pretty hazy, but I think it's a 
pretty heroic assumption, given the way that our society has 
progressed.
    Mr. Nethercutt. Thank you, Chairman.
    Mrs. Chenoweth. Mr. Nethercutt, we can return for another 
round of questioning, if you so wish.
    Mr. Nethercutt. Sure. Great.
    Mrs. Chenoweth. Dr. Harp, you indicated that there may be 
some ability of communities to convert to a recreation-based 
economy rather than resource-based, but how can we reconcile 
that with the new roadless area moratorium?
    Dr. Harp. In my experience, in impact assessments, when 
there's an engineering type of thing or there's something 
tangible, it's easy to say, easier to say, what an impact would 
be, and perhaps, if necessary, mitigate. With social impacts, 
it's much more difficult.
    In my experience with communities in Idaho, one of the 
primary forms of impact has been a reduction--in their minds, 
they see a reduction in access to public lands near their 
communities long before the Interior Columbia Project came 
along. So they view that, they view the public land as 
integrated into their social lives, and so as access decreases, 
they don't view recreation as a business; they view it as part 
of their lives. So I think that would be an almost intangible, 
but fairly concrete--it's kind of obviously a tension. If you 
can't get up into the forest to do your own personal 
recreation, that would be a social impact. If when coupled with 
not being able to get up into the forest to do your business as 
recreation, that would be what I would consider to be a double-
whammy. So I'm not clear what type of recreation is compatible 
with access reduced to on-foot, backpacking types of 
recreation.
    As Dr. Rimbey mentioned, jobs are not jobs, and in 
recreation sectors, how people spend money differs greatly 
across the type of recreational activity, and traditionally, 
where you spend it is the $64 question. If you fill up your 
backpack at home and drive 100 miles to a community, go up to 
the trailhead, backpack, come out, and go home, that community 
may have a lot of recreation going on around it, but the 
economic impact would be very limited. I think that is one of 
the things that was very much overlooked in this economic and 
social impact here, is the where, how much money, and if you 
can't get the kinds of recreation that do leave money in 
communities, like outfitted recreation, because of access 
issues, then recreation offers you very little as a rural 
community.
    Mrs. Chenoweth. Dr. Harp, I also want to probe a little bit 
on the very human, personal, social aspects of the impacts of 
plans such ICBEMP. We have known or made the assumptions for 
quite some time that it's not easy to retrain loggers, and it's 
not easy to retrain people who choose to live in smaller 
communities. That's their choice for a lifestyle.
    In your studies, have you delved into the actual social/
psychological impact that this may have on individuals and 
families?
    Dr. Harp. A little bit. One of the terms that I didn't use 
earlier, because I try to be non-jargon, if possible, but in 
the legal literature there's a term in takings literature 
called ``demoralization costs.'' I think that has quite a bit 
of currency as a social term, and essentially, it boils down to 
feeling demoralized when someone else's property is taken, for 
fear that you might be next or that it presents a pattern of 
diminution of some socially acceptable good. I think that's 
essentially a good metaphor for a lot of the impacts on 
individuals and families in these areas.
    Luckily for a lot of folks in Idaho, Idaho's rural 
communities, they have a reasonable mix of things that they do. 
And so if you can't log over here--for example, when I worked 
in Bonner's Ferry, quite a few of the loggers up there had been 
precluded from the woods there, but they were working over in 
northeastern Washington or over in western Montana, but still 
living in Bonner's Ferry. So they got kind of a reasonable 
compromise, if you will, in terms of their lifestyle.
    But when it goes away completely, it does lead to quite a 
bit of very low building up of issues that are a lot of times 
very hard on families, particularly when you lose a 
breadwinner, and then there's nothing; you end up with families 
holding three, four, or five jobs, all of them fairly low pay. 
That produces quite a bit of stress. In communities, they have 
a tendency to have a fracturing of their identity, and that 
also is fairly well-documented, particularly in timber 
communities.
    And with regard to the Interior Columbia effort, I think 
one of the things that goes in hand with what I've just been 
discussing is the way that humans are dealt with in this EIS. 
In my reading, they're dealt with as a source of disturbance, 
an awful lot like fire or a landslide or anything else. They're 
something to be managed as opposed to something that's 
integrated into the process through which decisions about their 
own communities are being made. I found that kind of sad. It 
produces a discourse where the scientists and the professionals 
are the ones doing all the talking, and these folks living in 
these rural communities essentially are treated as a board foot 
or an AUM or something else to be managed. I think when you 
live in those communities and you see that from your 
professional land agencies, I would consider that demoralizing.
    Mrs. Chenoweth. Very interesting.
    Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Chairman.
    A couple of quick, followup questions, gentlemen: Would you 
say that the public comment period and the structure of the 
study, and the other procedural operations of the project, have 
resulted in enough public comment? Do you follow my question? 
In other words, has it provided a maximum opportunity for the 
public to comment and for the public to understand the 
consequences of this study and the Draft Environmental Impact 
Statements? Mr. Haislip, I heard you say that you had faith in 
the beginnings of this effort, but you lost some confidence--if 
I'm not paraphrasing improperly--that you lost confidence a 
little bit as the project moved on.
    Did the availability and the communication with the public 
and the need to have public comment enter into that conclusion 
that you have reached?
    Mr. Haislip. Actually, I would compliment the project on 
that aspect of it. I think they did a fine job of getting lots 
of input, From day one, they've been very open and willing to 
talk, lots of public meetings. The Draft EIS now, gosh, it's 
been 9 months, or it's going to be 9 months or 10 months since 
the thing was out on the street. So I've got to say they've 
provided plenty of opportunity for people to comment. It's a 
good thing they did because it's a complex project and hard to 
understand, but I can't fault them for any of that.
    I have to say that they didn't always listen to what we 
were telling them during the period of time, but certainly they 
listened. They didn't act on it, but they listened.
    Mr. Nethercutt. What do you think is the reason for their 
not acting on what they heard, if you care to speculate?
    Mr. Haislip. I can't speculate. It's individual kinds of 
things. Either they disagreed with us or they chose not to, or 
they had their minds made up when they started and they were 
just smiling and listening. It's hard to know for sure.
    Mr. Nethercutt. How about the other gentlemen, any comment?
    Dr. Harp. I would agree with Mr. Haislip that the quantity 
of the solicitation of public input matches the complexity of 
the project. Those Draft EISs are long, detailed documents, and 
if you have to delve into the scientific documentation behind 
it, it's quite an undertaking, and I think they've been very 
generous with the opportunities to comment on it.
    Dr. Rimbey. I would agree also. I was inhibited at first to 
try to wade through the stack of material, but I think the 
comment period has been sufficiently long, with the extensions 
that have been granted, in anticipation of the new release last 
week, some of those types of things. You know, if most people 
are like me, they get a deadline, and then right at the last 
minute they try to work through it.
    Mr. Nethercutt. I understand. Do any of you perceive a bias 
or a preconception about what the final product would be in the 
agencies, you know, the project participants? Have you sensed 
that they had their minds made up? Mr. Haislip, do you have any 
evidence of that or any sense that that has been their attitude 
along the way?
    Mr. Haislip. I guess I kind of have always felt that to be 
the case, largely because we weren't getting very much 
response, but I couldn't prove it to you. But that's been my 
sense all along, is that they knew what they wanted to do.
    I think, quite frankly, that that might have gotten 
stronger as time goes on. It's typical, when you study 
something, when you start into it, you're pretty open-minded; 
as you start forming opinions about it, they become more and 
more sedentary in your mind or harder and harder for you to 
move off of dead center. So early on, they probably were pretty 
open, but I don't think they got--they didn't stay that way, 
would be my guess.
    Mr. Nethercutt. Did either of the other witnesses detect 
any bias along the way?
    Dr. Harp. I think, in general, there were a few in the 
social and economic stuff, but I think they're fairly standard, 
I guess. I wouldn't say that they were specifically ginned-up 
for the Interior Columbia effort.
    And I would also agree with Mr. Haislip that, as you get 
down to any one detailed part of the chosen alternative, for 
example, it probably jelled over time. So as you do get down to 
public comment, it looks like it's kind of case-hardened. So 
it's very difficult to assess that.
    Mr. Nethercutt. On the socio-economic side of all this, it 
appears to me, in looking at it, that there is greater value 
placed on the recreational use of the natural resources and 
less on the commercial use. Secretary Babbitt said today, well, 
we're going to have an acceptable level of resource use in the 
forest. Perhaps I have a bias, but I don't sense that. I think 
there's an intention to redirect the use of our natural 
resources away from the multiple-use concept that we've had 
over the years, and an attempt at sort of directing people away 
from any kind of commercial use of the forest, instead of 
maintaining that which we've had over the years.
    Would you agree or disagree?
    Dr. Rimbey. I think in some cases you're right. It's 
difficult for me to say from the Draft EIS and some of the 
figures there, but, you know, just the magnitude of, for 
example, the amenity values versus commodity values would lead 
one to say, yes, that has potential of coming.
    Dr. Harp. I would agree there's some kind of quirky things 
in the Draft EIS that would lead me to believe that the 
recreation judgment is kind of shot through the social and 
economic analysis. And looking at the new information that was 
released last week relative to what's in the draft, the tact 
taken on recreation is about an 180-degree turn. It goes from 
asserting that ``X'' percentage of jobs in each of these labor 
market areas is associated with recreation, with no reference 
as to how you created that number, and it flips over to, we 
can't now evaluate recreation on an individual sector. I agree, 
it's very difficult to assess it, but the different kind of how 
you would draw policy conclusions, depending on which of those 
do you show, they're very drastically different courses of 
action. If you do have 70 percent of your jobs represented by 
recreation, well, your policy choices are substantially 
different if you can't get a handle on it.
    So I find on the social side kind of this quicksand 
approach that just boils down to, yes, I think there's a 
definite normative value judgment that communities ought to 
move to a recreation base, and that was the basis partially for 
my criticism of the whole undertaking. I think that's a value 
judgment, and I'm not sure it's borne out with empirical 
support.
    Mr. Nethercutt. Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. Nethercutt.
    I wonder if we might bring the chart back that shows the 
effects of riparian zoning.
    Mr. Haislip. Incidentally, I'd be happy to leave that here 
for you, if you'd like to have it.
    Mrs. Chenoweth. I'd be happy if you would. Thank you very 
much.
    Now, assuming that the only thing left in these areas are 
the two narrow bands between the white lines here, the only 
areas that are not within the riparian conservation areas in 
the landscape context, it looks to me like in that landscape 
context there's about 5 to 10--no, no, no--20 percent of the 
land base that may be available for multiple use. Is that 
correct?
    Mr. Haislip. That's correct, if you could get to it.
    Mrs. Chenoweth. If you can access it?
    Mr. Haislip. Yes.
    Mrs. Chenoweth. Yes.
    Dr. Harp and Dr. Rimbey, have you had the opportunity to 
view Mr. Haislip's work? Have you had the opportunity to view 
this mapping?
    Dr. Harp. No, not me.
    Mrs. Chenoweth. Dr. Rimbey?
    Dr. Rimbey. Nor I.
    Mrs. Chenoweth. Do you feel that it would substantially 
change your testimony at all, since you have here at the 
hearing had the chance to review it?
    Dr. Harp. I probably would have added that it would be now 
even more incumbent to look at. Give me an impact assessment of 
outcomes such as this, the social--I mean, there are no 
judgments about the social impacts in any of the proposed 
alternatives, and a detailed examination like this, getting 
back to the issue of access, kind of demands an assessment of 
how it would impact social organization of the community that's 
used to using those watersheds for things that perhaps now are 
precluded.
    Mrs. Chenoweth. Dr. Rimbey, do you have anything to add?
    Dr. Rimbey. Well, a similar sort of thing in terms of the 
economics. You know, if there is a reduction in land base, 
there may be a reduction in production that comes off of that, 
whether it be AUMs or whatever, and that can be translated 
readily into dollars and cents.
    Mrs. Chenoweth. I wanted to ask you also, Dr. Rimbey, have 
you had the opportunity to review the project's new economic 
and social analysis, the new one?
    Dr. Rimbey. I did a pretty cursory review yesterday on the 
plane out here. It isn't detailed.
    Mrs. Chenoweth. Does it raise or address any of the 
concerns that you have raised here?
    Dr. Rimbey. I think it moves more toward the community. The 
initial Draft EIS had one paragraph in there related to 
essentially that the impacts are going to be felt by these 
small, resource-dependent, rural communities, whereas the 
larger regional economies can adjust. They have the diversity 
within their economy to adjust to impacts of changes in public 
land policy. This moves in that direction. However, it's still 
not to the point where it is quantifiable of this is a benefit 
or this is a cost to a specific community.
    I still have problems with pluses and minuses being 
construed to be costs or benefits, and those are prevalent in 
this new draft.
    Mrs. Chenoweth. Could you also indicate for the record what 
is wrong with the use of contingency values in the economic 
assessments?
    Dr. Rimbey. The contingent value stuff I covered a little 
bit earlier, but I think the big thing is, when they create 
these market-baskets of value from the public lands, there's a 
whole bunch of apples and oranges that are going into it, and 
to allocate resources from that base, I think you're on pretty 
weak ground, particularly when there has been no ground-
truthing of the values used to derive those market values in 
terms of the amenity values within the Basin.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Well, gentlemen, I want to thank you very 
much for your testimony.
    I do want to say, for the record, I appreciate the 
individuals who remained in the hearing room from the agencies, 
and particularly Ms. Giannettino, if you could review the map 
here--I know that you haven't had access to it, nor could you 
see it from where you're seated, but if you could review it and 
maybe coordinate with Mr. Haislip with regard to the 
visualization of what the riparian definition does, I would 
appreciate that very much.
    And then with regard to the work that Mr. Haislip has 
submitted here, if you could submit a comment for the record 
with regard to whether you, as project manager, feel that this 
comports with the definition of riparian areas?
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. So, with that, I do want to say that this 
ends our hearing--and Mr. Nethercutt?
    Mr. Nethercutt. Madam Chairman, may I just interrupt and 
ask, if I may, for the record, since I missed the first two 
panels, I have a couple of questions I would want to submit to 
one or two of the witnesses. If the chairman wouldn't mind, I 
might submit those and then ask that they be responded to in 
writing.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Nethercutt. Thank you.
    Mrs. Chenoweth. I do want to say that the hearing record 
will remain open for 10 days, and we will be submitting more 
questions not only from the Committee, but also from Mr. 
Nethercutt. So we would appreciate your prompt response to the 
questions, because certainly the committee Mr. Nethercutt 
serves on will be using the information that has been gathered 
here.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. And so if there is no further business, the 
chairman again thanks you, Mr. Nethercutt, and the other 
members who joined us in the Subcommittee, and I thank the 
witnesses. You've come a long way. It's been a long hearing, 
and I appreciate your time.
    This Subcommittee stands adjourned.
    [Whereupon, at 1:30 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Martha Hahn, Chair, Executive Steering Committee, Interior 
          Columbia Basin Ecosystem Management Project (ICBEMP)

    Madam Chairman and Members of the Subcommittee:
    I appreciate this opportunity to update the Subcommittee on 
the status of the Interior Columbia Basin Ecosystem Management 
Project (Project). I am Martha Hahn, Idaho State Director for 
the Bureau of Land Management (BLM). Today, I appear before you 
in my capacity as chair of the Interagency Executive Steering 
Committee which oversees the Project.
    My comments today stress the importance of the on-the-
ground activities that would be conducted under the Project, 
such as more aggressive weed treatment and stand density 
management. I will begin by addressing cost and funding issues.
    The ICBEMP is a scientifically sound and ecosystem-based 
management strategy for federally-managed lands within the east 
side of the Columbia Basin. By the end of fiscal year 1998, the 
Project will have spent a total of approximately $40 million to 
research and produce the Scientific Assessments, released in 
September 1996 and May 1997, and the draft Environmental Impact 
Statements (EIS's) for the Eastside of Oregon and Washington 
and for the Upper Columbia River Basin in Idaho and portions of 
Montana, Wyoming, Utah, and Nevada, which were released in May 
1997.
    In fiscal year 1998, the BLM and the Forest Service expect 
to spend about $5.7 million on Project planning activities 
related to the draft EIS's. These activities include holding 
public meetings, briefing State and local governments and 
Tribal officials, and analyzing public comments on the draft 
EIS's.
    Following the public comment period on the draft EIS's, 
which at its close will have spanned nearly one year, the 
Project team will complete its analysis of all public comments 
and prepare the final EIS and a Record of Decision (ROD). 
Public comments may result in changes to the EIS, including 
changes in the Preferred Alternative. Previous funding 
estimates likewise may change. As the Final EIS and ROD are 
developed, the agencies will reassess implementation funding 
needs and will forward these to the Congress.
    Whatever the final decision on the ROD, we will implement 
it to restore long-term ecological integrity to the federally-
managed lands in the Project area. We expect implementation 
costs may first be incurred in fiscal year 1999, with full 
implementation expected in fiscal year 2000. In the fiscal year 
1999 budget request, the BLM is seeking an increase of $6.8 
million for project implementation; the Fish and Wildlife 
Service, an additional $1.5 million; and the Forest Service, an 
increase of $10 million. This additional funding would be used 
to restore lands in the basin to healthy conditions by 
combating invasive weeds, improving fish and wildlife habitat, 
and restoring riparian areas.
    The Project's aim is to minimize potential risks that were 
projected by the Scientific Assessment. These would include: 
the continued decline of salmon and many other species toward 
endangerment; an increasing threat of wildfires (endangering 
human life and dwellings); insect pest population growth; 
declining rangeland productivity; and non-native weed invasions 
(threatening both native plants and grazing livestock health.)
    Project funding will be used to reduce the risk of fire, 
insect infestation and disease, and improve aquatic and 
wildlife ecosystem health by thinning dense forest stands, 
completing prescribed burns, initiating integrated weed 
management and restoring riparian areas. Some of the funding 
will be used to complete prerequisite work that must precede on 
the ground restoration, including sub-basin reviews and 
ecosystem analyses at the watershed scale that will help to 
identify priorities and provide the context for making 
decisions at the local level.
    Additionally, we will address backlog work that has been 
known for some time, such as treating weed infestations, 
reducing high fuel buildup, and improving poor riparian 
conditions.
    Let me turn now to discuss public involvement, which has 
been a cornerstone of the Project. Throughout the planning 
process, the Project team has emphasized collaboration with 
stakeholders in order to facilitate the evaluation of new 
information about socioeconomic and environmental conditions. 
It's taking more time than we had originally estimated, but we 
believe the additional time required to include all interested 
parties in our process is a worthwhile investment. At the end, 
everyone has ownership.
    Since the beginning of the public comment period in May 
1997, Executive Steering Committee members and Project staff 
have participated in over 30 public meetings across the basin. 
More meetings are scheduled to occur before the close of the 
comment period. Last July, we produced a satellite 
teleconference which was broadcast to 56 sites in the region--
over 700 citizens participated. In addition, we have met with 
representatives from State and local governments, Tribal 
officials, over 26 businesses, conservation and civic groups, 
federally sanctioned advisory groups, and local citizens. The 
Project team has a mailing list of over 8,000 individuals and 
organizations. It sends out a newsletter and maintains an 
Internet home page (www.icbemp.gov) where the public can find 
Project documents.
    In part to address issues raised as a result of this 
extensive public involvement, the Project team released last 
week a report, Economic and Social Conditions of Communities. 
As you may recall, when the Draft EIS's were released last May, 
the Eastside Ecosystem Coalition of Counties (EECC) expressed 
concerns about the potential social and economic effects on 
small rural communities due to changes in Federal land 
management resulting from the Project. On April 21, 1997, Judge 
Dale White, chairman of the EECC, and I jointly released a 
letter which stated in part: ``. . . the Regional Executives 
and the EECC have agreed to work together between the Draft and 
Final Environmental Impact Statements, particularly on the 
sections related to social and economic effects.'' Several 
months later, in Section 323 (b) of the Department of the 
Interior and Related Agencies Appropriations Act of 1998 
(Public Law 105-83), the Congress directed the Project to: 
``analyze the economic and social conditions, and culture and 
customs, of the communities at the subbasin level within the 
Project area and the impacts the alternatives in the draft 
EIS's will have on those communities.''
    Our goal was to produce a report that would meet 
Congressional direction and allow the public to have ``a 
reasonable period of time'' prior to the close of the comment 
period in which to review and comment on this Report and the 
Draft EIS's. The comment period has been extended until May 6, 
1998, to give the public such time.
    The socio-economic report expands upon information in the 
two Draft EIS's, and provides additional data on economic and 
social conditions of communities in the Project area. It 
discusses potential impacts of the management alternatives 
presented in the Draft EIS's on communities specializing in 
industries, such as agriculture, wood-products manufacturing, 
and mining, for which standardized industry category data were 
available. Economic impacts associated with industries that do 
not collect standardized economic data, such as recreation, and 
non-resource related industries that locate in the region 
because of resource-related amenities, such as high-tech firms, 
are not fully addressed in this report.
    In conclusion, we must manage public lands to provide for 
sustainable populations of plant and animal species on behalf 
of present and future generations of Americans and we must 
create a sustainable flow of goods and services that can 
support our local communities over the long-term. The members 
of the Executive Steering Committee are committed to achieving 
these goals through the Project. We ask for your support.
    This concludes my statement and I will be glad to answer 
any questions you may have.
                                ------                                


        Statement of Hon. Dennis Reynolds, Grant County, Oregon

    Thank you, Chairwoman Chenoweth for inviting me to testify 
before this oversight hearing. I am humbled by my surroundings 
and the stature of your Committee. My name is Dennis Reynolds, 
Grant County Oregon, Judge. My county is entirely included 
within the planning boundaries of the Interior Columbia Basin 
Project. I have monitored the project since I was first elected 
in 1995.
    I was not always an elected official. I often say: ``I am a 
Forester by Education; Sawmill Manager by Experience; A 
Contract Logger by Choice; and a County Judge by means of 
Temporary Insanity.''
    I will share with you the status of the ICBEMP from the 
eyes of an elected official of an impacted county. Grant County 
is specifically asking that the peer reviewed and peer approved 
science assembled in the ICBEMP process be codified and made 
available to all National Forests and BLM districts to be 
incorporated in each of their respective plans. We are asking 
that the ICBEMP not proceed to a Record of Decision.
    Nothing within this testimony should be construed to imply 
that Grant County wants anything less than vital communities, 
clean water, clean air, healthy Federal lands, and a functional 
Federal/County relationship. While we agree with the Eastside 
Ecosystem Coalition of Counties on these wants we respectfully 
disagree on how to obtain them.
    I speak to you today as an elected official of Grant 
county, representing 7,950 residents residing on 2,897,920 
acres of land of which 64 percent is publicly managed. Our 
principal industries include Forestry, Livestock, Agriculture, 
Hunting, and Recreation. Grant County was created in 1864 and 
contains the headwaters of the John Day River, which has more 
miles of Wild and Scenic designation than any other river in 
the United States.
    Grant County also is known for its exceptionally high rate 
of unemployment. An article titled ``Grant County's jobless 
rate highest in state.'' The Oregonian on February 17, 1998 
reported Grant County finished 1997 with an unemployment rate 
of 12.5 percent. Its jobless rate was the worst in Oregon while 
the seasonally adjusted unemployment rate in Oregon stood at 
5.3 percent in December. ``Six times during 1997 the Eastern 
Oregon county's unemployment picture is the worst in the 
state.''
    Grant County's average annual pay per job in 1996 was 
$21,831 while Oregon's was $27,031 and the United States was 
$28,945. (Oregon Employment Department 1998 Regional Economic 
Profile Region 13, pg 40)
    Grant County's economy has been identified by the Oregon 
Economic Development Division as the second most likely county 
to suffer economic collapse in future years.
    My county Assessor reports real estate prices are booming 
in Oregon. They sure aren't in Grant County.
    I am convinced Federal laws provide a place at the land use 
management table for local government involvement and joint 
planning. I am not convinced the intent of the law is served 
when the Federal agencies plan with delegates designated by an 
association of counties to which our county may or may not 
belong. The Eastside Ecosystem Coalition of Counties represents 
the state associations of counties of Washington, Oregon, 
Idaho, and Montana.
    Grant County has not delegated planning or representation 
authority to either the Association of Oregon Counties or the 
Eastside Ecosystem Coalition of Counties.
    Counties are distinctively different. For every variable 
you can list there is little chance another county is exactly 
the same. Because we are different our needs are not the same.
    A major concern we have for the implementation of the 
ICBEMP relates to these differences. Like ecosystems our 
counties have specific subsistence needs. The ICBEMP attempts 
to address all of these specific ecosystem needs and county 
needs with the same ``one size fits all'' Objectives and 166 
Standards. These Standards we fear will not provide the 
flexibility local managers will need to accommodate the 
individual needs of our county.
    Grant County identified this issue early in the process. 
Other counties agreed and became more concerned. Thankfully, 
Congress responded and invited additional socio-economical 
analysis. Near the end of January 1998 a member of the 
Association of Oregon Counties and a second member of the 
Oregon delegation to the EECC explained they had previewed the 
additional analysis and reported additional matrixing had 
reviled, as we had professed, there were ``low resiliency'' and 
``low, low resiliency'' counties. Again I was orally assured 
all nine incorporated cities in Grant County had risen to the 
top of the list of the lease resilient communities.
    As of March 4, 1998 I have yet to see a copy of the new 
socio-economical analysis document. It was to be released in 
mid February.
    All of the extensive and 40 million plus dollar planning 
done thus far for the ICBEMP and the economic team leader Mr. 
Nick Reynahas been unable answer the question foremost in the 
minds of Grant County citizens. What does all of this mean 
specifically to Grant County? On two occasions I asked the 
question. In response if was told if our communities happen to 
be close enough to an area where restoration activities might 
occur, they might receive a benefit, if they were not close to 
an area where the restoration activity occurred then they more 
than likely would not benefit. Page 4-181 of the DEIS 
concentrates restoration within the wildland/urban interface. 
The wildland/urban interface is generally highly resilient. 
Restoration activity needs to be directed toward areas of least 
economic resiliency.
    Nothing within the DEIS is specifically clear on how the 
lowest resiliency communities will be addressed, now that they 
have been further quantified and delineated.
    Why are the ICBEMP planners not equally concerned with how 
they are complying with the Sustained Yield Forest Management 
Act of 1944 which established the even-flow sustained yield 
policy for timber harvest with a focus on community stability 
(emphasis added) as they appear to be with complying with the 
Endangered Species Act and National Forest Management Act of 
1976?
    Grant County has been skeptical of the Federal/county 
collaborative relationship from the onset of the ICBEMP. On 
January 22, 1998 the U.S. Department of Agriculture's Chief of 
the Forest Service, Mike Dombeck proposed to halt all road 
construction in roadless areas on National Forests. A definite 
violation of trust by the absence of collaboration. On February 
10, 1998 he held a private meeting with county commissioners 
John Howard and Pat Wortman and Association of Oregon Counties 
staff and apologized for proceeding with the proposal without 
first having involved the counties in the basin. He termed it a 
serious mistake. (EECC 24th Report 2/18/98) On February 13th in 
LaGrande USFS Chief Dombeck by phone apologized again to 
attendees of an open forum assembled by Oregon Governor 
Kitzhaber. Yet the proposal continues with little to no respect 
given the betrayed counties.
    Grant County had been told this collaborative technique was 
the only way to go, for so long, it was difficult for us not to 
say we told you so.
    Grant County continues to fear and predict that in spite of 
all the planning efforts exhausted on the ICBEMP, if it goes to 
a Record of Decision, it will be appealed and subsequently 
litigated. The planning process will simply consolidate and 
stop all proposed activities on 144 million acres in one 
litigation.
    On February 13, 1998 Oregon's Governor Kitzhaber invited 
all counties to embrace the notion of collaborative 
consultation. At the same time a member of his forest health 
task force reported that with the aid of the task force 
Governor Kitzhaber had identified 26 USFS timber sales that he 
felt should continue in the sale process to harvest. The Badger 
timber sale on the Malheur National forest was one of those 26 
sales. Even with the intensive scientific review and 
considerable scrutiny and site visit by the Governor's task 
force and subsequent endorsement by the Governor of the State 
of Oregon the sale is now in litigation. Its award is uncertain 
much to the discouragement of the citizens of Grant County.
    Frivolous litigation must be legislatively stopped. The 
situation can not be resolved until the weakest link in the 
chain, which is now an inevitable litigation at the end of any 
planning process, is removed. In the words of an elderly 
forester friend of mine, ``When the tail starts to wag the dog, 
it's time to cut the tail off.''
    Management decision makers must be legislatively empowered 
to make decisions consistent with their professional expertise 
and required to utilize codified, peer reviewed and peer 
approved science. These managers deserve a degree of litigative 
insulation if they have applied the science consistently.
    In another valiant and respectable effort Governor 
Kitzhaber pushed to completion The Oregon Plan, a Coastal 
Salmon Restoration Initiative designed to avoid the listing of 
the coastal coho salmon runs. The plan was put in place in 
spite of much local opposition. It received the endorsement of 
the National Marine Fisheries Service. Last week less than a 
year into the plan that was in the making since October of 
1995, the National Marine Fisheries Service unilaterally 
decided to mandate additional restrictions on harvest of 
private timber administered by Oregon State Forestry. A 
substantial amount of private timber harvest appears now in 
jeopardy. So extreme are the proposed restrictions some 
industry representatives are indicating some lands will be 
totally lost to management.
    Can we trust these Federal/County collaborative efforts? 
Grant County thinks not. The only hope for these efforts is to 
bring the decisions home to the situations and apply codified 
science with participation from local planners, both Federal 
and county and local stakeholders.
    Grant County is concerned about the degree of secrecy 
surrounding the ICBEMP.
    The first draft of the ICBEMP was dated July 12, 1996. I 
asked the Oregon Association of Counties for a copy. They 
indicated the EECC had signed an agreement not to share any of 
the information with the outside. My contact indicated I might 
get my local Regional Advisory Council to ``leak'' a copy to 
me. After much effort I received a draft copy labeled ``(for 
FACA-Exempt Agency Review Only)'' on December 31, 1996 from the 
USFS. I am of the opinion counties are FACA exempt.
    If counties are FACA exempt, what authority did EECC 
members have to conduct executive meetings and deny other 
impacted county participation? To the extent my personal 
knowledge can relay executive meetings were held on October 7, 
1997 at Walla Walla, February 12, 1998 in Boise, Idaho, and 
February 13, 1998 in LaGrande, Oregon.
    I attempted to obtain copies of forest reviews of the draft 
EIS. I obtained copies of comments from the Wallowa-Whitman and 
Umatilla National Forests. Each review was comprehensive 
raising serious questions and providing suggestions. One review 
when responding to the positive stuff reiterated ``Nice 
Sidebars, good fonts, Colorful maps.'' The reviews were not 
particularly supportive of the draft EIS. Suddenly availability 
of review documents similar to these became unavailable from 
any other forests.
    Computer GIS systems were seen as a visual management tool. 
I obtained a set of three draft computer overlay maps that 
attempted to pictorially project the impact effect of 
Alternative 4 implementation. The first map displayed the 
management intensity in 1987 according to the Forest and Land 
Management Plan of that year. The second map displayed the 1996 
timber management opportunities after implementation of all 
applicable laws and direction. The third map displays the 
potential ecosystem restoration intensity preliminary as of 
August 20, 1997. In each case the higher degree of intensity is 
displayed by a darker color. The no management areas are white. 
All ranges of management between are a lighter shade of the 
darker color. It is vividly obvious that as you progress from 
1987 to 1997 the map becomes very light with a great deal of 
white visible. The other major difference is the buffer strips 
becoming white and wider. These areas take on the appearance of 
veins in leaves. The legends change from intensity of 
management in the first two maps to intensity of timber based 
restoration in the last map. It's my understanding these maps 
have been sequestered. If so; why are the authors of the ICBEMP 
afraid of this information becoming common knowledge in the 
area of impact?
    Current management decisions continue to be plagued by 
conflicting and overlapping Federal laws and regulations. 
ICBEMP does nothing to reduce the overlap but compounds the 
problem with an additional 166 Standards. A case in point is 
the Summit fire salvage sale on the Malheur National forest. On 
August 13, 1996 a lightning storm started what was to become 
the Summit Fire. It was eventually controlled at 37,961 acres 
on September 16, 1996. The Long Creek district of the Malheur 
National Forest contained 28,286 acres or 75 percent of the 
burned over area. The district immediately began an 
Environmental Impact Statement to analyze recovery 
alternatives. A draft EIS was published in April of 1977. A 
Final EIS with Record of Decision was published September 1997. 
Two appeals were filed on the last day to file appeals, one by 
the Tribes and one by a coalition of 10 environmental groups. 
The forest supervisor announced his intent to withdraw his 
decision on December 12, 1997 and formally withdrew the 
decision on January 8, 1998.
    In a recent meeting with the forest service the forest 
service team members discussed with the crowd the pros and cons 
of how many standing dead trees to leave to meet Management 
Indicator Species constraints. The area in question was about 7 
percent of the proposed activity area which was about 11,000 
acres, which was about 29 percent of the total area burned. 
Therefore, if you allow the surface area of this page to 
represent the 37,961 acres burned the square at the top of this 
page represents the proportionate size of the area in question. 
What covers the remainder of this page? More standing dead 
trees. This makes no sense to the rational thinking person. In 
the meantime we are days down the road from the death of the 
trees. They have deteriorated in value to the American 
taxpayers approximately $13,000,000 in value and continue to 
decline in value until about the end of the year when they are 
likely to be of no sale value to the American taxpayers. At 
that time the American taxpayers will have lost an additional 
$15,600,000 including an estimated $1,600,000 in sale analysis. 
The laws then require the American taxpayers to fund the 
reforestation project to the tune of numerous more millions of 
dollars. While all this transpires the stream continues to run 
chocolate brown. Salmon spawning beds continue to silt. The 
county will have lost a little more than $8,000,000 of family 
wage payroll not including the in county turn over benefit. I 
ask you, who wins in this scenario? If only the American 
taxpayers knew what was being wasted!
    From Grant County's perspective, given the above 
information, the ICBEMP should not proceed to a Record of 
Decision.
                                ------                                


 Statement of Charles Decker, President, CRD Timber & Logging, Libby, 
                                Montana

    Good Morning. My name is Charlie Decker and I live and work 
in Lincoln County, Montana. I am here as a small business owner 
and resident. I am not representing the Rocky Mountain Elk 
Foundation although I am a founder and board member. Neither am 
I representing Montana Fish, Wildlife and Parks although I have 
been a commissioner for the past six years.
    I hope I represent common sense. The people who have been 
writing the draft EIS on the Upper Columbia River Basin have 
more degrees than a thermometer. You would figure with all that 
education and the time and money spent, the draft ElS might 
make sense. It doesn't. The way I understand it, it makes 
Northwestern Montana into an outdoor theme park. It takes 
management decisions out of the hands of the people closest to 
the land It guarantees employment for environmental lawyers and 
unemployment for local citizens. Worst of all, it hurts the 
land.
    I realize that what I am saying doesn't agree with the 
``experts.'' During my six years on the Fish, Wildlife and 
Parks Commission, I have on occasion. tangled with professional 
biologists and other experts. Too many times, I have seen a 
study to support an agenda.
    The experts don't seem to realize that I work, hunt and 
fish on the lands of Lincoln County. I talk to loggers, 
hunters, fishermen and other folks on a daily basis. If we are 
losing moose population in the Yaak, I hear about it. If big 
rainbows are biting in the Kootenai, it takes a few days longer 
for some reason, but I hear about it.
    I know we aren't harvesting enough timber in Lincoln 
County. We are growing 500 million board feet a year in the 
Kootenai National Forest and we are only harvesting 80 million 
board feet. Somewhere around 300 million board feet just plain 
dies. I see it every day. We are creating a huge tinderbox. A 
couple of lightning strikes after a dry winter like this and we 
will have thousands of square miles of stumps and ashes.
    Now, I may be wrong, but a burn area does not provide much 
recreation or economic value. Eventually, the burn grows back. 
This is how the Upper Columbia River basin has managed itself 
since the last ice age--complete with the erosion and damage 
caused by major forest fires.
    Using common sense, we can manage the forest, harvest the 
timber and avoid catastrophic waste. Sensible logging opens the 
forest canopy, increases the food supply for wildlife and 
reduces the loss due to fire and disease.
    I am not here because harvesting a few more logs will make 
me rich. You can ask my wife. After forty years of hard work we 
are just about breaking even. I am here because most folks 
don't have the time or money to fight the bureaucracy behind 
the draft EIS.
    We run the county on a constitution you can fold and put in 
you pocket. Instead of the thousand pages of draft EIS, we need 
broad principles that balance environmental concerns with local 
economies. Then, local managers need the power to make 
decisions.
    Most important of all, we need to move beyond ``studying'' 
the situation. If the U.S. Forest Service had existed in 
Jefferson's day, we would still be studying the Louisiana 
Purchase. If there are problems in the Upper Columbia River 
Basin, let's put them in plain English. Let the local people 
have the first run at solving them, rather than have 
``answers'' dictated by bureaucracy and biased experts. And 
let's start managing our resources before they burn to the 
ground.

[GRAPHIC] [TIFF OMITTED] T7765.001

[GRAPHIC] [TIFF OMITTED] T7765.002

[GRAPHIC] [TIFF OMITTED] T7765.003

[GRAPHIC] [TIFF OMITTED] T7765.004

[GRAPHIC] [TIFF OMITTED] T7765.005

[GRAPHIC] [TIFF OMITTED] T7765.006

[GRAPHIC] [TIFF OMITTED] T7765.007

[GRAPHIC] [TIFF OMITTED] T7765.008

[GRAPHIC] [TIFF OMITTED] T7765.009

[GRAPHIC] [TIFF OMITTED] T7765.010

[GRAPHIC] [TIFF OMITTED] T7765.011

[GRAPHIC] [TIFF OMITTED] T7765.012

[GRAPHIC] [TIFF OMITTED] T7765.013

[GRAPHIC] [TIFF OMITTED] T7765.014

[GRAPHIC] [TIFF OMITTED] T7765.015

[GRAPHIC] [TIFF OMITTED] T7765.016

[GRAPHIC] [TIFF OMITTED] T7765.017

[GRAPHIC] [TIFF OMITTED] T7765.018

[GRAPHIC] [TIFF OMITTED] T7765.019

[GRAPHIC] [TIFF OMITTED] T7765.020

[GRAPHIC] [TIFF OMITTED] T7765.021

[GRAPHIC] [TIFF OMITTED] T7765.022

[GRAPHIC] [TIFF OMITTED] T7765.023

[GRAPHIC] [TIFF OMITTED] T7765.024

[GRAPHIC] [TIFF OMITTED] T7765.025

[GRAPHIC] [TIFF OMITTED] T7765.026

[GRAPHIC] [TIFF OMITTED] T7765.027

[GRAPHIC] [TIFF OMITTED] T7765.028

[GRAPHIC] [TIFF OMITTED] T7765.029

[GRAPHIC] [TIFF OMITTED] T7765.030

[GRAPHIC] [TIFF OMITTED] T7765.031

[GRAPHIC] [TIFF OMITTED] T7765.032

[GRAPHIC] [TIFF OMITTED] T7765.033

[GRAPHIC] [TIFF OMITTED] T7765.034

[GRAPHIC] [TIFF OMITTED] T7765.035

[GRAPHIC] [TIFF OMITTED] T7765.036

[GRAPHIC] [TIFF OMITTED] T7765.037

[GRAPHIC] [TIFF OMITTED] T7765.038

[GRAPHIC] [TIFF OMITTED] T7765.039

[GRAPHIC] [TIFF OMITTED] T7765.040

[GRAPHIC] [TIFF OMITTED] T7765.041

[GRAPHIC] [TIFF OMITTED] T7765.042

[GRAPHIC] [TIFF OMITTED] T7765.043

[GRAPHIC] [TIFF OMITTED] T7765.044

[GRAPHIC] [TIFF OMITTED] T7765.045

[GRAPHIC] [TIFF OMITTED] T7765.046

[GRAPHIC] [TIFF OMITTED] T7765.047

[GRAPHIC] [TIFF OMITTED] T7765.048

[GRAPHIC] [TIFF OMITTED] T7765.049

[GRAPHIC] [TIFF OMITTED] T7765.050

[GRAPHIC] [TIFF OMITTED] T7765.051

[GRAPHIC] [TIFF OMITTED] T7765.052

[GRAPHIC] [TIFF OMITTED] T7765.053

[GRAPHIC] [TIFF OMITTED] T7765.054

[GRAPHIC] [TIFF OMITTED] T7765.055

[GRAPHIC] [TIFF OMITTED] T7765.056

[GRAPHIC] [TIFF OMITTED] T7765.057

[GRAPHIC] [TIFF OMITTED] T7765.058

[GRAPHIC] [TIFF OMITTED] T7765.059

[GRAPHIC] [TIFF OMITTED] T7765.060

[GRAPHIC] [TIFF OMITTED] T7765.061

[GRAPHIC] [TIFF OMITTED] T7765.062

[GRAPHIC] [TIFF OMITTED] T7765.063

[GRAPHIC] [TIFF OMITTED] T7765.064

[GRAPHIC] [TIFF OMITTED] T7765.065

[GRAPHIC] [TIFF OMITTED] T7765.066

[GRAPHIC] [TIFF OMITTED] T7765.067

[GRAPHIC] [TIFF OMITTED] T7765.068

[GRAPHIC] [TIFF OMITTED] T7765.069

[GRAPHIC] [TIFF OMITTED] T7765.070

[GRAPHIC] [TIFF OMITTED] T7765.071

[GRAPHIC] [TIFF OMITTED] T7765.072

[GRAPHIC] [TIFF OMITTED] T7765.073

[GRAPHIC] [TIFF OMITTED] T7765.074

[GRAPHIC] [TIFF OMITTED] T7765.075

[GRAPHIC] [TIFF OMITTED] T7765.076

[GRAPHIC] [TIFF OMITTED] T7765.077

[GRAPHIC] [TIFF OMITTED] T7765.078

[GRAPHIC] [TIFF OMITTED] T7765.079

[GRAPHIC] [TIFF OMITTED] T7765.080

[GRAPHIC] [TIFF OMITTED] T7765.081

[GRAPHIC] [TIFF OMITTED] T7765.082

[GRAPHIC] [TIFF OMITTED] T7765.083

[GRAPHIC] [TIFF OMITTED] T7765.084

[GRAPHIC] [TIFF OMITTED] T7765.085

[GRAPHIC] [TIFF OMITTED] T7765.086

[GRAPHIC] [TIFF OMITTED] T7765.087

[GRAPHIC] [TIFF OMITTED] T7765.088

[GRAPHIC] [TIFF OMITTED] T7765.089

[GRAPHIC] [TIFF OMITTED] T7765.090

[GRAPHIC] [TIFF OMITTED] T7765.091

[GRAPHIC] [TIFF OMITTED] T7765.092

[GRAPHIC] [TIFF OMITTED] T7765.093

[GRAPHIC] [TIFF OMITTED] T7765.094

[GRAPHIC] [TIFF OMITTED] T7765.095

[GRAPHIC] [TIFF OMITTED] T7765.096

[GRAPHIC] [TIFF OMITTED] T7765.097

[GRAPHIC] [TIFF OMITTED] T7765.098

[GRAPHIC] [TIFF OMITTED] T7765.099

[GRAPHIC] [TIFF OMITTED] T7765.100

[GRAPHIC] [TIFF OMITTED] T7765.101



          INTERIOR COLUMBIA BASIN ECOSYSTEM MANAGEMENT PROJECT

                              ----------                              


                        TUESDAY, APRIL 14, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Nampa, Idaho.
    The Subcommittee met, pursuant to notice, at 1 p.m. in City 
Hall Council Chambers, 411 3rd Street South, Nampa, Idaho, Hon. 
Helen Chenoweth (chairman of the Subcommittee) presiding.
    Mrs. Chenoweth. Today the Subcommittee is meeting today to 
hold an oversight hearing and hear testimony on the Interior 
Columbia Basin Ecosystem Management Project.
    After numerous hearings in Washington, DC on this subject, 
I am especially pleased to hold this Subcommittee meeting in 
Idaho to hear directly from the many people here who I know 
have many concerns of their own. We will hear from as many of 
you as possible this afternoon, immediately following the 
fourth panel.
    Please be sure to sign up at the table in the back of the 
room if you would like to speak. If we run out of time at 6 
p.m. before we get to you, please submit your statements so 
that we can include them in the record. And, frankly, I am as 
willing to stay here and listen to you as you are willing to 
sit through this hearing in order to offer us your testimonies.
    Both the House and Senate authorizing committees have 
reviewed the process and the progress of this project since 
shortly after it was initiated in 1994. In 1996 the Forest 
Service assured us that these ecoregion assessments would 
``save time and money in the long run.'' Since that time, 
however, the projected cost has risen, and the estimated 
completion date has been delayed year after year.
    By 1995, the agencies estimated it would be an 18-month 
project costing $31 million, only 18 months costing $31 
million. Now we are in the fifth year with the cost to the 
taxpayers of $40 million and counting. The agencies now 
estimate project implementation will cost $125 million per year 
in addition to funds that are already allocated to the agencies 
or management activities within the basin.
    Just last month, the chair of the executive steering 
committee, Martha Hahn, testified before my Subcommittee that 
the BLM and Forest Service will spend $5.7 million this year on 
the draft EIS. This does not even include what the regulatory 
agencies are spending. These continually rising costs have been 
a concern to the appropriators as well as to those of us who 
are the authorizers. They recognize that the price tag is 
unreasonable and out of reach and that the project has never 
been authorized by Congress.
    I am afraid we have reached a point of paralysis of 
analysis. In 1995, an interagency task force chaired by the 
Council on Environmental Quality cited potential drawbacks of 
broad-scale analyses like the Columbia Basin Project, 
expressing concern with the inefficiencies and ineffectiveness 
in the use of resources because of the added level of NEPA 
documentation.
    It also found both limited usefulness and vulnerability to 
legal challenges. More recently, even the agencies involved in 
the project have echoed these concerns to varying degrees.
    So I must seriously question why this administration 
continues to work on a decision that is not authorized by 
Congress, leads to greater inefficiencies with ever increasing 
costs and has limited usefulness?
    I am told that forest managers working in the basin believe 
that the plan cannot be implemented due to the top-down 
constraints it would impose on them, and that the alternatives 
will not achieve the project objectives. And we have been told 
that many of these rigid standards were added last year because 
the regulatory agencies did not trust the management agencies.
    Yet there are no performance standards governing the 
regulatory agencies in this process. Similarly, the project 
managers admit that due to the very broad scale of the Columbia 
Basin Project, the impacts of changes imposed on local plans 
cannot be accurately assessed.
    The National Forest Management Act and the National 
Environmental Policy Act together require the Forest Service to 
prepare land and resource management plans for each unit in the 
National Forest System and to analyze and disclose the impact 
of any proposed decision.
    By all accounts, this management plan, the ICBEMP, does not 
meet these requirements. The CEQ task force suggested that this 
type of broad scale analysis should be used only as guides 
during the agency's decisionmaking processes. It should not 
result in a one-size-fits-all decision. We should heed this 
advice and halt this incredible waste of taxpayer dollars.
    One of the key findings of the science assessment was that 
the Interior Columbia Basin is highly variable both in terms of 
ecological conditions and social and economic structures. 
Therefore, instead of funding completion of the Columbia Basin 
Project, Congress should now direct the agencies to forward the 
vast scientific information that has been collected to local 
national forest and BLM district managers so that they may use 
it where it can best be applied, at the local forest and 
district level.
    The chairman notes that the Ranking Minority Member from 
New York was unable to attend this Subcommittee hearing, but 
the Subcommittee will accept any statements he may have for the 
record.
    I do want to also say for the record that my staff, 
including Anne Heissenbuttel from the Committee staff in 
Washington, DC, and Jim Gambrell, who is my district director 
here in Idaho, who will join me up here to help with these 
hearing processes, have gone to great lengths to try to make 
sure that we have been able to hear from everyone. And we 
contacted and, of course, worked with the Minority staff and 
asked them to contact those people who would favor this 
ecosystem planning process.
    To date we have not been very successful. We also asked 
Steve Holmer from the Western Ancient Forest Campaign to 
suggest people here in Idaho who would be very interested in 
testifying. We do have just a handful.
    But I do want to say for any of you who are in the 
audience, you would be more than welcome to be heard, and your 
testimony will be made a part of the record. We will have to 
limit the oral testimony, as we do with all of our witnesses, 
but your entire testimony will be entered into the record and 
will become a part of the permanent record that I will take 
back to Washington, DC, as we analyze and determine future 
congressional actions on this particular project.
    And now I would like to introduce our first set of 
witnesses. I wonder if they might take their place at the 
table. I ask that Representative Chuck Cuddy from the Idaho 
State Legislature join us, Commissioner Dick Bass, Chairman of 
the Owyhee County Commission in Murphy, Idaho, and Frank Walker 
from the Ada County Commission. Are Mr. Cuddy and Mr. Walker 
here?
    They aren't here yet. If they arrive later, we will take 
their testimony then. Mr. Bass, I am awfully glad to see you 
join us today.
    But before we continue, I would like to explain that I 
intend to place all of our witnesses under oath. This is a 
formality of the Committee that is meant to assure open and 
honest discussion and should not affect the testimony given by 
the witnesses.
    I believe all of the witnesses were informed of this before 
appearing here today, and they have each been provided a copy 
of the Committee rules. So if you will rise and raise your 
right arm.
    [Witness sworn.]
    Mrs. Chenoweth. Mr. Bass, will you please proceed.

     STATEMENT OF RICHARD BASS, CHAIRMAN, BOARD OF COUNTY 
              COMMISSIONERS, OWYHEE COUNTY, IDAHO

    Mr. Bass. Thank you, Representative Chenoweth. I come here 
with the blessings of my fellow commissioners in Owyhee County 
on the subject.
    Representative Chenoweth, members of the Subcommittee 
staff, it is my pleasure to have the opportunity to testify 
today regarding the Interior Columbia Basin Ecosystem 
Management Project. I want to specifically direct my testimony 
to the failure of the Federal agencies to coordinate the 
development of the project with Owyhee County and other 
counties engaged in the local land use planning process.
    I know the agencies have told Congress that they have 
extensively coordinated the project with local government, and 
I know that the draft EIS makes the same representation. But 
that representation is misleading and does not tell you or the 
public the truth about coordination, especially as coordination 
is required by Federal statutes.
    FLPMA, the Federal Land Management Planning Act, 
specifically provides that the Secretary of Interior ``shall,'' 
it is in quotes, coordinate land use inventory, planning, and 
management activities with the land use planning and management 
program of other Federal departments, agencies, and of the 
state and local governments within which these lands are 
located. And that statute is 43 USC 1712(c)(9).
    FLPMA further provides that if after coordinated planning, 
a Federal plan is inconsistent with local county plan, the 
secretary ``shall,'' that is in quotes again in the code, 
assist in resolving the inconsistencies. The statute also 
provides that the secretary must assure that the Federal plan 
is consistent with state and local plans to the maximum extent 
possible.
    These mandates are required coordination of development of 
the draft EIS and the selection of a preferred alternative and 
with those counties in Idaho which have a land use planning 
management program.
    Owyhee County is such a county. We adopted a land use plan 
setting forth guidelines for management of the Federal lands in 
our county in 1993.
    Our land use planning and management program, as to the 
Federal lands, has been in existence and actively developed 
since 1992. The BLM, Boise district, the Boise state office, 
the Secretary of Interior, have all been specifically advised 
of the Owyhee County plan and the planning management program. 
Repeatedly, agency personnel have told Members of Congress that 
there was extensive coordination with local county government 
in the development of the draft EIS and alternatives. This is 
simply not true.
    The ecosystem project staff working with the association of 
counties in both Washington, Oregon, and Idaho established a 
coalition of members of the association to work with the 
project staff in developing the draft EIS. But such work with 
the coalition did not include coordination with the counties 
who have a planning and management program.
    And such work with the coalition is not an adequate or even 
satisfactory compliance with the congressional mandate of 
coordination. I want to tell you here today, as I have made 
myself clear to the association of counties, that the Idaho 
association of counties is simply a lobbying and informational 
association which counties may join on a voluntary basis. The 
association has no authority to speak for the citizens of 
Owyhee county. And the association has no authority to 
substitute for Owyhee County and planning activities with the 
planning teams.
    Owyhee County has repeatedly voiced its objection to the 
failure of the ecosystem project staff to coordinate with the 
county. It has repeatedly voiced its objection to the attempt 
of the project staff to substitute the coalition of counties 
for local government officials of Owyhee County and other 
counties which have land use plans and programs.
    I have personally stated our county's objection to the 
process, used for development of the draft EIS on many 
occasions. I have personally stated and written our objections 
to the BLM staff, to Steve Mealey, who was the former project 
director, and other members of the project team in Boise and 
Walla Walla, and to the Secretary of the Interior and the 
association of counties, and the members of the coalition.
    In spite of the repeated protests and objections, there 
have been no coordination with our county. We believe that the 
same failure to coordinate occurred with each of the counties 
throughout Idaho, which have a local planning and management 
program for the Federal lands.
    We made our request for coordination from the inception of 
the project, and our requests were ignored. We made demands for 
coordination and specifically set forth the statutory 
provisions requiring coordinations.
    Now, Congressman, we make our objections to the project 
process to you as the oversight authority over management of 
the Federal lands.
    That ends my oral testimony. I have written testimony that 
I prepared and gave to your Committee, your staff. I also have 
some copies of our county land use plan that I will leave with 
your staff. I was informed that we only needed five copies and, 
if we need more, I will certainly provide them to you.
    But I need to tell you how frustrating it is to, in this 
time in our lives, be subject to the spin of the Federal 
Government, and about coordinating with the counties when they 
don't--they say they are. They have a selected few 
commissioners that they will talk to. But when it comes down to 
talking to the counties, they just--they won't.
    They are not telling you the truth when they say that they 
are. They are not doing what the Federal law, that you have 
helped to pass, they don't want to follow that. And we want to 
follow it to the letter of the law. We are not making any of 
these things up. I would be glad to answer any of your 
questions that I can. If you need additional information, I 
will certainly give it to you.
    Mrs. Chenoweth. Thank you, Commissioner Bass. It was very 
interesting testimony. And without objection, your entire 
written testimony will become a part of the record as well as 
an addendum, that being the written Owyhee County plan. And I 
have not seen the latest plan, but usually they are very well 
done, and I appreciate you bringing the copies for us.
    I do have some questions for you. Is it pretty clear to 
you, or do you have any evidence at all, that the management 
team that put this plan together, do you have any evidence at 
all that they ever reviewed your Owyhee County plan?
    Mr. Bass. No, not really.
    Mrs. Chenoweth. Did they ask for a copy of it?
    Mr. Bass. Yes, they have a copy. I personally talked to Mr. 
Mealey. And on one occasion he did come out. He came over to 
Boise and met there in the post office and talked about 
coordination. He was advised that day by staff from the bureau, 
that he need not include us in coordinating until the draft was 
out.
    Mrs. Chenoweth. He was advised by staff from the Bureau of 
Land Management?
    Mr. Bass. Yes, ma'am. I also talked to, personally talked 
to, one of the project leaders in Walla Walla. Being naive as I 
am sometimes, I called Walla Walla thinking maybe they really 
had not read our letter, and they were not informed of what the 
law required them to do in coordination.
    And the gentleman I talked to there--I believe his name is 
Mr. Blackwitz--said, Oh, yes, he was very familiar with the 
law. He said, In fact, I can quote the law to you, and it is 
the statute that I give to you.
    And he did.
    And I said, Well, then, why not coordinate with the 
counties where we have a county land use plan?
    We are not trying to tell the Federal Government what they 
can do and what they can't do. We only want to coordinate and 
cooperate with them. And I don't say the word ``collaborate,'' 
because I have the image of a collaborator as a traitor. I saw 
that in the Second World War, the people that collaborated had 
their heads shaved and they were considered traitors.
    But, anyway, he said, well, you really can't expect us to 
go to each county that has the Federal lands in them and sit 
down and coordinate with these folks.
    And I said, well, I certainly do expect that. And the 
Congress expected that when they put this into law.
    Mrs. Chenoweth. Who did decide which counties should be 
included or excluded from the east side coalition of counties, 
do you know?
    Mr. Bass. I am not privy to that information. The coalition 
was formed through a memorandum of understanding with the 
Forest Service, the BLM, and the counties that are associated 
with those, and those folks on the public lands committee 
selected the people that would represent the coalition.
    Mrs. Chenoweth. On what basis did the BLM and the Forest 
Service decide to work with the association of counties and not 
with the Owyhee County and other counties?
    Mr. Bass. It is very puzzling. First they said that one of 
the reasons why they couldn't coordinate with the counties, 
that we were not FACA free, whatever that means. Well, they 
said that they couldn't coordinate with us because of FACA. But 
that is for an agency or an advisory group, and the counties 
are not an advisory group. We are a form of local government.
    That was the excuse for a long time, and now they say there 
is a rule--I am not sure, I don't know what it is--that was 
passed, or regulation that made these associations, these 
counties, these coalitions there ``FACA free,'' so they can use 
these folks.
    Mrs. Chenoweth. You are absolutely correct when you say 
that the agencies tell us in Congress that they are 
coordinating with the counties, and you are certainly not the 
first county commissioner and board chairman to assure me that 
the agencies have not worked with the counties. This is a 
serious problem.
    And do you believe that the biggest problem is the Forest 
Service's interpretation of FACA, the Federal Advisory 
Committee Act? Do you think that is a big problem?
    Mr. Bass. I think that is a big problem where it concerns 
coordination with the local counties.
    Mrs. Chenoweth. In your opinion, do you believe that they 
somehow believe that FACA supersedes FLPMA and the Federal Land 
Management Act?
    Mr. Bass. I am pretty sure they must believe that. Let me 
relate a little story of the arrogance of some of these folks. 
And some of them are really nice people, and I consider some of 
them my personal friends.
    We had a meeting last fall and last winter in Boise, our 
conference of the Idaho Association of Counties. And it was 
right after the big flap of the road closures, and it came 
right out of this project. And we had these three gentlemen 
from the Forest Service come and talk to us. They really had, 
one of the few times I have seen the Idaho Association of 
Counties, the Public Lands Committee upset, but they were 
terribly upset.
    These three gentlemen came and told them, you know, we have 
explained three times why we have closed the roads, proposed 
closing these roads. We are not planning on doing it anymore. 
And then we are not going to inform you about it. We didn't 
inform you before. We are not going to inform you again. And we 
would do it the same way that we did it before, in secrecy. And 
that is the way they did it. They are not about to talk to 
local government.
    Mrs. Chenoweth. Doesn't Idaho have an open meeting law?
    Mr. Bass. Yes, ma'am. We do.
    Mrs. Chenoweth. Well, Mr. Bass, I am certain that after 
today's hearings, I will have more questions for you, and I 
will be submitting the questions to you in writing. I do want 
to tell you that the record will remain open for three weeks. 
And I will get my questions to you just as soon as humanly 
possible. And then you will have up to three weeks to answer 
them for me in writing.
    And should you wish to add anything to your testimony, you 
are welcome to do so within that period of time. Do you have 
anything else you would like to add for the record?
    Mr. Bass. No, not at this time. We have several other 
people here from the county and our planning committee that I 
know that will want to make some comments later on this 
afternoon or will be submitting written comments to you. I 
assure you when I get your questions, we will faithfully answer 
those questions and get them back to you as quick as possible.
    And I thank you very much again for having your Committee 
hearing here in Canyon County, which we just border Canyon 
County, as you well know. But we do appreciate you being here 
today.
    [The prepared statement of Richard Bass may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Commissioner.
    I want to call the next panel of witnesses. I welcome Adena 
Cook from the Blue Ribbon Coalition, Scott Bosse from Idaho 
Rivers United. He did cancel. Right? Scott Bosse will not be 
here.
    Phil Church from Lewiston, and Laura Skaer from the 
Northwest Mining Association in Spokane.
    Is Mr. Church here? There he is.
    Well, I welcome you all. It is very good to see you.
    Just as you did sit down, I am going to ask you to stand 
and rise your right arm.
    [Witnesses sworn.]
    Mrs. Chenoweth. I look forward to hearing from Laura Skaer. 
I do want to explain that we have sort of a stop and go light 
system up here. As long as the lights are green, you are free 
to testify. By the time the light turns red, your 5 minutes are 
up, so we like to have you begin to try to summarize and 
conclude your testimony. I do want to remind you that your 
entire testimony will be admitted to the record, and of course, 
after you testify we will be asking you questions.
    So with that I would like to begin hearing from witness, 
Adena Cook.

  STATEMENT OF ADENA COOK, PUBLIC LANDS DIRECTOR, BLUE RIBBON 
                           COALITION

    Ms. Cook. I really appreciate the opportunity to be here. I 
am here to offer you a perspective of recreation on just what 
the ICBEMP document says.
    Its treatment of recreation is schizophrenic, like Dr. 
Jekyll and Mr. Hyde. On one hand, it acknowledges the 
importance of recreation to the region, and that recreation on 
public lands is increasing. And it states in positive language 
that recreation contributes to local economies. Its general 
guidelines are warm and fuzzy sounding, but when the 
implementing details are sifted from the interior of the 
document, oh, that Mr. Hyde showed his face.
    Mandated road densities will eliminate access. Riparian 
conservation areas will close roads, trails, and campsites next 
to streams. And active restoration, the key theme of the 
selected alternative, is but a euphemism for closure of roads 
and access.
    The document itself has some very positive things to say 
about the importance of recreation to the region. It says: 
Roaded, natural settings receive about 75 percent of all 
activity days. And it acknowledges that roads apply or enable 
the majority of winter recreation use and recreation use in 
general.
    It says that the area-wide recreation supports around 
200,000 jobs. And categorically, it states that recreation 
generates more jobs than any other uses of Forest Service or 
BLM lands.
    Now, you may dispute this, yes or no, but that is what it 
says. And so what are the policies, then, that it builds upon 
these facts, that recreation is so important in the region?
    Well, one guideline, it is fairly warm and fuzzy. It says: 
Supply recreation opportunities consistent with public policies 
and abilities.
    Well, I can't argue with that. It sounds good to me. And it 
apparently supports tourism. It says that tourism opportunity 
fits well into the ecosystem, and the natural environment is a 
central attraction.
    Well, I have got to go along with that because I am a 
snowmobiler, and I am going across the fresh powder in the 
Stanley Basin with the Sawtooths above me and, indeed, the 
natural environment is the central attraction.
    But this guidelines makes me a little bit uneasy. 
Construction management and visitation take place with the goal 
of minimizing energy usage and encouraging people involved with 
the tourism opportunity to be environmentally sensitive.
    What in the world does that mean? Does that mean they are 
going to turn down the thermostats in the visitor centers? 
Well, what does this mean in terms of actual standards that 
translate from these guidelines?
    It really means closures. The standard RM03 states: Reduce 
road density where roads have adverse effects. Standard RMS8 
proposes road closures and obliteration in area forest and 
range cluster. Now, this is defined. In Idaho it is defined so 
that there will be around 50 percent reduction of roads in most 
forest and range clusters.
    Riparian conservation areas will close roads, trails, and 
camping areas in areas next to streams. Now, what do people 
like to do? They like to take their kids and go camp or picnic 
next to a stream.
    The standard AQS24 states: Recreation facilities should be 
located outside of RCA's if at all possible. It states that if 
the effects to the RCA's can't be minimized, then the 
recreation facility would be eliminated. There goes your 
camping, picnicking, trails next to streams, roads next to 
streams.
    And, finally, the active restoration policy that they say 
is going to provide so many jobs and benefit the region will 
actually be used to close roads.
    It states categorically, this means decreasing the negative 
impacts of roads.
    Now, if recreation accounts for around 200,000 jobs, and 
they close half the roads, do you think there would be an 
economic impact? Yes, I would assume that would be so.
    But, amazingly, the new $30 million social and economic 
report mandated by Congress, which you asked them to do, fails 
to address the impact of these standards on recreation. It 
merely says that the impact across the basin will be limited.
    Well, are they or are they not going to close all those 
roads?
    As I have described from a recreation and access 
perspective, there is a logical disconnect between ICBEMP's 
direction and description of the area activity, its vague 
guidelines, and the actual standards. Now, the science may have 
been applicable in other situations, but no good science 
emerges from these documents on recreation. Good recreation 
planning, integrated with the productive use of our natural 
resources, remains to be done.
    Mrs. Chenoweth. Thank you, Adena Cook.
    [The prepared statement of Adena Cook may be found at end 
of hearing.]
    Mrs. Chenoweth. Mr. Phil Church?
    Mr. Church. Good afternoon, Madam Chairman.
    Mrs. Chenoweth. Good afternoon.

STATEMENT OF PHIL CHURCH, CO-CHAIRMAN, RESOURCE ORGANIZATION ON 
                         TIMBER SUPPLY

    Mr. Church. My name is Phil Church. I am a co-chairman of 
ROOTS, Resource Organization on Timber Supply, and I am here 
representing organized labor. Dave Wailee sends his hellos, 
president of the State Fed.
    I am here today before you thankful to both organized labor 
and the industry I work for, specifically Potlatch Corporation. 
I work for Potlatch as a machinist apprentice. The benefits and 
wages that have been negotiated helped me through a series of 
very serious surgeries recently. The same benefits and wages 
that ICBEMP, I believe, would take away from me and my family.
    Clearly the basin's rural communities' economic base is 
greatly dependent on the Federal lands that surround them. This 
plan has become a political football. The environmental 
industry has no incentive to work cooperatively toward 
resolution, rather they are out to build controversy. 
Alternative Four has much promise but faces so many constraints 
by the regulatory agencies, I believe it would be dead on 
arrival.
    I would encourage this Committee to take the time to review 
the efforts of Idaho citizens' efforts, which will be released 
around the first of July. This task force was set up by 
Governor Phil Batt to explore the possibilities of the state 
taking over management of Federal lands in Idaho. Not 
ownership, simply management.
    These lands belong to the American people, and who better 
to manage them than those native to the area? My membership is 
the first to cry foul should any wrongdoings take place in our 
national forest. The union membership I represent not only 
derive their livelihood from these lands but also recreate to 
the fullest extent; i.e., hunting, fishing, camping, 
backpacking.
    One area I personally believe would be beneficial to our 
forested lands, and one that I would encourage this Committee 
to look into, is to convert the Federal lands into trust lands. 
To date, to my knowledge, there are no subsidies given to trust 
lands, and given time I believe these Federal lands of Idaho 
would not be subsidized; rather, contribute to the overall 
responsibility of our nation's economy.
    Trust lands must also meet all of the Federal laws put 
before them.
    Please take the time to read the work of this task force. 
Again, it will be released the first part of July. With that, I 
would be pleased to answer any questions, and also I am 
submitting my oral comments. I also have some written comments 
that I have submitted in addition to this. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Church. It was a pleasure 
hearing from you. Thank you for coming all the way from 
Lewiston. I appreciate all of you who have traveled so far to 
be here and to participate in this hearing.
    [The prepared statement of Phil Church may be found at end 
of hearing.]

STATEMENT OF LAURA SKAER, EXECUTIVE DIRECTOR, NORTHWEST MINING 
                          ASSOCIATION

    Mrs. Chenoweth. Laura Skaer from the Northwest Mining 
Association.
    Ms. Skaer. Good afternoon, Madam Chairman. I am Laura 
Skaer. I am the Executive Director of the Northwest Mining 
Association. We are a 2800-member trade association 
representing mining throughout the west. Many of our members 
live in the communities that are included in the acreage 
covered by the ICBEMP plan, and many of our members, a 
significant number, make their living from the land by 
exploring for and developing and mining the minerals that our 
western public lands contain.
    Essentially our position has changed a little bit, Madam 
Chairman. From the very beginning, we have tried to work with 
the agencies, cooperatively at the table, to point out defects 
in the analysis, and we have done that for over four years. And 
frankly, the DEIS's and the Preferred Alternative stand as moot 
testimony that our efforts have fallen on deaf ears.
    Most significantly, the recent attempt to repackage the 
socioeconomics, which did not meet, in our opinion, the mandate 
of the Interior Appropriations Bill. It also did not meet the 
mandate of the agreement with the counties. It just essentially 
took the old data, repackaged it and put a new cover on it and 
said, ``Well, we are done.''
    I think there are an awful lot of mining companies whose 
headquarters, either exploration or corporate, are in Spokane 
County, Washington would be surprised to learn that according 
to this new economic analysis, there is no mining employment in 
Spokane County. And I could go on and on through the various 
counties.
    Our written testimony points out a number of flaws in this 
whole process, but we have come to the conclusion that it can't 
be fixed. And it is time for Congress to pull the plug, to 
terminate the funding, to disband the ICBEMP team, and to take 
some of the good science that has been developed and to allow 
it to be used at the local land management level.
    But we must be careful that the bad science, the political 
science, namely the socioeconomic science, does not get used.
    According to these documents, 42 percent of the value of 72 
million acres of Federal land is from the nonuse of the 
resource. They claim that the nonuse value, we call it the 
value of daydreaming, where someone sitting in a 60-story 
office building in New York City dreaming about wilderness in 
the west or free flowing salmon, has a value that is equal to 
wealth-creating value provided by mining, by agriculture, by 
oil and gas, by grazing, by recreation.
    We disagree. If you take their conclusion to its logical--
or you take this analysis to its logical conclusion, you 
theoretically could increase the entire value of the 144 
million acre ICBEMP area by shutting everything down. Absurd. 
They show the nonuse value to be higher than timber, mining, 
and recreation combined. Yet, it is only a fraction of a 1995 
study by the Western Economic Analysis Center, just south of 
Phoenix, Arizona, that concluded that the direct and indirect 
impact of mining alone in the Interior Columbia Basin was $18.2 
billion in 1995. According to these documents, their analysis 
is that it is a fraction of that.
    There are so many flaws in this document, and we will let 
our written comments speak on that. But what I really want to 
talk to you about is the fact that the people are left out. We 
believe that this is just part of an overall philosophy of this 
administration to deny access to the public land. A precursor 
of what ICBEMP would bring us is the recent roadless moratorium 
announced by the Forest Service.
    There are a number of other examples as Madam Chairman, you 
are aware. The American Heritage Rivers Initiative, the 3809 
rulemaking on hardrock mining, the Clean Water Initiative, 
EPA's hardrock mining framework, and it goes on and on. There 
are currently more than 60 regulatory initiatives affecting 
mining coming out of this administration.
    And what we see in this is that this administration is 
sending a clear message. It is a message that people don't 
count and that Congress doesn't count. It is clearly an attempt 
to circumvent the will of Congress and impose a different 
philosophy other than multiple use on how the Federal lands are 
managed.
    We believe Congress was very wise in providing for multiple 
use management of the public lands. By doing so, they have 
ensured the economic diversity of the West. They have assured 
that our western rural communities that depend on mining, on 
agriculture, on timber, on grazing, on recreation survive.
    We believe that this plan would bring that to a halt, would 
deny access to the lands, and would ensure the economic 
destruction of our western rural communities. And so we ask, 
Madam Chairman, that Congress take immediate steps to terminate 
this project and let us go about managing the land at the local 
level where the people who live on the land truly do know what 
is best for the land. Thank you.
    [The prepared statement of Laura Skaer may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you. And Laura, if you have any 
additional comments, written comments that you would like to 
have added to the record, you certainly are welcome to. Mr. 
Church, your additional comments, the written comments, will be 
added to the record.
    Mr. Church. Thank you.
    Mrs. Chenoweth. Adena, do you have written comments, 
additional written comments?
    Ms. Cook. If I have extra, I will add them, yes.
    Mrs. Chenoweth. And I do want you to know that the record 
will remain open for three weeks for you to be able to 
supplement your testimony.
    So with that, I would like to ask you all a question. 
Adena, does the ICBEMP suggest that recreationalists should use 
other lands instead of the Federal lands if they want to 
continue to drive to their destinations of recreation? Did you 
find that in your analysis?
    Ms. Cook. Actually, not. It confined itself, as far as I 
could tell, to management of recreation. It said very little, 
actually, on management of recreation on public lands. And what 
I found, I had to look very hard for it. In fact, other people 
looked for me as well, but it did not address what kind of 
recreation would occur on other than public lands.
    As you well know, public lands in this ICBEMP area is a 
majority of the land base. So when you are talking about 
backcountry recreation which is what our members enjoy, as 
opposed to organized recreation, like soccer games or baseball 
games or things that people would do in the suburbs or the 
city. When you are talking about backcountry recreation, you 
almost have to talk about Federal lands. Because other than 
Federal, there is not a lot out there.
    Mrs. Chenoweth. Well, regarding the riparian conservation 
areas, do the alternatives identify how many miles of roads and 
trails and how many campgrounds and other recreation sites are 
within the riparian areas?
    Ms. Cook. They have not done that assessment. They have 
just made the categorical broad statement that adverse impacts 
to the riparian areas will be either mitigated or eliminated. 
And whether they intend to follow through with this, it is 
anyone's guess.
    Mrs. Chenoweth. Thank you. Mr. Church, one stated objective 
of the Columbia Basin Project was to improve inter-agency 
coordination. Do you think that is a valid goal?
    Mr. Church. A realistic goal, no. A valid goal, it would be 
nice, but I don't think it could ever happen. The agencies 
within themselves are trying to hamstring themselves to the 
point of where they try to then hamstring the other agencies to 
the deadlock. And I don't think it is a realistic goal, no, not 
with the current system we have.
    Mrs. Chenoweth. You mentioned the conflict between the land 
management agencies and the regulatory agencies. Do you think 
that there is a valid role for the regulatory agencies in land 
management decisionmaking? And in your mind's eye, what role 
should each agency play, if we had the best of all worlds?
    Mr. Church. If we had the best of all worlds, I think they 
could advise, give advice only, and then the land managers 
could then make an informed decision based on that. But they 
should not hold them to hard, fast rules so that they can't be 
flexible to do what is best for the land. Because some agencies 
may only look at a small portion of the forest or land, and not 
look at the total impact of what they are doing to the land.
    Therefore, no, they should just be advisory only and keep 
to that role.
    Mrs. Chenoweth. Recognizing that Congress has not 
authorized the type of land planning that we see in the ICBEMP 
process, do you think that the current planning process with 
decisions made one national forest or BLM unit at a time, is 
still valid? Or do you think that the kind of planning process 
that we have, say, in the National Forest Management Act, needs 
to be changed?
    Mr. Church. Well, it needs to be radically overhauled. It 
is completely broken as it is right now. That is what I am 
asking you to, please, take a look at the work that the task 
force has done because I think that is an idea that maybe it is 
too early to be coming up with this kind of an idea, but 
something has to happen. They are derailing themselves as the 
process goes on.
    Mrs. Chenoweth. Something has to happen to break the 
gridlock.
    Mr. Church. That is it exactly.
    Mrs. Chenoweth. I think that you really touched on 
something that is so important for the Congress to look at. And 
that is, that the land management agencies must be responsible 
for managing, and that the other regulatory agencies should be 
advisory only. That is very good testimony. I think it is key 
to what we must decide in the future, and I thank you for that.
    Mr. Church. Thank you. Before I let you go, can I make 
one----
    Mrs. Chenoweth. Yes.
    Mr. Church. Thank you for having this hearing here because 
it is very difficult. It is hard enough to come from Lewiston 
here. It is more difficult to go from Lewiston to Washington, 
DC. And I want to say thank you very much for taking the time 
to come out west. Thank you.
    Mrs. Chenoweth. You are welcome.
    I am told everyone should be advised to speak right into 
the mike. We are not able to pick it up apparently, as easily 
for the record.
    Laura, I wanted to ask you, what is the economic value of 
mining within the Interior Columbia Basin? And what is the 
value attributed to mining by ICBEMP? What is the comparison 
there?
    Ms. Skaer. I don't have the exact number in front of me 
attributable to mining, but it is a fraction. It is less than 1 
percent of the $18.2 billion that a 1995 study of the combined 
direct and indirect impact attributed to the four-state area.
    And I might add that that $18.2 billion does not include 
any value of Nevada or Utah, but the northern part of Nevada 
that is within the ICBEMP area is an area which is--there are 
several gold development projects going. So I think $18.2 
billion is a very conservative number.
    The problem for mining with this document, Congresswoman, 
is that it is virtually ignored. And when that is pointed out 
to the agencies, they acknowledge that it is. But they have 
done nothing to--so far we have seen no evidence of any attempt 
to correct that.
    Mrs. Chenoweth. That is incredible.
    Ms. Skaer. As you well know, the Mining and Minerals Policy 
Act of 1970 requires that the Federal lands be managed to 
encourage the development of Federal mineral resources. Yet 
this plan, because of its denial of access and its prescriptive 
standards, would actually discourage the development of Federal 
mineral resources, not encourage them.
    But that doesn't surprise me when you listen to the public 
statements of Chief Dombeck and BLM Director Shea. Chief 
Dombeck has made it clear that there is no room for multiple 
use for mining, for oil and gas, for recreation, for grazing, 
for agriculture, and his vision of the Forest Service going 
forward.
    And Director Shea tells us that it is time to get used to a 
new West where tourism and service industry replaces mining, 
logging, and agriculture, and grazing, and timber. I translate 
that to mean that our members should give up their $30- to 
$45,000-a-year jobs with health insurance benefits and be 
willing to accept $5- to $7-an-hour seasonal jobs.
    I don't think our members and I don't think the timber 
workers and people who make their living supplying the products 
that society demands are ready to have someone in Washington, 
DC, tell them that they have to lower their standard of living.
    Mrs. Chenoweth. Very well said. And I think it is very 
important to America's future that this nation remain resource 
independent. Do you in your opinion, believe that this 
Alternative Four, the recommended option, will lead to 
America's resource independence even in terms of our national 
security?
    Ms. Skaer. There is no question, in my opinion and in the 
official opinion of our association, that Preferred Alternative 
Four will lessen America's independence from a resource 
standpoint because it will deny access. It is a self fulfilling 
prophesy. They say that we are moving away from resource 
production. But when it takes 6 to 10 years to permit a project 
that is being micro-managed by the regulatory agencies from the 
very beginning, they are creating a self-fulfilling prophesy.
    I believe the result of--we have to recognize that our 
society is demanding more minerals every day. And if you just 
think about how you got to this hearing, and think about this 
room, and the lighting, and the sound system, and the air-
conditioning, and the heating, these are all products of the 
natural resource industries. And without our natural resources, 
our society as we know it grinds to a halt.
    I believe that Alternative Four would, essentially, make 
the United States vulnerable to where we may be fighting 
another resource war in the future, when we have an alternative 
right here, and that is to produce the minerals and the 
products that our society demands from the public land. And we 
have proven over and over again that we can do it in an 
environmentally responsible manner.
    And we create the new wealth that gets spread through 
society. I think that is what we need to be doing. We need to 
be looking at policies that encourage the development of our 
natural resources in an environmentally responsible manner in 
order to ensure that our nation stays resource independent. I 
think it is critical to our future and the future of our 
freedoms.
    Mrs. Chenoweth. Thank you very much. I want to thank this 
panel for their exceedingly interesting testimony. And thank 
you, all three of you, for coming so far to offer your opinion 
for the record. And you can count on the fact that I will have 
more questions for you. You will be receiving them in the mail, 
and you do have three weeks to either supplement your testimony 
and to answer our questions. So with that I want to thank you 
very much.
    I would like to welcome Mr. Cuddy, Mr. Chuck Cuddy, 
Representative from Orofino. And I would like for him to come 
forth to offer his testimony. Before you sit down, Mr. Cuddy, I 
am going to ask you to remain standing so I can swear you in.
    [Witness sworn.]

  STATEMENT OF CHARLES CUDDY, REPRESENTATIVE, IDAHO HOUSE OF 
                        REPRESENTATIVES

    Mr. Cuddy. Madam Chairman, it must be kind of nice to be 
back in Idaho for a few days.
    Mrs. Chenoweth. Oh, it is wonderful.
    Mr. Cuddy. And I will apologize at the onset for probably 
not being as good a student of ICBEMP as I should be, but, 
Madam Chairman, I am not fond of fiction.
    Mrs. Chenoweth. I have known you for a long time, and I 
have noted that about you.
    Mr. Cuddy. As you know, in 1993 and as probably been said 
before, President Clinton decided that he would direct the 
Forest Service and the BLM to do a study of the Interior 
Columbia Basin, which is the Interior Columbia Basin Ecosystem 
Management Project, better known to all of us out here as 
ICBEMP. In that effort, I think the original idea was very good 
if it would, in fact, turned out had it been intended, and that 
was that we would manage by sound science.
    There was a lot of enthusiasm, Madam Chairman, for that to 
occur. And there was a lot of time and a lot of effort and a 
lot of expense by various organizations, companies, et cetera, 
et cetera, to try and make this work. And as it proceeded, they 
fell by the wayside, one by one by one by one, including me.
    Madam Chairman, the difficulty with the project is that it 
encompasses 144 million acres, not all of it Federal land, a 
lot of it private land, a lot of it tax land. It also is 
another layer of bureaucracy over the top of those existing 
laws such as NEPA, and FLPMA, the Clean Water Act, the 
Endangered Species Act, et cetera, et cetera. So it does 
nothing to solve the problem.
    Had this been implemented as originally intended, and had 
it superceded some of these laws, or taken them off the books 
as we had hoped, then it would have been something that we 
could have all looked at as a success. The way it is observed 
now is not a success, it is just another layer of bureaucracy.
    And to give you a little idea, Madam Chairman, and Phil 
Church touched on it, I heard, briefly, and maybe went into it 
more extensively while I wasn't here. But I co-chair the public 
lands task force in Idaho. And we did extensive touring this 
year of Idaho in regards to the management of state, Federal, 
private lands. We took testimony in every place, every area 
that we were in. What we found that everybody concurred the 
current Federal system is broke.
    What we also found when we were out on the ground observing 
practices on the land, once the money actually got to the 
management people on the ground, they were very, very similar 
in all cases. I think the difference being, the resource is 
there, the value of it is there, the value of the jobs are 
there.
    The main difference is, it is taking instead of a year or 2 
years or 6 months to implement a project and bring it to 
fruition, it is taking 6 to 10 years. It goes through a long, 
long process that costs everyone an immense amount of money. 
Consequently, the land is suffering now from the bureaucracy.
    I am going to cut mine a little short because I know it is 
a long day, and I have submitted my written testimony. But to 
simply say it is an administrative policy, that the Federal 
Government, that the administration decided to implement, it 
has not been authorized by Congress, and it should be stopped 
now with no record or decision being issued.
    I would like to go into the economic side of it a little 
bit and some of the fallacies in it. The Draft Environmental 
Impact Statement, called the DEIS, represents seven alternative 
themes for the basin-wide strategy for the management of forest 
and BLM lands. The strategy direction would add to and 
supercede in many ways multiple-use management direction 
already contained in existing land and resource plans for the 
National Forest and BLM districts.
    Each alternative represented in the DEIS is supposed to 
represent two stated needs, first, ecosystem health and 
integrity, and sustainable and predictable levels of products 
and services. The preferred alternative theme identified by the 
agencies is aggressive restoration of ecosystem health.
    Many people are seriously concerned about whether this 
proposal strategy will meet the needs for the project or will 
instead increase uncertainty and polarization over management 
of Federal lands in the basin and create hardship on rural 
communities.
    The agencies who evaluated the DEIS alternative estimated 
that 3,100 timber jobs would be lost from management delays 
while the Forest Service and the BLM institute watershed 
analysis on the Eastside DEIS.
    It is estimated that 12 eastern Oregon and eastern 
Washington sawmills will close while the analysis is being 
completed. In Idaho and Montana the effects of the project will 
be a loss of 1,700 jobs and six or seven more sawmills. Basin 
wide, the ICBEMP DEIS estimates a decrease of 4,800 direct 
timber jobs and 13,400 additional jobs associated with timber, 
a real impact for workers and their communities.
    The social and economic information analysis contained in 
the Upper Columbia River Basin Draft EIS contains two major 
conclusions. First, smaller resource-dependent rural economies 
and social systems are more diversified and will absorb the 
impacts of changing public policy.
    Now, I would like to tell you a little definition of this 
that I gleaned from the hurried addendum to the economic 
analysis that they did. And since you are very familiar with 
Orofino and Lewiston, I will use that example.
    A timber-dependent community that is within 35 miles on a 
state highway from a town of 20,000 or more, their theory is 
that that community could be absorbed.
    In the case of Lewiston, which is over 20,000, and 
primarily also depends on the timber industry, in my town, 
which is small enough that it could be heavily impacted, I 
would have to pick up my business, move to Lewiston while those 
people in Lewiston who lost their jobs are moving to Seattle. I 
guess that is how it is supposed to work, Madam Chairman.
    It doesn't make any sense to me the methods that they have 
went about to determine the economic impacts. And just to give 
you some statistics, I will talk about Clearwater County a 
little bit since we are both very familiar with it. And as you 
know, it is a county with approximately 10,000 people. And 54 
percent of that county is owned by the Federal Government.
    In 1980, workers in that county earned 89.5 percent of the 
national per capita income and 105.5 percent of the state's 
average per capita income. Today in Clearwater County, it fell 
to 76.9 percent of the national average and 91.4 percent of the 
state average.
    During those years a supply of timber from national forest 
has decreased rapidly, as we all know, from about 170 million a 
year off of Clearwater to 16. And at 9 jobs per million forest 
feet, I think the answer is obvious.
    Historically, forest wood products has driven the economy 
of Clearwater County and there is more than a casual 
relationship between the Federal land management policies, the 
change in health of rural economic dependence upon the resource 
change. The lives of real Americans and real American towns 
change when Federal policy changes.
    The authors of ICBEMP need to look no further than at the 
county profiles that are provided on each county in Idaho to 
find real economic impacts of Federal policy change, which they 
have chosen to ignore.
    Now, you hear a lot about recreation taking the place of 
the timber industry and the resource industry. Well, Madam 
Chairman, in Clearwater County, the 1986 revenues tax receipts 
from Clearwater County was $7,487. And we all know that as far 
as recreation amenities, Clearwater County nearly has them all.
    But in 1995, it was only $12,594. Now, if you include 
inflation for that 11 years, you can't really say it has done 
anything. And if you look at the population, that is about 
$1.25 a person. Not very supportive of the county. If that is 
the tax revenue, I don't know how we are going to survive if we 
are supposed to do it on recreation.
    Before the ICBEMP committee declares it too difficult to 
make these kind of economic analyses I think there is plenty of 
information out there including these county profiles that they 
have ignored. I also know that the University of Idaho, the 
state of Idaho through legislation, which I was a part of 
passing, did an extensive study and paid for the impacts on 
timber-dependent communities.
    There are also other studies done at the university, I 
think, that are very explanatory and do a much better job of 
defining the economics than was done with ICBEMP.
    In fact, just yesterday, Madam Chairman, and I think it is 
ironic, I was at a meeting with the NRCS, and the other farm 
services that the Department of Agriculture offers. And they 
were telling me that within the next year or two, they will 
have completed a total soils profile on 1 million acres of land 
in Clearwater County. That is to say that they have had soil 
people out there, technicians, et cetera, et cetera.
    I asked two questions. One is that you are into basalts, 
basalt formation, yes, it is. That is pretty similar to what 
probably you would find in the Blue Mountains in Washington and 
some other areas of the lower part of the Columbia Basin. I 
said, did you go into the granitics? No. We just touched on the 
edge of the granitics, which would go on up to the Continental 
Divide or at least to the Bitterroot Divide.
    But I said, this study would be pretty representative of 
the soils around here and the capabilities and water quality, 
et cetera, because they are doing both. Yes, it would.
    Madam Chairman, my second question was, has the ICBEMP team 
ever contacted you for your information? No.
    Madam Chairman, I think Congress should put a stop to this. 
I think the $40 million should have been spent to protect our 
resources on the ground, see that they don't burn up or dry up.
    [The prepared statement of Charles Cuddy may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Cuddy. Very interesting 
testimony. I want to ask you, when you testified to the fact 
that in the documents it talks about communities like Orofino 
being absorbed. What does ``being absorbed'' mean?
    Mr. Cuddy. Well, I think, Madam Chairman, I took it for one 
thing. And it didn't say Orofino, but it said timber-dependent 
communities. But using that as a method of demonstrating what 
it means, first, they automatically have admitted that there is 
going to be a turn down for these timber-dependent communities. 
I take that as an admission when they say that the larger towns 
will absorb them.
    So when you take that all into perspective, and when they 
say, Well, the larger communities will absorb them because of a 
change in philosophy and a change in the economics of the West, 
then I used Orofino and Lewiston because they are very both 
very timber-dependent. There are so many holes in it that I 
could probably spend an hour discussing it.
    Mrs. Chenoweth. You know, it is recognized that you are one 
of the leaders in the state legislature on those issues and 
highly respected. Would you tell me what an ecosystem is?
    Mr. Cuddy. Yes, I think I can. It is probably not the 
analogy that the Federal Government has, but I think it is 
somewhat on the order of someone shouting in an empty gym.
    Mrs. Chenoweth. Mr. Cuddy, what business are you engaged in 
in Orofino when you are not serving in the legislature?
    Mr. Cuddy. Madam Chairman, I have operated a business there 
for 20 years in the surveying and engineering industry.
    Mrs. Chenoweth. So your work is not directly dependent on 
the timber industries then necessarily?
    Mr. Cuddy. That is true, but it certainly is indirectly.
    Mrs. Chenoweth. OK. Can you tell me if in the best of all 
worlds, if this ICBEMP project were to work as good people like 
Steve Mealey had envisioned it, will it grow a more 
sustainable, healthier forest? Will it provide for cleaner 
rivers and streams? Will it provide for a better return of our 
anadromous fish? I mean, what do you see to be the end result 
of this entire project?
    Mr. Cuddy. Well, Madam Chairman, I appreciate the if's 
because I think that is what everybody had hoped for. And I 
think it is possible that we could have the amenities out of 
the forest and out of the public land that we all desire.
    And I don't think there is anyone in this room that you 
wouldn't consider an environmentalist. We all want clean water, 
we all want clean air. I love to fish. In fact, one of the 
things that I have said all along is, when we are done with our 
project, I want to see my grandchildren still be able to catch 
cutthroat trout out of the North Fork of the Clearwater River.
    Mrs. Chenoweth. Me too.
    Mr. Cuddy. Anyway, I think it is very possible. And I can 
give you some really good examples. In about 1970, the Idaho 
Fish & Game Department came to Orofino, Idaho and my brother 
and I were there. At that time, I saw Kelly Creek go from an 
excellent cutthroat stream, when I was young, to where it was, 
just basically it wouldn't take Rainbow Stream with an 
occasional cutthroat.
    My brother and I asked them about putting some regulation 
on to keep them from taking all of the fish home. And they 
said, Well, Kelly Creek has been so desecrated, and on and on, 
and it is so sterile that it will not support a native fish 
population. This was the Idaho Fish & Game Department in about 
1970.
    Well, Madam Chairman, we finally got them to do that. They 
made a catch-and-release. And two years later you could go in 
there and just have a ball and now it is nationally advertised 
as a blue ribbon cutthroat stream.
    Mrs. Chenoweth. My goodness, the wisdom that abides outside 
the agency. Isn't it wonderful?
    Mr. Cuddy. The other example, Madam Chairman, is the elk 
population, and you know how desecrated it is right now in our 
high country, which was world renowned. And our elk population 
now is down in the managed forests because there is feed there, 
there is reproductive things that they need for winter habitat, 
et cetera, et cetera, that is grown out of their reach in the 
higher country.
    Mrs. Chenoweth. Very interesting. Well, Mr. Cuddy, I want 
to thank you so much for offering this very valuable testimony, 
very colorful and interesting too. You can believe I have 
several questions that I want to submit to you in writing, and 
I will be doing that. The record will remain open for about 
three weeks. And we will be getting the questions to you right 
away.
    But I want to commend you on the work that you have done on 
the task force. You have spent hours and hours outside of the 
legislative session working on these projects. I thank you very 
much for offering your testimony today.
    Mr. Cuddy. Well, thank you, Madam Chairman. And I would 
tell you that the state legislature passed a state resolution 
that I carried on the House floor, and opposing ICBEMP. The 
vote was 67 to nothing and three absent.
    Mrs. Chenoweth. My word.
    Mr. Cuddy. It was very similar in the Senate. We also did 
the same thing with the Western States Legislative Forestry 
Task Force, that I am a member of. And I want to thank you very 
much for inviting me here, and I apologize for forgetting the 
time zone change.
    Mrs. Chenoweth. That can happen. I realize that. Thank you 
very much.
    The Chair recognizes the next panel, Mr. Fred Grant from 
Nampa, Idaho; Cindy Deacon-Williams from the Pacific Rivers 
Council; Jay Anderson, Professor of Ecology, Idaho State 
University in Pocatello; Steve Bliss, Northwest Timber Workers 
Association, Horseshoe Bend, Idaho; and Tom Dayley, Executive 
Vice President of the Idaho Farm Bureau. If you could join me 
up here at the witness table.
    It appears that Cindy Deacon-Williams from the Pacific 
Rivers Council is not here, neither is Jay Anderson, Professor 
of Ecology at the Idaho State University.
    I do want to say that the record will remain open by virtue 
of the fact that the Chairman has asked that we accept their 
written testimony. We want to give every opportunity to every 
individual to let their thoughts be known and for their 
thoughts to become part of the record that we will be making 
our decisions on.
    So with that, I thank the gentlemen for remaining standing.
    [Witnesses sworn.]

             STATEMENT OF FRED GRANT, NAMPA, IDAHO

    Mrs. Chenoweth. We will open testimony by hearing from Mr. 
Fred Grant from Nampa.
    Mr. Grant. Madam Chairman, first of all, last evening, I 
was at a meeting in Bridger City, Wyoming. There were five 
Wyoming counties represented there, all of whom are about to 
engage in developing a county land use plan similar to that 
that I think probably Commissioner Bass has talked about 
earlier today.
    Mrs. Chenoweth. Good.
    Mr. Grant. Representatives of Representative Kugen's staff 
were there, and their staff members asked me to express their 
greetings to you. And that group last night, and again at a 
breakfast meeting this morning in Wyoming, wanted me to express 
to you their thanks for your continued protection of private 
property rights.
    They believe that you and Representative Kugen together 
have kept their interests first and foremost. And they wanted 
me to say that to you that they oppose a record of decision in 
this ecosystem plan. And I am sure that is contrary to most of 
what you have heard today already in testimony.
    My written testimony, I won't go over again because I want 
to stress today my problems with this whole process with regard 
to the Constitution, the power of the Congress, and its impact 
on private property.
    First of all, and I go into this in some length in my 
testimony, I resent the fact that these 20 agencies following 
the refusal of the U.S. Senate to ratify the Biodiversity 
Treaty, entered into their agreements to bring about the same 
result by evading the authority of the Congress to manage the 
Federal lands.
    I am just tired. I am tired through the last 7 years of 
watching agency after agency evade the authority of the 
Congress. That was one of the main topics of my presentation 
last night, and that group also agreed that they are tired of 
it, that Congress manages the Federal lands.
    It should have been the Congress to determine if every inch 
of land in Idaho was going to be included in a project, the 
report on which is so complex and convoluted, that one of the 
wisest men in range work that I know, Dr. Chad Gibson, can't 
begin to fathom what this project is talking about in many 
instances.
    But aside from that, and I am sure that the Chairman and 
most members of the Committee were aware, that the Congress is 
the only body of government that is given the constitutional 
authority to manage the Federal lands. I resent the fact that 
the people who drafted this EIS think that we are so unaware, 
that we don't understand the adverse impact that this project 
is going to have on private property in the name of trying to 
better the Federal lands and the environment on the Federal 
lands.
    First of all, people who hold private property have been 
denied access to the NEPA process because they have been told 
by this document that it does not apply to private land. 
Therefore, a lot of people whom I have discussed this with, a 
lot of people haven't even bothered to study the plan. People 
in Canyon County and Ada County have not bothered to study it 
because, after all, it doesn't apply to private land.
    Now, the first problem with that is that it defies common 
sense to think that you are going to try to impact the 
environment on every acre of Federal ground in Idaho without 
impacting the adjoining state ground. For example, when the 
EPA, as it will, issues even firmer regulations regarding clean 
water and once a record of decision is down, they have a wide 
open highway to do whatever they want. And I am sure those 
regulations are already drafted and in some room waiting to be 
applied.
    When they require a certain degree of clean water on 
Federal land, what are they going to do about the private land 
that sits next to it? They are going to impact it. We heard for 
years that the Endangered Species Act would not adversely 
impact private land, and so there was no reason to worry about 
compensation. Well, this week the water case, the Sweet Home 
Case in the U.S. Supreme Court said what many of us knew and 
had professed for years, it will impact private land the first 
time. It is the desire of the Federal Government to impact it.
    So you cannot do all of the things that this project calls 
for, for the Federal lands without impacting private land. So 
it is false, it is a false and misleading statement for this 
document to profess that it will not adversely impact private 
land.
    And third, it is not even true, consistently, inherently in 
the document because there are places in this document where 
they say, Well, there are certain things that are barriers to 
implementation of the ecosystem plan, and one is private 
property ownership. And they refer specifically to mining 
claims and rights-of-way and water rights as being some of 
those rights where there must be reasonable changes made in 
order to make this thing work. Now, if that isn't----
    Mrs. Chenoweth. Excuse me, Mr. Grant. Water rights too?
    Mr. Grant. Yes, Madam Chairman. And in view of that, let me 
remark just another thing about water.
    Our Idaho Supreme Court, unfortunately, within the last few 
days has, I think, attempted to give away private rights on 
Federal stock water claims to the Federal Government in a 
decision that could have gone just as well the other way. And 
many of us think it is more consistent with U.S. Supreme 
Court's decisions to have gone the other way.
    They decided that in some executive order, that related to 
reserving land around water holes, that that was a reservation 
of all the water in those water holes and springs in 1926. Now, 
what in the world, if that is the case, what will be the result 
the first time the Federal Government says after a record of 
decision is issued in the ecosystem project, we have reserved 
all of the water that we need to make this ecosystem project 
work?
    And anyone who thinks they won't do that should look at the 
Snake River Adjudication and remember that within a week after 
we were assured by the Secretary of Interior that the Congress 
was assured, that the Federal Government had no intention of 
claiming water in the states.
    They filed hundreds of claims everywhere they could to 
claim water in the Snake River Adjudication area, including 
some on private property. So not only do they say that there 
must be reasonable changes in those private property rights, 
but we can fully expect that without any more specifics that 
are in this document, there will be a claim that all of the 
water that is necessary to make this project work will have 
been reserved by any record of decision.
    And that is one of the reasons why from a private property 
standpoint as well as the standpoint of the written testimony 
and the other things that I have heard, I know Commissioner 
Bass is going to talk to you about the economy of Owyhee 
County.
    You know, at one point in one of the preliminary drafts of 
this thing, and I will be honest with you, I haven't read the 
final draft to see whether they ever changed that, they talked 
about Owyhee County being available for high-tech jobs. And so 
far we haven't seen any evidence that Hewlett-Packard or any of 
the other companies are making real inroads to get out there 
into those grazing lands.
    Ms. Chenoweth. Well, they don't even have the roads to get 
out there that are that easy to travel.
    Mr. Grant. Well, they really aren't. As a matter of fact, 
if they tried to get up into the Hardtrigger allotment and some 
of those allotments, their highly technical scientific 
equipment wouldn't be worth much by the time they got there.
    So all of these reasons and the reasons that you have heard 
today, but primarily from my testimony right now, primarily 
from the standpoint that they are impacting private property, 
they have denied that they are, and therefore, I think they 
have cutoff the NEPA process to private property holders.
    They have not done a takings implication assessment as 
required by the executive order that has been on the books 
since President Reagan was the president. And yet they say 
there must be reasonable changes in private property.
    They have evaded the congressional authority again in the 
Regulatory Flexibility Act in Title V of the United States 
Code. They haven't made special consideration for the rural 
counties in exempting them from some of the things that they 
would do otherwise in this project.
    They have evaded the Congress and, frankly, they are 
trampling all over the Fifth Amendment and what ultimately we 
will have to be forced to do to protect private property rights 
if a record of decision comes down.
    Mrs. Chenoweth. Thank you very much, Mr. Grant.
    [The prepared statement of Fred Grant may be found at end 
of hearing.]
    Mrs. Chenoweth. Mr. Bliss, Mr. Steve Bliss.

  STATEMENT OF STEVE BLISS, CHAIRMAN, NORTHWEST TIMBER WORKERS

    Mr. Bliss. Good afternoon, Madam Chairman. My name is Steve 
Bliss. I am the plant fire chief and relief sawyer at Boise 
Cascade, Horseshoe Bend Sawmill. I am also Chairman of the 
Southern Idaho Chapter of the Northwest Timber Workers Resource 
Council, and I represent the employees at our mill on timber 
supply issues.
    As part of the council's efforts, I have had a chance to 
review the Columbia River Basin Draft EISs. I will focus my 
comments today on what I see as potential effects of the 
Interior Columbia Plan's DEISs on timber workers and rural 
communities.
    One of the key purposes and needs of this project is 
supporting economic and social needs of people. Yet this is the 
area where the DEISs fail the worst. The cultural, economic, 
and social needs of natural resource-based communities have not 
been addressed to anyone's satisfaction. The DEISs treat 
economic and social needs as impacts rather than integrating 
them into management approaches.
    Furthermore, the amount of detail and number of specific 
economic and social programs within each alternative, were 
conspicuously out of balance with other programs. There is no 
assurance to local communities that government policies will 
assist them in being more economically resilient. Little or no 
consideration has been given to the fact that reducing the 
timber supply by at least 40 percent and in some cases up to 
100 percent, will have on timber-dependent communities.
    The region-wide scale at which these economic studies were 
done makes the impacts to timber-communities appear to be 
minimal. Well, as a resident of one of those small timber-
dependent communities, I can assure you that the impacts on my 
town will be disastrous.
    Employment estimates shown in the DEIS are flawed. All of 
the alternatives contain timber harvest at every commodity 
production levels that are significantly below those projected 
in the forest plans, which are considerably less than historic 
levels. These lower production levels will not be able to 
support the 400-plus resource-dependent communities located in 
the Interior Columbia Project area. Yet the document contains 
few, if any, provisions for economic stability of these 
communities.
    The DEIS drastically discounts the number of commodity-
producing jobs and eagerly inflates the number of jobs that are 
attributed to recreation, reflecting the writer's biases 
against logging and ranching. For instance, the DEISs indicate 
that the preferred alternative would produce only 5,944 wood 
products manufacturing jobs and 243 ranching jobs, but generate 
108,000 recreation jobs. These numbers are just not credible.
    Additionally, the DEIS does not account for the indirect 
jobs that will be affected by this plan. Each timber job 
supports at least six other jobs in the community. This 
cumulative effect has not been accurately accounted for in the 
document. Not only will the DEISs have a negative effect on 
local economies through the loss of resource-related jobs, they 
will impact county and local taxing bodies.
    The DEISs with their drastically reduced timber and range 
output levels will result in the reduction of the local tax 
base. Income and property taxes will be reduced, causing 
additional problems in financing local infrastructures. The 
DEISs admit commercial timber harvesting has not been 
incorporated into the forest restoration programs. This implies 
the reliance on congressional budgets will be the funding 
source for all restoration projects.
    We believe commercial timber sales could greatly reduce the 
overall cost to taxpayers while providing on-the-ground 
expertise needed to accomplish environmental enhancements. The 
cost analysis provided in the DEISs for implementation of this 
project is understated to the tune of billions of taxpayer 
dollars.
    The terrific forest health problem on many of the forests 
covered by this plan is well documented, but there are no 
credible plans to deal with the problem. If the funds to do 
restoration projects aren't available, then we may lose these 
forests to fire and disease. We believe this plan provides the 
basis for destroying the economies of our rural communities and 
the destruction of the forests at the same time.
    As you can see, we have many serious concerns about the 
DEISs and their unacceptable negative impacts on the economy 
and the cultures of small communities in the Interior Columbia 
River Basin area. We believe ICBEMP should be stopped at this 
point and the efforts be redirected to its original intent, 
that of providing broad-scale information to guide managers in 
revising forest plans and implementing local projects.
    Proceeding with the implementation of this plan without 
significant changes will further undermine the credibility of 
the forest service and BLM with local communities, cause 
additional degradation of the ecosystem, additional 
bureaucratic gridlock, and increase social and economic 
problems for the rural citizens of the Interior Columbia Basin.
    I would like to thank you for taking the time to listen to 
the concerns that rural timber-dependent communities have with 
this plan.
    Mrs. Chenoweth. Thank you. I appreciate your testimony, Mr. 
Bliss.
    [The prepared statement of Steve Bliss may be found at end 
of hearing.]
    Mrs. Chenoweth. And the Chair now recognizes Mr. Tom 
Dayley, Executive Director of the Idaho Farm Bureau.

  STATEMENT OF THOMAS DAYLEY, EXECUTIVE VICE PRESIDENT, IDAHO 
                     FARM BUREAU FEDERATION

    Mr. Dayley. Thank you, Chairman Chenoweth. I would like to 
start by saying that you have heard a lot of good information 
here. I know that is why you came to Idaho. As I used to say, 
while I was having to live outside of Idaho for a few years, I 
came back to Idaho for a dose of reality. I think that is what 
you are getting here today.
    And I hope as you share that with the Committee and with 
the Congress, they will get the real impact of what Idahoans 
are feeling about this whole process.
    As you said, I am Executive Vice President of the Idaho 
Farm Bureau Federation. We have approximately 50,000 members in 
Idaho, and of those we represent about half of the farmers and 
ranchers in this state. About 11,000 of our members are farmers 
and ranchers.
    As I discuss this, I would like to go through a couple of 
different things, and some of the things might be repetitious, 
but I would like to emphasize them. One is the process of how 
we got to even having this hearing, and two is the product of 
that process.
    As Representative Cuddy said, the president started this 
process. I think it is instructive to understand even from the 
briefing document that they use, he, the President of the 
United States, directed the Forest Service ``to develop a 
scientifically sound ecosystem-based strategy for management.'' 
That was the direction.
    If one goes through the process of analysis after that, it 
is all directed from Washington, DC, from the President then on 
down. I think that is one of the most serious parts of this 
flawed process, how it was started.
    Their own document, the paper passed out at their briefings 
says, ``Coordination with affected state and tribal government 
leaders is essential. In addition, local governments, key, 
interested, and affected parties and other Federal state 
agencies will be encouraged to participate.'' That is what they 
think of the rest of us, encouraged to participate?
    Back to what some other people have said. The impression is 
that private landowners should not be encouraged to participate 
because it ``is not affecting them.'' So they really aren't 
being fair to the process that they started. It is being 
directed from the top down. The plan of what is to be 
accomplished is in place before anything is even started.
    It gives every appearance that the decision was made in 
advance. The decision was made about what to accomplish and 
then a methodology was developed for accomplishing it.
    We are now in, as you pointed out, the fifth year, $40 
million, and we really have no more substantive information 
than before. The information we do have is questionable. It is 
based on an ``ecosystem.'' And you asked the question of 
Representative Cuddy that I would like to get into a little bit 
further.
    What is an ecosystem? Well, Jack Ward Thomas, who was head 
of the Forest Service at the time ICBEMP was initiated by 
President Clinton said, ``I promise you that I can do anything 
you want to do by saying it is ecosystem management. It is 
incredibly nebulous.'' Those were his words and he was the head 
of the Forest Service when this whole project started.
    The entire process puts science, in the traditional sense, 
in limbo. The Keystone National Policy Dialogue, a group of 50 
individuals from state and local government and private 
individuals, took 18 months trying to come up with a definition 
for ecosystem.
    Mrs. Chenoweth. Mr. Dayley, before you go any further, 
could you move closer to the mike? Thank you.
    Mr. Dayley. They couldn't come up with a definition of 
ecosystem. These were people who were put together for the 
expressed purpose of coming up with a definition of ecosystem. 
The group did not even define what ecological integrity was. 
The Ecology Society of America says, when they talk about an 
ecosystem that ``a pile of dung and a whale carcass are 
ecosystems as much as a watershed or a lake.''
    When you have that kind of ambiguity in what we are talking 
about, the whole premise of the discussion is flawed before we 
start. There is no Federal statute that requires the Forest 
Service, BLM, or any other Federal agency, to use ecosystem 
management as a tool of management. There is no Federal law, as 
you know, Madame Chairman.
    Current law requires multiple use and sustained yield on 
Federal land. That is the standard that should be required.
    The whole concept of ecosystem management is awash with 
uncertainty. It will allow land managers to be more arbitrary 
and more capricious if we establish this as a standard of how 
we manage our Federal lands.
    The White House Interagency Task Force on ecosystem 
management, they had one, interestingly enough, said, ``No 
single Federal statute contains explicit overreaching national 
mandate to take an ecosystem approach to management.''
    Congress has never declared that a particular Federal 
agency has the ecosystem approach as its sole or even primary 
mission. The White House even admits the same, and yet the 
President directed ecosystem management for the managing of 
Federal lands.
    If ICBEMP is allowed to be implemented, it will become the 
basis for land management decisions in the Northwest. It will 
increase the uncertainty of our management process, not 
alleviate some of the problems we are already having.
    We have to ask ourselves this question, if this plan had 
been in place 100 years ago, what would this area be like 
today? What would the Northwest be like today? Would our people 
and our land be better off?
    I have sent the Committee a copy of a conference at Tufts 
University in Massachusetts where ag and the envirnonment was 
evaluated. It shows how the environment has been enhanced by 
agriculture. They went through several things, including Lewis 
and Clark's record and some records of people that were on this 
land 100 years ago.
    There are a couple of quotes from that proceeding. Many 
accounts report on how many buffalo actually grazed the western 
planes. A reliable estimate is about 60 million. However, we do 
not need an exact count to visualize the impact buffalo must 
have had on the riparian zones during the presettlement era.
    Their trampling of banks and the effect of their grazing 
must have been very great compared to what we observe today. 
Evidence of their impact on the riparian vegetation is supplied 
by a trapper, Osborne Russell.
    ``The bottoms of the rivers are heavily timbered with Sweet 
Cottonwood, and our horses and mules are very fond of the bark, 
which we strip off the limbs and give them every night, as the 
buffalo have entirely destroyed the grass throughout this part 
of the country.''
    Captain Fremont said it this way in July of 1842 in his 
report, he said, ``We have found no grass today, striking 
evidence of the state of the country.'' This was along the 
Platte River in Nebraska.
    So we have to ask ourselves, what is the premise of 
ecosystem management? They say they are going back 100 years to 
analyze what the land was like 100 years ago and what we can do 
for it today. They haven't given a fair shake even to what 100 
years ago was, much less what it is today.
    The team has made incorrect assumptions about where we were 
100 years ago, and that is brought them to a 180-degree 
differential of where we are today and what we should do about 
it. ICBEMP is too large, it is too speculative, the whole 
process they used is inadequate.
    It imposes 166 new standards, 398 new guidelines, the 
public wasn't involved adequately as has already been 
discussed. There is a lack of credible science in the whole 
process. The farm bureau strongly opposes the methods currently 
being used as exemplified by ICBEMP in the adoption of the 
complex and far-reaching proposals by Federal agencies. We 
would recommend that this entire document be withdrawn. At one 
point in time I said we should use some of the science that is 
in the document.
    I would contend, especially based on some of the other 
testimony we've heard today, that at this point it is all 
questionable anyway, even the science in the document.
    It isn't science, really, is what it amounts to. It is 
vague and ambiguous. The standards lack objective and 
quantitative analysis. It opens itself up for court challenges 
all by itself. The contention is that it would help us get away 
from the court challenges. But I contend that it would actually 
be more prone to court challenges.
    Not even the term ecosystem management is defined. There 
are no maps. If we don't know where we are and where we are 
going, how do we know when we get there? There are no maps of 
how we want to get there.
    The ICBEMP draft EIS represents a significant, if not 
radical change in the direction of Federal land management. It 
is outside the law, as I already said. It is a blatant attempt 
to move land management into a process that eliminates human 
uses, as you have already heard from other witnesses.
    The inescapable conclusion is, that whatever humans do that 
is inconsistent with the shifting toward natural landscapes 
must be prohibited or limited by government. That is totally 
ludicrous.
    The ICBEMP draft EIS would try to shift the landscape to a 
natural condition without the vaguest idea of what a natural 
condition should be. Terms such as road closures, slope 
adjustment factors, prohibited and restricted uses, are all 
very subjective in their use throughout the document.
    It only leads to the point that I have just made. It is 
just opening ourselves up to more dispute and more discussion 
about what is or isn't the process that we should be using to 
manage our land.
    An ecosystem map does not exist and no one has attempted to 
draw a map. Some say a map is not necessary. We feel that this 
ICBEMP draft EIS is totally unacceptable and, if adopted, will 
lead to less public use and enjoyment of the public lands, 
massive economic impacts to local communities, and reduce 
grazing, mining, recreation, and timbering.
    Chairman Chenoweth would like to read from our policy book. 
It suggests what we feel about ecosystem management and this 
document. This is what it says.
    ``We ask that Congress investigate Interior, Forest 
Service, Fish and Wildlife, and any other agency who has a 
compelling interest in promoting ecosystem management for 
misappropriation of taxpayer dollars in their planning process. 
Congress must restrict funding for ecosystem programs and 
prosecute those who are responsible for circumventing the 
authority of Congress.''
    That is what we believe as an organization.
    [Applause.]
    Therefore, we believe that this process should be shelved 
and actually trashed. Really, you could compare it to a piece 
of tainted meat. We wouldn't consider attempting to cut out E-
Coli and use the rest. If we have a piece of tainted meat, 
don't put it on the market and say, Well, let us see what we 
can get out of it that would be useful for the public.
    If we have a tornado or earthquake, we rush to help the 
citizens that are injured. That is the impact this document 
could have on the Pacific Northwest. It could be worse than a 
tornado and earthquake. What we are asking is that the Congress 
help us to deal with it. Thank you.
    [The prepared statement of Tom Dayley may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Dayley. Could you 
let us know, for the record, how the other farm bureaus feel in 
the seven affected states?
    Mr. Dayley. Yes, we will do that.
    Mrs. Chenoweth. How long has the Idaho Farm Bureau been 
involved in this project?
    Mr. Dayley. We have been involved for quite some time. We 
had a specialist from Washington, DC, come and give us a 
synopsis of this document. He condensed the 4,000 pages down to 
about 100 pages, and showed us some of the flaws in the 
document and so forth. I have submitted that document for the 
Committee record.
    Mrs. Chenoweth. You recommended in your written statement 
that the process should be started all over with adequate 
public involvement and more in-depth analysis by the scientific 
experts. Are you suggesting that we should do a new study at 
this same broad level covering the entire Columbia Basin 
system?
    Mr. Dayley. Absolutely not. Thank you for asking the 
question, if that was the interpretation.
    Mrs. Chenoweth. Can we have local forest supervisors and 
district managers of the BLM proceed with decisions at the 
forest and district level as required under NFMA and FLPMA? 
Those laws are adequate?
    Mr. Dayley. Yes.
    Mrs. Chenoweth. Wasn't the preferred alternative supposed 
to provide an aggressive approach to management already?
    Mr. Dayley. That is correct.
    Mrs. Chenoweth. What will happen to the ecological 
conditions of the basin under the more passive approach that 
the project has actually developed?
    Mr. Dayley. Well, I would contend, as I said in my 
testimony, that what they are proposing would be devastating to 
the economy and the well-being, even of the ecology of the 
Northwest.
    Mrs. Chenoweth. Interesting.
    Mr. Bliss, I understand that the Northwest Timber Workers 
supported the project initially. At what point and why did you 
withdraw that support?
    Mr. Bliss. We initially supported it. The company that I 
worked for supported it from the beginning. They spent millions 
of dollars putting scientific folks with the Forest Service to 
try to come out with a good outcome.
    We, I think, were a little naive in believing that what 
they said they were going to do was what they actually were 
going to do. They said that they were going to give us sound 
science to be able to manage for healthy forests. We knew that 
that would mean, because of the shape that our forests were in, 
that we needed to harvest more trees, not less, to put the 
forest back into the shape that they could survive.
    So we thought long and hard amongst ourselves because our 
group represents many different companies. None of the other 
companies but mine were in favor of this project. But we, 
amongst the workers, decided that this was our best shot at 
keeping our jobs.
    And so we voted to support this project. And when it went 
to the printers from the Forest Service, we wouldn't have liked 
it much, but we probably could have lived with it.
    But then the administration reached into the printers, 
pulled it out, and gave it to the agencies. At that time, all 
the science left. And the hard standards that are in the 
document, that is where they entered.
    And the plan now is total. That means there would be no 
management on the ground in our opinion. And also the opinion 
of many forest supervisors, who have told us, that if they were 
given all the money they needed to do the studies that are 
called for in this, that there would be two years without any 
outputs from the forest whatsoever. And in two years my job 
will be gone. We can't wait two years.
    And then we are only talking about--they are saying that 
they can't even get the 60 percent or less of the forest plan 
levels out for sure then. So there is no certainty whatsoever 
that after two years that there would be any output.
    Mrs. Chenoweth. How much have timber harvest levels already 
declined in the Columbia Basin, say, since 1990--or 1989, when 
we were harvesting maybe 60 percent of the ASQ?
    Mr. Bliss. I don't know what that exact figure is, but I 
can tell you that we have closed around 400 sawmills in Oregon, 
Washington, Idaho, and northern California in that time between 
the spotted owl controversy, the Forest Service, and a lot of 
forests were only putting out 15 percent or less of their 
allowable sales quantity from the forest plans that many of us 
spent 10 years in public meetings with the Forest Service to 
develop. And so we see no future in this at all.
    Mrs. Chenoweth. Has there been a sharp decline in the 
amount of timber sales in the board feet since 1989?
    Mr. Bliss. In many of the forests, that is the case. The 
two forests that we get our wood off of, because we have had 
fires since 1990 that have destroyed 25 percent of the entire 
Boise National Forest, and they have put up for sale about 10 
percent of what burned, our allowable sales quantity has stayed 
pretty much where the forest levels are. The administration 
went as far as to actually try to punish the forest supervisors 
for doing a good job of getting that salvage out.
    Mrs. Chenoweth. We have heard testimony that the preferred 
alternative was supposed to have provided an aggressive 
approach, but if it actually did provide an aggressive approach 
to the forest restoration, how would it be changed? How would 
we change the preferred alternative to make it an aggressive 
approach to forest restoration, and would it provide a more 
certain timber supply?
    Mr. Bliss. If they actually did what they said they were 
going to do and actively go for forest restoration, we have the 
ability and the knowledge to go in and mimic Mother Nature to 
make healthy forests by thinning the trees, taking out the 
timber, returning low intensity fires to the ecosystem, to 
return minerals and stuff to the soil.
    But that would take changing some of the multitude of 
restrictions and stuff that the Forest Service has to go 
through now, put on them by the other agencies who are not land 
managers and don't know what is good for the land.
    There is no way that we can get there with this plan. It 
only leaves less than 10 percent of the entire forests open for 
harvest by all of the data that I have seen. And that is mainly 
on the ridge tops. And they are planning to forbid entry into 
roadless areas over 1,000 acres inside, which will in itself 
tie up the majority of the forests. They haven't even been 
inventoried yet.
    Mrs. Chenoweth. Mr. Bliss, are you a hunter?
    Mr. Bliss. Yes.
    Mrs. Chenoweth. We heard testimony earlier from Mr. Cuddy, 
and I had heard an indication that our elk herds were 
declining. Are you seeing evidence in your area around 
Horseshoe Bend?
    Mr. Bliss. Not in my area because we live close to managed 
forests, and the elk herds are actually increasing in our area 
because the forests are managed. We have some state land around 
us. We have the land that the Boise National Forest and the 
Payette National Forest has managed.
    In the backcountry, in the wilderness areas, the herds are 
declining drastically. They are moving down. I think we are 
actually benefiting in elk populations from the Forest 
Service's mismanagement of the other areas.
    Mrs. Chenoweth. Very interesting. Mr. Grant, I would like 
to ask you a couple of procedural questions. Didn't you work in 
the Reagan Administration?
    Mr. Grant. Did I work in the Reagan Administration? I was 
in the--no, when I was in the Federal Government, Madam 
Chairman, it was during the administration of President 
Johnson.
    Mrs. Chenoweth. So you worked for President Johnson in the 
White House?
    Mr. Grant. I worked under Attorney General Katzenback in 
the United States Attorney's office. I worked in the Johnson 
Administration.
    Mrs. Chenoweth. So you didn't work as a member of my party, 
did you?
    Mr. Grant. Unfortunately, no. I was in Maryland at the time 
and not many people worked in the Republican Party in Maryland 
in those days. I was Republican but not working in the 
Republican Party.
    Mrs. Chenoweth. Is it your understanding that the agencies 
intend to use a single decision under ICBEMP, that 
simultaneously amends all of the applicable forest land and 
resource management plans?
    Mr. Grant. I think in answer to that, Madam Chairman, it is 
very clear from the documents and from what was done by the 
steering committee to the document when they pulled it back, as 
Mr. Bliss has said, that one record of decision is intended.
    And that record of decision is also clear and has been made 
clear to the management agencies and they have said so, that 
their management plans, their local management plans, will then 
have to be amended to become consistent with the record of 
decision which is issued.
    Now, what that means, of course, is that NEPA has violated 
at least twofold with this project. It is violated, I firmly 
believe for the reasons that I stated briefly and Mr. Dayley 
stated, and I stated in my written testimony. Because the 
public was never adequately involved in this.
    There are case decisions from the Ninth Circuit, even, that 
say that the public must be involved. One of the prime purposes 
of NEPA is to involve the public so in the decisionmaking 
process and in the implementation process. And I asked that the 
Congress, the Members of Congress take this document and look 
at it and see whether you can participate meaningfully, in the 
decision to be made as to the alternative and in the 
implementation of it.
    And the second place that I think it is violated is that 
these local plans then can be amended without going through 
another NEPA process. And so, for example, and we have been 
told from the beginning that the Owyhee Resource--and proposed 
the Owyhee Resource Management Plan could be amended to be 
brought consistent with the ecosystem plan.
    The Resource Advisory Council in this area has been told 
that the local plans would be made consistent by amendment. And 
one of the features of that is that they won't have to go 
through the NEPA process again because it will already have 
been done.
    Mrs. Chenoweth. Well, under the scenario, how effectively 
can they analyze and disclose the effects of the decision on 
each plan? How can they do it?
    Mr. Grant. Well, they can't. It is absolutely impossible, 
in my view, and I think in the view of the people that I have 
talked to who have studied NEPA, and who have studied the 
process of management of the resources.
    Mrs. Chenoweth. And in your opinion, as an attorney, the 
very requirements of NEPA require full disclosure and openness. 
Right?
    Mr. Grant. Absolutely.
    Mrs. Chenoweth. To the public?
    Mr. Grant. And the only full disclosure that I see in this 
document is that it is a way of implementing Earth in the 
Balance. I think that is where it was devised, and I think that 
is the flow of it.
    Mrs. Chenoweth. Does the APA, the Administrative Procedures 
Act, also come into play here?
    Mr. Grant. I think it does. And unfortunately, the way the 
APA has been interpreted--well, in fact, the way it is written 
and way it has been interpreted by the courts, the only way 
that you can, in any way, attack this project in court is to 
argue that whatever decision is made is arbitrary and 
capricious and that there is no evidence supporting it.
    Well, there is evidence supporting it. It is just not sound 
evidence. But you see, the courts have said they will not go 
into the substance. They will only go into the procedure under 
the APA. They will not look at the substance of the material 
that is supporting the record of decision.
    Well, one of the pieces of evidence in this document is, 
that allowing grazing is a compromise because grazing is 
obviously not a tool to improving the range. Now, that just 
flies in the face of everything that we know about grazing, 
including the evidence of an administrative law judge or 
administrative judge or the secretary in the Department of the 
Interior himself, who in the infamous Mercer case said, I am 
going take this permit away from the conservationist group 
because it needs grazing it hasn't had for 8 years.
    And that was the case when Secretary Babbitt tried to 
invade in rangeland reform, those portions that Jack Bremmer 
set aside.
    Mrs. Chenoweth. After the decision is made, is it your 
understanding that additional forest and resource plan 
amendments, conforming amendments, would be necessary according 
to the agencies?
    Mr. Grant. Yes, we have been told that. The Forest Service 
has made those statements in counties throughout the state that 
rely on timber. What we have been told by agency personnel by 
the BLM is that if amendments are necessary, they will be made. 
And we know they are necessary because we have the management 
framework plans that are currently the land use plans, and they 
are not consistent with that amorphous alternative that is the 
preferred alternative.
    Mrs. Chenoweth. Well, then, if that is the case then what 
opportunity will there be to develop a reasonable range of 
requirements, or reasonable range of alternatives, as required 
under the NEPA?
    Mr. Grant. Well, there won't be. And that is the point, I 
think, that they are trying to evade the NEPA process at the 
local planning level by arguing, we have already done that. We 
did it on this whole great ecosystem throughout the state.
    You have asked before, what is the definition of an 
ecosystem and I remembered the definition that Mr. Bacus tried 
to make when he was head of the BLM, and they asked him to 
define a ecosystem. And his definition was only in size. He 
said it could be a patch as big as the land under the heel of 
your left foot or it could be as big as three states. And that 
was his only attempt at a definition.
    Mrs. Chenoweth. My goodness. Given the broad nature of the 
decision expected under ICBEMP, would the land management 
agencies be able to issue project decisions tiered to the 
ICBEMP plan? Or how many additional levels of analyses and 
decisions and appeals will be needed to tier down the site's 
specific projects, and what will this process cost in added 
time and money based on what it has cost to date?
    Mr. Grant. Well, I think the costs--let me break the costs 
down first. I think speaking from a legal standpoint, the first 
and the most prohibitive cost will be to the individuals, the 
individuals who are adversely impacted in their use of the 
Federal lands, and to those people who have to file a takings 
action because there will be private property that the use of 
which will be taken.
    And we know what the costs of those things are. They are 
astronomical. The people of the Bruneau Valley had to pay over 
$180,000 in their attempt to get the Bruneau Snail delisted, 
which they were successful in until they hit the Ninth Circuit 
block.
    We know the cost of the Owyhee permittees in fighting an 
injunctive action. You see, the cost to the individual is going 
to be multiplied not just by what they have to do to appeal the 
actions that are taken by the land management agencies, but to 
resist the appeals and lawsuits taken by the nonuse extremist 
environmentalist groups.
    And to the government, the cost is going to be extreme 
because you are going to have--I can tell you that we are going 
to try to make it a multi-tiered appeal process. Because when 
they come down with these decisions, which we know they will--
they have made no bones about this.
    A BLM representative sitting in a water adjudication 
attempted settlement conference, said to me, to the attorney 
for the permittees, and to several of the permittees, the 
stress to get the cows off the Federal lands is going to 
increase. And when they are finally off, we don't want the 
water right to be convoluted or made more complex by having 
your name on it.
    So there is no question of what the real intent of all this 
is. They can say whatever they want to. We know what it is. We 
know it is to reduce the timber usage. We know it is to reduce 
grazing. We know it is to reduce recreation.
    So we will make the appeal process as multi-tiered as we 
can. We will appeal in every direction that we can. It will be 
costly, but the people have no alternative.
    From the Federal Government standpoint, therefore, the cost 
is going to be astronomical because I can guarantee that 
whenever one of these appeals is taken, we are going to try to 
subpoena every Federal agent that had anything to do with the 
ecosystem project as well as the local decision based upon that 
project.
    And they are going to be tied up in court. It is just that 
simple. We are not going to let them escape if we can help it. 
If we had done as individuals, what the Federal agencies have 
done in this ecosystem project, we would be under Federal 
indictment, and we would be facing embezzlement charges, fraud 
charges, and virtually every other charge that they can think 
of because that is what this is. This is a fraud. It is a fraud 
on the Congress and it's a fraud on the people who use the 
natural resource lands in the western states.
    Very technically, what they could argue is that we will 
have no appeal from a land use decision that is made based upon 
the ecosystem project, because what agency would you go to to 
appeal it? The EPA? One of the other agencies that makes the 
decisions?
    Those 20 agencies didn't sign that agreement just out of 
the spirit of goodwill. They are going to be actively involved 
in implementing this thing in every way possible.
    We know that under the Safe Drinking Water Act, the time is 
going to come in a couple of years when every municipal water 
system has to report to its users every possible area of 
contamination in its watershed. That is already been said to 
us.
    We know that all these regulations are sitting there just 
waiting to be applied under the ecosystem project with it as 
the big panoply of legalism and it is not.
    Mrs. Chenoweth. Well, Mr. Grant, you have given us an awful 
lot to think about. All three of you have. And I do have more 
questions for you. I will be submitting them in writing. I 
would ask that you return your answers as soon as possible. We 
are appropriating funds and will be in that process of making 
these analyses when we get back. So I would appreciate that the 
balance of the questions will be very helpful.
    Mr. Grant. Thank you, Madam Chairman, for the opportunity 
to testify, and we will be very blunt in our answers.
    Mrs. Chenoweth. Sometimes it takes that to get our 
attention. I don't think when it comes to the survival of the 
Northwest and those of us who are resource-dependent community 
people, I don't think there is any other way than to be very, 
very direct. And I appreciate that directness. It is honest. It 
is realistic. And I appreciate all of your testimony very, very 
much. Again, thank you very much.
    We call the next panel, Tom Dwyer, Acting Regional Director 
of the Fish and Wildlife Service, in Portland, Oregon. Is Mr. 
Dwyer here? Elizabeth Gaar, Assistant Regional Administrator 
for Habitat Conservation for the National Marine Fisheries 
Service in Portland, Oregon; Charles Findley, Deputy Regional 
Administrator, Environmental Protection Agency from Seattle, 
Washington.
    I appreciate all of you for coming so far and being here. I 
wonder before we begin hearing from you if you would stand.
    [Witnesses sworn.]

STATEMENT OF TOM DWYER, DEPUTY REGIONAL DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mrs. Chenoweth. Mr. Dwyer, we welcome your testimony.
    Mr. Dwyer. Madam Chairman, I am Tom Dwyer, Acting Regional 
Director of the U.S. Fish and Wildlife Service for the Pacific 
Region. Thank you for the opportunity to provide the 
Subcommittee with updated information on the Interior Columbia 
Basin Ecosystem Management Project, including the role of the 
Fish and Wildlife Service, both currently and historically.
    The Service's role in this project is to bring its 
expertise to collaborative efforts to assess the impact of land 
use activities on whole watersheds and ecosystems, and to help 
move beyond simple species maintenance to the ecosystems 
restoration.
    The Fish and Wildlife Service views the project, if 
implemented, as providing significant long-term benefits not 
only to the overall management of fish and wildlife resources 
and their habitats in the Columbia River Basin, but to the 
local communities within the area as well.
    The service views the project as a high priority and has 
placed a great deal of effort into working with the U.S. Forest 
Service, Bureau of Land Management, the National Marine 
Fisheries Service, and the Environmental Protection Agency. The 
development and implementation of the project is truly an 
interagency effort.
    Development of the two Draft Environmental Impact 
Statements are based on a broad landscape perspective. These 
drafts describe what we all want to see happen over a very long 
period of time in the basin and on Forest Service and BLM land. 
At these scales, these drafts provide only minimal direction on 
how land managers will actually achieve this broad-scale vision 
and apply it at the local level.
    The Service has, therefore, worked closely with the project 
EIS team and local executives at the Forest Service and BLM to 
incorporate into the drafts an approach that would provide for 
a greater level of assurance, predictability, and 
accountability in project implementation, while avoiding undue 
delays.
    The Service's current support of the project has been based 
on inclusion of three basic but critical elements that must be 
firmly founded, we feel, in the final EIS and Record of 
Decision, if those circumstances come about.
    The first of these is that we feel proactive contributions 
to the recovery of listed species under the Endangered Species 
Act and prevention of future listings as a result of any 
actions on Forest Service and BLM lands that are under the 
plan.
    Secondly, we believe we must integrate into the plan a 
comprehensive approach to analysis plan at the subbasin level 
and at the ecosystem and watershed level.
    And third, we feel that the collaborative process we are 
now experiencing should allow the service to participate in 
basin-wide midscale and project level planning and design and 
implementation. The Forest Service and BLM executives have 
supported this concept and advocate this new approach to 
interagency collaboration with the Federal regulatory agencies.
    For more than three years the Pacific Region of the Fish 
and Wildlife Service has provided technical and policy level 
assistance to the project. We have worked in partnership with 
the EIS teams to ensure the integrity of the scientific 
analysis and promote compliance with Federal laws, such as the 
Endangered Species Act.
    In addition, we have served on and provided staff 
assistance to a variety of science teams, ad hoc teams, and 
policy level teams, in particular the Executive Steering 
Committee, which consists of the executives of the Forest 
Service, BLM, National Marine Fisheries Service, EPA, and Fish 
and Wildlife Service at the regional and state levels.
    You asked in your letter of invitation about budgets and 
efforts we have devoted to this project. During the 
developmental stages of the two Draft EISs the Fish and 
Wildlife Service has annually provided approximately six to 
eight field office employees dedicated only part-time to 
support of the project. We estimate that this has cost us 
perhaps in the neighborhood of $250,000 a year for the past 
couple of years.
    There are, of course, other ongoing Fish and Wildlife 
Service actions in the basin and funding for these activities, 
particularly those related to Endangered Species Act 
Consultation, probably total about $1.2 million dollars a year.
    Once the project begins its implementation phase, then of 
course these funds would then go in support of the project. 
Thus, in total, we have probably spent roughly $1.4 million a 
year from our budgets to support project implementation.
    The President's fiscal year 1999 budget includes an 
increase of $1.5 million in the ESA consultation area to be our 
first incremental increase in funding for this project. During 
implementation the Service has assumed that field level 
collaboration will occur similar to that currently used in our 
streamline Section 7 consultation process.
    This involves, basically, assigning local Fish and Wildlife 
Service biologists to work with one or more BLM resource areas 
or Forest Service districts in a consultation and collaboration 
role.
    I expect the Service's role in working with BLM and the 
Forest Service and land managers in the future to be the 
following:

    One, we will help identify in early stages projects that 
would adversely affect candidate, proposed or listed species 
and help them develop alternatives. We would provide a 
landscape perspective on listed species status. We would help 
identify mechanisms to improve conditions for these candidate 
species and species of concern to avoid the need for future 
listings under the Endangered Species Act. And we would help 
them develop habitat and resource information.
    Thank you, Madam Chairman, for allowing me to speak this 
afternoon before this oversight hearing. I would be glad to 
answer any questions.
    Mrs. Chenoweth. Thank you, Mr. Dwyer.
    [The prepared statement of Tom Dwyer may be found at end of 
hearing.]
    Mrs. Chenoweth. Elizabeth Gaar.

  STATEMENT OF ELIZABETH GAAR, ASSISTANT REGIONAL MANAGER FOR 
    HABITAT CONSERVATION, NATIONAL MARINE FISHERIES SERVICE

    Ms. Gaar. Thank you. Madam Chairman, I am Elizabeth Holmes 
Gaar. I am the Assistant Regional Administrator of the 
Northwest Region of the National Marine Fisheries Service, 
which has the common acronym of NMFS, which I will use from 
hereforth.
    I am responding on behalf of NMFS to your request as 
Subcommittee Chair for testimony on the Interior Columbia Basin 
Ecosystem Management Projects or project, including the role of 
regulatory agencies both currently and historically, as well as 
the impact of the project on local communities.
    The project is a unique undertaking that will guide future 
land management decisions, and will significantly increase the 
involvement of government and nongovernment partners and 
stakeholders in the resource management decision process.
    The primary NMFS role in the project is to help ensure that 
conservation needs of salmon and steelhead listed under the 
Endangered Species Act and proposed for listing under the 
Endangered Species Act are realized as actions are taken across 
the broad expanse of the project area.
    The NMFS is committed to working for a successful planning 
and implementation of the project. We believe our early and 
full involvement is needed to help avoid and to minimize 
costly, last-minute conflicts that could affect both short- and 
long-term outcomes.
    The collaborative interagency approach to project planning 
is working. We have made it work for the last 5 years in the 
Columbia Basin. Our experience with ESA salmon issues in the 
Northwest has shown it is more efficient and cost effective to 
involve all interested parties early and often during large 
scale planning exercises such as the ICBEMP or the project.
    The NMFS is, therefore, participating in development of key 
components of the DEISs and those areas requiring additional 
efforts to complete a final EIS and record of decision. This 
early interagency involvement was critical to the development 
and release of the Draft EIS to the public for their review and 
comment.
    The NMFS continues to work collaboratively with our Federal 
partners in moving from a Draft to Final EIS and record of 
decision. A major interest in NMFS is the interagency 
commitment to hierarchical, step-down planning as a primary 
tool for incorporating scientific information into project 
implementation. This type of planning will provide assurances 
for conservation of listed salmonids and their habitats.
    You did ask about NMFS ICBEMP budget. Successful ICBEMP 
implementation depends on continued interagency participation 
in the collaborative step-down planning process that does 
promote ecosystem management. The ability to deliver project 
planning flexibility also depends on a strong adaptive 
management approach, strong science, and NMFS involvement.
    The NMFS budget for ICBEMP currently focuses on interagency 
participation in the development of the DEISs and supporting 
implementation strategies. As the project transitions to 
implementation and the application of new science to the step-
down planning process for project design and implementation, 
NMFS interagency participation will increase in those areas 
where conservation of anadromous salmonids are of concern 
within the project area.
    The President's fiscal year 1999 budget for NOAA Fisheries 
includes a west coast, Alaska, Northwest and Southwest, which 
is California Region, salmon funding initiative which includes 
approximately $2.8 million for Natural Fisheries Service to 
support the project.
    Now, to date, we have spent in fiscal year 1998, our budget 
is $200,000 for ICBEMP FEIS development and we are looking to 
the 1999 budget increase to get us in a position where we can 
actually participate in the implementation.
    With regard to the role of the NMFS during ICBEMP 
implementation we intend to build on the successes of 
interagency collaboration and planning to date, as well as that 
gain through the present ESA Section 7 streamlined consultation 
process.
    Early and complete involvement by NMFS is essential for 
continued successful application of the streamlined ESA 
consultation process. The integrated collaborative effort and 
commitment by the Federal agencies will serve to reduce 
nongovernmental legal challenges and other efforts often 
required during a formal ESA Section 7 consultation process.
    In closing, I want to express my appreciation to you, Madam 
Chairman, for your continued interest in this multi-agency, 
broad-scale Federal land management planning process. I 
sincerely believe that this project has worked and continues to 
work diligently to bring all involved parties together.
    Now we begin the difficult task of assessing the 
interrelationships of Federal land management decisions within 
the Interior Columbia River Basin. By jointly approaching the 
problems identified in the ICBEMP science assessments, many of 
which are too large for any one agency or land unit to address 
alone, we can collectively apply newly analyzed scientific 
information that was unavailable in the past. And begin the 
restoration efforts with confidence that many of our highly 
valued public resources need.
    Thank you, Madam Chairman, for allowing me to speak before 
this Subcommittee and this concludes my statement. I would be 
happy to answer questions.
    Mrs. Chenoweth. Thank you, Ms. Gaar.
    [The prepared statement of Elizabeth Gaar may be found at 
end of hearing.]
    Mrs. Chenoweth. The chair now recognizes Charles Findley. 
Mr. Findley?

 STATEMENT OF CHARLES FINDLEY, DEPUTY REGIONAL ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Findley. Madam Chairman, I am Chuck Findley, the Deputy 
Regional Administrator for Region 10. I am here at your request 
to provide the Subcommittee with additional testimony on the 
Columbia Basin Project, including EPA's regulatory role.
    I would like to begin by expressing EPA's strong support 
for the purpose and the needs that have been established for 
this project, restoring and maintaining ecosystem health and 
ecological integrity, supporting the economic and social needs 
of people, cultures, and communities, and providing sustainable 
and predictable level of products from Forest Service and BLM-
administered lands.
    Satisfying these purposes and needs is key to healthy 
watersheds, aquatic ecosystems, and ultimately the communities. 
Our philosophy has been, and will continue to be, to put effort 
into up-front work to ensure that the overall objectives and 
standards and guides are protective of our air and water 
resources.
    This is simply more efficient than being involved on a 
project-by-project basis. We believe it also helps provide a 
more constant flow of goods and services to the communities and 
public because projects will less likely be challenged.
    If protective land management practices are not dealt with 
adequately up front through the EIS process, they likely will 
be dealt with later through other forums. History tells us that 
this will be a likely scenario if we are not successful up 
front. EPA's decision to invest resources in the project is 
based on the premise that it is far more cost effective to 
collaborate and address concerns early on in the process than 
it is to wait and attempt to resolve differences that are 
identified on a project-by-project basis. That is the way it 
used to be done.
    We have had some disagreements and differences of opinion 
over the past four years on this project. That is 
understandable given the different mandates that each of the 
agencies have. But at the executive level, there continues to 
be a firm commitment to forge agreements that meet each 
agency's mandate and interest in stewardship of our country's 
natural resources. Decision-making at the policy level has been 
a joint and collaborative process among all five agencies 
involved. And I am confident that this mode of operation will 
continue.
    EPA's current involvement in the project remains one of 
strong support. We committed the resources necessary to assure 
that it moves forward as quickly and efficiently as possible to 
a final decision. Reaching resolution will mean that the 
critically important environmental restoration work can begin 
to protect the region's land and water.
    EPA will commit resources and continue to work with the 
land management agencies in a collaborative manner for the 
duration of this project. Assuming the production of a final 
EIS and record of decision, EPA expects to participate in the 
implementation of the project with a level of resources 
sufficient to provide the Forest Service and BLM with technical 
assistance and support in their planning, assessment, and 
decision processes.
    We want to ensure the clean water and clean air and other 
EPA responsibilities are appropriately addressed. We would 
expect our level of involvement to decrease over time as we 
gain confidence that these responsibilities are being carried 
out satisfactorily. EPA's approach is to be more involved 
initially on selected projects, but then to reduce our 
involvement as we gain confidence that the standards are 
applied consistently across the landscape.
    We believe we can accomplish our goals in the collaborating 
process by focusing our limited resources on the most sensitive 
and complex environmental issues. Our goal is to provide staff 
and resources sufficient to assure success of the project that 
are appropriate to the nature of the issues and challenges that 
arise.
    In closing, we believe the direction and goals of the 
Interior Columbia Basin Projects are worthy of continued 
support, both by the communities, the public, and interest 
groups that will be most impacted by it, and by government at 
all levels. EPA is committed to supporting the project and 
assuring its success.
    The strength of the project is its framework of broad 
public participation, ability to address regional landscape 
scale issues, default standards that can be changed to fit 
local conditions through the conduct of ecosystems analysis at 
the watershed scale, and finally intergovernmental 
collaboration opportunities.
    Thank you, Madam Chairman, for inviting me to address this 
oversight hearing. This concludes my statement, and I would be 
happy to address any questions you might have.
    [The prepared statement of Charles Findley may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Findley. I want to ask all 
three of you the same question. I will start with Mr. Findley, 
so be thinking of your answer.
    ICBEMP has a dual purpose and need as stated in chapter 
one. It is to, first, develop science-based sound strategies 
for the environment, and second, support economic social needs 
of people, communities, and jobs. Is your agency equally 
committed to both of these goals?
    Mr. Findley. Our agency is committed primarily to the 
satisfaction of environmental laws and regulations. That is our 
primary purpose. We carry out those responsibilities in a 
common sense way, in a way that blends the different aspects of 
community needs with environmental protection. And we try to do 
that in a balanced way.
    Mrs. Chenoweth. Thank you. Ms. Gaar?
    Ms. Gaar. Yes. The Natural Marine Fisheries Service does 
have obligations for conserving the fishery resources. That is 
our primary obligation and mandate.
    However, we understand that we are not the ones who 
ultimately are responsible for and cause the conservation of 
the resources. It is the people. It is the people on the 
ground, the people in the local communities, and the people who 
are working in the agencies, states, counties, and tribes.
    We try to make fish conservation happen. And so our 
interest is, specifically, for the resource. We fully 
understand that management strategies need to be designed in a 
way that people are able and willing to implement.
    Mrs. Chenoweth. Mr. Dwyer?
    Mr. Dwyer. I think I would answer absolutely, that the Fish 
and Wildlife Service is committed to both protecting our 
responsibilities under environmental laws, but also allowing 
reasonable use of commodities and reasonable extraction of 
commodities from the public lands.
    I think what we see in these Draft EISs that we feel 
strongly about, is the fact that we are dealing with landscape 
level planning, collaborative interagency efforts what we hope 
is a broad-scale public input to this. I think the fact that 
the drafts have now been out for some 320 days for public 
review is some evidence of that.
    Then also, the whole idea of balancing the economic and 
environmental focus in this plan is really where we think the 
action needs to be in the future. You don't have to have the 
conflicts is you have early, and adequate consultation up front 
between regulatory agencies and land management agencies.
    Mrs. Chenoweth. And the next question I would like to ask 
all three of you, and I will start with Mr. Dwyer this time, is 
on the issue of risk, how your agency views risk. Do you 
believe that the risks are balanced or are long-term risks 
discounted in the documents, in favor of a short-term risk?
    Mr. Dwyer. I think if you are asking are we reasonably 
comfortable with the preferred alternative and does it balance 
those kinds of issues, I think at this point, yes. I think we, 
like the other agencies, are undergoing, in a sense, our own 
internal review of really what all the words do say and do mean 
in the document.
    But we were a party to developing that preferred 
alternative and what we thought was a balanced reconciliation 
of the need for economic development, essentially, and 
protection of the environment.
    Mrs. Chenoweth. Ms. Gaar, how does your agency view the 
issue of risk? Are risks balanced or is the long-term risk 
discounted in favor of the short-term risk?
    Ms. Gaar. Well, if I understand your question, I think it 
is a good one. I hope I am answering it. Let me know if I am 
not.
    We are concerned about both the short- and the long-term 
risks. But we put the short-term risk in perspective and that 
perspective, is that our ultimate goal is long-term survival of 
the species. And we do have the Endangered Species Act 
responsibilities.
    We also have many others, communities and tribes, that are 
interested in going beyond the Endangered Species Act to 
fisheries again and sustainable populations. So there needs to 
be a proper balance of the short-term risks and the assurance 
in the long-term, that survival does occur.
    Mrs. Chenoweth. Thank you. Mr. Findley, how does your 
agency view the risk?
    Mr. Findley. Let me give you a practical example. I 
appreciate the opportunity to go third rather than first this 
time.
    The issue of air quality, for example, is probably a good 
example of how risks are balanced in the Draft EIS. If you take 
a look at what has happened over the last few years, 
particularly with all the heavy duty forest fires we have had 
in this area, we have had dramatic impacts on air quality.
    In the long run, the goal of the project is to get forests 
in their proper functioning conditions so that that isn't quite 
as big of a factor as it is now. So in the long run, you will 
have much better air quality.
    In the short run, we are going to pay a little bit more of 
a price for that because we will have more prescribed burnings 
to thin out areas where there is heavy accumulations of flash. 
That is a balance and we think that the approach that is used 
in the EIS has achieved the proper balance between long and 
short run.
    Mrs. Chenoweth. Ms. Gaar, I would like to ask you, do you 
believe that Alternative Four actually takes care of the needs 
of the fish to your satisfaction or your agency's satisfaction?
    Ms. Gaar. Well, Alternative Four is now out in the draft 
form in the Draft EIS. Its final form will be determined after 
an in-depth review and consideration of public comment. So that 
is where we are with Alternative Four. The framework is good. 
The ultimate outcome is going to depend on the consideration of 
the public comments.
    Mrs. Chenoweth. Do you believe that more is needed to add 
to Alternative Four than what is now provided?
    Ms. Gaar. The framework of Alternative Four is good as a 
comprehensive aquatic strategy for salmonids. I do believe that 
what is needed is some refinements. For example, 
implementation. The agencies need to articulate how the 
implementation process will work. For example, if we have a 
subbasin assessment or watershed analysis, how is the 
information from that transferred to the project level for 
decisionmaking? We do have some work to do on those refinements 
still.
    Mrs. Chenoweth. I wanted to ask you, Mr. Findley, does your 
agency have a communications memo, a policy by which your 
personnel is directed to link implementation with Vice 
President Gore's Clean Water Initiative?
    Mr. Findley. Madam Chairman, I am not sure I can answer 
that question. I honestly don't know whether we do or don't. 
The Clean Water Initiative was developed largely in Washington, 
DC, with not very much regional input. I am not saying it is a 
bad initiative. Just simply given the time, it was done in that 
way.
    And now they are expanding it to give public comment on it 
and to get the states' reaction and whatnot to see how it can 
work. And I am not sure what our communication strategy is in 
terms of any deliberate memo. I doubt that we have one.
    Mrs. Chenoweth. To your personal knowledge, you do not know 
of any?
    Mr. Findley. To my personal knowledge, that is correct.
    Mrs. Chenoweth. Do the Fish and Wildlife Service, the 
National Marine Fisheries Service, and the EPA plan on adding 
staff to each ranger district or national forest to provide 
input to land management decisions? Mr. Dwyer, could you answer 
that first?
    Mr. Dwyer. I think after full implementation of the 
preferred alternative, or some changes to that which may come 
about because of the public input and even the agency reviews 
which we are going through. Once we get that done, I think what 
we see as the best way to implement whatever is a preferred 
alternative is, in fact, to have, as Elizabeth mentioned this, 
early and often consultation with the land management agencies.
    Yes, that will mean in the end, I think, an addition of 
staff; whether we would actually put staff at each ranger 
district or at each BLM district, I doubt it. I think it would 
be more an upgrading of staff that we have now in some key 
areas and key offices that we have throughout the region.
    We don't anticipate this as a terrific number of people, 
but we want to make sure that we have enough people there to 
answer the questions, to consult early on, to help avoid 
conflicts later on, particularly related to the Endangered 
Species Act.
    Mrs. Chenoweth. Mr. Dwyer, does your agency have a 
communications memo or a policy by which your personnel is 
directed to link implementation of the ICBEMP policies with 
Vice President Al Gore's Clean Water Initiative?
    Mr. Dwyer. To my personal knowledge, we don't have such 
direction.
    Mrs. Chenoweth. Ms. Gaar, do you know of any typed memo 
that your agency has developed, a communications memo of 
policy, by which the personnel is directed to link 
implementation of your activities to Vice President Al Gore's 
Clean Water Initiative?
    Ms. Gaar. I do not have personal knowledge of such. I would 
be happy to inquire with different levels of the agency.
    Mrs. Chenoweth. Would all of you please inquire?
    Ms. Gaar. Sure.
------------
    After looking into the matter, the National Marine 
Fisheries Service has no knowledge of a communications memo by 
which the personnel are directed to link implementation of our 
activities to the Clean Water Initiative.

    Mrs. Chenoweth. Can you tell me if the National Marine 
Fisheries Service is planning on adding staff to each ranger 
district or national forest to provide input to land management 
decisions?
    Ms. Gaar. Yes. My answer would be nearly identical to 
Tom's, except that we would limit our involvement to areas that 
have salmon and steelhead. We would upgrade staff, but would 
not actually locate them at each ranger station. Right now we 
just have an office in Boise, Idaho, and it is possible that we 
may try to expand because our guys spend way too much time on 
the road because they do go out on the ground meeting with the 
Forest Service people, getting to know the ground and the area.
    So we might locate a field office or two to become more 
knowledgeable of the area. But my answer is identical to Tom's. 
We do anticipate that early and often involvement so that we 
avoid roadblocks when it comes time to really get the activity 
out.
    Mrs. Chenoweth. Thank you. Mr. Findley, do you anticipate 
adding staff?
    Mr. Findley. We will add some staff, but will we have staff 
in each district? No, we won't. We are not staffed that way. We 
simply don't have that quantity of staff to do that. We will 
pick and choose in areas where we have fairly significant 
degraded water problems or where there is likely to be some 
significant coordination problems between land management 
agencies and local air authorities, for example, or state air 
authorities.
    Mrs. Chenoweth. Mr. Findley, what impact will the 
requirement to collaborate with Forest Service have on annual 
budgets of your agency?
    Mr. Findley. We are developing estimates at this point. We 
made preliminary estimates. I don't have them with me. I would 
be happy to share them with you.
    Mrs. Chenoweth. Have these been disclosed in the DEIS?
    Mr. Findley. I don't believe so. I can't answer that for 
sure.
    Mrs. Chenoweth. Could you find out for me and if they have 
not been disclosed, could you let us know why?
    Mr. Findley. Yes, I would be happy to. I just simply can't 
answer the question.
    Mrs. Chenoweth. All right. Ms. Gaar, what impact will the 
requirement to collaborate with the Forest Service have on the 
annual budgets of National Marine Fisheries Service and are 
these figures disclosed fully in the DEIS?
    Ms. Gaar. OK. The first question about the impact on the 
National Marine Fisheries Service budget, I would go back to 
the figures that I reported earlier in my testimony. You 
probably did notice a definite increase between fiscal year 
1998 and fiscal year 1999. Indeed it would take resources in 
addition to what we have now because we are just covering the 
existing consultations, and we feel, barely.
    And the reason we would need additional staff is because it 
is true that Alternative Four envisioned a very analytical 
framework or process that is nested, beginning with the large, 
the subbasin assessment, and then the watershed assessment, and 
then the project scale, and in order for the land managers to 
retain local flexibility, the assessment is focused, zeroed in, 
on the local area.
    So that is a change in the way business has been done 
presently and in the past, which has been that there are 
programmatic standards and guides and everybody implements 
them. So part of the cost of local flexibility depending on the 
conditions, both environmental and socioeconomic, is the need 
for that assessment and the analysis as we step down to the 
decisionmaking on the ground.
    Mrs. Chenoweth. Do you envision, then, in the future for, 
say, a timber sale, or a grazing permit in our region, do you 
think that it will be incumbent upon the agencies to analyze a 
region-wide impact as well as a watershed-wide impact in order 
to come down to the project impact? Will we have to develop a 
process by which we go through all of those steps for every 
individual project?
    Ms. Gaar. Well, part of the reason, a big part of the 
reason for the ICBEMP are these forest and rangeland health 
issues. And what we have learned a lot about through the 
science assessment is the urgency of attending to the forest 
and rangeland health issues.
    And so in order to do that, in a way that we are able to--
or the forest and BLM are able to prioritize and get to the 
most pressing rangeland health issues, and do so in a manner 
that also conserves the precious habitats that we are concerned 
about, those assessments are what provide the information in 
order to help the land managers know where to go first.
    In fact, some of the science assessment work has already 
helped identify some of those priority areas where we should go 
first at this large scale. So the large scale will be done when 
the FEIS is done. And my understanding is that the subbasin 
assessments and watershed analyses are kicking up and are 
underway.
    I also wanted to answer that there are specific triggers 
for the watershed analysis process. I don't know that it is 100 
percent of the area that requires the watershed analysis. There 
are specific triggers, like the presence of endangered species.
    Mrs. Chenoweth. Can you tell me if these agencies will be 
analyzing the potential historic areas that will impact the 
potential historic salmonid runs, as compared to the recent 
historic salmonid runs?
    Ms. Gaar. In forest land management for the Forest Service 
and BLM?
    Mrs. Chenoweth. In making the decisions under ICBEMP.
    Ms. Gaar. Your question is will we be analyzing the current 
extent of use by fish?
    Mrs. Chenoweth. Let me frame the question differently.
    Ms. Gaar. I think I understand it.
    Mrs. Chenoweth. I am taking my question from a comment that 
you made that you would have to be focusing on those areas that 
would be impacted by historic salmonid runs. The areas of your 
jurisdiction are the areas that impact salmonid runs.
    Ms. Gaar. I don't recall using the word historic. But 
certainly, yes, our area----
    Mrs. Chenoweth. You may not have, and that is my question.
    Ms. Gaar. OK. Our area of jurisdiction is the extent of the 
salmonid runs presently and historically to the extent that it 
is practicable, meaning reasonable and prudent from both the 
biological and economic standpoint, to regain historic habitat 
that may be above a barrier. And that decision is really made 
on a case by case basis.
    Mrs. Chenoweth. I see. You know, I have three pages of 
questions I would love to ask you. Mr. Findley, I do want to 
ask you, how much has EPA spent to date on ICBEMP, what is your 
budget for fiscal years 1998 and 1999 for this project, and 
what are your future budget needs during the implementation?
    So I am asking you what has been spent to date, what is 
your budget for 1998 and 1999, and what do you anticipate your 
future budgets needs will be during implementation?
    Mr. Findley. I think I indicated in an earlier response to 
a similar question. I would give you some information back on 
what that is. Let me try to give you as best as I can right now 
and then try to clean that up with a written response later.
    The historical part I don't have. I can tell you that right 
now, we are spending on the order of 2-FTE in order to 
participate at the level that we are. And as we go into 
implementation, we have provided a preliminary estimate to our 
own headquarters of something in an order of 30-FTE in order to 
fully implement the responsibility we think we have. We don't 
expect to get all of that. And that is the negotiation, or the 
discussion we are having with our budget office right now as we 
prepare for the 1999 budget and the year 2000 budget.
    Mrs. Chenoweth. I think, I was hoping that you would have 
that because we did send it out in the invitation. And I am 
disturbed that you don't have the information. I know it is not 
your fault, but I am disturbed that the agencies----
    Mr. Findley. I will promise you a very prompt response on 
that, Madam Chairman. I must admit we had an oversight on that.
    Mrs. Chenoweth. Thank you very much. And I will look 
forward to receiving that information from the other two 
agencies as well.
    I am fully aware that people have to catch airplanes, and 
so I will excuse this panel now. But I do have three pages of 
questions that I will be submitting to you. And we have three 
weeks that we will keep the record open, so I appreciate having 
your responses within three weeks. All right? Thank you very 
much for your time.
    Ladies and gentlemen, next the hearing process will go to 
the open mike. I do want to let you know my staff is asking for 
a break. And I imagine some of you need a break too. So we will 
recess for a 10-minute break and then we will be called back to 
order.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order. The 
hearing will come to order.
    I have been sent copies of many questionnaires on the 
Interior Columbia Ecosystem Management Plan on ICBEMP that were 
submitted to the Columbia Basin EIS team. Many include 
additional comments written by the submitter, and I want to 
make sure that you have received all of these. And I will 
include them in the record by reference. That is all of these 
comments.
    I would also like to mention for the record that I have 
received a copy of a petition signed by more than 250 people 
that was sent to the Forest Service expressing opposition to 
both the roadless area moratorium and the preferred alternative 
of ICBEMP.
    They express concern that the moratorium and the road 
obliteration plan by ICBEMP will restrict access to our public 
lands. I have a copy of the cover letter for the record and 
will provide a complete copy of the petition after the hearing. 
So without objection, I will enter that into the record, also.
    I do want to say that this is a time when we will ask 
people to come to the podium there, that is placed there. We 
have an open mike, and we have people who have signed up to be 
heard.
    I want you to know that we ask that you limit your 
testimony to two minutes. After your two minutes, the red light 
will come on.
    If you have not completed your testimony during that time, 
I do want you to know that your entire written comments will be 
made a part of the record and will be reviewed by all of us. We 
do have to limit this time so that we can hear from as many 
people as possible.
    Some of you have come from other states. Most of you have 
traveled long distances. And so with that, I want to call on 
Sharon Beck first. Sharon Beck is president of the Oregon 
Cattle Association. We are very pleased and honored that she is 
here.
    Before you begin, Sharon, I do want to say that I believe 
you were issued a little slip of paper with a number on it. Do 
you remember that? Any of you who were issued the little piece 
of paper with the number on it, if you could give it to Kathy 
Crook, our Committee clerk, here in the black jacket before you 
testify. We would appreciate it.
    So with that, again, I want to welcome you, Sharon Beck. It 
is an honor and privilege to have you here. Thank you for 
coming.

 STATEMENT OF SHARON BECK, PRESIDENT, OREGON CATTLE ASSOCIATION

    Ms. Beck. Thank you, Madam Chairman, for letting us cross 
the border into Idaho here today, and especially for having 
those last three panelists. It looked like the rest of us might 
cause meltdown to ICBEMP there for a little bit.
    Thank you for holding this hearing so that you could get a 
feel for what real people feel about the impacts of ICBEMP and 
living under such a plan.
    I know it is not politically or socially correct to be 
judgmental about anything these days, so I am taking a big risk 
by saying that we believe this administration has done some 
really absurd things.
    ICBEMP is the mother of all absurdities. In November, the 
Idaho Cattlemen's Association passed a resolution which was 
later passed by the National Cattlemen's Association which 
basically said that the citizens of the western states have a 
direct interest in the management of public lands that produce 
payments in lieu of taxes and contributes significantly to 
funding the public schools and roads.
    And the citizens of the United States and communities 
throughout the western states depends on the managed 
stewardship, sustained yield, and even flow of goods and 
services for multiple use management of public lands located in 
these states.
    There is increased demand in the United States and in the 
world for natural resources: Recreation, wildlife, fisheries, 
food, fiber, clean air, clean water, and minerals. The ICBEMP 
draft documents fail to adequately and truthfully disclose the 
economic, environmental, and social effects of implementation 
of ecosystem management practices embodied in the draft DEIS 
documents.
    And, clearly, the preferred alternative intends to take 
livestock off many areas now in use and will require new 
standards for grazing. ICBEMP represents a top-down management 
paradigm which reduces or eliminates effective local input in 
natural resource management and environmental decisionmaking.
    The resolution goes on to say that it should be terminated 
with no record of decision being approved. The ecosystem 
management data developed by the project should be communicated 
to BLM district managers and National Forest supervisors for 
consideration of public input in statutorily scheduled 
environmental land and resource management plan revisions.
    And that we strongly support natural resource planning and 
environmental management featuring, site specific management 
decisions made by local decisionmakers, local citizenry, and 
parties directly and personally affected by the environmental 
land and resource management decisions.
    The Cattlemen's resolution recognizes that the project has 
topped down the public land management plan. Although it has 
declared for several years that it was using the best science 
available, it displays an ineptitude for separating the facts 
of science from the myths of popular belief. The Dairymen and 
Cattlemen's Association has had a formal review of the DEIS 
that we will be mailing to the Committee within the next few 
days. Thank you again.
    Mrs. Chenoweth. Thank you very much, Mrs. Beck. And thank 
you for making the trip over here.
    Next is Ed Liddiard. And then after that, we will call on 
Jack Streeter.

STATEMENT OF ED LIDDIARD, PRESIDENT, TREASURE VALLEY CHAPTER OF 
                       PEOPLE FOR THE USA

    Mr. Liddiard. Good afternoon, Madam Chairman. My name is Ed 
Liddiard. I am president of the Treasure Valley Chapter of 
People for the USA.
    This morning I had mailed my comments to Washington, DC, 
attention to Kathy Crook.
    Madam Chairman, the Interior Basin Columbia Ecosystem 
Management Project, ICBEMP, this plan affects nearly 150 
million acres in the Upper Columbia Basin management and spans 
areas in Oregon, Washington, Idaho, Montana, Nevada, Utah, and 
Wyoming. The draft environmental impact statement, EIS, the 
procedure used to evaluate processed management alternatives is 
flawed.
    Specific ecosystems to be protected by land managers are 
not mapped, though convincing legal rationale for shifting 
ecosystems-based management is offered, and the key terms lack 
plain definitions.
    The Federal Government is trying to tell us that the Forest 
Service, Bureau of Land Management, the U.S. Fish and Wildlife 
Service, the National Marine Fisheries Service, the 
Environmental Protection Agency, will work together to make 
ICBEMP a workable project.
    It has entirely--it has already been proved that it can't 
work together. Just look at the grizzly bear plan and the 18-
month road moratorium.
    As a miner, the ICBEMP project will close many roads in the 
West. We who depend upon roads in the West. We who depend upon 
roads in the National Forest and the BLM areas depend on roads 
to get to our mines.
    The draft of the economic and social conditions of 
communities says it will not be affected. I do not agree with 
the EIS on economics. With the help of the Idaho Council, just 
to give you an example, over a 5-year period, between 1991 and 
1995, the mining industry in Idaho paid $833 million to its 
4,714 workers. In 1995, the industry paid $190 million in wages 
to 5,081 workers. The average miner earned $37,500 in 1995, 
which is 60 percent greater than the salary of the average 
Idaho worker. These benefits have an impact on the whole state.
    What is going the happen to recreation workers? The average 
wage range for a recreational worker is $5 to $11.50, with a 
minimum of $6.75. Mining involves large companies and small 
businesses and individuals. Quite often mineral extraction is 
carried out by individuals, prospectors who look for the 
minerals to sell to the mining companies which mine the 
materials used out here in the United States and throughout the 
rest of the United States.
    The rest of my statement in it's entirety has been made 
available, and I do thank you, Madam Chairman.
    [The prepared statement of Ed Liddiard may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you. I really look forward to reading 
your entire statement, and I thank you for submitting it ahead 
of time for the record.
    The chair recognizes Jack Streeter.

                   STATEMENT OF JACK STREETER

    Mr. Streeter. Let it be known that I will submit written 
comments. Congresswoman Helen Chenoweth, it is wonderful to see 
you here.
    I understand there are 26 letters in the alphabet. You 
better get a bigger alphabet for these government wheeling and 
dealing people that like to take the rights of the American 
people away from them.
    I will tell you what I think. I think we ought to 
investigate the possibility that maybe this is 
unconstitutional. The way I look at it, Congress should have 
brought this or something to the President, and then he could 
have looked at it, but it is the other way around. He is 
bringing it to you. I don't think he has that authority.
    We have spent $40 million on that guy already. I am not 
going to tell you what for, but now I heard about another $40 
million that we spent stupidly. Listen, melt that ICBEMP down 
to our size, and throw the dirty water over this administration 
in Washington, DC.
    Now, 144 million acres, no group like that can manage it. 
The people closest to the ground and closest to the government 
of the local states--as a matter of fact, they should have 
already released their authority on all of the grounds within 
the states.
    It implies in the Constitution, when a state has the money 
and the resources, they should manage the ground and kick the 
Federal Government out except for a few parks.
    I have got one other little thing here, that I think we 
should use common sense, and there should be a law passed that 
it is all right to use that.
    There are two words I like: Posterity and prosperity. Now, 
our kids aren't going to have any of that if we don't get off 
our duff and tell this government where to go and how to get 
there.
    Now, I mentioned common sense, ladies and gentlemen. We 
have been doing this for 6 years. We had the Swan Falls Guffey 
Project. If we could have got that through, it would have taken 
care of about 80 percent of this bull, because we would have 
utilized the water in Idaho.
    You have always heard that the staff of life is bread. That 
is true. And water, by golly, is the blood of life, and we have 
got to protect it. You cannot do anything without water. 
Nothing. You can't grow anything. You can't do anything without 
water. Protect it. My last blast.
    ``I think, myself, that we have more machinery of 
government than is necessary, too many parasites living on the 
labor of the industrious.''
    I wished I would have said that, but a fellow by the name 
of Thomas Jefferson did. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Streeter.
    Mr. Streeter. If you have any questions, I am available.
    [Laughter.]
    Mrs. Chenoweth. Thank you very much.
    The chair recognizes Commissioner Pete Nielsen.

 STATEMENT OF PETE NIELSEN, CHAIRMAN, ELMORE COUNTY REPUBLICANS

    Mr. Nielsen. Madam Chairman, I am Pete Nielsen. I am 
chairman of the Elmore County Republicans. We didn't prepare a 
statement. My friend Jack Streeter contacted me early this 
morning and told me this was going on and asked me to come, and 
I have been educated a great deal. I am also a candidate for 
the Senate race in the Republican Party for Legislative 
District 20, and Jack is a hard act to follow.
    I agree with Farm Bureau, and the good lady--she was 
sitting there by me--that this is a Jekyll and Hyde 
proposition. There is no definition of it, of where they are 
going, how they are going to get there, or anything about it. I 
have to agree currently with that.
    As Representative Cuddy said, the current Federal system is 
broke. I agree with that. He also stated that local control can 
make the decisions and implement the plans quicker. I agree 
with that, and the reason I agree with that is this: Locally we 
care more than the Federal can possibly care, because it is 
where we live. It is where we have our families. It is where we 
raise our grandchildren.
    I personally want this to be a place for my children, and 
my grandchildren as good as it was, if not better, than the one 
I was raised in.
    And I can see where this is going, and it is not going to 
be the case. And I will move heaven and earth in order for that 
to happen. Mining, as we have reported today, has tried to get 
along with this. ICBEMP you call it? And what was their final 
say? It should be ended, period. No qualifications about it. 
Just stopped.
    The Federal agencies that reported here took the approach 
that I have heard many, many times, and that was this, they are 
trying to keep their jobs intact. They are always asking for 
more funding, as your questions, when they ask, Are you going 
to have to hire more people? Inside of two of those statements, 
it also asks for increased funding. The third one didn't 
address that, but that is always the case. They always ask for 
more funding.
    I wish they would take a more objective approach. If ICBEMP 
was in place and followed to its completion, they would be 
without a job, because the tax base would be very limited. And 
there wouldn't be any taxes for them.
    The real objective of this plan, I honestly feel, is one of 
control. And as long as the Federal Government owns the ground, 
we will always have to be on the alert to fight that, because 
they will always invent contrived means to maintain that 
control either through ICBEMP or some other thing. We have 
always got to be on the alert.
    And it pleases me very much to see that there is a 
coalition being built out here amongst the miners, the 
recreational people, the ranchers, farmers, labor, all against 
this proposition.
    And may I conclude this way, if ICBEMP was in existence in 
the day of Horace Greeley, Horace Greeley would have said, Go 
east, young man. Go east. And when you are to the ocean, you 
will have to swim, because a boat wouldn't meet EPA 
requirements. And I hope a shark eats you, because you don't 
even belong there. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Nielsen.
    Now we call on Frank Priestley, president of the Idaho Farm 
Bureau.

   STATEMENT OF FRANK PRIESTLEY, PRESIDENT, IDAHO FARM BUREAU

    Mr. Priestley. Congresswoman Chenoweth. We appreciate you 
being here and taking your time to hear our feelings and our 
concerns about ICBEMP.
    As you know, Idaho depends greatly on our public lands. Our 
livelihood, our schools and our local governments and our 
recreation depend greatly on public lands. And we strongly 
support the multiuse of our lands.
    As you know, that when the tax bases have gone, and the 
jobs that are created in our public lands, whether it be timber 
or grazing or mining or whatever it may be, that all comes 
clear down into the communities, and that is very important to 
us.
    They say that this ICBEMP won't affect private properties. 
There is 144 million acres, and that surrounds, half of it, 
about 75 million acres as private. We cannot have that much 
public land without affecting our private lands, also.
    The whole thing totally ignores the economic impact of what 
it does to our communities, how it creates money, and just a 
total cost not only to individuals but also to total 
communities and to our state and, really, to our nation.
    Part of this book, the Economic and Social Conditions of a 
Community, presented by this, and in that there is a couple of 
little things that I would like to point out to you, that they 
are wrong.
    I live in a little community of Franklin, which is in the 
very southeast corner of Idaho. We have 500 in our community. 
It points out there that within a 20-mile radius, there is no 
public lands. Approximately five miles to the east is a whole 
mountain range. In fact, we live down into the foothills of it, 
but up about five miles from town is the forest line. And that 
whole range of mountains comes clear all the way up through 
that valley, and that is public lands.
    On the other side of the valley, which is about 12 miles, 
approximately 12 miles across, is another range of mountains 
that the public--that the forest is in that, also.
    It points out in here of cities that is impacted or has 
association with the Indian tribes. It has Pocatello that does, 
right next to that, to the Indian tribe there, the reservation, 
and then it has Chubbuck, that has no association at all, what 
to do with the Indians. You have to go through Chubbuck to get 
to the reservation from Pocatello. That is a community of about 
8,000, I think it has.
    So those are just two little things that I picked out in 
here that I would like to point out to you, and if they make a 
mistake on something that easy to find the answer, I will bet 
you, we could find another one. Thank you, ma'am.
    Mrs. Chenoweth. Thank you, Mr. Priestley.
    The chair recognizes Diane Reimers. Diane? And then we will 
call on Pat Larson.

                   STATEMENT OF DIANE REIMERS

    Ms. Reimers. I would like to thank you, Madam Chairman, for 
having the hearing in Idaho. I am from John Day, Oregon. I am 
here to represent the community of Grant County, a small rural 
community. We are 6 percent federally owned. So this project 
will have a direct effect on the economy of our county. ICBEMP 
strategy does not meet the stated purpose, particularly in the 
support of the economics of the small communities.
    We view ICBEMP as further gridlock in management, because 
of the following flaws: The range of alternatives is 
inadequate. All action alternatives effectively adopt the same 
standards. All action alternatives adopt similar goals, so 
there is no choice.
    The DEIS adopts management standards without considering an 
adequate range of alternatives in disclosing the effects of the 
standards. Environmental consequences of ICBEMP discusses 
decisions are not adequately reviewed. The environmental and 
economic consequences of decisions are not fully disclosed. The 
prospects of catastrophic fires and wildfires are not 
adequately addressed, nor are the effects of wildfires on 
sediment production, fish, and wildlife.
    The DEIS is based upon insufficient data and inventories of 
our vegetation. In my written comments, I will enclose 
documentation that--how far off the project is on the 
inventories. What they claim is small vegetation is only 4 
percent of the--is 60 percent of the total vegetation within 
the project.
    Official documentation from county agricultural--states 
that it is 4 percent. So the data is way off, and I will 
furnish that information to you. It is something that the 
county extension services are working with to come up with this 
information. And I will furnish that within my written 
comments. Thank you.
    Mrs. Chenoweth. Thank you very much, Diane. I will look 
forward to your written comments being submitted for the 
record.
    Pat Larson? And then next we will call on Margene Eiguren.

                    STATEMENT OF PAT LARSON

    Ms. Larson. Madam Chairman, thank you very much for having 
the hearings here. It is such an opportunity for anyone, any 
citizen out of the 250 or 260 million who live in the United 
States, to actually be able to in person address a 
representative on our side of the Mississippi River.
    I am a natural resource consultant for private landowners 
in northeast Oregon, and I helped and participated with the 
Oregon Cattlemen's Association in their review of the ICBEMP.
    The ICBEMP should be abandoned. The citizens of the country 
have allowed too much money to be spent on this process. The 
quality of the planning is poor. There will not be a return to 
the citizens for the dollars already spent, and there should 
not be any more given to the project.
    The ICBEMP is a philosophical plan for land restoration 
instead of land management. It has layers and layers of 
concepts that have buried the details of science and management 
techniques, which are the backbone of successful natural 
resource management, and has been for decades.
    Science does not become good because a group of scientists 
sit in meetings and write their opinions of science. Science is 
fact. Forest and rangeland management cannot be practiced 
without facts. The management techniques natural resource 
personnel must use to nudge nature in a direction that meets 
the needs of the country relies on established scientific 
principles. There is not a need for this kind of plan. It 
should be abandoned, and the Federal agencies should be free to 
resume the planning they are already conducting.
    The National Forest Management Act is satisfactory, and it 
is at the local level where it is kept honest and must meet the 
scrutiny of the local citizens who use and visit the sites that 
are receiving management prescriptions. Thank you.
    Mrs. Chenoweth. Thank you, Pat.
    Margene Eiguren from Jordan Valley, Oregon.

                  STATEMENT OF MARGENE EIGUREN

    Ms. Eiguren. Honorable Helen Chenoweth, it is a pleasure to 
be here today, and I also wanted to thank you for having this 
hearing on our behalf.
    My comments on this draft, on the draft EIS, will address 
these points which illustrate why the documents are extremely 
difficult to comment on.
    No. 1, the sheer volume of the material presented and, No. 
2, the complex and convoluted manner in which it was drafted. 
Just one of these documents is over 600 pages long and at least 
two inches thick. It is like a college textbook.
    To myself and to many of the people that I have talked to, 
the length itself of the document is a deterrent to even 
reading it, let alone commenting on it. I believe the technical 
nature of the draft and its complexity have prevented 
meaningful input.
    And this idea is substantiated even by Steve Mealey, who is 
a project team leader for the Upper Columbia River Basin 
Project who was reported to have admitted as much at a public 
meeting in Libby, Montana on May 8, 1996. Mr. Mealey 
acknowledged that it would not be an easy document for the 
public to review.
    Mr. Mealy stated that he had trouble reading the EIS, and 
that review would not be an easy task and implied that people 
would merely look at the size of the document and throw it down 
without even reading or commenting on it.
    Dr. Chad Gibson, who has been mentioned here before today, 
is a member of the University of Idaho Agricultural Extension 
Service, is a veteran skilled range expert known throughout the 
western states for his knowledge and his objectivity.
    He attempted to review the preliminary EIS and reported 
that it was very nearly impossible.
    Fred Grant, who served on one of the panels today, is a 
constitutional lawyer, states: Having devoted most of my adult 
life to either the practice of law or related fields of legal 
and planning research, I have never seen a document designed 
for public use which is so technically and structurally 
convoluted.
    I am speaking for myself; as I began to try to read and 
form thoughts for commenting, I became frustrated and very 
annoyed by the convoluted and complex language in the document, 
as well as the volumes of meaningless information.
    I had to outline the different sections. I just had to 
actually sit down with a piece of paper and pencil, and try to 
outline it so I could try to follow a train of thought. I 
believe it was the intent of the ecosystem management planning 
teams to make these documents extremely lengthy, complex, and 
convoluted, so as to discourage comments from the people who 
will be most affected by the plan.
    For example, in reviewing the Economic and Social 
Conditions of Communities, EIS, I found it very difficult to 
understand not only the content presented but how the material 
presented applied to or was relevant to the question of 
economic effects on communities.
    It was stated that Dr. Harris of the University of Idaho 
provided a variety of information for use in the Draft EIS, and 
of the three types of information he provided, only the 
employment data is used in this study.
    It was stated that employment data enabled an analysis of 
industry specialization at the community level, an analysis 
useful to achieve study objectives without introducing 
excessive complexity. That is a rather understatement.
    But, anyway, then it goes on to say that employment 
analysis examines the employment specialization that 
communities have in 12 broad industry categories, and that 
these broad industry categories exert some limitations on the 
level of detail possible for study results.
    An example of that would be the aggregation of industries 
under the agricultural umbrella, which includes both 
agricultural crops and agricultural livestock. It then says 
that it is apparent from the specialization analysis that not 
many communities are specialized in agriculture.
    However, because employment in the livestock industry was 
not collected apart from the larger agricultural industry, an 
analysis of the employment specialization for the livestock 
industry could not be done. How could all the tables, figures, 
and maps used to display findings have any relevance for the 
livestock industry?
    And since the livestock industry is left out of the 
analysis, wouldn't that skew the results of the EIS as a whole?
    It became obvious to me that in order to read, comprehend, 
and comment on these documents, that it would be necessary to 
be a range consultant, constitutional lawyer, economist, and a 
scientist, all in one, with a lot of time on my hands to do 
nothing but study these documents.
    It is also obvious that the constitutional authority of 
Congress to manage Federal lands has been usurped by the 
executive and judiciary branches of this government. This is no 
longer a government of the people, by the people, and for the 
people.
    Mrs. Chenoweth. Thank you very much.
    The chair recognizes Cindy Bachman.
    Next we will call John Hays.

    STATEMENT OF CINDY BACHMAN, CHAIRMAN, OWYHEE COUNTY FSA

    Ms. Bachman. Thank you, Madam Chairman, for the opportunity 
for those of us to testify here in Idaho, and welcome home.
    My name is Cindy Bachman. I live at 118 Hot Springs Road in 
Bruneau, Idaho. My husband Frank and I, along with our 
children, ranch and farm in the Bruneau Valley and have BLM 
permits in the Jarbidge and Shoshone Resource Areas.
    We are currently being impacted by the endangered Bruneau 
Hot Springs snail, the proposed listing of the Jarbidge 
population of the Bull Trout, the declining Sage Grouse 
population, the United States Air Force requested a enhanced 
training range at Juniper Butte, the court-ordered Idaho TMDL 
process, a minimum stream flow application for the Bruneau 
River, and the BLM's rangeland reform regulations.
    Today, though, I will focus my comments on the final BLM 
Idaho standards and guides that were required by rangeland 
regulations and signed by Secretary Babbitt August 12th, 1997, 
and how only the proposed standard and guides are incorporated 
into the UCRB draft EIS, appendix M, pages 367 through 372, and 
the inconsistencies of the two documents.
    There were changes made between the proposed Idaho 
Standards and Guides and the final Idaho Standards and Guides 
document. So the UCRB draft EIS incorporates outdated 
information.
    The BLM Resource Advisory Council, which I am a member of 
the Lower Snake River Resource Advisory Council, were not 
invited to participate in the incorporation of the Idaho 
Standards and Guides into the UCRB draft EIS. The EIS 
interdisciplinary team interpreted and incorporated the Idaho 
Standards and Guides with only BLM personnel input.
    Word definitions in the UCRB draft and Idaho Standards and 
Guides are very different. UCRB draft EIS, chapter 3, page 1 
and page 59, gives definitions.
    The definition of a BLM standard equals the definition of 
the UCRB desired range of future conditions. A BLM indicator 
equals a UCRB objective. And a BLM guideline equals a UCRB 
standard. And, hopefully, you are as confused as I am, because 
when I went through this process of trying to determine how the 
BLM was going to be managed under this ICBEMP project with all 
these different acronyms and the different usage of words, I 
had a very difficult time. The UCRB draft EIS, appendix M, page 
368 states: ``Please refer to the section titled Features 
Common to Alternatives 3 to 7 in chapter 3.'' This section 
incorporates Idaho BLM proposed standards into UCRB as 
``desired range of future conditions.''
    The Lower Snake River RAC and the Tri-RAC were adamant, 
that when the Idaho Standards and Guides were used by BLM land 
managers, the introduction be a crucial part of implementation. 
There is no mention of the Idaho BLM Standards and Guides 
introduction in the UCRB draft EIS, chapter 3, and some of the 
Idaho BLM guidelines for grazing management are incorporated as 
UCRB standards.
    All Idaho BLM land use plans were found to conform with the 
final Idaho Standards and Guides. If a record of decision is 
issued, all current BLM land use plans that are found 
inconsistent with the UCRB ICBEMP/EIS document will be modified 
with no further public input. The NEPA requirement has been met 
through the UCRB/ICBEMP process.
    As I read this UCRB/ICBEMP draft, EIS, I believe the 
implementation impact of this document and the preferred 
alternative will be devastating. I strongly urge you to 
convince the Congress that there should be no record of 
decision issued for this document. Thank you.
    Mrs. Chenoweth. Thank you, Cindy.
    [The prepared statement of Cindy Bachman may be found at 
end of hearing.]
    Mrs. Chenoweth. We call on John Hays. Mr. Hays is 
president-elect of the Oregon Cattle Association. It is good to 
have you here, Mr. Hays.

       STATEMENT OF JOHN HAYS, OREGON CATTLE ASSOCIATION

    Mr. Hays. Thank you. I want to thank you, Congresswomen 
Chenoweth. It is a pleasure to come over and be able to 
testify, because in Oregon, you are a champion in our eyes, and 
we appreciate all you do for the worker out here on the block.
    This is a very, very, very bad plan. I have never seen a 
more shoved-down-the-west's throat in management. Why not use 
another region of the United States? Is this a major move to 
retake the land that the settlers and my family moved out west 
and spent many hours, days, fighting weather, carpetbaggers, 
land grabbers, sickness, death to help settle and create a 
beautiful place in which to live.
    This is just a Clinton-Gore move with the help of old 
reliable Bruce Babbitt to take your land. Not by force, but 
with the movement of a pen.
    For reference, how about the major takeover of 1.4 million 
acres in Utah? Are we next, just another move of the pen. I 
guess we have taken care of the homeless. We have already saved 
the hungry of the world, and we can afford to spend millions of 
taxpayers' money. $200 million or so will probably get this 
thing started on a worthless junk deal like this.
    I have just filed a 401 Clean Water Plan on two allotments, 
which I run about 700 head on. This is for my U.S. Forest 
permit. I have spent well over $6,000 on just this application. 
I want this to refer to what we are doing here.
    The agencies have taken a simple law, passed it through 
Congress, and say, ``It has passed through Congress, it is a 
law.''
    My question, how can you take a simple law and let an 
agency pass thousands of rules on their own and not send the 
rules or the statutes back through U.S. Congress to approve 
these rules? They make us live under this type of government.
    Chairman Chenoweth, this is not what you and I grew up to 
think was proper. We respected our government and had pride in 
everything we did. I spent a number of years in the U.S. Marine 
Corps, was a bodyguard for Secretary Rusk; was proud to go with 
President Kennedy to Mexico and Ireland.
    Under the current land-grabbing, no-moral administration, I 
would go to Canada if I was a young man facing the draft. And I 
have a son that is 16. I as an American and a rancher--we have 
been in business since 1880. We have some 100,000 acres. I will 
fight the ICBEMP plan until I die. I will not be part of a 
government takeover.
    I am a leader in my community and the state Cattlemen's 
Association and will not live under this un-American plan. 
Until you take all the science into retrospect and believe in 
the landowners, the local citizens, and the one that all the 
extremists don't talk about, Mother Nature, into effect, I will 
not believe in it.
    Since the government and the U.S. Forest Service and the 
BLM workers, that I am aware of, jumped on the environmental 
green bandwagon years ago and have lost their timber, and 
grazing jobs, mining jobs, and are now way overstaffed. Let 
them join the ranks of the unemployed logger and rancher. Don't 
set up a policy like the ICBEMP to give them jobs at our 
expense.
    Let them go out and enjoy the welfare lines like some of 
our people have had to do in our community of 200, which all we 
had was logging. It is gone now. The people have turned to 
alcohol and everything like hunger. It is a mess. We need 
something like this like we need another--you know what.
    I had questions for Under Secretary Lyons in Denver at the 
national convention in February, and he gave me a big talk. And 
I told him, we don't want it out here. We don't need it.
    And he said, we are getting our ``so-called'' thumped out 
here. He said, ``We need to get this up and going.''
    I said, yeah, you send 12 guys up to explain this thing to 
us in a room that we drove 200 or 300 miles to. It was all a 
theatrical deal that they had put together. It was a mess. 
There probably wasn't 20 acres owned by the whole 12 people 
there, making decisions on my livelihood, which I am fighting 
to save and so is everybody else is.
    And I thank you very much for your time.
    Mrs. Chenoweth. Thank you very much, Mr. Hays. I appreciate 
you coming so far.
    Next we call on Kay Kelly from Melba. Kay? After that we 
will welcome hearing from Chad Gibson.

                     STATEMENT OF KAY KELLY

    Ms. Kelly. Kelly Lee. Well, I don't have any claim to fame. 
I am just a citizen. And I want to thank you very much, all of 
you, for taking the time. It heartens me greatly to be listened 
to and to listen to others who are concerned about this.
    The first sentence of the introduction of this project book 
entitled ``The Economic and Social Conditions of Communities'' 
reads: This study responds to an expressed need for the project 
to describe the economic and socio conditions unique to 
Interior Columbia Basin communities.
    And the questions and answers, which accompanies this, says 
that it reflects congressional direction to include local 
custom and culture information into the project.
    Well, as a friend of mine would say, Great ha.
    If I was a Member of Congress, I would give this report a 
failing grade, because it does not come near to addressing the 
personal things that make up my community. And as far as I am 
concerned, the blatant omission of any meaningful discussion of 
custom and culture is a statement in and of itself.
    And though not adequately addressing the stress on the 
private citizen that this project has potential to impose, the 
people who produce this study are very clear as to their own 
peril, as stated on page 7 of the question and answer insert.
    It says: In general, the lack of a coordinated, 
scientifically sound, ecosystem based management approach would 
be expected to result in long-term declines in management 
activity levels on BLM and Forest Service administered lands.
    And this is just one example of a mention of expanded 
government presence that can be seen all throughout these 
project publications. There are many disturbing ideas which are 
through the project's documents. I am just going to quote a 
couple.
    But the collective mind-set behind this project apparently 
seeks to redefine property and indulge in a socio-cultural 
manipulation--I am not being very clear, but there is something 
wrong.
    One of the quotes I would like to give you is from Volume 
4. It is on page 1987. It says: Ownership, it is not the same 
as control. And on further it says: The idea of property shapes 
public expectations about the role of government, and the 
rapidly evolving private property movement presents important 
challenges for ecosystem management.
    These types of socio-political statements raise questions 
about the aspirations of the people involved in this project 
and its real purpose and scope. Now, locally the attitudes of 
BLM managers toward the people who live on the land can be seen 
in some of their own statements.
    This comes out of the Boise office. One of them was: In 5 
years, you will be out of business. Another one is: There is as 
much art as science in this land monitoring. And another one 
is: We will show them--``them,'' that is us, the citizens--the 
teeth of the Endangered Species Act. This is a state-level BLM 
guy.
    So with attitudes such as this already entrenched, and 
Federal employees who also act--employees and others also 
actively to sway public opinion against the resource users, I 
would have to question of what one more level of management 
will do, except to remove land management accountability even 
further away from the people who live on the land and destroy 
our way of living.
    From all types of people in my community, I have heard the 
statement to the effect that they can't believe that people are 
having to fight their own government just so that they can work 
at their chosen vocation.
    And I am saying that when citizens feel like they are 
battling their own government, something is dreadfully, 
dreadfully wrong with this country.
    Thanks for being here.
    Mrs. Chenoweth. Thank you very much, Kay.
    Next we recognize Chad Gibson.

                    STATEMENT OF CHAD GIBSON

    Mr. Gibson. Representative Chenoweth and staff, thank you 
for this opportunity. I am going to try to be as brief as 
possible and just point out some of the frustrations that 
people have with the documents that have been mentioned here 
today, and in particular, how these prevent accomplishing the 
requirements of the National Environmental Policy Act. I don't 
believe that they can be accomplished with the volume and scope 
of the documents that have been put out.
    I have been reading and evaluating scientific documents and 
government documents for about 35 years, and I have never seen 
anything that approaches the complexity and difficulty of 
trying to understand as this document.
    The first description you find of an alternative in this 
document is about 240 pages into it. And in the first 2\1/2\, 
or page and a half, of the description of Alternative 1, you 
are referred to other sections of the document eight different 
times. And in the description of Alternative 2 in the first 
page and a half, you are referred to other places ten times and 
to two separate documents that aren't even a part of the draft 
EIS.
    Without trying to put a table out with all the documents on 
it and follow them back and forth, you can't begin to 
understand what the intent of some of the alternatives are. 
Even if you could do that, the extensive use of acronyms and 
cross-references and tables and maps and other documents that 
are not included with the draft, makes it nearly impossible for 
any average citizen or even a trained scientist to be able to 
understand this document.
    In chapter 3 on page 72, there is a seven-page index 
listing 239 different number and letter codes for standards and 
objectives. And you have to use those seven pages of indexes 
with a table that is 89 pages long in order to follow back and 
forth and keep track of the whole thing.
    Those things also contain some 13 different acronyms, most 
of which I have no clue what they mean.
    Chapter 13, page 189, you get some help. There is a user's 
guide. The reader is referred to nine different sections of the 
document to find descriptions, maps, tables, in order to find 
and understand the impact of just one alternative on one 
resource in one area.
    In order to fully understand the entire project, there are 
thousands of pages of other information that must be reviewed. 
You have been shown a copy of the economic report here today, 
which is not a part of the draft. The draft is just two 
documents.
    But you have to have all of the other information in order 
to follow that. Within the past 12 months, the project 
generated 4,060 pages, and all of that information is important 
if you are going to try to understand just those two draft 
documents.
    I think I will just have a brief conclusion, and that is, 
that one can hardly read a full page in this document without 
encountering a reference to some other part of the document, to 
some table or map or appendix or other chapter or even another 
document.
    The draft EIS and associated documents is not unlike the 
Internal Revenue Service code either in the manner or format in 
which it is presented or the extensive volume. It is 
inconceivable that the ICBEMP and resulting EIS documents meet 
either the letter or intent of NEPA for meaningful public 
involvement.
    The box on the back table here contains all of the 
documents--and I shouldn't say contains all of the documents. 
It contains the 19 documents that I have been able to 
accumulate, and there are nearly 6,000 pages of information 
there. And even though two of those documents are the draft, 
you have to look through the rest of it to really be able to 
understand what that draft is about. Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. Gibson. Apparently 
one man can hardly lift that box with comfort. Right?
    Mr. Gibson. That is correct.
    [The prepared statement of Chad Gibson may be found at end 
of hearing.]
    Mrs. Chenoweth. Molly Blaylock. Is Molly here? And then we 
will call on Paul Nettleton. Is he still here?
    Voice. He had to leave.

                  STATEMENT OF MOLLY BLAYLOCK

    Ms. Blaylock. Good afternoon, Madam Chairman. I am Molly 
Blaylock. I am the Northwest field coordinator for People for 
the USA. I am pleased to be here today, and I am even more 
pleased that you were able to come to the western part of the 
country to talk to these people that are impacted the most by 
this.
    I want to state for the record that our organization has 
over 25,000 members in all 50 states, and we would like to see 
this document dropped with no record of decision.
    But for my comments today, I would just like to share with 
you an editorial that I wrote on the Columbia Basin plan that 
was printed by the Idaho Statesman. And I entitled it, 
``ICBEMP, Mission Impossible.''
    ``The Interior Columbia Basin Ecosystem Management Project 
is another wonderful by-product of the northwest forest plan. 
In fact, the President himself ordered up this bureaucratic 
boondoggle to the tune of $35 million so far.
    ``For a document that is supposed to break the legal 
logjam, all I see is a freeway with plenty of on ramps to more 
legal confrontation.''
    For starters, only half the ecosystem studied is actually 
under the land management jurisdiction of either the U.S. 
Forest Service or the Bureau of Land Management. Ecosystem is 
an ambiguous term. Agencies looking for legal standing should 
at least find something definitive as a starting point.
    When asked at a public meeting, one ICBEMP representative 
stated that there is no consensus within the scientific 
community on the definition of ecosystem. The term ``ecosystem 
integrity'' is relied on heavily in the project's two draft 
environmental impact statements.
    Unfortunately, the documents also admit, and I quote: 
``Absolute measures of integrity do not exist.'' In other 
words, attainment of some measurable standard will be next to 
impossible, for the ecosystem will be constantly changing.
    What is being held up as the yardstick is the pre-European 
settlement condition of the land. I see that as a divide and 
conquer technique. The stewardship practices of the pre-
European settlement indigenous peoples might be commendable, 
but the demographics of the Interior Columbia Basin have 
changed radically in the last 150 years.
    Humans have always relied on nature for their sustenance, 
and the same is true today. Human kind has benefited greatly 
from advances in technology, including the ability to produce 
resources in an environmentally responsible manner.
    History repeats itself. The history of our planet 
transcends what has been recorded by man. Geological records 
show our existence on the face of this rock is but a blip in 
time. How arrogant have we become?
    Regardless of one's spiritual beliefs or lack thereof, the 
fact remains, we are at the mercy of nature. We have absolutely 
no control over its forces, but that does not prevent some from 
attempting to suspend the laws of evolution, control the 
climate, or manage ecosystems.
    Last August I attended a public meeting in Baker City, 
Oregon. Warning bells went off in my head every time the ICBEMP 
staff mentioned, and I quote, ``Changing societal values, and 
the need for land management agencies to address value 
judgments as opposed to science.''
    Having called myself an environmentalist at one time, I now 
realize I have made choices based on emotion and misinformation 
rather than the facts. I challenge the agencies to educate the 
public on how they could be part of the solution; not spread no 
more doubt and conflict.
    Martha Hahn, Idaho's BLM state director, recently asked for 
more sharing of ideas, interpretations, and impacts. The agency 
had already received over 70,000 comments. Ms. Hahn then said 
that most of the comments reflected polarized views of the 
preferred alternative, and that neither view is right. One 
reason for this is that terms like ecosystem and ecosystem 
integrity, as reflected in the majority of the comments 
received, are wide open to interpretation.
    This document does nothing more than muddy the very waters 
it is supposed to clear up. One of the great things about 
America is freedom. Freedom to voice opposition.
    I am one American who is simply tired of spending my tax 
dollars in court only to fund more lawsuits. Mediation is one 
way the agencies could cool this debate and get back to the 
business of managing land.
    What would happen if people with polarized viewpoints were 
brought to a table together to hammer out real solutions to the 
real problems? I live in the Interior Columbia Basin, and I 
have every intention to continue to do so. Don't let this 
misguided adventure come to your region or mine. Ecosystem 
management gives some folks in the current administration a 
warm fuzzy feeling, but it leaves me with a serious pain in my 
neck of the woods.
    Mrs. Chenoweth. Molly, thank you very much.
    [The prepared statement of Molly Blaylock may be found at 
end of hearing.]
    Mrs. Chenoweth. Is Paul Nettelton here?
    Kathy Steuart? Kathy here? Kathy Steuart?
    Robert Muse? Robert here?
    Next we will call on John Shane.

                    STATEMENT OF JOHN SHANE

    Mr. Shane. Thank you for being here today. I am just one of 
the many unpaid volunteers who doesn't have a 401(k) plan, and 
I don't get paid vacations.
    I live here in Nampa. I am a business owner. I own a 
motorcycle shop. I am also a licensed insurance agent. And I 
have three kids, and I am also a member of the following 
organizations. Those are the Southwestern Desert Western 
Association, known SIDRA. I am also an AMA Congressman, and 
that is the American Motorcyclists Association.
    I also participate in the Owyhee Land Use Committee for 
recreation. And the last, I am also a representative of the 
National Off-Road Highway Vehicle Conservation Council.
    Basically I am here to really give praise to the many 
unpaid volunteers that have brought the issues, spent their 
time, their money. And what I did one day is I wrote a letter 
to one of these many unpaid volunteers, and one of them was 
Bill Walsh.
    And, basically, in a lot of our clubs and organizations, we 
have to have a SIDRA legal officer, and that officer is in 
charge of putting together cash contributions to fund its legal 
challenges to the BLM and forestry from raffles, races, grants, 
companies, families, and countless other sources. And we seem 
to have to always be fund-raising in order to protect what 
should be ours.
    Basically, Bill Walsh's continued commitment has 
effectively impacted the public policy because he possesses the 
most potent weapon available to man: The truth.
    SIDRA members do not hesitate to act on their convictions: 
You can make a difference. And I make this statement as 
volunteers for all organizations, for miners, for cattlemen, 
and any other non-profit organization or people that come 
together. And this letter was directed to a member, but it also 
was directed to all the folks that are out here who are members 
of organizations.
    In this letter, wrote: Join the SIDRA Club, and you will be 
part of a local, state, national network of concerned citizens, 
and the Blue Ribbon Coalition members that are trying to work 
together and build a future in which limited government and 
traditional values and individual responsibility can be 
restored.
    This year will bring new challenges and require all of our 
continued support to raise funding to keep our freedom to ride 
and race. Our legal costs will never go away and are likely to 
increase.
    We must provide access to information, education, and 
direction to our young Americans so that they can continue to 
restore our lost freedoms. Our legal officer and many club 
members must provide vision to enable our sons and daughters to 
carry on the future battles yet to be fought and won.
    This year a new tool that we have created is to increase 
the knowledge and access to the issues when we provided a web 
site for our members and anyone that wants to use it, to help 
with their tools, to help with their legal battles.
    And with that, this is one of the many tools that will 
enable our members to work on specific issues that will affect 
our off-road recreation, resource areas.
    So the next time you see an unpaid volunteer, shake his 
hand, and say thank you.
    Mrs. Chenoweth. Well, I will do that, Robert. And I do 
thank you very much. That is outstanding testimony. Thank you 
for being here.
    Is John Shane here?
    Bob Skinner. Mr. Skinner came all the way from Jordan 
Valley, Oregon. Welcome.

                  STATEMENT OF ROBERT SKINNER

    Mr. Skinner. Thank you, Madam Chairman. These comments are 
based on my involvement with the Interior Columbia Basin 
Ecosystem Management Plan over the past several years. However, 
I will admit, I have not read the plan in its immense entirety 
and do not see how anyone who has anything else to do for a 
living could possibly have had the time to do so.
    The sheer mass of this document is just overwhelming, and 
the plan has cost the American taxpayer an enormous amount and 
direct expense, and the indirect costs incurred by many 
citizens who would have to travel and sacrifice time and try to 
stay abreast of the so-called master plan will never be known.
    The estimated cost to implementation of the preferred 
alternative is a staggering $125 to $140 million. I have 
personally attended so many workshops, scoping meetings, 
planning sessions, strategy meetings, and information meetings 
across the states of Oregon, Idaho, and Washington, that I 
can't even remember how many times I have been there or how 
many hours I spent on this issue.
    The point being, I am still overwhelmed, confused, and not 
trusting of this political product. Also, I should note that I 
have had a lot of formal exposure to the ICBEMP because of my 
being a member, I might add, appointed by the Secretary of the 
Interior, to the Southeast Oregon Resource Advisory Council. 
And, also, I am the Public Lands Committee chairman for the 
Oregon Cattlemen's Association.
    The plan is the overriding big umbrella or master plan to 
which all other local plans must conform. ICBEMP is very 
serious as it makes it so much easier to carry out top-down 
political agendas, when a plan such as this lays the framework 
for so many local plans.
    And it also is very critical. It crosses political 
boundaries. The ICBEMP, no doubt, has some beneficial aspects, 
such as the much-needed weed control program. My fear is that 
the local will be essentially taken out of the planning 
process.
    The plan may refer to the local planning process, but if 
all plans must conform to the master plan, then in reality, 
what do you really have?
    Along with the fear I have expressed is the effects of the 
plan on the local resources. I have a very real fear that the 
plan may be devastating to the economics of the local 
communities. I think Congress and the Ecosystem Coalition of 
Counties have the same fear when they directed the project team 
to do the analysis of the economic and social impacts of this 
plan.
    I have read the document recently released addressing these 
issues. Even though I do have a minor in economics from one of 
the leading liberal arts colleges in the nation, I am totally 
confused and untrusting of what I read.
    Last, in talking last night to Dr. Fred Obermiller, who is 
the professor of agriculture and resource economics at Oregon 
State University, I expressed my concerns. Dr. Obermiller said, 
and this is a direct quote--and I, by the way, faxed this to 
him, and he approved this quote.
    ``This report and EIS is an attempt to obscure the negative 
impacts on local communities based on data that does not exist 
and assumptions that cannot be validated. I expect that 
implementation of this plan will lead to annihilation of rural 
communities within the scope of the Interior Columbia Basin 
Ecosystem management planning area.''
    In conclusion, even though I have attended countless 
training sessions and read volumes of material on this plan, it 
is almost impossible to fully realize what it really is, or 
what it is trying to accomplish.
    At this point, I must rely on my basic gut feeling that 
this plan is probably going to be devastating to rural 
communities, and families in the northwestern United States, 
and eventually to the United States as a whole. Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. Skinner, for your 
testimony.
    [The prepared statement of Robert Skinner may be found at 
end of hearing.]
    Mrs. Chenoweth. The chair recognizes Norman Anderson. Is 
Mr. Anderson here?
    Connie Brandau? Connie is here.
    Then we will call on Pat Holmberg.

                  STATEMENT OF CONNIE BRANDAU

    Ms. Brandau. Congressman Chenoweth, mine is sort of an 
extemporaneous speech, and it relates kind of back to all of 
our dignitaries here that talk about the integrity of their 
analysis, the newly analyzed sciences, the assessments, the up-
front work that has been done, but not one of those people 
mentioned the integrity of the base data.
    And what I found from--and Hardtrigger has been identified 
several different times in several different cases, court and 
otherwise--but what we found is that so much of their base data 
that they call--is stuff that is everything that the EIS--Upper 
Columbia Basin EIS is based on, is the data that is gathered 
that is incomplete from the very first.
    This came out in 1996. This book was handed to us, and it 
is the first we knew about it. And on page 39 of the 
Hardtrigger AINE, it says under 7, Consultation: While this 
AINE document was being developed, an opportunity was given to 
all interested parties to provide the BLM with any monitoring 
or other data which they might have for the BLM to consider 
during the evaluation process.
    That was it, right there. It was handed to us. Judy Boyle 
was there the day it was handed to us, and when we read that, 
we both laughed because no one had been consulted.
    When we get a little further into it, one of the things 
that I really have problems with, and on page 20 it says: 
Studies established in 1990 have two years of photos, and those 
established in 1993 have only baseline data.
    Under a Freedom of Information Act request, we asked for 
the raw data that this AINE was based on. And we discovered 
that baseline data meant one piece of information that was 
collected one time on one year. And from that baseline data, 
our Owyhee resource area director said that he could determine 
trend over the past 10 years. Now, I challenge that. I really, 
really do.
    When we get back into the water quality part of it and the 
fisheries habitat inventory, the fisheries habitat inventory 
was conducted during 1978 and 1990. The original fisheries 
habitat inventory was visual observation.
    Now, the people that conducted the 1990 comparative 
inventory were not the same people that visually observed in 
1978. So to me there can be no visual comparison. And the 1990 
inventory was conducted by a low, slow helicopter flight 
flyover of over 480 miles of stream done in three BLM working 
days, and they don't do a full 8-hour day. I am sorry. But that 
included flying time from Boise.
    That averages out about 40 miles an hour, and I challenge 
any of you people to do a stream fisheries habitat inventory of 
40 miles an hour from as low as you can in a canyon in Owyhee 
County.
    Part of the other part of it, pages D-1 through D-6, they 
talk about their analysis of the data here. And they have no 
more than three analyses of any of their photo point datas for 
a 10-year period. And there is only like about 12 places in the 
whole Hardtrigger unit that they have photo points.
    And D-1 through D-6 they talk about water quality. We have 
the 303-D listing for water limited quality, stream or 
Hardtrigger. We can't find where they actually did any data 
other than about six different tests done during 1992.
    Now, 1992 was a drought year in Owyhee County, and very few 
of the streams ran. It is pretty hard to get a water quality 
test, a real accurate one, when you don't have a stream flow.
    Also, the BLM, the Owyhee Resource Area of BLM people, 
presented in court in Boise during the injunction hearing data 
on Hardtrigger water quality, and they did it on the whole 
Owyhee Resource Area. There were probably 40 or 45 different 
listings of water quality testing dates. Of those they gave 
specific areas where they tested a legal description, and lo 
and behold, in the four or five that they listed for 
Hardtrigger, just being aware of that area, one of those legal 
descriptions didn't fit the township and the range.
    They have a court document that they said is true, in fact, 
of a water quality test of a legal description on Hardtrigger 
that is clear over in French John someplace. It is not even in 
our allotment.
    But I guess what I am getting at is a lot of this stuff 
that they base all their data on, that their whole ICBEMP, 
whatever you want to call it, their integrity of their data, of 
their analysis, can't be based on anything more than the 
integrity of their data, and I don't feel like the data has any 
integrity at all. Thank you.
    Mrs. Chenoweth. Connie, thank you very much.
    [The prepared statement of Pat Holmberg may be found at the 
end of the hearing.]
    [The prepared statement of Robert Muse may be found at end 
of hearing.]
    [The prepared statement of Norman Anderson may be found at 
end of hearing.]
    Mrs. Chenoweth. Our final witness will be Jerry Hoagland.

                  STATEMENT OF JERRY HOAGLAND

    Mr. Hoagland. Thank you, Madam Chairman, esteemed Helen.
    I am a private landowner within this ICBEMP, and I am also 
within the low resilient county of Owyhee County. I concur with 
the testimony of Fred Grant, and most of the others, concerned 
with private property.
    I agree with your statement that halt this incredible waste 
of taxpayers' dollars. We do not need a record of decision.
    I have tried to skim through these massive documents, and 
every time I go to a new page, I find something that raises my 
disgust, especially concerning the private property. We have 
been told by the feds over the years since this ecosystem 
management started that private land will cooperate. And then 
others have said there will be direct and indirect impacts to 
private property.
    It appears this eco-plan will specifically target 
agriculture, and the livestock and the logging industries. In 
the assessments of ecosystem components, part of the books, it 
talks about the influence of farming and grazing.
    In agriculture, you get the impression that agriculture is 
bad. Agriculture takes the water out of the system. It pollutes 
it, and then it returns some of it back to the system. And then 
there are dams built for this agricultural use, and they warm 
up the water and provide a likely habitat for fish.
    I don't know where they get their analysis for that. It is 
got to be faulty. Cattle grazing is bad for the riparian areas 
and pollutes the water by the trampling of the banks. Again, 
they come up with opinions that are not based on scientific 
data.
    Since I am in one of these socioeconomic resilient--low 
resilient counties, I wonder what is going to happen to these 
counties and to the people within those counties. I am 
concerned about my family and our posterity. I guess that is 
about all I have to say.
    Mrs. Chenoweth. Mr. Hoagland, thank you very much for your 
testimony. And thank you so much for waiting. I appreciate your 
coming so far. Thank you.
    Is there anyone else who would like to offer testimony?
    Ms. Brandau. I would just like to say one other thing. 
Owyhee County is the county seat in Murphy, Idaho, and in their 
social and economic setting, I challenge any one of you to find 
the town of Murphy in that. I think that they went through the 
phone book and picked their towns to do their study from, and 
Murphy is not listed as a separate town.
    Mrs. Chenoweth. That is a serious mistake.
    Mr. Hays. Also, in Baker County they had listed Halfway, 
which is about 40 or 50 miles the other way of Baker. Baker is 
the county seat. And we do not have agriculture in the county. 
I don't know where they got this. $48 million Baker County had 
in agriculture was in cattle last year.
    Ms. Eiguren. And as they came up with these, as I 
understand from reading that thing, if I understand it 
correctly, which I don't know if I do, but it says there that 
they come up with the employment data from telephone book 
listings. So they got your business list to find out the 
businesses in a community from a telephone list, and none--most 
ranches are not listed under a business listing. So maybe that 
is the reason Murphy isn't even listed.
    Mrs. Chenoweth. For the record, I want to report for the 
court reporter that the first person to speak was Connie 
Brandau, the second person to speak was John Hays, and the last 
person to speak was Margene Eiguren.
    And the next person to speak will be Robert Skinner.
    Mr. Skinner. Thank you. As I mentioned in my testimony, I 
talked at length last night with Professor Obermiller, 
nationally recognized professor of economics. And he stated 
that this study that was done for you, at your direction, 
Congress's direction, is absolutely invalid.
    And I said, well, it sure appears so to me, but I can't 
read it.
    He said, well, turn to the great big table, and I ask you--
I know you like to be called Congressman--have you ever been to 
Lakeview, Oregon?
    Mrs. Chenoweth. Yes.
    Mr. Skinner. I figured you had been. Would you say that 
there is no agriculture in Lakeview, Oregon.
    Mrs. Chenoweth. No.
    Mr. Skinner. There is none.
    Mrs. Chenoweth. Is that right?
    Mr. Skinner. Burns, Oregon has medium. John Day, Oregon. I 
am just picking the Oregon? Would you say John Day has 
agriculture? It has none.
    And they are posing this to you as a valid study of the 
economic impact of that. And I ask you to look at it and keep 
that in mind because it is absolutely invalid.
    Mrs. Chenoweth. Very interesting.
    Would you identify yourself for the record, please?

                   STATEMENT OF DONNA BENNETT

    Ms. Bennett. I am Donna Bennett. I am from Grand View, 
Idaho. We are cattle ranchers and farmers. I wasn't planning on 
speaking. But in 1990--we snowmobile a lot, and we go to 
Yellowstone. And in 1991, on the bookshelves of the district 
center at Old Faithful was a document entitled ``Greater 
Yellowstone Coalition.''
    And I picked it up, and I looked through it while we were 
waiting for Old Faithful, and it made me so mad that I just 
threw it down.
    And then when we came home, that whole year, I thought 
about that. So the next year when we were up there I paid my 
$20, and I bought that magazine, and it is about twice as thick 
as this one.
    And it laid out, more or less, the whole situation for the 
Greater Yellowstone Coalition. A year later, to my dismay, they 
introduced the ICBEMP or, as some people say, ICBEMP.
    And I couldn't believe that, for one thing, the Greater 
Yellowstone ecosystem overlaps the ICBEMP, whatever this is, it 
overlaps. Then in the future, if they get this one in, they are 
planning the Great Basin ecosystem.
    So what they are doing is they are taking all these 
ecosystems. They are overlapping. They are covering the whole 
United States West. And if we are not careful, one of the 
things that was in the Greater Yellowstone ecosystem questions 
was, What shall we do with the private lands?
    And the answer was, we will pay the property owners to not 
produce. I still can't believe that that is what they are 
wanting to do, that that is their ultimate goal. Thank you.
    Mrs. Chenoweth. Donna, thank you. And I wonder if you would 
spell your last name for our court reporter.
    Ms. Bennett. B-e-n-n-e-t-t.
    Mrs. Chenoweth. Thank you, ladies and gentlemen. I want to 
thank you very much for your testimony, for your presence here 
today.
    I want you to know that I am committed to seriously 
consider the testimony that I have heard today. My position has 
been to not see a final decision for this program.
    I do want to say that even though I had a preconceived idea 
and determination as far as my future actions would be 
concerned, your testimony was so informative, so startling, and 
so sobering, that I go back with a renewed commitment to 
convince my colleagues of the futility of this kind of action.
    And I want to thank you very much. You are all very, very 
busy people who took time out of your busy day to come in here 
and influence future policymaking for this nation.
    I want to remind you of something that I feel strongly 
about, and that is that freedom will not be fought inside the 
Beltway in Washington, DC. It won't be fought and won. It will 
be fought and won outside the Beltway, by the grass roots, by 
you people.
    And to the degree that we all understand that eternal 
freedom means eternal vigilance, and that our freedoms must be 
won in a new battle every single generation. And now it seems 
almost every single year, with new ideas coming out from the 
agencies, and you are those who are fighting for--fight 
effectively for freedom for our future generations.
    And it is humbling, and I thank you very much for being 
here and for your good and thoughtful testimony. I want to 
recognize the project chairman of the executive steering 
committee, Susan Giannettino, who sat through the whole 
hearing, and Chuck Findley, who also remained, to hear from you 
out of their concerns.
    And I want you to know that our agency personnel, who do 
remain through these long hours to listen to you, I want to 
express my deepest and sincerest thanks to Susan and to Chuck.
    Thank you very much for being here. With that, I want to 
remind you that the record will remain open for three weeks. 
Those of you who wish to supplement your testimony are welcome 
to do so.
    And with that, this hearing is adjourned. Thank you.
    [Whereupon, the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Adena Cook, Public Lands Director, BlueRibbon Coalition

Introduction

    ICBEMP's treatment of recreation is schizophrenic, like 
Jeckyll and Hyde. On one hand, it acknowledges the importance 
of recreation in the region, and that recreation on public 
lands is increasing. It states, in generally positive language, 
that recreation contributes to local economies. The guidelines 
are so vague as to appeal to nearly everyone, and are generally 
positive in tone.
    However, when the implementing details are sifted from the 
bowels of the document, a different, negative direction 
emerges. Mandated road density standards will eliminate access. 
Riparian Conservation Areas (RCA) standards will close roads, 
trails, and campsites. ``Active restoration,'' the key theme of 
the selected alternative, is a euphemism for closure of roads 
and access.
    Finally, ICBEMP fails to acknowledge, let alone accommodate 
motorized recreation. Readily available facts are ignored. Its 
policies will result in the displacement of these sports, 
enjoyed by an increasing number of people in the region.

ICBEMP acknowledges the importance of recreation and the role 
that roads play.

    ICBEMP presents these recreation facts:

        <bullet> Roads constructed for commodity use now are used 60 
        percent for recreation.
        <bullet> ``Roaded natural'' settings receive about 75 percent 
        of all activity days.
        <bullet> Roads supply or enable the majority of recreation use, 
        including winter recreation.
        <bullet> Area wide recreation supports 190,000 jobs (p. 186) or 
        alternatively 225,600 jobs (p. 178). Whichever figure is 
        accurate, ICBEMP states categorically: that recreation 
        generates more jobs than other uses of Forest Service and BLM 
        lands.
    From these statements, ICBEMP acknowledges and documents that, 
area-wide:

        <bullet> Recreation on public lands is important.
        <bullet> Roads support recreation.
        <bullet> Recreation generates many jobs, more than other uses 
        of public lands.

ICBEMP's guidelines are vaguely supportive of recreation.

    ICBEMP's recreation guidelines are broad, general and sound benign. 
However, they can be interpreted in many different ways.
    For example, the guideline, ``Supply recreation opportunities 
consistent with public policies/abilities,'' could mean that 
opportunities dependent on road access would decline if public policies 
demanded road closures. It could as easily mean the opposite: if public 
policy favored more access, then roads would increase.
    This guideline apparently supports tourism, ``The tourism 
opportunity fits well into the ecosystem and the natural environment is 
the central attraction.'' (Appendix H. p. 247) However, this statement 
could also be interpreted to mean that only ``tourism opportunities'' 
deemed compatible with excluding people from public lands would ``fit 
well into the ecosystem.''
    It could also mean the opposite. For example, when I snowmobile (as 
a tourist) in the Stanley Basin, skimming across fresh powder with the 
Sawtooth Mountains above me, I assure you that the natural environment 
is the central attraction.
    This curious guideline makes us uneasy, ``Construction, management, 
and visitation take place with the goal of minimizing energy usage and 
encouraging people involved with the tourism opportunity to be 
environmentally sensitive.'' Does this mean that thermostats will be 
turned down in visitor centers?

ICBEMP Standards translate vague guidelines into closures

    ICBEMP road density standards will reduce and eliminate public land 
access:

        <bullet> The standard RM-03 states, ``Reduce road density where 
        roads have adverse effects.''
        <bullet> The standard RM-S8 ``Decrease road miles in High and 
        Extreme road density classes.''
        <bullet> Standard RM-S8 (Chapter 3, Page 161) proposes road 
        closures and obliteration in every forest and range cluster. 
        Low means a 0-25 percent reduction in road density, Moderate 
        means a 25-50 percent reduction in road density, and high means 
        a 50 percent-100 percent reduction in road density.
    Although these definitions of low, medium, and high have latitude, 
most areas in Idaho, for example, would fall into the moderate 
reduction category. This means that up to 50 percent of all roads 
within a particular area could be eliminated. Broadly stated, it to a 
50 percent reduction in public access to public lands in Idaho.
    The standard RM-S4 mandates, ``Develop or revise Access and Travel 
management plans.'' In this revision mandate, the standard fails to 
identify recreation need as a priority for revision. By omitting 
recreation need, mandating these Access and Travel Management Plan 
revisions imply closures.
    The ICBEMP section on road management emphasizes reclamation. It is 
absolutely silent on road maintenance or improvement.

Riparian Conservation Areas (RCA) will close roads, trails, camping 
areas.

    ICBEMP states that Alternatives 3, 4, 6 and 7 would establish an 
extensive network of RCA that would likely result in a reduction in the 
sustainable timber base and long-term sustained yield on National 
Forests. Establishing this extensive network of RCA will effect 
recreation resources as well. The document is silent on the effects of 
RCA on recreation in spite of the fact that most campgrounds and trails 
are within these areas.
    The recreation standards reinforce this direction. The standard AQ-
S24 states that recreation facilities should be located outside of RCA 
if at all possible. It states that if the effects to the RCA can't be 
minimized, then the recreation facility would be eliminated. 
Implementing this standard will close many roads, trails, informal 
campsites, and even campgrounds.
    ICBEMP fails to acknowledge that much public enjoyment of public 
land occurs next to water. It fails to analyze the effects of potential 
closures to streamside recreation, which occurs in many different ways. 
Its RCA standards address environmental impacts only and do not 
accommodate human use.

Chosen alternative that emphasizes ``Active Restoration'' translates to 
road and recreation facility closures.

    ICBEMP has chosen an ``active restoration'' management prescription 
as its selected alternative. It states that this will mean decreasing 
the negative impacts of roads. In other words, ``restoring the 
landscape'' will mean road closures. This will limit public access and 
the recreation opportunities that access affords.
    Active restoration also states that recreation sites will be 
altered to improve streambank and sedimentation conditions. This means 
closing campgrounds and informal camp picnic sites.

    ICBEMP fails to analyze the effects of these standards on 
recreation and access; ignores other available recreation data.

    ICBEMP, while imposing a wide range of standards that will reduce 
public access and recreation, fails to analyze how these standards 
affect recreation across the range of alternatives. Amazingly, it 
claims that there will be no change across the range of alternatives. 
This failure to accurately show how closures (of 50 percent or more 
area-wide) affect recreation and access in each alternative is a 
violation of the National Environmental Policy Act (NEPA).
    Amazingly, the new $30 million social and economic report mandated 
by Congress also fails to address the impact of these standards on 
recreation. It merely states that the impacts of management direction 
on recreation across the basin is expected to be limited, and therefore 
the impacts on communities will be limited. This means nothing.
    If the impacts are limited, will there be no road closures? Will 
people be able to access their favorite streamside campsite? Will an 
increasing number of ATVers find trails to ride? That's not what the 
standards say.
    ICBEMP officials failed to use readily available data to accurately 
depict recreation activity and its economic contribution to the basin. 
For example:

        <bullet> Idaho's latest registration figures show that 
        snowmobile use has grown from 27,509 registrations in 1992 to 
        34,769 registrations in 1997. This is a 26 percent increase in 
        five years. It is estimated that this is a $70 million business 
        in Idaho.
        <bullet> Off-road motorcycle and ATV registrations have grown 
        even faster. In 1992, Idaho had 14,196 registrations. In 1997, 
        this grew to 30,868 registrations. This is an increase of 117 
        percent over five years.
        <bullet> The Motorcycle Industry Council reports that off-road 
        motorcycles and ATVs generate $63 million in the retail 
        marketplace in Idaho (1993).
    Other similar figures are readily available from the state agencies 
of the other states in the Basin. ICBEMP officials had been made aware 
that this information was available, yet it was not incorporated in the 
supplementary social and economics report.

Relationship of ICBEMP to Forest Service's New Agenda.

    On March 2, Forest Service Chief Dombeck announced a new ``Natural 
Resource Agenda for the 21st Century.'' The agenda emphasizes four 
areas: watershed restoration and maintenance, sustainable forest 
ecosystem management, forest roads, and recreation.
    Discussing recreation, Dombeck said, ``Forest Service managed lands 
provide more outdoor recreation opportunities than anywhere else in the 
United States. We are committed to providing superior customer service 
and ensuring that the rapid growth of recreation on National Forests 
does not compromise the long-term health of the land.''
    The ICBEMP standards cited above tell us precisely what this means 
on the ground. We fully expect that 50 percent of national forest 
roads, much streamside camping, picnicing and general forest recreation 
will be eliminated through this new ``Natural Resource Agenda for the 
21st Century.''
    ICBEMP is the tip of the iceberg. It tells us what administration 
officials have in mind for all of the national forests in the country.

Conclusion.

    Numerous extensively documented and learned critiques on ICBEMP 
have been submitted by resource oriented organizations and businesses, 
such as Farm Bureaus, Cattle Associations, timber and wood products 
groups of the states in the region. Approached from diverse 
perspectives, all have concluded that it is a bad plan.
    From all these diverse points of view, all have observed that 
ICBEMP illegally imposes 166 standards and 398 guidelines uniformly 
across the region without adequately disclosing the effects. As I have 
described from a recreation and access perspective, there is a logical 
disconnect between ICBEMP's description of the area's activities, its 
vague guidelines, and the actual standards that it intends to 
implement.
    We urge the withdrawal of ICBEMP. Although some of the scientific 
information can be used in preparing other management plans on a more 
local basis, little of the scientific data has pertains to recreation 
management. Good recreation planning integrated with productive use of 
our public lands remains to be developed.
                                 ______
                                 

       Statement of Hon. Charles Cuddy, an Idaho State Legislator

    Madame Chairman:
    Good afternoon Chairman Chenoweth, I am sure you are glad 
to be here in the great State of Idaho, away from the madness 
of the east coast.
    Thank you for providing Idahoans like myself the 
opportunity to provide comments on the Interior Columbia Basin 
Ecosystem Management Project, commonly referred to here as 
ICBEMP.
    As you know, in July 1993, President Clinton directed the 
USDA Forest Service and the U.S. Department of Interior, Bureau 
of Land Management to develop a ``scientifically sound 
ecosystem-based management strategy'' for lands administered by 
these two agencies in the interior Columbia River Basin. This 
effort is known as ICBEMP. It applies to over 72 million acres 
of National Forest and BLM lands, including nonFederal lands. 
The project area encompasses over 144 million acres covering 
nearly all of Idaho, as well as Washington and Oregon east of 
the crest of the Cascade Mountains and portions of western 
Montana and Wyoming and northern Utah and Nevada.
    Unlike other land management laws such as the National 
Environmental Policy Act and the Federal Land Management Policy 
Act, ICBEMP is a Clinton Administration policy decision, not a 
Congressionally debated, passed and directed law. There is no 
Federal statute requiring ecosystem management and Congress has 
never charged any particular Federal agency with ecosystem 
management as its primary mission.
    Let me say again, the ICBEMP is not Congressionally 
authorized. It is simply a policy decision made by this 
Administration. It is unwanted and unnecessary. It is in 
addition to existing land management laws. It represents yet 
another layer of review and potential litigation that would be 
added to the numerous layers already existing. It will do 
nothing more than increase the gridlock already surrounding 
Federal policy in the west. While checks and balances are 
necessary parts of the democratic process, adding an additional 
layer of review and areas of potential litigation do no good 
for anyone and can do harm--particularly to the land as it 
hampers good forest management processes. Instead of 
streamlining processes it will only make land management more 
difficult.
    Any final decisions will require updates of 74 Federal 
land-use plans for 45 National Forests and BLM districts which 
have been painstakingly developed through regular land 
management processes required by statute. The Administration's 
goal in implementing this project was supposedly to make the 
Federal land management process better, to involve local 
individuals and communities and to utilize the best science 
available to make better decisions ``on the ground'' which will 
improve the environment. The ICBEMP, if implemented, will only 
complicate and stymie Federal land management. It has ignored 
local individuals and community well being, and ignores both 
good science and established economics. The ICBEMP should be 
stopped now and no Record of Decision should be issued.
    The Draft Environmental Impact Statements, called DEIS's, 
present seven alternative themes for a Basin-wide strategy for 
managing National Forest and BLM lands, including Idaho. The 
strategy direction would add to and supersede in many ways the 
multiple-use management direction already contained in existing 
land and resource plans for National Forests and BLM districts 
in the project area. Each alternative presented in the DEIS's 
is supposed to respond to two stated needs: first--the long-
term ecosystem ``health and integrity''; and second--
sustainable and predictable levels of products and services. 
The preferred alternative theme identified by the agencies is 
``aggressive restoration of ecosystem health.''
    Many people are seriously concerned about whether the 
proposed strategy will meet stated needs for the project or 
will instead, increase uncertainty and polarization over 
management of Federal lands in the Basin and create hardships 
to rural communities. Instead of streamlining an already 
cumbersome existing Federal decision-making process, the ICBEMP 
and UCRB DEIS's propose an additional layer of planning at the 
regional level, an additional level of planning at the sub-
basin level and an additional level of environmental analysis 
at the watershed level. These additional layers of planning and 
analysis will further delay decisions and increase 
uncertainties. This will be accompanied by a reduction in 
timber-based employment.
    Agency scientists who evaluated the DEIS's alternatives 
estimated that 3,100 timber jobs would be lost from management 
delays while Forest Service and BLM implement watershed 
analysis called for in the Eastside DEIS. It is estimated that 
twelve eastern Oregon and eastern Washington mills would close 
while this analysis is completed. In Idaho and Montana, the 
effect is projected to be the loss of 1,700 jobs and six or 
seven mills. Basin-wide, the ICBEMP DEIS's estimate a decrease 
of 4,800 direct timber jobs, 13,400 timber associated jobs, and 
19 mills--a real impact for workers and communities in these 
rural areas but one that is glossed over by the writers of the 
DEIS's.
    The social and economic information and analysis contained 
in the Upper Columbia River Basin Draft EIS contains two major 
conclusions. First, smaller, resource-dependent rural economies 
and social systems are more diversified and will absorb the 
impacts of changing public land policies. Second, the majority 
of the social and economic changes currently occurring in the 
Basin are due to forces beyond the control of Federal agencies. 
This document states that the social organization of rural 
communities and the changing economic structure of the West are 
partially due to the presence of Federal public lands, but the 
policies implemented on those lands have a minimal role to play 
in ongoing changes. These changes are uncritically accepted as 
correct and used to justify the policy changes inherent in the 
ICBEMP.
    A great deal of analysis is conducted and presented in the 
DEIS's and the background documentation in support of its 
overall conclusions. However, these analyses are fundamentally 
flawed and at odds with one another. The inconsistencies 
prevent the authors of the DEIS's from concretely assessing the 
impacts ecosystem management will have for Idaho and for the 
rest of the Basin. To accurately assess the impact, the BLM and 
FS must first admit that rural counties, towns, people and 
economies are inextricably tied to the Federal lands that 
surround them and that Federal policies like ecosystem 
management will have an impact. The social and economic 
analyses in the DEIS are not used to draw conclusions about the 
impacts of ecosystem management on rural communities and their 
social or economic systems. The strongest conclusion is that 
``economically vulnerable areas are expected to bear the most 
social and economic costs of changing land management 
strategies.'' (DEIS summary, p.3 1).
    I submit that it was not necessary to spend over $40 
million of taxpayer money to reach such an obvious conclusion. 
We all know that when the Federal Government restricts land and 
resource uses in areas surrounded by Federal land, there is a 
negative social impact. It becomes very obvious very quickly--
people lose their jobs, business close, real estate markets 
crash, tax revenues that support roads and schools go away and 
a local depression ensues.
    It amazes me that it took four years and $40 million to 
create a document of over 4,000 pages which ignores or glosses 
over the real impact to real people in the West. It makes me 
wonder if the Administration was only completing the DEIS's to 
back up what they had already decided to do, using bogus 
economics and choosing to use only the ``science'' that 
supported their pre-conceived notions and previously decided 
upon conclusions.
    Let's look at Clearwater County in Idaho in which 54 
percent of the land base is owned by the Federal Government. In 
1980, workers in that county earned 89.5 percent of the 
national per capita income and 105.5 percent of the state 
average per capital income. In 1993, the income in Clearwater 
County had fallen to 76.9 percent of the national average and 
91.4 percent of the state average. During those years, the 
supply of timber from national forests decreased drastically. 
Historically forest and wood products employment drive the 
economy in Clearwater County. It is almost 92 percent forest. 
There is more than a casual relationship. As Federal land 
management policies change, the health of rural economies 
dependent upon the resource change. The lives of real people in 
real American towns change when Federal policy changes. The 
authors of the ICBEMP need look no further than the county 
profiles that are provided on each county in Idaho to find the 
real economic impacts of Federal policy changes.
    But what about recreation? In Idaho we hear a lot about the 
benefits of tourism, all the jobs and income recreation 
provides. There is no doubt that recreation and tourism is 
important parts of the economy of the state of Idaho and I am 
glad that this is true. A healthy economy needs to be 
diversified. Idaho welcomes income that recreation and tourism 
provides to the state economy in the same way it welcomes 
income from agriculture, high tech, forest and wood products 
and mining. However, one industry must not be advanced at the 
expense of the other. The overall approach to economics in the 
DEIS is heavily biased toward the fashionable judgment that 
recreation ought to be the industry of the future for rural 
Idaho. This is as much a matter of tone in the document as it 
is one of the methods used in the analyses.
    Let's look at the facts. Clearwater County is considered to 
be a true sportsman's paradise yet the tax receipts from the 
travel and convention room tax were only $7,487 in 1986 and had 
only increased to $12,594 in 1995. Clearly this is not enough 
of an increase over 11 years to pay the increased costs of 
educating our children, maintaining our roads and running our 
counties. I think that these figures indicate that management 
policies on Federal forest lands have a very definite impact on 
the welfare of Clearwater County. It is not hard to extrapolate 
these findings to every county in Idaho, although the writers 
of the ICBEMP claim that it is impossible to do with any 
accuracy. Before the ICBEMP team declares it too difficult, 
they should study this book.
    They should also study and include the multitude of other 
studies and economic analyses that they have thus far seen fit 
to overlook. For instance the critical review of the social and 
economic analyses of the Upper Columbia Basin Ecosystem 
Management project by Harp and Rimbey at the Department of 
Agricultural Economics and Rural Sociology at the University of 
Idaho which point out the fatal flaws in the DEIS's should be 
included in the process. Another important body of work is that 
done by economists Robison and McKetta who argue that job and 
income effects must be viewed at the community level to be 
visible when they state that ``changes that might shock a small 
community are obscured when averaged with unaffected 
communities and large diverse metropolitan areas.'' To put it 
in real terms, the economic effects of a mill closure in 
Horseshoe Bend, are very visible in Horseshoe Bend but less 
visible to Boise. Robison and McKetta demonstrate how timber 
from Federal lands dominates local markets and how this 
dominance translates to severe job and income losses at 
particular communities. While projected growth in other sectors 
of the economy in Idaho makes up for timber job losses at the 
broad regional level, particular communities are left 
devastated.
    The alternative selected as a result of this DEIS's process 
fails to streamline and localize decision-making, it fails to 
stabilize agency budgets and rural communities. It perpetuates 
the issues, and the tendency toward inaction that has led to 
the current dissatisfaction with the management of federally 
administered lands.
    I agree with the 27 Idaho County Commissioners who wrote to 
the Secretaries of Agriculture and Interior, listing their 
concerns. The ICBEMP preferred alternative creates too many 
restrictive standards that will only hamstring local land 
managers, it emphasizes extensive planning not results, the 
process is burdensome, expensive and top-down and does not 
allow local forests the flexibility to determine what is best 
for local conditions and communities. The ICBEMP should be 
stopped and no Record of Decision issued. I urge YOU Madame 
Chairman and your congressional colleagues to end this 
expensive Federal Government process and shut the ICBEMP down.
                                ------                                


 Statement of Tom Dwyer, Deputy Regional Director of the U.S. Fish and 
         Wildlife Service, Pacific Region, in Portland, Oregon

    Madam Chairman and Members of the Subcommittee, I am Tom 
Dwyer, Deputy Regional Director for the Pacific Region of the 
U.S. Fish and Wildlife Service. Thank you for the opportunity 
to provide the Subcommittee with updated information on the 
Interior Columbia Basin Ecosystem Management Project (ICBEMP) 
including the role of the regulatory agencies, both currently 
and historically.
    The ICBEMP is a partnership that covers portions of seven 
states, 100 counties and more than 72 million acres of Federal 
lands within the 165 million acre Columbia River Basin. The 
Service's role in the ICBEMP process is to bring its expertise 
to collaborative efforts to assess the impacts of land use 
activities on whole watersheds and ecosystems rather than 
focusing on individual aquatic or terrestrial species, and to 
help move beyond species maintenance to ecosystem restoration. 
The U.S. Fish and Wildlife Service views the Project, when 
implemented, as providing significant, long-term, benefits not 
only to the overall management of fish and wildlife resources 
and their habitats in affected areas of the Columbia River 
Basin but to the local communities within the area of the 
Project as well. The Service views the Project as a high 
priority and has placed a great deal of effort into working 
with the Project, U.S. Forest Service (USFS), Bureau of Land 
Management (BLM), U.S. Geological Survey (USGS), National 
Marine Fisheries Service (NMFS), and the Environmental 
Protection Agency (EPA). The development and implementation of 
ICBEMP is truly an interagency effort.
    Development of the two Draft Environmental Impact 
Statements was based on a broad landscape ``perspective.'' 
These draft documents provide predictions of outcomes over a 
100-year period at the basin and mid-scale level on USFS and 
BLM lands. At this scale these DEISs provide only minimal 
direction on how land managers will actually achieve that 
broad-scale ``vision'' and apply it at the local level. The 
Service has, therefore, worked closely with the Project, EIS 
Team, and local executives from the USFS and BLM to incorporate 
into the DEISs an approach that would provide for a greater 
level of assurance, predictability, and accountability in 
project implementation, while avoiding undue delays.
    The Service's current support of the ICBEMP has been based 
on inclusion of the three following basic, but crucial, 
elements that must be firmly founded in the final EIS and 
Record of Decision:
        1. Pro-active contributions to the recovery of listed species 
        under the Endangered Species Act (ESA) and prevention of future 
        species listings as a result of actions on USFS and BLM lands.
        2. Integration into the Plan of a comprehensive ecosystem 
        analysis approach (e.g., subbasin reviews and ecosystem 
        analysis at the watershed scale).
        3. A collaborative process that would allow the Service to 
        participate in basin-wide, mid-scale, and project level 
        planning, design, and implementation. We want to work directly 
        with USFS and BLM managers to promote the necessary protection 
        for fish and wildlife and the resources upon which they depend.
    The USFS and BLM executives have supported this concept and 
advocate this new approach to interagency collaboration with Federal 
regulatory agencies (i.e., FWS, NMFS, EPA). The group also supports a 
new spirit of collaboration involving other Federal agencies, Native 
American Tribes, the States, counties, interest groups, and private 
citizens. We view this new interagency basin-level and local level 
collaboration as essential to good management and see no better way for 
achieving the broad-scale ``vision'' stated in the DEISs.
    In preparing out-year budgets for the ICBEMP, the five involved 
Federal agencies agreed that a central assumption was the necessity of 
maintaining the involvement of all agencies in all levels of planning 
and implementation (including monitoring). Throughout the process, the 
Service, to the extent that funding and staffing levels allow, will 
work with the land management agencies to identify appropriate actions 
and precautions that help achieve the purposes of the project. In 
essence, we all assume there will be a need for long-term commitment to 
interagency and intergovernmental collaboration if the ICBEMP is to 
work.
    For more than three years, the Pacific Region of the Service has 
provided technical and policy level assistance to the ICBEMP. We have 
worked in partnership with the EIS teams to assure the integrity of the 
scientific analysis and promote compliance with Federal laws, such as 
the ESA. In addition, we have served on and provided staff assistance 
to a variety of science teams, ad hoc teams, and policy level teams, in 
particular the Executive Steering Committee, which consists of 
executives of the USFS, BLM, NMFS, EPA and the Service at the regional 
and State levels.
    We have provided leadership and technical advice to the Project to 
promote the conservation and recovery of species listed under the ESA, 
as well as for proposed and candidate species. Listed species affected 
by the plan include the grizzly bear, gray wolf, whooping crane, bald 
eagle, peregrine falcon, woodland caribou, sockeye salmon, steelhead 
trout, and chinook salmon. Several other native species, such as the 
bull trout, westslope cutthroat, yellowstone cutthroat, interior 
redband trout, lynx, and goshawk have undergone serious decline and are 
either proposed for listing, are candidates, or may become candidates.
    While the Service is committed to the Project, currently the 
Service does not have existing capability to respond to the workload 
envisioned with implementation of the Project. During the developmental 
stages of the two DEISs, the Service has annually provided 6 to 8 field 
office employees dedicated part-time in support of the ICBEMP. Since 
the ICBEMP was initiated, the Service has provided $250,000 annually to 
support development of the basin-wide strategy.
    There are, of course, ongoing Endangered Species Act consultation 
activities occurring within the ICBEMP area. Funding for these 
activities in fiscal year 1998 was just under $1.2 million. Once the 
ICBEMP begins the implementation phase, these funds would be used in 
support of ICBEMP activities. In total, roughly $1.4 million is 
currently available in the Service's budget to support ICBEMP 
implementation. The President's fiscal year 1999 Budget includes an 
increase of $1.5 million in ESA consultation funding as the first 
increment in Service funding in support of the ICBEMP.
    The Service has assumed that field-level collaboration will occur 
through a mechanism similar to that currently used in a streamlined 
Section 7 consultation process. This involves assigning local FWS 
biologists to work with one or more BLM resource areas or USFS 
districts in a consultation and coloration role. For example:

        <bullet> In our collaborative role, we would work with land 
        managers and their staff early in the planning and design 
        stages. Through this early involvement process, greater 
        understanding of problems and needs can be developed and, thus, 
        greater support of land management decisions will follow. The 
        focus would be on assisting USFS and BLM personnel in designing 
        projects that will have minimal effect on species listed under 
        the Endangered Species Act. Projects that may be considered 
        include road improvements or construction, habitat restoration, 
        recreation activities, salvage logging, fire management, 
        silviculture treatments, and timber harvest.
        <bullet> In our consultation role, we would work with land 
        managers and their staff to promote species conservation and 
        recovery of listed species through best habitat management 
        strategies. Service contributions would be provided through 
        biological opinions issued by the Service.
    Project-by-project management decisions will obviously be retained 
within the authority of the USFS and BLM.
    In particular, we expect the Service's role in working with BLM and 
FS biologists and land managers will be the following:

        <bullet> Identify at an early stage projects that will 
        adversely affect candidate, proposed, and listed species and 
        develop alternatives.
        <bullet> Provide a landscape perspective on listed species 
        status.
        <bullet> Identify resource problems and species needs.
        <bullet> Identify mechanisms to improve conditions for 
        candidate species and species of concern to avoid the need for 
        future listings.
        <bullet> Develop habitat and resource information.
        <bullet> Develop and provide species management and recovery 
        tools.
        <bullet> Design restoration projects for both species and 
        habitats.
    For example, as a Forest or District is developing future 
restoration projects the Service will participate in a collaborative 
process to help determine the highest priority needs, species to be 
benefited, project design, locations for projects, and potential 
impacts to other species. In addition we will work to consider the 
overriding landscape benefit or impact of the proposed restoration. The 
Service's involvement will also provide continuity between different 
land ownerships and will allow a wider landscape assessment of proposed 
projects and related recovery efforts. Being able to provide input 
early in the planning process, not only at a project scale but also 
from a landscape/regional perspective, will help alleviate potential 
conflicts later in the process. And, as noted above, addressing 
sensitive species in a cooperative effort now will help to avoid the 
need to list them in the future.
    I hope that the Congress, our governmental and non-governmental 
partners, and the public will continue to work with and support the 
ICBEMP. While the DEISs may not currently meet everyone's expectations, 
the efforts of improving upon the DEISs are well worth the benefits 
that will come from the realization of this precedent-setting project. 
It is through the efforts I have described that the USFS and BLM can 
truly and successfully achieve the purpose and needs of the Project on 
their lands.
    Thank you, Madam Chairman, for allowing me to speak before this 
oversight hearing. This concludes my statement. I would be happy to 
address your questions.
                                 ______
                                 

 Statement of Charles E. Findley, Deputy Regional Administrator, U.S. 
    Environmental Protection Agency, Region 10, Seattle, Washington

    Madam Chairman: I am Chuck Findley, Deputy Regional 
Administrator for Region 10 of the U.S. Environmental 
Protection Agency (EPA). I am here at your request to provide 
the Subcommittee with additional testimony on the Interior 
Columbia Basin Ecosystem Management Project, including EPA's 
regulatory role--both currently and historically--as well as 
our view of the project's potential impact on local 
communities.

EPA SUPPORT FOR THE ICBEMP

    I would like to begin by expressing EPA's strong support 
for the purpose and needs that have been established for this 
Project--restoring and maintaining ecosystem health and 
ecological integrity, supporting the economic and social needs 
of people, cultures, and communities, and providing sustainable 
and predictable levels of products from Forest Service and BLM-
administered lands. Satisfying these purposes and needs is key 
to healthy watersheds, aquatic ecosystems and, ultimately, the 
communities, both large and small, that depend on them. Our 
philosophy has been, and continues to be, to put effort in up-
front to ensure that the overall objectives, standards and 
guides are protective of our air and water resources. This is 
simply more efficient than being involved on a project-by-
project basis. We believe it also helps provide a more 
consistent flow of goods and services to our communities and 
the public because projects will be less likely to be 
challenged. If protective land management practices are not 
dealt with adequately through this environmental impact 
statement process, they will likely be dealt with later, 
through the courts. History tell us this will be the likely 
scenario if we are not successful up front. We believe the 
DEISs provide an adequate framework for planning, setting 
priorities, and decision making for managing the Forest Service 
and Bureau of Land Management (BLM) lands within the Basin that 
will satisfy the purpose and needs and the specific ecosystem 
management goals proposed in the Draft Environmental Impact 
Statements (DEISs). The Objectives and Standards, the 
hierarchal assessment and decision processes, and the 
opportunities for collaboration among local, Tribal, State, and 
Federal agencies that have been proposed for implementing the 
Project should provide an effective decision framework that 
will allow sustained delivery of goods and services to the 
communities in the Basin and the general public without unduly 
jeopardizing the integrity of aquatic systems, water quality, 
and air quality.
    I would like to take this opportunity to commend the Forest 
Service and BLM for their exemplary efforts, from the earliest 
stages of the Project, to provide opportunities for public 
involvement in the planning process, particularly for the 
Counties and local communities in the Basin. Those 
opportunities continue to be provided even now, as we near the 
end of the public comment period of the DEISs.

EPA INVOLVEMENT IN THE ICBEMP

    EPA's decision to invest resources in the Project is based 
on the premise that it is far more cost effective to 
collaborate and address concerns early in the process than it 
is to wait and attempt to resolve differences that are 
identified on a project by project basis. EPA assigned staff to 
both the Walla Walla and Boise EIS teams shortly after they 
were established with the goal of providing perspective and 
assistance to the teams relative to the requirements of the 
Clean Water Act and Clean Air Act as the environmental 
assessment and impact determinations were debated.
    Yes, we've had some disagreements and differences of 
opinion in the past four years, which is understandable given 
the different mandates that guide our respective agencies. But 
at the executive level there continues to be a firm commitment 
to forge agreements that meet each agency's mandate and 
interest in stewardship of our country's natural resources. 
Decision making at the policy level has been a joint and 
collaborative process among all five of the agencies involved. 
I am confident this mode of operation will continue.
    EPA's current involvement in the Project remains one of 
strong support. We have committed the resources necessary to 
assure it moves forward as quickly and efficiently as possible 
to a final decision. Reaching resolution will mean that the 
critically important environmental restoration work can begin 
to protect the region's land and water, helping to provide 
predictable and sustainable levels of goods and services for 
Basin communities.

EPA INVOLVEMENT IN IMPLEMENTATION

    More specific to EPA's area of responsibilities, you are 
probably aware that EPA and the States in the Northwest are 
facing a monumental task in addressing the hundreds of water 
bodies that have been listed under the Clean Water Act as 
impaired in each state. Lawsuits in each state are forcing 
substantial resource commitments to develop specific plans and 
implementation measures to return listed waters to compliance 
in reasonable time frames. Many of the listed waters are on 
Federal lands and we view the provisions of the ICBEMP as a 
vital component in assuring that those waters are addressed, 
both now and as the Project is implemented. Many of the 
impaired waters are listed because they do not support 
beneficial uses. For example, many waters no longer support all 
life stages of certain fish, such as salmon. In such cases, we 
are committed to working with the land management agencies and 
with the National Marine Fisheries Service and the Fish and 
Wildlife Service to concurrently address both Clean Water Act 
and Endangered Species Act requirements to avoid potentially 
duplicative efforts for all involved.
    The debate over protective forest and land management 
practices will occur, either in this EIS format, or if not 
dealt with adequately, in the courts. We realize that even if 
we are successful in reaching a Record of Decision through this 
collaborative process, legal challenges may still occur during 
implementation. We believe however, that the basis for specific 
projects will be more easily defended if such litigation proves 
unavoidable.
    EPA will commit resources and continue to work with the 
land management agency partners in a collaborative manner for 
the duration of the Project. Assuming the production of a final 
EIS and Record of Decision, EPA expects to participate in 
implementation of the Project with a level of resources 
sufficient to provide the Forest Service and BLM with technical 
assistance and support in their planning, assessment, and 
decision processes to assure that Clean Water Act, Clean Air 
Act, and other EPA responsibilities are appropriately 
addressed. We would expect our level of involvement to decrease 
over time, as we gain confidence that these responsibilities 
are being carried out satisfactorily.

PAST AND FUTURE RESOURCE COMMITMENTS

    Beginning in fiscal year 1994, EPA committed two full-time 
staff to the project, one on the EIS team in Walla Walla, and 
the other on the Science Assessment Team. In fiscal year 1995, 
after the Boise office opened, another part time staff person 
was assigned to that EIS team. During fiscal year 1996, EPA's 
resource commitment shifted from EIS team involvement, which 
was primarily technical in nature, to issue resolution which 
required policy level staff. Since fiscal year 1997, our 
involvement has been largely at the policy level. EPA's 
approach is to be more involved initially on selected projects, 
but to reduce our involvement as we gain confidence that 
standards are applied consistently. We don't envision being 
involved in-depth for a long period of time.
    We believe we can accomplish our goals in the collaborative 
process by focusing our limited resources on the most sensitive 
and complex environmental issues. Our goal is to provide staff 
and resources sufficient to assure success of the project that 
are appropriate to the nature of the issues and challenges that 
arise.

CLOSING

    In closing, EPA believes the direction and goals of the 
Interior Columbia Project are worthy of continued support, both 
by the communities, the public, and interest groups that will 
be most impacted by it, and by governments at all levels--
local, Tribal, state, and Federal agencies, and Congress. EPA 
is committed to supporting the Project and assuring its 
success. The strength of the project is its framework of: (1) 
broad public participation opportunities, (2) ability to 
address regional landscape scale issues, (3) default standards 
that can be changed to fit local conditions through the conduct 
of ecosystem analysis at the watershed scale, (4) 
intergovernmental collaboration opportunities, and (5) a 
balance of economic, social, and ecological interests.
    Thank you, Madam Chairman, for inviting me to address this 
oversight hearing of your Subcommittee. This concludes my 
statement and I would be happy to address any questions you may 
have.
                                ------                                


    Statement of Cindy L. Bachman, Hot Springs Road, Bruneau, Idaho

    My name is Cindy Bachman. I live at 118 Hot Springs Road in 
Bruneau, Idaho. I am chairman of the Owyhee County FSA, County 
Committee, Vice-Chairman and Endangered Species Sub-Committee 
Chairman of the Owyhee County Land Use Planning Committee and a 
member of the BLM's Lower Snake River Resource Advisory 
Council. I am also a member of the Idaho BLM Tri-RAC committee 
that helped to create and finalize the BLM's ``Idaho Standards 
for Rangeland Health and Guidelines for Grazing Management'' 
(S&G's).
    My husband Frank and I, along with our children ranch and 
farm in the Bruneau Valley and have BLM permits in the Jarbidge 
and Shoshone Resource Areas. We are currently being impacted by 
the endangered Bruneau Hot Springsnail, the proposed listing of 
the Jarbidge River population of the Bull Trout, the declining 
Sage Grouse population, the United States Air Force requested 
Enhanced Training Range at Juniper Butte, the court ordered 
Idaho TMDL process, a minimum stream flow application for the 
Bruneau River and the BLM's Rangeland Reform regulations.
    Today I will focus my comments on the Final, BLM Idaho 
S&G's that are required by Rangeland Reform regulations and 
signed by Secretary Babbitt August 12, 1997 and how only the 
Proposed S&G's are incorporated into the Upper Columbia River 
Basin Draft ElS/Appendix M/Pages 367-372 and the 
inconsistencies of the two documents.

        <bullet> There were changes made between the Proposed S&G's and 
        Final S&G's document so the UCRB Draft EIS incorporates 
        outdated information.
        <bullet> BLM Resource Advisory Councils were not invited to 
        participate in the incorporation of Idaho's S&G's into the UCRB 
        Draft EIS. The EIS interdisciplinary team interpreted and 
        incorporated the S&G's with only BLM personnel input.
        <bullet> Word definitions in the UCRB Draft and Idaho S&G's are 
        very different: UCRB Draft ElS/Chapter 3/Page 1 & 59.
          a BLM Standard = UCRB Desired Range of Future Conditions
          a BLM Indicator = UCRB Objective
          a BLM Guideline = UCRB Standard
        1. UCRB definition for Desired Range of Future Conditions: ``. 
        . . conditions that are expected to result in 50-100 years if 
        objectives are achieved.''
        2. BLM S&G's definition for Standard: ``. . . management goals 
        for the betterment of the environment, protection of cultural 
        resources, and sustained productivity of the range.
        3. UCRB definition for Objectives: ``Indicators used to measure 
        progress toward attainment of goals.''
        4. UCRB definition for Standard: ``Required management actions 
        addressing how to achieve objectives.''
        5. BLM definition for Guideline. ``. . . direct the selection 
        of . . . management practices, . . . to promote significant 
        progress toward, or the attainment and maintenance of, the 
        standard.''
        6. BLM definition for Indicators: ``Components or attributes of 
        a rangeland ecosystem that can be observed and/or measured that 
        provides evidence of the function, productivity, health and/or 
        condition of the ecosystem.''
        <bullet> UCRB Draft ElS/Appendix M/Page 368 states ``(Please 
        refer to the section titled Features Common to Alternatives 3 
        to 7, in Chapter 3.)'' This section incorporates Idaho BLM 
        Proposed Standards into UCRB as ``Desired Range of Future 
        Conditions.'' The Lower Snake River RAC and Tri-RAC were 
        adamant that when Idaho S&G's were used by BLM Land Managers 
        the introduction be a crucial part of implementation. There is 
        no mention of the Idaho BLM S&G's Introductions in UCRB Draft 
        EIS/Chapter 3 and some of the Idaho BLM Guidelines for Grazing 
        Management are incorporated as UCRB Standards.
        <bullet> All Idaho BLM Land Use Plans were found to conform 
        with the Final Idaho S&G's. If a Record of Decision is issued, 
        all current BLM Land Use Plans that are found inconsistent with 
        the UCRB-ICBEMP EIS document will be modified with no further 
        public input. The NEPA requirement has been met through the 
        UCRB-ICBEMP process.
    As I read this UCRB-ICBEMP Draft EIS, I believe the implementation 
impact of this document and the preferred alternative will be 
devastating. I strongly urge you to convince the Congress that there 
should be no ``Record of Decision'' issued for this document.
                      Statement of Molly Blaylock

ICBEMP-MISSION IMPOSSIBLE

    The Interior Columbia Basin Ecosystem Management Project 
(ICBEMP) is another wonderful by-product of the popular 
Northwest Forest Plan. In fact, the President himself ordered 
up this bureaucratic boon-doggle to the tune of $35 million, so 
far. For a document that is supposed to break the legal logjam, 
all I see is a freeway with plenty of on-ramps for more legal 
confrontation.
    For starters, only half of the ecosystem studied is 
actually land under the management jurisdiction of either the 
USFS or BLM. Ecosystem is an ambiguous term; agencies looking 
for legal standing should at least find something definitive as 
a starting point. When asked at a public meeting, one ICBEMP 
representative stated that there is no consensus within the 
scientific community on the definition of ``ecosystem.'' The 
term ``ecosystem integrity'' is relied on heavily in the 
project's two draft environmental impact statements. 
Unfortunately, the documents also admit, ``Absolute measures of 
integrity do not exist.'' In other words, attainment of some 
measurable standard will be next to impossible, for the 
ecosystem will be constantly changing.
    The goal that is being held up as the yard-stick, is the 
pre-European settlement condition of the land. I see that as a 
divide and conquer technique. The stewardship practices of the 
pre-European settlement indigenous peoples might be 
commendable, but the demographics of the Interior Columbia 
Basin have changed radically in the last 150 years. Humans have 
always relied on nature for their sustenance, and the same is 
true today. Humankind has benefited greatly from advances in 
technology, including the ability to produce resources in an 
environmentally responsible manner.
    History repeats itself, the history of our planet 
transcends what has been recorded by man. Geological records 
show our existence on the face of this rock, is but a blip in 
time. How arrogant have we become? Regardless of one's 
spiritual beliefs, or lack thereof, the fact remains: we are at 
the mercy of nature. We have absolutely no control over its 
forces, but that does not prevent some from attempting to 
suspend the laws of evolution, control the climate or manage 
``ecosystems.''
    Last August, I attended a public meeting in Baker City, 
Oregon. Warning bells went off in my head every time the ICBEMP 
staff mentioned ``changing societal values'' and the need for 
land management agencies to address value judgments as opposed 
to science. Having called myself an environmentalist at one 
time, I now realize I'd made choices based on emotion and 
misinformation, rather than the facts. I challenge the agencies 
to educate the public on how they could be part of the 
solution, not spread more doubt and conflict.
    Martha Hahn, Idaho's BLM State Director, recently asked for 
more sharing of ideas, interpretations and impacts. The agency 
has already received over 70,000 comments. Ms. Hahn then said 
that most of the comments reflect polarized views of the 
preferred alternative and that neither view is right. One 
reason for this is that the terms ``ecosystem'' and ``ecosystem 
integrity,'' as reflected in the majority of the comments 
received, are wide open to interpretation. This document does 
nothing more than muddy the very waters it is supposed to clear 
up.
    One of the great things about America is freedom--freedom 
to voice opposition. I am one American who is simply tired of 
spending my tax dollars in court only to fund more lawsuits. 
Mediation is one way the agencies could cool this debate, and 
get back to the business of managing land. What would happen if 
people with polarized viewpoints were brought to a table 
together to hammer out real solutions to the real problems?
    I live in the Interior Columbia Basin, and I have every 
intention to continue to do so. Don't let this misguided 
adventure come to your region, or mine. Ecosystem management 
gives some folks in the current administration a warm fuzzy 
feeling, it leaves me with a serious pain in my neck of the 
woods.
                                ------                                


Statement of Robert M. Skinner, 3280 Skinner Rd., Jordan Valley, Oregon

    These comments are based on my involvement with the 
Interior Columbia Basin Ecosystem Management Plan over the past 
several years. However, I have not read the plan in it's 
immense entirety, and do not see how anyone who has anything 
else to do for a living could have possibly had the time to do 
so. The sheer mass of this document is just overwhelming.
    The plan has cost the American taxpayer an enormous amount 
in direct expense, and the indirect costs incurred by the many 
citizens who have had to travel and sacrificed time to try and 
stay abreast of the so called ``master plan'' will never be 
known. The estimated cost of implementing the preferred 
alternative is a staggering $125 to $140 million. I have 
personally attended so many workshops, scoping meetings, 
planning sessions, strategy meetings, and information meetings 
across Oregon, Idaho and Washington that I can't even remember 
how many times I have been there or how many hours I have spent 
on this issue. The point being I am still overwhelmed, 
confused, and not trusting of this political product.
    Also, I should note, that I have had a lot of formal 
exposure to ICBEMP because of my being a member (appointed by 
the Secretary of the Interior) of the Southeast Oregon RAC, and 
also, I am the public lands committee chairman for the Oregon 
Cattlemen's Association.
    The plan is the overriding big umbrella or master plan to 
which all other local plans must conform. ICBEMP is very 
serious as it makes it so much easier to carry out top down 
political agendas when a plan such as this lays the framework 
for so many local plans, and crosses so many political 
boundaries.
    The ICBEMP no doubt has some very beneficial aspects such 
as a much needed weed control program. My fear is that the 
local will be essentially taken out of the planning process. 
The plan may refer to the local planning process, but if all 
plans must conform to the ``master plan'' then in reality what 
do we have?
    Along with the fear I have expressed as to the effects of 
the plan on the local resources. I have a very real fear that 
the plan may be devastating to the economics of the local 
communities. I think Congress and the Eastside Ecosystem 
Coalition of Counties had the same fear when they directed the 
project team to do the analysis of the economic and social 
implications of the plan. I have read the document recently 
released addressing these issues. Even though I do have a minor 
in economics from one of the leading private liberal arts 
colleges in the nation, I am confused and untrusting of what I 
read. In talking last night to Dr. Fred Obermiller, professor 
of agricultural and resource economics at Oregon State 
University, I expressed my concerns, Dr. Obermiller said 
(direct quote) ``this report and EIS is an attempt to obscure 
the negative impacts on local communities based on data that 
does not exist and assumptions that can not be validated. I 
expect that implementation of this plan will lead to 
annihilation of rural communities within the scope of the 
Interior Columbia Basin Ecosystem Management Planning area.''
    In conclusion, even though I have attended countless 
training sessions and read volumes of material on this plan, it 
is almost impossible to fully realize what it really is, or 
what it is trying to accomplish. At this point I must rely on 
my basic ``gut feeling'' that this plan is probably going to be 
devastating to rural communities and families in the 
Northwestem United States and eventually to the United States 
as a whole.
    Thank you.
                                ------                                


      Statement of Pat Holmberg, President, The Independent Miners

    With all due respect Congressman, I am somewhat confused. I 
do not know anyone who has read and understood the hundreds of 
pages of this document.
    What I do know is that the implementation of this great and 
wonderful plan has neither been authorized nor funded by the 
Congress of the United States. What then allows the land 
managers to implement this policy that carries no weight of 
law?
    Why, Congressman, has the United States Congress abrogated 
their authority and is Congress not allowing agencies and 
friendly lawsuits to override the authority given them by the 
people of the United States?
    Please carry this message back to your fellow legislators. 
Enough is enough. Just say no!!
                                ------                                


 Statement of Elizabeth Holmes Gaar, Assistant Regional Administrator, 
          National Marine Fisheries Service, Portland, Oregon

    I am Elizabeth Holmes Gaar, Assistant Regional 
Administrator, Northwest Region of the National Marine 
Fisheries Service (NMFS). I am responding on behalf of NMFS to 
your request as Subcommittee Chair for testimony on the 
Interior Columbia Basin Ecosystem Management Project (Project), 
including the role of regulatory agencies, both currently and 
historically, as well as the impacts of the project on local 
communities.

NMFS SUPPORT FOR THE ICBEMP

    The Project is a unique undertaking that will change not 
only what and when actions occur, but also will significantly 
increase the involvement of government and non-government 
partners and stakeholders in the resource management decision 
process. The primary NMFS role in the Project is to ensure that 
conservation needs of salmon and steelhead listed under the 
Endangered Species Act (ESA) are realized as actions are taken 
across the broad expanse of the Project area. The NMFS is 
committed to working with the five-agency Federal family for 
successful planning and implementation of the Project. We 
believe NMFS' early and full involvement is needed to avoid or 
minimize costly last minute conflicts that could affect both 
short- and long-term outcomes.

NMFS INVOLVEMENT IN THE ICBEMP

    The collaborative interagency approach to Project planning 
is working. Experience with ESA salmon issues in the northwest 
has shown it is more efficient and cost effective to involve 
all interested parties early and often during large scale 
planning exercises such as the ICBEMP. The NMFS is, therefore, 
participating in the development of key components of the DEISs 
and those areas requiring additional effort to complete a final 
EIS and Record of Decision(s). This early interagency 
involvement was critical to the development and release of the 
draft EIS to the public for their review and comment. The 
public comment period is scheduled to close May 6, 1998, at 
which time the interagency collaborative effort will continue 
to help in the development of a final EIS.
    The NMFS continues to work collaboratively with our Federal 
partners in moving from a draft to final EIS and Record of 
Decision(s). A major interest to NMFS is the interagency 
commitment to hierarchical step-down planning as a primary tool 
for incorporating broad- and mid-scale scientific information 
into project implementation with assurances for conservation of 
listed salmonids and their habitats.

NMFS' ICBEMP BUDGET

    Successful ICBEMP implementation depends on continued 
interagency participation in the collaborative step-down 
planning process that promotes ecosystem management through 
basin wide assessments, subbasin reviews, and ecosystem 
analysis at the watershed scale to project level planning. The 
ability to deliver project planning flexibility also depends on 
a strong adaptive management approach and NMFS involvement.
    The NMFS budget for ICBEMP currently focuses on interagency 
participation in the development of the DEISs and supporting 
implementation strategies. As the Project transitions to 
implementation and the application of new science to the step-
down planning process for project design and implementation, 
NMFS interagency participation will increase in those areas 
where conservation of anadromous salmonids are of concern 
within the Project area.
    The President's fiscal year 1999 Budget for NOAA Fisheries 
includes a west coast (Alaska, Northwest, and Southwest 
Regions) salmon funding initiative of which $2-3 million will 
provide funding support for effective NOAA Fisheries 
participation in the Project.

FUNDING SUMMARY

Existing FY 1998 Funds: $200,000 ICBEMP FEIS Development and 
Early ESA Consultation Activities
FY 1999 Budget Increase: +$2-3,000,000 ICBEMP Implementation/
Consultation

ROLE OF THE NMFS DURING ICBEMP IMPLEMENTATION

    The NMFS intends to build on the successes in the ICBEMP 
interagency planning to date as well as that gained through the 
present ESA section 7 streamlined consultation process. Early 
and complete involvement by the NMFS is essential for continued 
successful application of the streamlined ESA consultation 
process at the programmatic, mid-scale, and project scale 
encompassed by ICBEMP. The integrated collaborative effort and 
commitments by the five Federal agencies will serve to reduce 
nongovernmental challenges and other efforts often required 
during a formal ESA section 7 consultation process when that 
process is relied on as the primary coordination mechanism for 
project planning.

CLOSING

    I want to express my appreciation to you, Madam Chairman, 
for your continued interest in this multi-agency, broad-scale 
Federal land management planning process. I sincerely believe 
that this Project has worked, and continues to work diligently 
to bring all involved parties together to begin the difficult 
task of assessing the interrelationships of Federal land 
management decisions within the Interior Columbia River Basin. 
By jointly approaching the problems identified in the ICBEMP, 
many of which are too large for any one agency or land unit to 
address alone, we can collectively apply newly analyzed 
scientific information unavailable in the past, and begin the 
restoration efforts with confidence that many of our highly 
valued public resources need.
    Thank you Madam Chairman, for allowing me to speak before 
this Subcommittee. This concludes my statement. I would be 
happy to address your questions.

[GRAPHIC] [TIFF OMITTED] T7765.102

[GRAPHIC] [TIFF OMITTED] T7765.103

[GRAPHIC] [TIFF OMITTED] T7765.104

[GRAPHIC] [TIFF OMITTED] T7765.105

[GRAPHIC] [TIFF OMITTED] T7765.106

[GRAPHIC] [TIFF OMITTED] T7765.107

[GRAPHIC] [TIFF OMITTED] T7765.108

[GRAPHIC] [TIFF OMITTED] T7765.109

[GRAPHIC] [TIFF OMITTED] T7765.110

[GRAPHIC] [TIFF OMITTED] T7765.111

[GRAPHIC] [TIFF OMITTED] T7765.112

[GRAPHIC] [TIFF OMITTED] T7765.113

[GRAPHIC] [TIFF OMITTED] T7765.114

[GRAPHIC] [TIFF OMITTED] T7765.115

[GRAPHIC] [TIFF OMITTED] T7765.116

[GRAPHIC] [TIFF OMITTED] T7765.117

[GRAPHIC] [TIFF OMITTED] T7765.118

[GRAPHIC] [TIFF OMITTED] T7765.119

[GRAPHIC] [TIFF OMITTED] T7765.120

[GRAPHIC] [TIFF OMITTED] T7765.121

[GRAPHIC] [TIFF OMITTED] T7765.122

[GRAPHIC] [TIFF OMITTED] T7765.123

[GRAPHIC] [TIFF OMITTED] T7765.124

[GRAPHIC] [TIFF OMITTED] T7765.125

[GRAPHIC] [TIFF OMITTED] T7765.126

[GRAPHIC] [TIFF OMITTED] T7765.127

[GRAPHIC] [TIFF OMITTED] T7765.128

[GRAPHIC] [TIFF OMITTED] T7765.129

[GRAPHIC] [TIFF OMITTED] T7765.130

[GRAPHIC] [TIFF OMITTED] T7765.131

[GRAPHIC] [TIFF OMITTED] T7765.132

[GRAPHIC] [TIFF OMITTED] T7765.133

[GRAPHIC] [TIFF OMITTED] T7765.134

[GRAPHIC] [TIFF OMITTED] T7765.135

[GRAPHIC] [TIFF OMITTED] T7765.136

[GRAPHIC] [TIFF OMITTED] T7765.137

[GRAPHIC] [TIFF OMITTED] T7765.138

[GRAPHIC] [TIFF OMITTED] T7765.139

[GRAPHIC] [TIFF OMITTED] T7765.140

[GRAPHIC] [TIFF OMITTED] T7765.141

[GRAPHIC] [TIFF OMITTED] T7765.142

[GRAPHIC] [TIFF OMITTED] T7765.143

[GRAPHIC] [TIFF OMITTED] T7765.144

[GRAPHIC] [TIFF OMITTED] T7765.145

[GRAPHIC] [TIFF OMITTED] T7765.146

[GRAPHIC] [TIFF OMITTED] T7765.147

[GRAPHIC] [TIFF OMITTED] T7765.148

[GRAPHIC] [TIFF OMITTED] T7765.149

[GRAPHIC] [TIFF OMITTED] T7765.150

[GRAPHIC] [TIFF OMITTED] T7765.151

[GRAPHIC] [TIFF OMITTED] T7765.152

[GRAPHIC] [TIFF OMITTED] T7765.153

[GRAPHIC] [TIFF OMITTED] T7765.154

[GRAPHIC] [TIFF OMITTED] T7765.155

[GRAPHIC] [TIFF OMITTED] T7765.156

[GRAPHIC] [TIFF OMITTED] T7765.157

[GRAPHIC] [TIFF OMITTED] T7765.158

[GRAPHIC] [TIFF OMITTED] T7765.159

[GRAPHIC] [TIFF OMITTED] T7765.160

[GRAPHIC] [TIFF OMITTED] T7765.161

[GRAPHIC] [TIFF OMITTED] T7765.162

[GRAPHIC] [TIFF OMITTED] T7765.163

[GRAPHIC] [TIFF OMITTED] T7765.164

[GRAPHIC] [TIFF OMITTED] T7765.165

[GRAPHIC] [TIFF OMITTED] T7765.166

[GRAPHIC] [TIFF OMITTED] T7765.167

[GRAPHIC] [TIFF OMITTED] T7765.168

[GRAPHIC] [TIFF OMITTED] T7765.169

[GRAPHIC] [TIFF OMITTED] T7765.170

[GRAPHIC] [TIFF OMITTED] T7765.171

[GRAPHIC] [TIFF OMITTED] T7765.172

[GRAPHIC] [TIFF OMITTED] T7765.173

[GRAPHIC] [TIFF OMITTED] T7765.174

[GRAPHIC] [TIFF OMITTED] T7765.175

[GRAPHIC] [TIFF OMITTED] T7765.176

[GRAPHIC] [TIFF OMITTED] T7765.177

[GRAPHIC] [TIFF OMITTED] T7765.178

[GRAPHIC] [TIFF OMITTED] T7765.179

[GRAPHIC] [TIFF OMITTED] T7765.180

[GRAPHIC] [TIFF OMITTED] T7765.181

[GRAPHIC] [TIFF OMITTED] T7765.182

[GRAPHIC] [TIFF OMITTED] T7765.183

[GRAPHIC] [TIFF OMITTED] T7765.184

[GRAPHIC] [TIFF OMITTED] T7765.185

[GRAPHIC] [TIFF OMITTED] T7765.186

[GRAPHIC] [TIFF OMITTED] T7765.187

[GRAPHIC] [TIFF OMITTED] T7765.188

[GRAPHIC] [TIFF OMITTED] T7765.189

[GRAPHIC] [TIFF OMITTED] T7765.190

[GRAPHIC] [TIFF OMITTED] T7765.191

[GRAPHIC] [TIFF OMITTED] T7765.192

[GRAPHIC] [TIFF OMITTED] T7765.193

[GRAPHIC] [TIFF OMITTED] T7765.194

[GRAPHIC] [TIFF OMITTED] T7765.195

[GRAPHIC] [TIFF OMITTED] T7765.196

[GRAPHIC] [TIFF OMITTED] T7765.197

[GRAPHIC] [TIFF OMITTED] T7765.198

[GRAPHIC] [TIFF OMITTED] T7765.199

[GRAPHIC] [TIFF OMITTED] T7765.200

[GRAPHIC] [TIFF OMITTED] T7765.201

[GRAPHIC] [TIFF OMITTED] T7765.202

[GRAPHIC] [TIFF OMITTED] T7765.203

[GRAPHIC] [TIFF OMITTED] T7765.204

[GRAPHIC] [TIFF OMITTED] T7765.205

[GRAPHIC] [TIFF OMITTED] T7765.206

[GRAPHIC] [TIFF OMITTED] T7765.207

[GRAPHIC] [TIFF OMITTED] T7765.208

[GRAPHIC] [TIFF OMITTED] T7765.209

[GRAPHIC] [TIFF OMITTED] T7765.210

[GRAPHIC] [TIFF OMITTED] T7765.211

[GRAPHIC] [TIFF OMITTED] T7765.212

[GRAPHIC] [TIFF OMITTED] T7765.213

[GRAPHIC] [TIFF OMITTED] T7765.214

[GRAPHIC] [TIFF OMITTED] T7765.215

[GRAPHIC] [TIFF OMITTED] T7765.216

[GRAPHIC] [TIFF OMITTED] T7765.217

[GRAPHIC] [TIFF OMITTED] T7765.218

[GRAPHIC] [TIFF OMITTED] T7765.219

[GRAPHIC] [TIFF OMITTED] T7765.220

[GRAPHIC] [TIFF OMITTED] T7765.221

[GRAPHIC] [TIFF OMITTED] T7765.222

[GRAPHIC] [TIFF OMITTED] T7765.223

[GRAPHIC] [TIFF OMITTED] T7765.224

[GRAPHIC] [TIFF OMITTED] T7765.225

[GRAPHIC] [TIFF OMITTED] T7765.226

[GRAPHIC] [TIFF OMITTED] T7765.227

[GRAPHIC] [TIFF OMITTED] T7765.228

[GRAPHIC] [TIFF OMITTED] T7765.229

[GRAPHIC] [TIFF OMITTED] T7765.230

[GRAPHIC] [TIFF OMITTED] T7765.231

[GRAPHIC] [TIFF OMITTED] T7765.232

[GRAPHIC] [TIFF OMITTED] T7765.233

[GRAPHIC] [TIFF OMITTED] T7765.234

[GRAPHIC] [TIFF OMITTED] T7765.235

[GRAPHIC] [TIFF OMITTED] T7765.236

[GRAPHIC] [TIFF OMITTED] T7765.237

[GRAPHIC] [TIFF OMITTED] T7765.238

[GRAPHIC] [TIFF OMITTED] T7765.239

[GRAPHIC] [TIFF OMITTED] T7765.240

[GRAPHIC] [TIFF OMITTED] T7765.241

[GRAPHIC] [TIFF OMITTED] T7765.242

[GRAPHIC] [TIFF OMITTED] T7765.243

[GRAPHIC] [TIFF OMITTED] T7765.244

[GRAPHIC] [TIFF OMITTED] T7765.245

[GRAPHIC] [TIFF OMITTED] T7765.246

[GRAPHIC] [TIFF OMITTED] T7765.247

[GRAPHIC] [TIFF OMITTED] T7765.248

[GRAPHIC] [TIFF OMITTED] T7765.249

[GRAPHIC] [TIFF OMITTED] T7765.250

[GRAPHIC] [TIFF OMITTED] T7765.251

[GRAPHIC] [TIFF OMITTED] T7765.252

[GRAPHIC] [TIFF OMITTED] T7765.253

[GRAPHIC] [TIFF OMITTED] T7765.254

[GRAPHIC] [TIFF OMITTED] T7765.255

[GRAPHIC] [TIFF OMITTED] T7765.256

[GRAPHIC] [TIFF OMITTED] T7765.257

[GRAPHIC] [TIFF OMITTED] T7765.258

[GRAPHIC] [TIFF OMITTED] T7765.259

[GRAPHIC] [TIFF OMITTED] T7765.260

[GRAPHIC] [TIFF OMITTED] T7765.261

[GRAPHIC] [TIFF OMITTED] T7765.262

[GRAPHIC] [TIFF OMITTED] T7765.263

[GRAPHIC] [TIFF OMITTED] T7765.264

[GRAPHIC] [TIFF OMITTED] T7765.265

[GRAPHIC] [TIFF OMITTED] T7765.266

[GRAPHIC] [TIFF OMITTED] T7765.267

[GRAPHIC] [TIFF OMITTED] T7765.268

[GRAPHIC] [TIFF OMITTED] T7765.269

[GRAPHIC] [TIFF OMITTED] T7765.270

[GRAPHIC] [TIFF OMITTED] T7765.271

[GRAPHIC] [TIFF OMITTED] T7765.272

[GRAPHIC] [TIFF OMITTED] T7765.273

[GRAPHIC] [TIFF OMITTED] T7765.274

[GRAPHIC] [TIFF OMITTED] T7765.275

[GRAPHIC] [TIFF OMITTED] T7765.276

[GRAPHIC] [TIFF OMITTED] T7765.277

[GRAPHIC] [TIFF OMITTED] T7765.278

[GRAPHIC] [TIFF OMITTED] T7765.279

[GRAPHIC] [TIFF OMITTED] T7765.280

[GRAPHIC] [TIFF OMITTED] T7765.281

[GRAPHIC] [TIFF OMITTED] T7765.282

[GRAPHIC] [TIFF OMITTED] T7765.283

[GRAPHIC] [TIFF OMITTED] T7765.284

[GRAPHIC] [TIFF OMITTED] T7765.285

[GRAPHIC] [TIFF OMITTED] T7765.286

[GRAPHIC] [TIFF OMITTED] T7765.287

[GRAPHIC] [TIFF OMITTED] T7765.288

[GRAPHIC] [TIFF OMITTED] T7765.289

[GRAPHIC] [TIFF OMITTED] T7765.290

[GRAPHIC] [TIFF OMITTED] T7765.291

[GRAPHIC] [TIFF OMITTED] T7765.292

[GRAPHIC] [TIFF OMITTED] T7765.293

[GRAPHIC] [TIFF OMITTED] T7765.294

[GRAPHIC] [TIFF OMITTED] T7765.295

[GRAPHIC] [TIFF OMITTED] T7765.296

[GRAPHIC] [TIFF OMITTED] T7765.297

[GRAPHIC] [TIFF OMITTED] T7765.298

[GRAPHIC] [TIFF OMITTED] T7765.299

[GRAPHIC] [TIFF OMITTED] T7765.300

[GRAPHIC] [TIFF OMITTED] T7765.301

[GRAPHIC] [TIFF OMITTED] T7765.302

[GRAPHIC] [TIFF OMITTED] T7765.303

[GRAPHIC] [TIFF OMITTED] T7765.304

[GRAPHIC] [TIFF OMITTED] T7765.305

[GRAPHIC] [TIFF OMITTED] T7765.306

[GRAPHIC] [TIFF OMITTED] T7765.307

[GRAPHIC] [TIFF OMITTED] T7765.308

[GRAPHIC] [TIFF OMITTED] T7765.309

[GRAPHIC] [TIFF OMITTED] T7765.310

[GRAPHIC] [TIFF OMITTED] T7765.311

[GRAPHIC] [TIFF OMITTED] T7765.312

[GRAPHIC] [TIFF OMITTED] T7765.313

[GRAPHIC] [TIFF OMITTED] T7765.314

[GRAPHIC] [TIFF OMITTED] T7765.315

[GRAPHIC] [TIFF OMITTED] T7765.316

[GRAPHIC] [TIFF OMITTED] T7765.317

[GRAPHIC] [TIFF OMITTED] T7765.318

[GRAPHIC] [TIFF OMITTED] T7765.319

[GRAPHIC] [TIFF OMITTED] T7765.320

[GRAPHIC] [TIFF OMITTED] T7765.321

[GRAPHIC] [TIFF OMITTED] T7765.322

[GRAPHIC] [TIFF OMITTED] T7765.323

[GRAPHIC] [TIFF OMITTED] T7765.324

[GRAPHIC] [TIFF OMITTED] T7765.325

[GRAPHIC] [TIFF OMITTED] T7765.326

[GRAPHIC] [TIFF OMITTED] T7765.327

[GRAPHIC] [TIFF OMITTED] T7765.328

[GRAPHIC] [TIFF OMITTED] T7765.329

[GRAPHIC] [TIFF OMITTED] T7765.330

[GRAPHIC] [TIFF OMITTED] T7765.331

[GRAPHIC] [TIFF OMITTED] T7765.332

[GRAPHIC] [TIFF OMITTED] T7765.333

[GRAPHIC] [TIFF OMITTED] T7765.334

[GRAPHIC] [TIFF OMITTED] T7765.335

[GRAPHIC] [TIFF OMITTED] T7765.336

[GRAPHIC] [TIFF OMITTED] T7765.337

[GRAPHIC] [TIFF OMITTED] T7765.338

[GRAPHIC] [TIFF OMITTED] T7765.339

[GRAPHIC] [TIFF OMITTED] T7765.340

[GRAPHIC] [TIFF OMITTED] T7765.341

[GRAPHIC] [TIFF OMITTED] T7765.342

[GRAPHIC] [TIFF OMITTED] T7765.343

[GRAPHIC] [TIFF OMITTED] T7765.344

[GRAPHIC] [TIFF OMITTED] T7765.345

[GRAPHIC] [TIFF OMITTED] T7765.346

[GRAPHIC] [TIFF OMITTED] T7765.347

[GRAPHIC] [TIFF OMITTED] T7765.348

[GRAPHIC] [TIFF OMITTED] T7765.349

[GRAPHIC] [TIFF OMITTED] T7765.350

[GRAPHIC] [TIFF OMITTED] T7765.351

[GRAPHIC] [TIFF OMITTED] T7765.352

[GRAPHIC] [TIFF OMITTED] T7765.353

[GRAPHIC] [TIFF OMITTED] T7765.354

[GRAPHIC] [TIFF OMITTED] T7765.355

[GRAPHIC] [TIFF OMITTED] T7765.356

[GRAPHIC] [TIFF OMITTED] T7765.357

[GRAPHIC] [TIFF OMITTED] T7765.358

[GRAPHIC] [TIFF OMITTED] T7765.359

[GRAPHIC] [TIFF OMITTED] T7765.360

[GRAPHIC] [TIFF OMITTED] T7765.361

[GRAPHIC] [TIFF OMITTED] T7765.362

[GRAPHIC] [TIFF OMITTED] T7765.363

[GRAPHIC] [TIFF OMITTED] T7765.364

[GRAPHIC] [TIFF OMITTED] T7765.365

[GRAPHIC] [TIFF OMITTED] T7765.366

[GRAPHIC] [TIFF OMITTED] T7765.367

[GRAPHIC] [TIFF OMITTED] T7765.368

[GRAPHIC] [TIFF OMITTED] T7765.369

[GRAPHIC] [TIFF OMITTED] T7765.370

[GRAPHIC] [TIFF OMITTED] T7765.371

[GRAPHIC] [TIFF OMITTED] T7765.372

[GRAPHIC] [TIFF OMITTED] T7765.373

[GRAPHIC] [TIFF OMITTED] T7765.374

[GRAPHIC] [TIFF OMITTED] T7765.375

[GRAPHIC] [TIFF OMITTED] T7765.376

[GRAPHIC] [TIFF OMITTED] T7765.377

[GRAPHIC] [TIFF OMITTED] T7765.378

[GRAPHIC] [TIFF OMITTED] T7765.379

[GRAPHIC] [TIFF OMITTED] T7765.380

[GRAPHIC] [TIFF OMITTED] T7765.381


</pre></body></html>
